<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-394]
[From the U.S. Government Printing Office]


                                                 S. Hrg. 110-394, Pt. 7
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009 

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3001

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2009 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 7

                            STRATEGIC FORCES

                               ----------                              

                       MARCH 4, 12; APRIL 1, 2008


         Printed for the use of the Committee on Armed Services










DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                     2009--Part 7  STRATEGIC FORCES















                                                  S. Hrg. 110-394 Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3001

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2009 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 7

                            STRATEGIC FORCES

                               __________

                       MARCH 4, 12; APRIL 1, 2008


         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

42-635 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  



















                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                     BILL NELSON, Florida, Chairman

ROBERT C. BYRD, West Virginia        JEFF SESSIONS, Alabama
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota

                                  (ii)























                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                        Military Space Programs
                             march 4, 2008

                                                                   Page
Payton, Gary E., Deputy Under Secretary of the Air Force for 
  Space Programs.................................................     3
Kehler, Gen. C. Robert, USAF, Commander, Air Force Space Command.     7
Shelton, Lt. Gen. William L., USAF, Commander, Joint Functional 
  Component Command for Space, United States Strategic Command...    16
Deutsch, RADM Kenneth W., USN, Director, Warfare Integration, 
  Office of the Chief of Naval Operations........................    18
Chaplain, Cristina T., Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................    21

                       Strategic Forces Programs
                             march 12, 2008
                   Ballistic Missile Defense Programs
                             april 1, 2008

Young, Hon. John J., Jr., Under Secretary of Defense, 
  Acquisition, Technology, and Logistics, Department of Defense..   141
Obering, Lt. Gen. Henry A., III, USAF, Director, Missile Defense 
  Agency.........................................................   143
Campbell, LTG Kevin T., USA, Commanding General, United States 
  Army Space and Missile Defense Command.........................   155
McQueary, Dr. Charles E., Director, Operational Test and 
  Evaluation, Department of Defense..............................   161
Francis, Paul L., Director, Acquisition and Sourcing Management, 
  Government Accountability Office...............................   163

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                         TUESDAY, MARCH 4, 2008

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                        MILITARY SPACE PROGRAMS

    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Bill 
Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Bill Nelson, E. 
Benjamin Nelson, Sessions, and Thune.
    Majority staff member present: Madelyn R. Creedon, counsel.
    Minority staff member present: Robert M. Soofer, 
professional staff member.
    Staff assistants present: Kevin A. Cronin and Brian F. 
Sebold.
    Committee members' assistants present: Christopher Caple, 
assistant to Senator Bill Nelson; Todd Stiefler, assistant to 
Senator Sessions; and Jason Van Beek, assistant to Senator 
Thune.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    Senator Bill Nelson. Good afternoon. The hearing will come 
to order. After this open session, we will adjourn to S-407 of 
the Capitol, where we will continue this on the classified 
level.
    I'm going to forgo a statement and put it in the record.
    [The prepared statement of Senator Nelson follows:]
               Prepared Statement by Senator Bill Nelson
    Welcome to all of our witnesses this afternoon for the Strategic 
Subcommittee's hearing on military space programs. General Kehler, it 
is a pleasure to welcome you to the committee in your capacity as the 
new Commander of the Air Force Space Command.
    This afternoon we have, as I have mentioned, General Kehler, 
Commander Air Force Space Command; Lieutenant General Shelton, in his 
capacity as the Strategic Command Joint Functional Component Commander 
for Space; Rear Admiral Deutsch, Director, Warfare Integration 
Division, Office of the Chief of Naval Operations; Gary Peyton, the 
Deputy Under Secretary of the Air Force for Space Programs; and Ms. 
Cristina Chaplain, from the Government Accountability Office. Many 
years of space experience are represented on this panel and we look 
forward to a good discussion.
    With the launch of the first Wideband Global Satellite last 
October, the first launch of the GPS-2F satellite scheduled for early 
next year, and the news that the first Space-based Infrared System HEO 
sensor is performing remarkably, the recapitalization of space systems 
is clearly underway. The extensive space recapitalization efforts come 
with many challenges, however, including the new problems with the 
Spaced-based Infrared System GEO satellite, the delay in the T-Sat 
program, and concerns about the scope of the GPS III program. In 
addition, we continue to be concerned about improving space situational 
awareness and making sure that space protection efforts are fully 
coordinated.
    Last year, the National Defense Authorization Act contained a 
provision directing development of a joint space protection strategy, 
with the hope that this would be a first step toward ensuring that 
space protection is fully coordinated. Hopefully there is good progress 
on this strategy.
    There is good news as well, the EELV program continues its string 
of successful launches with a significant number of launches scheduled 
in 2008 and 2009. Progress is also being made in the area of 
operationally responsive space and the standup in May of last year of 
the new ORS Joint Program Office.
    We have a large number of witnesses this afternoon and you all have 
submitted prepared statements, which, without objection will be 
included for the record.
    At the conclusion of the hearing, at about 4 p.m., we will move to 
room S-407 of the Capitol and receive some classified briefings at the 
SCI level. All members and appropriately cleared staff are invited.
    As I mentioned, each witness has provided substantial statements 
that have been included in the record, so now I would like to hear, 
briefly, from each of you about your most important issue or the one 
about which you worry the most, and take the opportunity to discuss 
those issues in a conversational style. We have found that these 
sessions are much more useful approached as a conversation.
    With that Mr. Peyton, will you begin, and then we will go to 
General Kehler, Lieutenant General Shelton, Admiral Deutsch, and Ms. 
Chaplain.

    Senator Bill Nelson. When Senator Sessions gets here, we'll 
do whatever he wants. I am going to put into the record each of 
your opening statements, and we are not going to take the time 
for you to sit here and read to me your statement, it's in the 
record, we'll move directly to questions.
    [The prepared statement of Senator Sessions follows:]
              Prepared Statement by Senator Jeff Sessions
    Mr. Chairman, I join with you in welcoming today's Air Force, Navy, 
Strategic Command, and the Government Accountability Office (GAO) 
witnesses as we examine the state of U.S. military space programs, 
particularly with respect to the fiscal year 2009 budget request.
    The past year has been a good one for our military space 
professionals. They should take great pride in providing daily space 
support to our forces operating abroad, and for continuing to provide 
the backbone for our Nation's strategic nuclear deterrent.
    Air Force Space Command continues to add to its record of 
successful national security payload launches, with a total of 56 
consecutive launches, including five successful launches of the Evolved 
Expendable Launch vehicle last year.
    Air Force space acquisition programs, though heavily criticized in 
the past, appear to be moving in the right direction. Our GAO witness 
notes that recent actions taken by the Air Force and the Department of 
Defense (DOD) to address acquisition problems ``are a good first 
step.'' That the back-to-basics policy and Operationally Responsive 
Space represent significant shifts in thinking about how space systems 
should be developed.
    The fiscal year 2009 budget request for space programs--almost $9 
billion--represents approximately 7 percent of the $117 billion Air 
Force budget, and 21 percent of the Air Force Modernization and 
Recapitalization budget request of $41 billion.
    Despite these significant sums, the Air Force and the DOD still 
felt it necessary to reduce funding for critical military satellite 
communications programs over the Future Years Defense Program, and 
provided only a modest increase in funding for space protection 
programs.
    The subcommittee will want to better understand how the Air Force 
and the Department rationalize these choices.
    I thank the witnesses for their service to the country and look 
forward to hearing their testimony.

STATEMENT OF GARY E. PAYTON, DEPUTY UNDER SECRETARY OF THE AIR 
                    FORCE FOR SPACE PROGRAMS

    [The prepared statement of Mr. Payton follows:]
                  Prepared Statement by Gary E. Payton
                              introduction
    It is an honor to appear before this Committee as the Deputy Under 
Secretary of the Air Force for Space Programs, to discuss with you our 
National Security Space activities. I support the Secretary of the Air 
Force with his responsibilities as the Service Acquisition Executive 
for Space Programs and the Department of Defense (DOD) Executive Agent 
for Space, where his role is to ``develop, coordinate, and integrate 
plans and programs for space systems and the acquisition of DOD space 
Major Defense Acquisition Programs to provide operational space force 
capabilities to ensure the United States has the space power to achieve 
its national security objectives.''
    The U.S. relies upon space capabilities not only to meet the needs 
of joint military operations worldwide, but to underpin our Nation's 
diplomatic, informational, and economic strengths as well. Because of 
this, it is important to ensure that our National Security Space (NSS) 
systems and our space professionals are integrated across our peacetime 
and wartime operations--providing robust and responsive space 
capabilities around the globe--particularly in Iraq and Afghanistan.
    Americans also rely on the access and use of space capabilities in 
many areas of everyday life. Whether using satellites for navigation, 
communications, or the forecasting of severe weather, America 
increasingly depends on its space systems. To ensure the availability 
of these systems, the NSS community continues to program, and provide, 
for continuity in key mission areas, while simultaneously working to 
modernize and recapitalize our aging satellite constellations and 
supporting infrastructure.
    At the same time, the global rate of change for technology and the 
number of nations directly engaged in space continues to increase. As a 
result, the ability of an adversary to contest our space capabilities 
is growing. In such an environment, we must improve our space 
situational awareness (SSA)--enabling a better understanding of objects 
and their activities in space.
    We must ensure mission continuity in several key space 
capabilities, such as: Strategic Communications; Missile Warning; 
Launch; and Positioning, Navigation, and Timing (i.e., the Global 
Positioning System (GPS)), while pursuing increased Space Protection. 
Over approximately a 2-year period, beginning with the Wideband Global 
SATCOM (WGS) launch in October 2007, we will deliver five ``first of'' 
satellites. These include: WGS; Advanced Extremely High Frequency 
(AEHF); Space Based Space Surveillance (SBSS); GPS IIF; and Space Based 
Infrared System (SBIRS) geosynchronous earth orbit (GEO) satellites.
    Always seeking ways to improve, we look forward to the 
recommendations of the congressionally-directed Independent Review and 
Assessment of DOD Organization and Management for National Security in 
Space. In the interim, I offer that the Secretary of the Air Force 
should remain the DOD Executive Agent for Space, and that this position 
has been critical in aligning space efforts across the DOD and other 
government agencies.
                  back to basics in space acquisition
    We continue to institutionalize our ``back-to-basics'' acquisition 
philosophy, which emphasizes increased discipline in the development 
and stabilization of requirements, resources, engineering practices, 
and management. It also promotes a more deliberate acquisition planning 
strategy, firmly focused on mission success and delivering on our 
commitments.
    Our acquisition philosophy can be viewed as a continuous process 
with five distinct but interdependent stages. The first stage is 
science and technology (S&T), where we conduct basic research and 
explore the possibilities of new technologies. In the second stage, 
technology development, we mature technologies into proven components 
and subsystems exploiting discoveries made in the S&T stage. The third 
stage is systems development. Here, we take the most promising 
technologies and mature them to higher technical and manufacturing 
readiness levels as part of integrated systems which can be produced in 
operational platforms in the fourth stage, system production. Thus, 
technology is matured through the first three stages. We are 
emphasizing early technology development to ensure mature component 
technology is available for our production systems. Entering the system 
production phase with mature technology reduces cost, schedule, and 
performance risk. This allows confidence in predicting which new 
capabilities can be delivered when. The fifth stage is Sustainment, 
where the goal is increasing systems availability while reducing 
Operations and Support costs. Integration of acquisition and 
sustainment early in life-cycle development is key to achieving these 
goals.
    A block approach acquisition strategy delivers systems through 
discrete, value-added increments which reduces production risk, 
delivers incremental capabilities to the warfighter sooner, and 
maintains continuity of service. This concept is consistent with 
current policy specifying ``evolutionary acquisition as the preferred 
strategy'' for DOD acquisitions. Specific capability increments are 
based on a balance of warfighter needs, delivery timeline, technology 
maturity, and budget. Well-defined increments help reduce many of the 
potential instabilities in requirements, budget, and workforce. An 
overarching goal is increased confidence, both in terms of cost and 
schedule, for our space acquisition programs. Therefore, I ask for your 
continued support, not only for the current generation of satellites 
and supporting technologies, but for the next generation technology 
development and the generation after next S&T, to ensure that we are 
able to continue this block approach strategy.
                            update on space
    Today, I would like to briefly discuss some of the achievements we 
have had over the last year and some of our NSS initiatives.
Launch
    Over the past year, we launched the last Defense Support Program 
satellite, our first Wideband Global SATCOM satellite, two additional 
GPS IIR-M satellites and extended our string of consecutive, successful 
NSS launches.
    The December 10, 2007 launch of a National Reconnaissance Office 
(NRO) satellite marked the 56th consecutive, successful launch of a NSS 
Medium or Heavy payload--extending an incredible record. This 
unprecedented string of launch successes, which started in 1999, is a 
testament to the knowledge, skill, and commitment of our space 
professionals--particularly in the areas of Mission Assurance and 
attention to detail.
Missile Warning
    Our Nation continues to rely on space-based missile warning--and 
for over 35 years, our legacy space-based sensors, in conjunction with 
ground-based radars, have done an excellent job of meeting the Nation's 
missile warning needs. On November 11, 2007, the 23rd, and final, 
Defense Support Program satellite (DSP-23) was successfully launched. 
This legacy constellation, however, continues to age, while threats 
such as the proliferation of theater ballistic missiles and advanced 
technologies continue to grow. These threats are driving the need for 
the increased coverage and resolution that will come with the SBIRS.
    SBIRS supports four mission areas: missile warning, missile 
defense, technical intelligence, and battlespace awareness, and will be 
comprised of both GEO satellites and highly elliptical orbit (HEO) 
payloads. The first HEO payload was launched in 2006, and its on-orbit 
performance is exceeding expectations. Launches of the first SBIRS GEO 
satellite and the second HEO payload are both scheduled in fiscal year 
2009.
    Our funding request supports the procurement of three GEO 
spacecraft, two additional HEO payloads, plus the necessary ground 
elements. We continue to work with our industry partners to resolve 
challenges on the SBIRS GEO-1 spacecraft, specifically with respect to 
the Flight Software Subsystem, to ensure the successful launch of this 
critical capability. Our budget request also funds the Third Generation 
Infrared System program to develop wide field-of-view technologies. 
This is the technology development necessary reduce cost, schedule, and 
performance risks for the next generation of missile warning 
satellites.
Communications
    Satellite Communications (SATCOM) is another critical space 
capability for which we must ensure mission continuity. The U.S. 
military is a highly mobile and dispersed force that relies heavily on 
wideband, protected, and narrowband SATCOM for command, control, and 
coordination of forces. SATCOM also enables forces to receive real-time 
images and video of battlefield and targets, thereby accelerating 
decision-making from the strategic to the tactical levels. These images 
and video often come from Unmanned Aerial Vehicles (UAVs) controlled 
via SATCOM links, allowing the UAVs to fly far beyond the line of sight 
and to collect information without endangering U.S. forces.
    On October 11, 2007 we successfully launched the first WGS 
satellite as part of the Department's constellation of wideband 
satellites, significantly increasing the on-orbit capacity--a single 
WGS satellite has greater capacity than the entire legacy Defense 
Satellite Communications System (DSCS) III constellation. This success 
represents the first step in the Department's transition from its aging 
DSCS satellites to an increased capability for the effective command 
and control of U.S. forces around the globe. The Department also signed 
a Memorandum of Understanding with the Department of Defence of 
Australia on November 14, 2007, forming a partnership for the 
production, operation, and support of the WGS constellation. Our 
funding request supports the launch and on-orbit check out for two WGS 
satellites in fiscal year 2009.
    In the protected SATCOM portfolio, this year we are scheduled to 
launch the first AEHF system--the follow-on to the Department's current 
Milstar satellites. This initial AEHF launch will complete the 
worldwide Medium Data Rate (MDR) ring, increasing the data-rate for 
these low probability of intercept/detection and anti-jam 
communications from tens-of-kilobytes per second to approximately a 
megabyte per second. Our funding request supports the procurement of 
four AEHF satellites.
    The next generation of SATCOM satellites, the Transformational 
Satellite (TSAT) Communications System, will support both wideband and 
protected requirements. We are continuing with TSAT technology 
development and risk reduction efforts, and this past year we completed 
the Systems Design Review (SDR). In 2007, an independent Technology 
Readiness Assessment determined the program is prepared to enter the 
next phase of development. With the addition of the fourth AEHF 
satellite, the Department is currently conducting a MILSATCOM 
investment review to ensure the program's overall affordability and 
synchronization with user platforms.
Positioning, Navigation, and Timing
    The U.S. GPS continues to be the world standard for positioning, 
navigation, and timing (PNT). As a result, GPS has been incorporated 
into military, commercial, and civilian applications, to include 
navigation, agriculture, banking, cartography, telecommunications, and 
transportation. Last year the GPS Program Office seamlessly implemented 
the Architecture Evolution Plan upgrade to the existing GPS Operational 
Control System. This upgrade increased sustainability and provided the 
ability to control the new GPS IIF satellites. Perhaps most notably, 
these upgrades were implemented with no impact to day-to-day operations 
and did not require any modifications to existing user equipment.
    Later this year, there are three GPS IIR-M launches scheduled and 
we will begin to launch the next generation, GPS IIF, satellites in 
fiscal year 2009. These satellites, along with their ground control 
system and associated user equipment, continue to ensure constellation 
sustainment, increase the number of on-orbit M-code capable satellites, 
and introduce the ``L5'' civil signal. At the same time, the Air Force 
is developing the next generation of PNT satellites through the GPS III 
program.
    GPS III will offer significant improvements in navigation 
capabilities by improving interoperability and jam resistance. The 
procurement of the GPS III system is planned for multiple blocks, with 
the GPS IIIA portion currently underway. GPS IIIA includes all of the 
GPS IIF capability plus up to a 10-fold increase in signal power, a new 
civil signal compatible with the European Union's Galileo system, and a 
new spacecraft bus that will allow a growth path to future blocks. As 
for the development of the ground infrastructure, we recently awarded 
two contracts for the System Definition and Risk Reduction phase for 
the associated ground segment, OCX. These two OCX contracts will each 
deliver prototypes and lead to a competitive selection of a single 
contractor in late fiscal year 2009.
Space Situational Awareness
    Mission continuity is critical for persistent space based PNT, 
intelligence, surveillance and reconnaissance, strategic 
communications, and global environmental monitoring. As nations, and 
non-nation state actors, demonstrate both the capability and will to 
disrupt our space operations, we risk losing that continuity. Anti-jam 
SATCOM technologies, higher power GPS M-Code navigation signals, 
radiation hardened technology, on-orbit reconstitution, and dispersed 
ground segments are all part of our improved space survivability. We 
must also account for the possibility that new capabilities to deny, 
damage, or destroy our on-orbit assets will be arrayed against us. We 
are expanding our SSA to provide the ability to fully characterize and 
understand these new threats as they mature, as well as clearly 
discriminate between a hostile act and a naturally occurring event. In 
parallel, we are developing the organizational, operational, and 
technical enablers that will allow us to react swiftly and decisively 
when these threats materialize.
    New systems that will contribute to SSA include the Rapid Attack 
Identification Detection and Reporting System (RAIDRS) program, the 
Space Fence, SBSS, and the Integrated Space Situational Awareness 
(ISSA) program.
    RAIDRS develops ground based systems that rapidly detect, locate, 
characterize, identify, and report interference with DOD-owned and DOD-
used space assets, and it is being developed via a block approach. In 
the next year, Block 10 will provide initial capabilities that detect 
and geo-locate SATCOM interference via fixed and mobile ground systems. 
Future development of the Block 20 system will provide automated data 
access/analysis, data fusion, and detection support capabilities.
    The Space Fence is planned to replace the aging Air Force Space 
Surveillance System with a higher radio frequency system to detect and 
track smaller sized space objects, and provide worldwide coverage for 
the first time. It expands the terrestrial based detection and tracking 
capability, supporting SSA while working in concert with other 
networked sensors.
    The SBSS program is planned to deliver optical sensing satellites 
to search, detect, and track objects in earth orbit--particularly those 
in geosynchronous orbit--building upon the success of the Space-Based 
Visible (SBV) technology demonstration. Surveillance from space will 
augment our ground sensors, and the initial SBSS Block 10 will replace 
the aging SBV sensor in 2009.
    To combine all of the various inputs and provide a single picture 
for decisionmakers, we are also pursuing the ISSA program. When 
delivered, ISSA will have the capability to acquire, process, 
integrate, and fuse SSA data to create the awareness we need, with an 
ability to attribute actions. Currently, our operators and warfighters 
must assemble an understanding of the global space picture from many 
disparate sources, including telephone calls, classified chat rooms, 
intelligence web sites, and imagery feeds. We have acknowledged this 
shortcoming and have initiated programs to bring data together, filter 
it for relevance, and aid the commander in making a timely decision 
that could attribute an attack or malfunction, preserve health of a 
constellation, or re-task sensors to track a new launch. The 
cornerstone program for this is the ISSA program, which will interact 
with the space command and control (C2) system to provide automated 
decision tools supporting decisionmaking on a timescale appropriate for 
today's and tomorrow's challenges in space. The space operating 
environment is becoming increasingly complex; we need to equip our 
Nation's space operators with the tools necessary to characterize space 
activities and accurately attribute actions.
Operationally Responsive Space
    Another key initiative is Operationally Responsive Space (ORS), and 
I thank you for your continuing support for this program. On May 21, 
2007, the Operationally Responsive Space Office was stood up at 
Kirtland AFB, NM, to develop, acquire, and deploy a tiered capability 
consisting of responsive spacecraft, launch vehicles, and ground 
equipment. The ORS Office is a jointly manned entity that reports to 
the DOD Executive Agent for Space, and will have representation from 
the defense, intelligence, civil, and international communities--to 
include Air Force, Army, Navy, and Marines, personnel from NASA, NSA, 
NRO, and Sandia National Laboratory--and we are pursuing allied partner 
representatives. Many other organizations, while not providing direct 
staff in the office, are planning to establish liaison relationships 
with the ORS Office to ensure synergy and close coordination.
    Through a series of tactical satellite (TACSAT) operational 
experiments, we are exploring affordable and responsive launch, 
checkout, and theater integration of space systems to better support 
the needs of the combatant commanders. TACSAT experiments will test 
concepts such as common interfaces, subsystems, new payloads, and new 
concepts of operations. The 2009 request for the ORS program element 
funds the TACSAT-4 launch and development of TACSAT-5, a plug and play 
spacecraft bus. Additionally, responding to urgent warfighter 
requirements, vetted by U.S. Strategic Command, the ORS office is 
initiating communications and SSA programs in 2008 and 2009.
                               workforce
    Our DOD space professional workforce includes our military Active, 
Reserve, and Guard components, and our civil service personnel. We are 
currently coordinating a new DOD Directive that will clearly outline 
responsibilities within the Office of the Secretary of Defense and the 
Services for the education, training, and management of these critical 
space professionals.
    Looking beyond the DOD, a healthy space industrial base is one of 
our top priorities. The Space Industrial Base Council (SIBC) which is 
co-chaired by Secretary Wynne, as the DOD Executive Agent for Space, 
with the Director of the NRO, Scott Large, brings together stakeholders 
from across government and industry to coordinate actions on critical 
space industrial base issues. The SIBC has taken a quantitative look at 
the health of U.S. companies and how they are balancing competitiveness 
and security concerns. We are all committed to protecting sensitive 
space technology while allowing our companies to compete 
internationally. We will continue to strengthen our understanding of 
the U.S. space industrial base to ensure that it remains viable in the 
future--we cannot afford to lose this national capability.
    I would also like to thank the committee for its support of the 
National Defense Education Program (NDEP), which supports scholarships 
in Math, Science, Engineering, and Foreign Language, with a focus on 
critical skills for clearable people. The NDEP began in fiscal year 
2006 with $10 million, and is funded at $44 million in fiscal year 
2008. The Department is requesting $69 million for this program in 
fiscal year 2009, and I solicit your continued support to ensure we can 
continue to attract and retain these professionals.
                               conclusion
    We must ensure continuity of service for critical missions such as 
Missile Warning, Strategic Communications, Launch, and Positioning, 
Navigation and Timing; while improving our SSA. Our strategy over the 
recent years is showing promising results, as we continue toward 
securing the world's best space capabilities today and ensuring the 
same for our Nation's future generations.
    Our Nation prefers to deter or dissuade potential adversaries, and 
space systems are critical to this strategy. When deterrence and 
dissuasion are not adequate, we too often must employ our military--and 
our space systems are even more critical then. Fortunately, our systems 
are the envy of the world. Our infrared surveillance satellites are 
able to detect missile launches anywhere in the world. Our strategic 
communications systems allow the President precise and assured control 
over our nuclear forces in any stage of conflict, and our wideband 
SATCOM systems rapidly transmit critical information between the 
continental U.S. to our front line forces. Our weather satellites allow 
us to accurately predict future conditions half a world away as well as 
in space, while our GPS constellation enables position knowledge down 
to centimeters and timing down to nanoseconds. These sophisticated 
systems make each deployed soldier, sailor, marine, and airman safer, 
and more capable.
    The space constellations that deliver these capabilities are a 
critical asymmetric advantage. We must ensure the recapitalization and 
health of these constellations. While these systems are expensive, not 
having these space capabilities could be even more expensive, both in 
terms of lives lost and our national defense.
    I look forward to continuing to work with this committee and thank 
you for your continued support of NSS.

STATEMENT OF GEN. C. ROBERT KEHLER, USAF, COMMANDER, AIR FORCE 
                         SPACE COMMAND

    [The prepared statement of General Kehler follows:]
           Prepared Statement by Gen. C. Robert Kehler, USAF
                              introduction
    Mr. Chairman, Senator Sessions, and distinguished members of the 
subcommittee, it is an honor to appear before you today as an Airman 
and, for the first time, as the Commander of Air Force Space Command 
(AFSPC).
    I am proud and humble to lead and represent over 39,000 Active 
Duty, Guard, and Reserve airmen; government civilians; and contractors 
who deliver space and missile capabilities to America and its 
warfighting commands 24 hours a day, 7 days a week, 365 days a year. We 
do this as an integral part of the United States Air Force (USAF)--an 
Air Force which operates in and through air, space, and cyberspace in 
order to deliver Global Vigilance, Global Reach, and Global Power for 
America. Assuring the Nation's access to space, protecting our freedom 
to operate in space, and providing joint warfighting capabilities from 
space are core Air Force missions.
    The men and women of AFSPC serve around the globe. From AFSPC 
Headquarters, Fourteenth Air Force (14 AF), Twentieth Air Force (20 
AF), Space and Missile Systems Center (SMC), Space Innovation and 
Development Center (SIDC), and a host of deployed and forward 
locations, our space professionals are organizing, training, equipping, 
and providing the space capabilities needed to fight and win the global 
war on terror. Today, I can report confidently that the space and 
missile capabilities acquired with your help and support and delivered 
by the airmen of AFSPC to the Commander, United States Strategic 
Command (STRATCOM) are helping to maintain America's freedom, security 
and prosperity.
    Last month, I visited a number of units and commanders in the 
United States Central Command (CENTCOM) area of responsibility (AOR). 
At one stop I received a mission briefing from a B-1B Lancer bomber 
pilot. He reflected that while preparing for the briefing, he came to 
realize that space capabilities were embedded throughout the planning, 
execution and debriefing phases of his mission. His bomber crew planned 
their missions using intelligence, surveillance, and reconnaissance 
(ISR) terrain mapping and weather data from space systems; the aircraft 
carried Global Positioning System (GPS)-aided Joint Direct Attack 
Munitions (JDAMs); when they were flying, real-time updates from a 
variety of space-based and other sources flowed to them over satellite 
communications (SATCOM) data links; the tanker and bomber crews 
coordinated air-refueling operations using GPS; and strike assessment 
was conducted. This pilot also knew that a combination of space, air, 
and terrestrial assets would immediately come to his assistance if his 
crew came down in hostile territory. In effect, space assets would take 
the search out of search and rescue. In the AOR, I saw first-hand how 
space plays a crucial role in virtually every mission and every 
operation. Every commander I visited confirmed this assessment.
    Space power gives America's joint forces a decisive advantage and 
has shaped the ``American way of warfare.'' Today, America's joint 
forces are interconnected, have global cognizance, and can produce 
swift and precise effects providing overwhelming and decisive results 
with minimum collateral damage. Our friends and adversaries alike have 
noted this decisive advantage. As a result, having witnessed or learned 
the cost of challenging the United States head-on, would-be adversaries 
are actively pursuing asymmetric strategies to challenge our advantages 
in air, space and cyberspace. The evidence is clear and convincing.
    During Operation Iraqi Freedom, we experienced GPS jamming and 
since then we have witnessed a worldwide proliferation of technology 
that can be used against our space systems. Our space capabilities face 
a wide range of threats including radio frequency jamming, laser 
blinding and anti-satellite systems. The emergence of these threats 
requires a broad range of capabilities, from diplomatic to military, to 
protect our interest in space.
    Our National Space Policy acknowledges that space is vital to our 
national security. We are not alone in our use of space. Today, 28 
foreign militaries operate in space.
    We can no longer take freedom of action in any of our warfighting 
domains for granted. From this point forward, we should expect to be 
challenged not only in the air, but in and through space and cyberspace 
as well. We clearly recognize that no future conflict will be won 
without the ability to achieve air, space, and cyberspace superiority 
when and where required and we face significant challenges as we look 
to the future. Therefore, it is crucial that we develop and resource a 
strategy that protects our space advantages and ensures we remain a 
world leader in space.
    It is my distinct pleasure to define the strategic way forward for 
AFSPC and to describe for you our plan to conceive, acquire, employ and 
execute Air Force space and missile capabilities in an increasingly 
complex, dynamic and challenging global environment. I will present our 
mission and vision, affirm the guiding principles that characterize our 
approach, highlight some of our recent successes and describe how the 
fiscal year 2009 budget request supports our strategic way ahead.
    As always, AFSPC undertakes our important mission with three USAF 
priorities in mind--win today's fight, take care of our people and 
prepare for tomorrow's challenges. We look forward to working with your 
committee and Congress to achieve our goals.
Mission
    Deliver space and missile capabilities to America and its 
warfighting commands

    Our mission is clear. For over 50 years, the Air Force has led the 
Nation's military space efforts and AFSPC continues that heritage as we 
deliver space power to STRATCOM, Joint Force Commanders around the 
globe, the Services, the Intelligence Community (IC), civil agencies, 
commercial entities and Allies.
Vision
    America's space leaders . . . delivering responsive, assured, 
decisive space power

    The USAF provides air, space and cyberspace power as part of a 
joint warfighting team. As we look to the future, the military space 
power element must become more responsive to the warfighter, it must 
remain assured under stressing conditions, it must contribute 
decisively as an integral piece of the larger whole, and it must be 
developed and wielded by space professionals who are recognized leaders 
in both the space domain and in joint warfighting operations.
Guiding Principles
    The following principles shape our approach and underpin our 
mission and vision.

        <bullet> The USAF space mission serves joint forces, our 
        Nation, and the world at large. The Nation has entrusted the 
        Air Force and AFSPC with advocating, acquiring, and operating 
        capabilities that are vital to our national security, economic 
        growth, public safety, and welfare. The men and women of AFSPC 
        help defend our homeland and our global interests abroad with 
        space and ground-based missile early warning systems; connect 
        national leaders and the military with secure global satellite 
        communications; assure access to space for military, 
        intelligence, civil and commercial purposes with medium and 
        heavy space lift and range capabilities; keep watch over the 
        space domain by tracking thousands of space objects; provide 
        planners and commanders with critical environmental 
        information; and deliver persistent position, navigation and 
        timing signals to worldwide users from GPS, which provides 
        multiple military benefits as well as a free, international 
        utility. Many of these space systems are also called upon for 
        help in disaster relief and search and rescue operations, at 
        home and abroad. Additionally, our Nation places trust and 
        confidence in AFSPC to secure, maintain, operate and support 
        America's land based strategic deterrent, the Intercontinental 
        Ballistic Missile (ICBM) force.
        <bullet> Nuclear forces underwrite our Nation's security. 
        Nuclear deterrence remains the ultimate backstop of our 
        security by dissuading our opponents and assuring our Allies 
        through extended deterrence. Our Nation's security relies 
        heavily on the responsive and stabilizing attributes of AFSPC's 
        ICBM force.
        <bullet> Space is one of three interdependent USAF warfighting 
        domains. Air Force operations extend across the mutually-
        supporting and reciprocally-enabling domains of air, space and 
        cyberspace. Thus, airmen who are experts in the space domain 
        play a key role in integrating capabilities to create a 
        decisive joint military advantage. Cross-domain integration is 
        the key.
        <bullet> Space and ICBM forces are global in their effect. 
        AFSPC delivers capabilities that transcend national and 
        military boundaries and are intrinsically and simultaneously 
        tactical and strategic, local and global. As a result, the men 
        and women of AFSPC have a global perspective that influences 
        the command and control of our forces and the way we provide 
        and present them to STRATCOM. At the same time, we recognize 
        the unique space requirements of U.S. Geographic Combatant 
        Commanders around the world, and know that we must provide 
        Joint Force Commanders with the space capabilities they need to 
        see, know, and decisively act.
        <bullet> Like air power, space power shapes the U.S. approach 
        to warfare. Our increasingly net-centric Joint expeditionary 
        force operates with smaller forward footprints and a greater 
        dependence on reachback organizations. Space capabilities are 
        inextricably embedded in an ever-more effective arsenal of 
        modern weaponry and are threaded throughout the fabric of the 
        Joint warfighting network. Without space, military operations 
        would be far less precise, focused, timely, coordinated or 
        efficient and much more costly in every respect.
        <bullet> Space is a challenging, demanding, and contested 
        domain. Space acquirers, developers, and operators must be 
        technically astute and tactically competent to ensure mission 
        success in the space domain. While necessary, technical 
        competence alone is not sufficient to meet 21st century 
        challenges. Today, AFSPC people must be adequately prepared to 
        operate space assets and assure space capabilities in an 
        increasingly contested environment.
        <bullet> Airmen are the core of America's space team. The 
        airmen and civilian space professionals of AFSPC serve a 
        national mission and our skills and expertise are national 
        assets. Since the beginning of the space age, airmen have 
        contributed significantly to the national space enterprise. 
        While airmen are serving the military space mission today in 
        AFSPC, many other airmen are working elsewhere in the 
        government within national security and civil space 
        organizations. Commercial space companies and the space 
        industry also abound with space professionals who gained 
        training and experience while serving our Air Force.

    While these principles shape our views, our sights are set directly 
on supporting the Air Force commitment to provide forces across the 
range of military operations to protect U.S. interests and values; to 
assure Allies; to dissuade and deter potential adversaries; and if 
deterrence fails, to defeat those who choose to become our enemies. In 
answering this call, with congressional support, the space 
professionals of AFSPC last year delivered space and missile 
capabilities with great success.
                          a year of successes
    AFSPC activities in 2007 supported the Expeditionary Air Force, 
delivered and demonstrated space and missile capabilities, improved 
relationships across the space enterprise, and cared for our airmen and 
their families. We are also optimistic that we have made progress 
toward solving our systemic acquisition problems with our back-to-
basics approach. Here are several of our key accomplishments.

        <bullet> We forward-deployed nearly 4,000 airmen--further 
        developing a strong bond between AFSPC and the airmen, 
        soldiers, sailors, and marines who rely on our capabilities.
        <bullet> The end of 2007 marked 5 consecutive years without 
        premature failure of any AFSPC on-orbit system--many of our 
        satellites are lasting years beyond their original predicted 
        life spans and are exceeding expectations every day.
        <bullet> AFSPC added to our all-time record which now stands at 
        56 successful national security payload launches in a row--we 
        continued a string of excellence with 19 out of 19 successful 
        operational launches using the Atlas V and Delta IV Evolved 
        Expendable Launch Vehicles (EELVs).
        <bullet> In November, AFSPC conducted the first operational 
        launch of a Delta IV Heavy EELV which carried the last Defense 
        Support Program (DSP) satellite into orbit.
        <bullet> Without interruption of services, AFSPC completed the 
        transition of the GPS ground control segment to the new 
        Architecture Evolution Plan (AEP) system--replacing a 20-year-
        old command and control (C2) architecture with one that enables 
        responsive Position, Navigation and Timing (PNT) services.
        <bullet> Last year, AFSPC launched Glory Trip-193 to certify 
        the use of the Mk 21 Safety Enhanced Reentry Vehicle (SERV) on 
        the Minuteman III (MM III) ICBM. Additionally, this test 
        demonstrated the capability of our ICBM force.
        <bullet> AFSPC and the National Reconnaissance Office (NRO) 
        further solidified our operational relationship.
        <bullet> In addition, AFSPC sustained and expanded use of the 
        Total Force. Last year, at Minot Air Force Base, ND, we stood-
        up the first-ever Air National Guard unit to support 
        intercontinental ballistic missile field security forces. At 
        Schriever Air Force Base, the AFSPC Reserve Forces are growing 
        with the transition of the 310th Space Group to wing status.
        <bullet> We privatized nearly 2,500 military family housing 
        residences at Peterson, Schriever, Los Angeles and Vandenberg 
        Air Force Bases. Additionally, 351 AFSPC families moved into 
        newly-privatized units at Buckley Air Force Base.
        <bullet> Finally, AFSPC experienced one of the safest years in 
        its 25-year history--we lost no airmen in off-duty accidents. 
        Moreover, AFSPC has had zero major weapons mishaps in over 4 
        years, zero major flight mishaps in 8 years and zero major 
        space mishaps in over 2 years.

    As proud as we are of our success, AFSPC's strategic way forward is 
to focus on delivering the space and missile capabilities needed today 
and tomorrow by balancing recapitalization and modernization 
investments, implementing organizational and cultural changes and 
maturing our space professionals.
                             the way ahead
    To defend America and provide needed capabilities to the joint 
team, AFSPC solidified over the last year a deliberate approach to 
confront the challenges of a dynamic strategic environment. The fiscal 
year 2009 budget request carefully balances a number of critical 
priorities.

    Maintain perfection as the standard for nuclear operations, 
maintenance, security, and support.

    In AFSPC, we are absolutely committed to providing a credible, safe 
and secure strategic deterrent. At any given moment, about 1,200 of the 
nearly 10,000 airmen in 20 AF are on duty in the Nation's MM III ICBM 
missile fields in Montana, North Dakota, Wyoming, Nebraska, and 
Colorado. These young professionals understand the awesome 
responsibilities entrusted to them and will never take those 
responsibilities or the Nation's trust and confidence for granted. This 
year we will continue to sustain the Minuteman ICBM system as we 
selectively improve security measures and implement any necessary 
recommendations resulting from various nuclear reviews.

        <bullet> Standards. We have defined perfection for ourselves 
        through tough standards--which have been tested and proven for 
        five decades. We follow these standards to the letter and focus 
        on structured, intensive training for our maintenance, 
        security, and operations personnel.
        <bullet> Minuteman Life Extension. The fiscal year 2009 budget 
        request continues the congressionally-approved $6.7 billion 
        life extension programs that will sustain the MM III to 2020 as 
        we work to identify further investments that may be required to 
        sustain the MM III force to 2030. In January 2008, we completed 
        deployment of the Guidance Replacement Program (GRP) which 
        replaced some of the 1960s generation electronics in the 
        guidance system. Currently the Propulsion Replacement Program 
        (PRP), which replaces aging motors and propellant as well as 
        environmentally unsafe materials and components, is 82 percent 
        complete. The remaining MM III modification programs (the SERV 
        and the Propulsion System Rocket Engine Life Extension Program 
        (PSRE LEP) upgrade) are still on target for completion by 2012 
        and 2013 respectively. The SERV program enables the use of the 
        Mk 21 reentry vehicle on MM III missiles, providing STRATCOM 
        planners with increased targeting flexibility and enhanced 
        safety. The PSRE LEP is extending the design life of this 
        subsystem by replacing components originally produced in the 
        1970s.
        <bullet> Security Modernization. AFSPC is also continuing to 
        field robust capabilities funded under the ICBM Security 
        Modernization Program (ISMP). Last year, we completed the 
        installation of concrete headwork barriers at all operational 
        launch facilities (LFs) to ensure the safety and security of 
        our nuclear arsenal. In 2008, we are continuing to improve 
        real-time situational awareness for our security forces through 
        the Remote Visual Assessment (RVA) program. AFSPC is also 
        replacing LF access doors with ones that enable our personnel 
        to more quickly secure the silo hatch in case of a security 
        threat during maintenance operations. In addition, we are also 
        increasing the physical protection of our LFs with better 
        technology and more effective tactics. AFSPC is also taking 
        additional steps within our budget this year to add security 
        surveillance cameras at our Missile Alert Facilities (MAFs) and 
        to add GPS tracking capability to Payload Transporter (PT) 
        vans.
        <bullet> Prompt Global Strike (PGS). Looking to the future, the 
        fiscal year 2009 budget request responds to STRATCOM's PGS 
        needs by developing and demonstrating critical concepts and 
        technologies for a conventional strike alternative. To increase 
        our deterrence and conventional strike capabilities, AFSPC is 
        investing in research and development of technology for 
        guidance, reentry vehicle and propulsion systems with the ICBM 
        Demonstration/Validation (ICBM DEM/VAL) program and are 
        aligning these initiatives with the results of the recently 
        completed PGS Analysis of Alternatives and with the 
        congressionally-directed DOD-wide investment account.

    Ensure mission success while delivering planned capability 
improvements.

    Joint Force Commanders and the forces they lead rely on the 
capabilities provided by AFSPC and our operational commitment to 
deliver those capabilities to them every day can not falter. In 
addition to this operational commitment, we must also meet our 
aggressive program commitments to field and sustain leading-edge space 
capabilities on time and on cost. AFSPC is on final approach to deliver 
several major new Military SATCOM (MILSATCOM); PNT; and ISR 
capabilities over the next 18 to 24 months.

        <bullet> MILSATCOM. The demand for satellite communications and 
        bandwidth continues to grow. Aged in many cases beyond their 
        design, Milstar and Defense Satellite Communications System-III 
        (DSCS-III) continue to provide critical communications services 
        for much of the Nation's daily secure and unsecure military and 
        diplomatic activities as we deploy the next generation of 
        advanced MILSATCOM capabilities.

                <bullet> The Wideband Global SATCOM (WGS) program 
                provides communications capabilities greater than the 
                entire constellation of DSCS-III satellites and 
                increases coverage, capacity and connectivity for 
                deployed tactical forces. In 2007, AFSPC launched WGS-1 
                and the Air Force negotiated a partnership with 
                Australia to use the constellation and fund the 
                procurement of a sixth WGS satellite. The fiscal year 
                2009 budget request funds continued operation of WGS-1, 
                on-orbit checkout and operation of WGS-2, and launch 
                technical support and on-orbit checkout of WGS-3. WGS-4 
                and WGS-5 are currently in fabrication.
                <bullet> Our Advanced Extremely High Frequency (AEHF) 
                program affords strategic and tactical users with 
                secure, survivable anti-jamming and anti-scintillation 
                communications. Each AEHF satellite has about ten times 
                the capacity of Milstar II. The fiscal year 2009 budget 
                request supports the launch and on-orbit checkout of 
                AEHF-1; completion of integration and testing of AEHF-2 
                for launch in 2009; continued assembly, integration and 
                testing of AEHF-3; contracting of AEHF-4; and work on 
                the Mission Control Segment.

        <bullet> Position, Navigation, and Timing (PNT). AFSPC is 
        delivering PNT capabilities which are providing critical 
        military benefits as well as a free international utility. Our 
        GPS is the centerpiece of global PNT services and the GPS 
        constellation enables an ever-increasing arsenal of precise 
        munitions from the mainstay JDAM to the Air Force's new Small 
        Diameter Bomb and from the Army's Guided Multiple Launch Rocket 
        System to its Excalibur 155mm artillery round. Airmen in C-130 
        and C-17 aircraft are resupplying ground combat units in nearly 
        impossible-to-reach places in Afghanistan by using the 
        remarkable Joint Precision Air Drop Systems which have 
        steerable parachutes with GPS guidance.

                <bullet> Last year, AFSPC launched two modernized GPS 
                IIR-M satellites configured with new signals for 
                increased anti-spoofing and anti-jamming capabilities 
                for military users and more robust capabilities for 
                civil users. With five of eight GPS IIR-M satellites 
                on-orbit, AFSPC is launching the remaining three in 
                2008.
                <bullet> The follow-on block is GPS IIF which will have 
                an extended design life of 11 years, include additional 
                civil signals for improved accuracy and safety-of-life 
                services and increased power to reduce vulnerability to 
                signal jamming. The ground segment includes a master 
                control station and a worldwide network of dedicated 
                antennas and monitoring stations. The fiscal year 2009 
                budget request supports launch and support of two GPS 
                IIF satellites and delivery of the final architecture 
                evolution plan.
                <bullet> In concert with upgrades in the GPS space 
                segment, we are also improving the GPS ground segment. 
                AFSPC launched the last two GPS IIR-Ms using the new 
                Launch, Anomaly Resolution and Disposal Operations 
                system; replacing an obsolete command and control 
                system with a more modern and sustainable one.

        <bullet> Intelligence, Surveillance, and Reconnaissance. Our 
        Nation has relied on Air Force space-based missile warning 
        systems since the early 1970s.

                <bullet> AFSPC's Defense Support Program (DSP) provides 
                missile warning, missile defense, battlespace awareness 
                and technical intelligence collection capabilities.
                <bullet> The SBIRS program provides missile warning, 
                missile defense, intelligence and battlespace awareness 
                capabilities and will replace DSP. The SBIRS 
                constellation will consist of four Geosynchronous Earth 
                Orbit (GEO) satellites and two Highly Elliptical Orbit 
                (HEO) payloads.
                <bullet> The first on-orbit SBIRS-HEO payload continues 
                to exceed expectations in its checkout phase resulting 
                in approval for early use in December 2007 and is on 
                track to reach full operational acceptance in mid-2008. 
                Additionally, HEO-2 has been built. On SBIRS GEO-1, 
                AFSPC is correcting a safety issue in the flight 
                software and is planning a launch in 2009. The fiscal 
                year 2009 budget request for SBIRS funds development, 
                integration and test of GEO-1 and GEO-2 satellites and 
                ground system; funds initial HEO operations; fully 
                funds HEO-3 and GEO-3 procurement; funds HEO-4 advanced 
                procurement; and funds HEO ground system modifications 
                and upgrades. The HEO-3 and HEO-4 payloads are 
                designated as constellation replenishment assets.

        <bullet> Launch, Ranges and Networks. Delivery of space 
        capabilities begins with a successful launch. Our two space 
        launch ranges at Patrick and Vandenberg Air Force Bases 
        continue to be the lynchpin for America's assured access to 
        space.

                <bullet> At our Eastern and Western Ranges, AFSPC 
                supported 23 successful military, civil and commercial 
                launches in 2007. The fiscal year 2009 budget request 
                supports sustainment and modernization of our launch 
                ranges.
                <bullet> This year, AFSPC is deploying a new Air Force 
                Satellite Control Network (AFSCN) antenna at Vandenberg 
                Air Force Base which will facilitate over 30 satellite 
                contacts per day. The AFSCN continues to be the 
                Nation's backbone for satellite operations. AFSPC is 
                upgrading antennas with the Remote Tracking Station 
                Block Change to ensure command and control of on-orbit 
                capabilities is efficient and more accurate. The fiscal 
                year 2009 budget request funds the operation and 
                gradual modernization of the AFSCN.

    Increase space protection capabilities.

    The USAF and AFSPC play a key role in defending the Nation's 
military, intelligence, civil and commercial space capabilities. The 
Air Force is uniquely charged with mission responsibilities to provide 
forces to defend United States space capabilities. Our strategy and 
investment approach balances the need for space situational awareness, 
protection of space capabilities and protection of terrestrial forces 
from threats posed by adversary use of space against our interests.

        <bullet> We must increase space situational awareness (SSA) 
        while we address operational and physical vulnerabilities in 
        our space, ground and link segments. The challenge is to find 
        an affordable pathway to protect space capabilities that 
        strikes the right balance among awareness, hardening, 
        countermeasures, reconstitution and alternate means.
        <bullet> The Integrated SSA (ISSA) program provides STRATCOM, 
        Joint Functional Component Command for Space (JFCC-SPACE) and 
        the joint community with an integrated source of current and 
        predictive space events, threats and space activities. By 
        employing a near real time, net centric construct, AFSPC is 
        achieving higher accuracy space surveillance through fusion of 
        other SSA elements. Funding from the fiscal year 2009 budget 
        request increases our ability to characterize the space domain 
        by focusing on space event processing and analysis to include 
        high accuracy conjunction assessments and rapid maneuver 
        processing.
        <bullet> AFSPC is also planning to field ground and space based 
        sensors to improve space surveillance capabilities. The Space 
        Fence program provides the capability to find, fix and track 
        small objects in Low and Medium Earth Orbits (LEO and MEO) 
        using three ground sites. The fiscal year 2009 budget request 
        for this program supports development awards to at least two 
        contractors. Additionally, the Space-Based Space Surveillance 
        (SBSS) program offers the ability to detect and track space 
        objects; primarily those in GEO. With the fiscal year 2009 
        budget request, AFSPC is completing development of SBSS Block 
        10, launching the satellite in fiscal year 2009 and working 
        towards development of SBSS Block 20.
        <bullet> The Rapid Attack Identification Detection and 
        Reporting System (RAIDRS) Block 10 program detects and 
        geolocates satellite communications interference via fixed and 
        transportable ground systems. In 2007, AFSPC activated the 16th 
        Space Control Squadron at Peterson Air Force Base to operate 
        RAIDRS and we deployed one system to the CENTCOM Theater to 
        protect over 400 SATCOM links. The fiscal year 2009 budget 
        request continues funding for the RAIDRS Block 20 update which 
        is introducing an automated means to characterize anti-
        satellite (ASAT) and directed energy attacks on space systems 
        and services.
        <bullet> Building a comprehensive SSA picture includes a fully 
        collaborative, net-centric space command and control 
        architecture that links JFCC-SPACE to the joint fight. AFSPC 
        improved our Nation's global space C2 infrastructure in 2007 
        when the 614th Air and Space Operations Center, the core of 
        STRATCOM's Joint Space Operations Center (JSpOC) transitioned 
        to an expanded facility at Vandenberg Air Force Base, CA. This 
        effort modernized the JSpOC, streamlined operations, and more 
        than doubled its physical size allowing for expanded missions 
        and creating a platform for the future. With the fiscal year 
        2009 budget request, AFSPC is furthering development of a 
        comprehensive SSA picture via the Space C2 program.
        <bullet> AFSPC is committed to improving protection of ground, 
        link and space segments. While some of our space capabilities 
        are well protected, AFSPC is taking into account that we will 
        likely face a wider range of threats in the space domain and on 
        the ground through links that control these systems. As we move 
        forward to modernize and recapitalize, the nature of these 
        threats means we are going to engineer space protection into 
        our new systems.
        <bullet> To help us make informed decisions about how best to 
        preserve space capabilities, AFSPC is establishing the Space 
        Protection Program. This program will focus our efforts and 
        provide decision makers with strategic recommendations on how 
        to best protect our space systems and stay ahead of the threat. 
        We are already strengthening and unifying relationships across 
        the defense and Intelligence Community.

    Attract, develop, and retain space professionals.

    While AFSPC is developing and wielding remarkable capabilities, the 
source of our tremendous accomplishments is our space professionals. 
Our challenge is to continue attracting, developing and retaining 
airmen with the skills necessary to maintain our competitive advantage. 
AFSPC is working with our partners in Air Education and Training 
Command (AETC), academia and elsewhere, to educate, train and cultivate 
experts in the space domain who are both technically and tactically 
competent, and who are skilled in integrating with other warfighting 
domains.

        <bullet> Since 1996, the United States Air Force Weapons School 
        (USAFWS) has graduated 180 space instructors from a pool of 
        AFSPC's best and brightest. Last year, AFSPC and the USAFWS 
        continued their partnership in developing and delivering world-
        class graduates to expertly employ space and missile 
        capabilities and to instruct the next generation of space 
        operators.
        <bullet> The tactical mindset is also evolving on the nuclear 
        side. AFSPC is operating a world-class center focused on 
        training nuclear security professionals. To ensure we are 
        providing the most secure nuclear deterrent, 20 AF operates the 
        Nuclear Space Security Tactics Training Center at Camp 
        Guernsey, WY. In 2007, this facility trained over 1,700 
        security forces on nuclear security and expeditionary tactics.
        <bullet> AFSPC's National Security Space Institute (NSSI) is 
        establishing itself as America's premier campus for superior 
        space professional training and education. Last year, the NSSI 
        taught 71 courses to 1,700 students--a 17 percent increase from 
        2006. Over 350 of those students were from other Services and 
        for the first time, NSSI instructors taught our Allied 
        partners. In 2008, AFSPC is partnering more closely with Air 
        University (AU) as we look to transition more classes to AU in 
        2009.
        <bullet> In 2007, AFSPC competitively selected twenty officer 
        and enlisted space professionals for a fully-funded University 
        of Colorado at Colorado Springs (UCCS) Space Certificate pilot 
        program consisting of five courses focused on space and space 
        systems, engineering management, information and communications 
        systems and space policy. This year, AFSPC is selecting our 
        second class and is using this pilot program as a catalyst for 
        a master's degree.

    Sustain AFSPC's enduring missions and mature emerging missions.

    To better meet 21st century challenges, AFSPC will recapitalize its 
force to sustain enduring space force enhancement capabilities while 
designing a future force to ensure flexible, responsive capabilities in 
a contested domain. Fully recognizing we do not currently have a 
capability to perform maintenance or repairs on orbital assets, we are 
committed to protect and reinvigorate satellite constellations to 
provide the level of utility expected by users all over the globe. 
Additionally, AFSPC will work with appropriate government agencies to 
explore opportunities for enhanced commercial, Allied and international 
partnerships.

        <bullet> Transformational Satellite (TSAT) Communications 
        System. Since last year, the Joint Requirements Oversight 
        Council (JROC) validated requirements for increased worldwide 
        protected communications capabilities to extend the ground-
        based Global Information Grid (GIG) to deployed and mobile 
        forces and to support Comm-on-The-Move, the Army's Future Force 
        Initiatives, the Navy's ForceNet, and the Marine's X-Net 
        warfighting visions. AFSPC is pursuing transformational 
        communications capabilities and is studying a future MILSATCOM 
        architecture investment strategy in response to congressional 
        direction to procure a fourth Advanced Extremely High Frequency 
        (AEHF) satellite. The fiscal year 2009 budget request continues 
        technology maturation and design of TSAT.
        <bullet> Global Positioning System III (GPS III). With GPS III, 
        AFSPC is planning to further enhance military and civilian PNT 
        capabilities by providing higher power, increased anti-jamming 
        capability, and compatibility with European Galileo signals. By 
        implementing a block approach, AFSPC will use the fiscal year 
        2009 budget request for GPS III Block A development and 
        preliminary design review, capability insertion for Blocks B 
        and C and risk reduction and concept development of the control 
        segment.
        <bullet> Third-Generation Infra-Red Surveillance (3GIRS). In 
        addition, AFSPC is planning to continue the critical space-
        based infrared warning systems into its third generation. With 
        the fiscal year 2009 budget request, we will continue wide 
        field of view sensor testing and technology maturation 
        activities along with development of an integrated test bed.
        <bullet> Upgraded Early Warning Radar (UEWR). AFSPC is also 
        embracing emerging missions such as missile defense. Last year, 
        our UEWR program achieved several milestones when STRATCOM 
        operationally accepted two UEWRs. As a key player in a recent 
        Missile Defense Agency (MDA) flight test, the Beale UEWR and 
        its crew acquired and tracked a flight-test target reentry 
        vehicle launched from Alaska; enabling the successful 
        destruction by an interceptor launched from Vandenberg Air 
        Force Base. The fiscal year 2009 budget request supports 
        sustainment and operation of the Beale and Fylingdales UEWRs.
        <bullet> Operationally Responsive Space (ORS). Last May, AFSPC 
        successfully teamed with our sister services and interagency 
        partners to stand up the ORS Office. AFSPC is working closely 
        with the ORS Office to develop innovative acquisition 
        approaches and capabilities to prepare the United States to 
        respond to a contested space domain, to better respond to 
        urgent warfighter needs and to deploy small satellites and 
        associated launch and control systems. AFSPC is continuing to 
        work with the ORS Office to develop ORS as a national strategic 
        capability and to export concepts to the broader Air Force 
        space enterprise. The fiscal year 2009 budget request supports 
        the launch of TACSAT-4 and continues the development of the 
        first ORS spacecraft and enabling capabilities.

    Improve the strategic acquisition, delivery, and sustainment of 
space capabilities.

    In today's world of rapid technological advancement and 
proliferation, we cannot afford to do business as usual when it comes 
to delivering space capabilities. We require a new strategy for how we 
develop, deliver and sustain space systems that is more than an 
incremental progression of acquisition processes and management 
methods. Such a strategy requires a paradigm shift with an end-state 
that deploys needed space capabilities more quickly than in the past 
while still executing efficient, business-like acquisition practices.

        <bullet> To effect organizational and cultural changes, AFSPC 
        is reviewing and adjusting our organization construct and 
        processes. At the beginning of 2008, we reorganized 
        Headquarters AFSPC activities, functions and relationships to 
        enhance our ability to act as a single, integrated 
        organization.
        <bullet> Our next step is fostering external relationships. 
        AFSPC is clearly articulating our needs for science and 
        technology, research and development, acquisition, sustainment 
        and training to Air Force Materiel Command (AFMC) and AETC. We 
        are also intensifying collaboration with Air Combat Command 
        (ACC), including the USAF Warfare Center (USAFWC). Furthermore, 
        AFSPC is supporting other major commands with space expertise 
        and analysis.
        <bullet> We are also working on proper alignment of 
        development, acquisition and sustainment activities. We 
        continue to build a more powerful and effective partnership 
        with AFMC and SMC through better definition of roles, 
        responsibilities and authorities.
        <bullet> Finally, we have chartered a special study group to 
        examine alternative acquisition strategies and recommend ways 
        to shorten the time it takes to put space capabilities in the 
        hands of the warfighter.

    Improve integration across the air, space, and cyberspace domains.

    Integration across air, space, and cyberspace is more than 
combining and disseminating data among interrelated architectures. If 
air, space and cyberspace power each have a value of one, the sum of 
these capabilities is far greater than three. AFSPC is working with the 
other Air Force major commands and domain experts to develop shared 
strategic plans, operational concepts and architectures, doctrine, as 
well as tactics, techniques and procedures for the next conflict--one 
where emerging technologies in air, space and cyberspace domains can be 
leveraged and mutually supported within a joint construct.

        <bullet> AFSPC is teaming extensively with the USAFWC and 
        STRATCOM to increase space scenarios across the full spectrum 
        of exercises. In March 2007, AFSPC conducted the most 
        comprehensive space wargame to date with 470 participants, 
        including 74 flag officers or equivalents and 38 Allied 
        partners. This wargame focused on the future and explored 
        global space system architectures, technologies and C2 
        relationships; tackled concepts for integrating space with 
        other warfighting domains; and examined potential policy trends 
        and their implications. We look forward to the next game in 
        2009.
                               conclusion
    The Total Force AFSPC team plays an important role in delivering 
space and missile capabilities to America and its warfighting commands. 
These capabilities provide a decisive advantage for our national 
security and prosperity. With the continued support of Congress, AFSPC 
is postured to continue to maintain a crucial leadership role as we 
realize our vision of delivering responsive, assured and decisive space 
power.

  STATEMENT OF LT. GEN. WILLIAM L. SHELTON, USAF, COMMANDER, 
  JOINT FUNCTIONAL COMPONENT COMMAND FOR SPACE, UNITED STATES 
                       STRATEGIC COMMAND

    [The prepared statement of General Shelton follows:]
        Prepared Statement by Lt. Gen. William L. Shelton, USAF
    Mr. Chairman, Senator Sessions, and distinguished members of the 
subcommittee, I am honored to be here today for my second opportunity 
to appear before you as United States Strategic Command's (STRATCOM) 
Commander of the Joint Functional Component Command for Space (CDR JFCC 
SPACE).
    It's a distinct privilege to address you on our space posture, and 
to represent the men and women of JFCC SPACE who employ space 
capabilities around the globe every day. These soldiers, sailors, 
airmen, and marines are a dedicated and innovative joint force, working 
hard to conduct efficient and effective space operations. Their 
professionalism ensures our joint forces can exploit space-based 
capabilities to the maximum extent.
    I know this subcommittee is fully aware of the growing importance 
of space capabilities to our national security, as well as to our 
national economic element of power. So rather than belabor those 
points, today I will focus on our efforts to improve employment of our 
vital space capabilities, and identify some of the challenges we face 
as we work to meet national and combatant commander objectives.
                    employment of space capabilities
    CDR JFCC SPACE is designated by Commander, STRATCOM, as the single 
point of contact for military space operations. As such, I am tasked to 
provide tailored, responsive, local and global space effects to the 
various combatant commanders. My STRATCOM-delegated authorities include 
Global Space Coordinating Authority, which makes me the primary 
interface with supported joint commanders for operational-level 
planning and execution to provide space effects in support of those 
Combatant Commanders' objectives. CDR JFCC SPACE also is assigned 
Operational Control and Tactical Control authorities for designated 
worldwide space forces. These authorities provide STRATCOM a single, 
globally focused component commander to enhance functional integration 
of space capabilities for the joint warfighter and for the Nation.
    Over the last year, JFCC SPACE made huge strides in operational 
space employment by consolidating previously separated elements of the 
Joint Space Operations Center (JSpOC). The centerpiece was the move of 
the 1st Space Control Squadron (1 SPCS) and Unified Space Vault from 
Cheyenne Mountain to Vandenberg AFB. 1 SPCS, in particular, plays a key 
role in Space Situational Awareness (SSA) by planning, tasking, and 
directing the Space Surveillance Network as part of the JSpOC. This 
transition, coupled with the JSpOC's relocation to a new facility, 
created opportunities to integrate the total package of space command 
and control functions and lays the foundation for future modernization. 
The payoff from these moves was clearly demonstrated during the recent 
NRO satellite intercept as planning and direction of ground radars and 
space assets resulted in seamless integration to provide target vectors 
for the shooter, and enabled quick characterization and reporting of 
the success of the event. We continue to vigilantly track the debris 
generated by the intercept, which will allow us to predict its reentry 
and ensure safe launch and on-orbit operations.
                               challenges
    Our number one operational need is for improved SSA capabilities. 
SSA is the understanding of the space medium to include tracking all 
manmade objects in space, discerning the intent of others who operate 
in space, knowing the status of our own forces in real-time, and 
understanding the natural environment and its effect upon space 
operations--simply stated, SSA is foundational for all space 
operations. By fusing intelligence on potential adversaries, space 
surveillance information on all space systems in orbit, status of 
friendly systems, and space weather, we will be able to not only know 
what objects are in space and where, but we will also understand the 
purpose of these objects, their capabilities, and their owners' intent. 
This comprehensive knowledge enables decisionmakers to rapidly and 
effectively select courses of action to ensure our sustained freedom of 
action in space.
    The January 2007 Chinese test of an anti-satellite (ASAT) 
capability continues to shape our future planning by tangibly 
demonstrating the potential vulnerability of our space assets. This 
irresponsible space operation by the Chinese left over 2,300 pieces of 
orbital debris that we're still tracking, and tens of thousands of 
likely smaller pieces our sensors can't track. Only 25 items have 
reentered so far, with the remainder expected to be in orbit for 
decades. This debris will slowly decay due to natural forces and will 
remain a hazard to manned and unmanned spaceflight in low earth orbit, 
or transiting low earth orbit on the way to higher orbits. In contrast, 
over 99 percent of the debris from the recent intercept of the NRO 
satellite will reenter the atmosphere within approximately 3 months.
    We've derived many lessons from the Chinese ASAT event, chief among 
them being the tremendous wealth of SSA data available, albeit in many 
disparate systems and security channels. It took the heroic efforts of 
many to manually assemble this information ad hoc, then pass it to 
senior decisionmakers. While we were very successful in this case due 
to the outstanding cooperation between the intelligence and operations 
communities, we clearly need improved processing and analytic systems 
that continually compile and automatically fuse SSA information in 
real-time to keep us abreast of space events. Our lessons learned from 
the Chinese test will continue to guide our future improvements and 
developmental efforts for the JSpOC.
    Every significant military operation uses space capabilities in 
some way--these ubiquitous capabilities are truly integral to military 
operations in the 21st century. Also, there is a tremendous national 
economic impact from commercial space systems that provide many crucial 
services to the American public--services the public relies on and has 
come to expect. However, it is clear our operating environment is 
changing.
    Access to space and space products becomes cheaper and more widely 
available every year. The commercialization of space has allowed many 
developing nations and non-state actors to acquire space-based 
capabilities such as imagery and satellite communications that were 
previously the exclusive purview of superpowers. With more space 
players, space is more crowded than ever--we currently track over 
18,000 manmade objects, to include everything from active satellites to 
debris. The potential for a catastrophic collision in space increases 
as the number of objects increase. Finally, the kinetic ASAT threat is 
not the only threat to our space assets. The capacity to jam satellite 
communications links is within the capability of many nations, as well 
as non-state actors. Space-related ground sites can be damaged by 
direct attack. Several nations are working on high-energy lasers that 
could damage or destroy our satellites. The potential proliferation of 
nuclear weapons is also a threat to space systems. Such a device could 
cripple our space assets with the persistent effects of an exo-
atmospheric electromagnetic pulse. With the exception of the high-
energy laser, all of these threats to our satellites exist today. 
Clearly, we can no longer view space as a sanctuary.
    Our Nation's growing dependence on space-based capabilities, 
coupled with the increasing risks we face, creates corresponding 
potential economic and military vulnerabilities. Therefore, we must 
protect our space assets against intentional and unintentional acts in 
order to preserve our essential space capabilities. Solid protection 
also requires us to have the ability for rapid recognition and 
attribution of space events--the prerequisite that enables full 
consideration of response options. Thus, the basis for an adequate 
protection capability is robust SSA. In the future a decisionmaker's 
ability to quickly answer the "who, what, when, where, how, and why" 
questions will not only help determine the proper course of action, but 
is the necessary foundation for deterring potential adversaries from 
hostile acts against our space assets.
    Other needed improvements to our SSA capabilities include networked 
sensors and information systems that seamlessly share information to 
more effectively use our current resources, and allow future sensors to 
``plug and play.'' Our array of radar and optical space surveillance 
sensors around the world provide acceptable coverage in the northern 
hemisphere, but we have an exploitable lack of coverage in the southern 
hemisphere. This gap greatly increases the time required to 
characterize new payloads and maintain awareness, or ``custody,'' of 
maneuvering spacecraft. Finally, we need the ability to track and 
assess smaller objects if we are to keep pace with the potential 
threats that stem from the emergence of small satellite technologies, 
and to gain better awareness of the hazards posed by small space 
debris. For the reasons cited above, SSA improvements are a top 
priority within Air Force Space Command.
    The increasingly threatened, highly dynamic environment of space 
requires us to build more automated, net-centric capabilities to 
command and control space forces. Along with essential SSA, we will 
need the ability to act rapidly. Events in the space domain unfold 
quickly, often at the speed of light. Our playbook must be ready to go, 
with modeling and simulation tools, decision aids, and operator alerts 
forming the automated solutions. Rather than the labor-intensive 
command and control processes we currently use, machine-to-machine 
interfaces must enable decisionmakers to quickly and accurately assess 
the situation, and promptly direct actions.
                               conclusion
    The nature of space operations is rapidly evolving. The United 
States' absolute dependence on space across our military, civil, and 
commercial sectors, coupled with the increased and diverse threats to 
our space assets, requires improved SSA and command and control 
capabilities to ensure our ability to effectively operate in an 
increasingly dynamic environment. This is an exciting time in the 
evolution of Joint Space Operations and I am truly honored to be 
leading such a talented group of men and women as they expertly tackle 
the challenges we face every day. I thank the subcommittee for your 
continued strong support as we work to preserve our vital space 
capabilities for the Nation.

 STATEMENT OF RADM KENNETH W. DEUTSCH, USN, DIRECTOR, WARFARE 
      INTEGRATION, OFFICE OF THE CHIEF OF NAVAL OPERATIONS

    [The prepared statement of Admiral Deutsch follows:]
           Prepared Statement by RADM Kenneth W. Deutsch, USN
    Mr. Chairman, distinguished members of the subcommittee, as the 
Director of Warfare Integration on the Office of the Chief of Naval 
Operations (OPNAV) staff, I am honored to appear before you today to 
address Navy space activities. I am the Navy's resource and 
requirements sponsor for Space. This sponsorship includes the Mobile 
User Objective System (MUOS), the new Joint Narrowband Military 
Satellite Communication System. I am also the Navy's Subject Matter 
Expert for Space, responsible for reviewing and approving navy space 
systems being reviewed by the Joint Requirements Oversight Committee 
(JROC) as part of the Joint Capabilities Integration Development System 
(JCIDS). The committee has asked several specific questions which I 
would like to address, one of which is a request for Navy's thoughts on 
the organization and management of space, including Navy's role 
therein.
      space organization and management, and navy's role in space
    Space systems are a critical enabler for maritime operations. The 
Navy has a long and proud history in space, having developed a number 
of technological breakthroughs. The list of Navy advances in space is 
expansive and includes: the first space communications used for 
operations; the first controllable space launch vehicle; the first 
satellite tracking system; the first successful electronic intelligence 
reconnaissance satellite; the first space object tracking system; the 
first demonstration of on-orbit atomic clocks; the first military 
broadcast satellite; and the first astronauts to orbit the earth, orbit 
the moon and crew the Space Shuttle. The 20 February interception of a 
nonfunctioning National Reconnaissance Office (NRO) satellite 
illustrates Navy's continued critical role in Space and Space Control. 
The Navy AEGIS warship, U.S.S. Lake Erie (CG-70), fired a single 
modified tactical Standard Missile-3, hitting the satellite 
approximately 133 nautical miles over the Pacific Ocean as it traveled 
in space at more than 17,000 miles per hour.
    Today, the Air Force, as the Department of Defense (DOD) Executive 
Agent (EA) for Space has DOD-wide responsibilities for planning and 
acquisition of most DOD major Defense space acquisitions. In addition, 
the NRO is responsible to both the Secretary of Defense and the 
Director of National Intelligence for national space reconnaissance 
activities. While the Navy continues to serve as the Program Manager 
for DOD narrowband ultra-high frequency (UHF) satellite communications 
systems, which includes the new MUOS and the UHF Follow-on system, and 
conducts smaller space-based experiments, most large-scale national 
security satellite programs will be developed through the Space EA and 
NRO. With limited funding and more narrowly defined scope, Navy has 
focused energy on leveraging existing space capabilities and aggressive 
engagement within the requirements and acquisition processes to ensure 
maritime operational needs are met.
    Satellites provide global access and enable the Navy to establish 
global presence. The process for designing, building, launching and 
operating modern satellite systems has increasingly become both a 
lengthy and an expensive proposition lasting decades, meaning a new 
satellite program that is currently in the concept phase could remain 
in service well into the 2020-2030 timeframe. Unlike other major DOD 
programs, however, satellites cannot be modified or repaired once they 
are placed into orbit. Due to the long lead times involved, it is 
therefore critical that naval requirements and maritime missions be 
factored into the pre-launch design and planned in-orbit operation of 
all future satellite systems being considered for acquisition through 
the DOD EA for Space, the NRO and the National Oceanographic and 
Atmospheric Administration (NOAA). Without active Navy involvement 
today in ongoing deliberations over future satellite programs, the Navy 
risks operating in future scenarios with multi-billion dollar National 
Security Space systems sub-optimized for the maritime environment, 
which is increasingly important as Maritime Domain Awareness 
requirements are developed.
    The Navy remains heavily reliant on space systems to conduct its 
wartime and humanitarian missions. A wide array of national, joint and 
commercial satellites currently provide Navy commanders with essential 
communication capabilities, position, navigation and timing support, 
missile warning, meteorological data, and over-the-horizon surveillance 
and reconnaissance capabilities on a worldwide basis. Future U.S. 
satellite programs are now being developed that could provide 
additional benefit and capabilities to Navy warfighters. Many of these 
programs, however, face technological and budgetary hurdles which could 
force future capability trade-offs affecting the maritime environment 
and could ultimately impact their utility to the Navy. For these 
reasons, the Navy will actively engage with key national and joint 
space-related entities at the appropriate levels to ensure current and 
future Navy needs in space are identified, understood, resourced and 
protected. This requires close cooperation between the Navy and various 
space-related entities within the DOD, the National Intelligence 
Community (IC), the NOAA, as well as those commercial partners who 
develop and manage satellite systems.
    The various U.S. satellites and space support systems that 
constitute National Security Space generally fall under six distinct 
mission areas, all of which directly or indirectly support Navy 
operations. Furthermore, virtually each of these mission areas involves 
one or more future satellite systems currently in the design or 
development phase. The six mission areas are Intelligence/Surveillance/
Reconnaissance, Communications, Position/Navigation/Timing, Space 
Control, Ballistic Missile Warning/Defense and Metrological and 
Oceanographic. One of the primary goals contained within the Department 
of Navy Space Policy is to shape the outcome of joint deliberations on 
future space capabilities these mission areas to maximize combat 
effectiveness and to ensure supremacy of the naval force. Within the 
Navy, various space-related functions and responsibilities are 
distributed among different commands, but jointly constitute a 
functional ``Navy Space Team'' which works collaboratively to advance 
Navy's many goals in space. The Navy Space Team is composed of several 
Navy organizations that span the full spectrum of Navy warfighting and 
have key roles to play in advancing the Navy's role in space:

          a. The Deputy Chief of Naval Operations (CNO) for 
        Communication Networks (CNO N6) is responsible for leading the 
        overall Navy Space Team, developing Navy space requirements, 
        making resource recommendations, funding designated space 
        acquisition programs, and coordinating with the National 
        Security Space Office;
          b. The Deputy CNO for Manpower, Personnel, Training and 
        Education (CNO N1) is responsible for managing and developing a 
        core group of Active Duty and Reserve enlisted, officer, and 
        civilian personnel with specialized space expertise known as 
        ``Navy Space Cadre;''
          c. The Director of Naval Intelligence (CNO N2) is responsible 
        for incorporating space capabilities into the larger Navy-wide 
        ISR strategy, advocating Navy's space-related requirements 
        within IC and joint ISR programs, and representing the OPNAV 
        staff within key IC and joint space-related forums;
          d. The Deputy CNO for Integration of Capabilities and 
        Resources (CNO N8) is responsible for making resource decisions 
        on relevant Navy space assets, and incorporating space 
        capabilities into Navy campaign/mission modeling and simulation 
        efforts;
          e. The Oceanographer of the Navy (CNO N84) is responsible for 
        coordinating space-related portions of the Navy's Oceanography 
        and Navigation programs with appropriate commands, agencies and 
        commands outside the Navy;
          f. The Office of Naval Research is designated as the Navy 
        Space Scientific and Technical Executive; and
          g. The Program Executive Office Space Systems (PEO Space) is 
        responsible for acquiring space systems for the Navy, and for 
        working with PEO Command, Control, Communications, Computers, 
        and Intelligence (C\4\I) and Space for acquiring Navy space-
        related terminals.

    A number of other space-related Navy organizations and offices play 
key roles in supporting the primary Navy Space Team. These key 
organizations include:

          a. Navy-NRO Coordination Group: Responsible for coordinating 
        Navy space-related issues between the OPNAV Staff and key Navy 
        personnel working within the NRO, and linking ongoing Navy-
        related activities at the NRO with the Deputy Assistant 
        Secretary of the Navy for C\4\I/Space;
          b. Navy Tactical Exploitation of National Capabilities 
        Office: Responsible for conducting rapid prototyping involving 
        national reconnaissance satellites and related systems in 
        support of Navy operations; and
          c. Naval Research Laboratory's Naval Center for Space 
        Technology: Exploits and develops space-related technologies in 
        support of DOD, Navy, and other agencies.

    Additionally, the Navy maintains a key flag-level joint billet at 
the NRO. This senior officer oversees a team of Navy Space Cadre 
members, who collectively provide invaluable support to the Navy Space 
Team on a number of space-related issues.
                      mobile user objective system
    The committee has requested a clearer understanding of the MUOS. 
The Navy's major space segment responsibility to the joint community is 
the narrowband satellite communications constellation. Today it 
consists of UHF Follow-on (UFO) and two residual Fleet Satellites 
(FLTSATs) and one Leased Satellite (LEASAT) which will begin to be 
replaced by MUOS in 2010. MUOS will provide communications-on-the-move 
at high data rates (up to 64 kbs per access) to disadvantaged users 
such as handheld terminals, aircraft, missiles, UAVs, and remote 
sensors. Additionally, MUOS will provide these capabilities in such 
challenging environments as double canopy foliage, urban environment, 
and high sea state. MUOS will bring a 4-fold increase in the number of 
accesses (1997 vice 500) and a 20-fold increase in throughput (39.2 
Mbps, total system capacity vice 2 Mbps) in comparison to the legacy 
UFO constellation. MUOS is the common denominator for command and 
control providing the capability to communicate from tactical to 
theater levels and between defense and non-defense agencies. MUOS will 
allow a more comprehensive and coordinated approach to regional 
engagement, providing the capability to synchronize efforts with other 
Services, agencies, and allied nations.
    MUOS is critical to satisfying the demand for tactical satellite 
communications. During Operations Enduring freedom and Iraqi Freedom, 
UFO, FLTSAT, and LEASAT 5 were only able to support 80 percent of the 
narrowband tactical UHF satellite communication requirements. 
Additionally, in the 2010 timeframe, LEASAT 5 will reach its end of 
service life, and the UFO constellation is expected to reach an 
unacceptable level of availability in May 2009. We have a mitigation 
plan to minimize the operational impact of a potential gap in 
capability (seven operational satellites vice the required eight) 
before MUOS is operational and MUOS-capable terminals are available. It 
includes the use of commercial bandwidth and the dynamic management of 
existing bandwidth as mentioned previously. A ``Sources Sought for 
Additional UHF Capabilities'' was released on 09 August 2007 with the 
objective of supplementing the current UHF SATCOM resources with 
additional commercial services. Of the six options presented by four 
vendors in response to this RFI, Navy chose Intelsat's Skynet leased 
services and is initiating a competition for a hosted payload option. 
Navy has identified funding in PB09 to fund both of these mitigation 
plans. Intelsat's Skynet services will supplement UHF resources in 
fiscal years 2009-2010 while the hosted payload option will tentatively 
be available beginning in 2010. Today, UFO supports approximately 500 
simultaneous accesses worldwide. Based on evolving future war fighting 
concepts in support of the Guidance for Development of Forces, UHF 
SATCOM access requirements are expected to grow by at least a factor of 
four and MUOS, as designed, will be able to support that requirement.
    The MUOS program is currently preparing for the October 2009 
Follow-On Buy Decision. MUOS' advanced capabilities can only be 
realized with the fielding of MUOS-capable Joint Tactical Radio System 
terminals or by upgrading existing UHF legacy software programmable 
terminals to MUOS capability.
    Lastly, the committee asked for Navy's thoughts on Space Protection 
Strategies. The Navy continues to work with U.S. Strategic Command, the 
Joint Staff and other Services to ensure appropriate means of Space 
Control Protection are addressed systematically as space systems are 
being developed. Navy supports Space Control Protection becoming a 
mandatory JCIDS Key Performance Parameter. This will ensure the 
warfighter and the JROC understand and approve the trade offs between 
advance performance and enduring protection. Navy also advocates the 
National Security Space Office standing up a Space Control Functional 
Integration Office (FIO) using the current Communications FIO as the 
model.
                                summary
    Navy's mission of keeping the air and sea lanes open and ensuring 
the security of our citizens at home and abroad requires a global reach 
and persistent presence. We must be constantly ready, whether it is to 
deliver on a mission of mercy or more lethal measures to respond to a 
specific threat. Our ability to respond, as well as work with our 
coalition and other maritime partners, will depend on space 
capabilities for the necessary flexibility and speed to support our 
worldwide responsibilities. Navy's ability to leverage DOD and IC space 
capabilities, and to have an impact on future space developments is 
critical in ensuring its ability to successfully conduct maritime 
operations and in fulfilling Navy missions.
    We look forward to delivering MUOS for the joint warfighter. 
Finally, we intend to be an important contributor toward the 
development and implementation of space protection strategies.
    Thank you for the opportunity to share our efforts with you today.

 STATEMENT OF CRISTINA T. CHAPLAIN, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    [The prepared statement of Ms. Chaplain follows:]
               Prepared Statement by Cristina T. Chaplain
    Mr. Chairman and members of the subcommittee:
    I am pleased to be here today to discuss the Department of 
Defense's (DOD) space acquisitions. Each year, DOD spends billions of 
dollars to acquire space-based capabilities to support current military 
and other government operations as well as to enable DOD to transform 
the way it collects and disseminates information, gathers data on 
adversaries, and attacks targets. In fiscal year 2009 alone, DOD 
expects to spend over $10 billion to strengthen space-based 
capabilities and $7.6 billion of this amount is targeted for selected 
major space acquisition efforts. At the same time, however, DOD's space 
system acquisitions have experienced problems over the past several 
decades that have driven up costs by hundreds of millions, even 
billions, of dollars; stretched schedules by years; and increased 
performance risks. In some cases, capabilities have not been delivered 
to the warfighter after decades of development. Today, we are here to 
comment on what problems affecting space acquisitions still persist, 
what actions DOD has been taking to address these problems and what 
remains to be done. In general, we found this year that space programs 
that have been troubled in recent years still face problems that are 
driving up costs and schedule. At the same time, senior leadership has 
remained committed to reducing technology risks and ensuring newer 
programs are more affordable. Investment prioritizing, realistic cost 
estimating, policy changes, and other actions we identify can help this 
commitment take further hold.
                   space acquisition problems persist
    The majority of major acquisition programs in DOD's space portfolio 
have experienced problems during the past 2 decades that have driven up 
cost and schedules and increased technical risks. Several programs have 
been restructured by DOD in the face of delays and cost growth. At 
times, cost growth has come close to or exceeded 100 percent, causing 
DOD to nearly double its investment in the face of technical and other 
problems without realizing a better return on investment. Along with 
the increases, many programs are experiencing significant schedule 
delays--as much as 7 years--postponing delivery of promised 
capabilities to the warfighter. Outcomes have been so disappointing in 
some cases that DOD has had to go back to the drawing board to consider 
new ways to achieve the same, or less, capability. As figures 1 and 2 
below indicate, five programs that were begun in the late 1990s/early 
2000s to replenish aging constellations of satellites have incurred 
substantial cost growth and schedule delays, including the:

          (1) the Advanced Extremely High Frequency (AEHF) 
        communications satellite program,
          (2) the National Polar-orbiting Operational Environmental 
        Satellite System (NPOESS), which DOD is jointly developing with 
        the National Oceanic and Atmospheric Administration,
          (3) the Space Based Infrared System (SBIRS), which detects 
        missile launches,
          (4) the Wideband Global Satellite Communications (SATCOM) 
        (WGS), another communications satellite, and
          (5) the Global Positioning System (GPS) IIF program. Last 
        year we reported that AEHF and WGS had worked through the bulk 
        of their technical problems.

    Since our testimony, the first WGS satellite was launched, but the 
AEHF program experienced technical problems with hardware components 
that have pushed back its first launch date by 6 months. Also, this 
year, as described below, we found that NPOESS and SBIRS still face 
very high risks, even after recent replanning efforts. Further, GPS IIF 
has experienced additional technical problems.

        <bullet> SBIRS continues to face cost and schedule setbacks. 
        Software problems have recently delayed the first satellite 
        launch by about a year, which will likely increase the 
        program's overall delay to roughly 7 years. Correcting the 
        problems may necessitate hardware and software changes that 
        could, according to the Air Force, also drive cost increases up 
        to $1 billion, which would be in addition to the $6 billion 
        cost growth already incurred. Management-reserves expenditure 
        continues at an unsustainable rate. Program officials 
        acknowledge that management Reserves set aside to fix 
        unexpected problems will likely be depleted in early 2009, even 
        though the Reserves were intended to last through 2012. Given 
        the complexity of the SBIRS satellites, it is possible that 
        further design flaws may be discovered, leading to more cost 
        and schedule increases. If management Reserves are depleted and 
        not replenished, the program will likely experience further 
        cost and schedule problems.
        <bullet> In July 2007, the NPOESS program finalized its 
        restructure in response to a Nunn-McCurdy (10 U.S.C. Sec. 2433) 
        program acquisition unit breach of the critical cost growth 
        threshold. The restructure included about an additional $4.1 
        billion, or about a 49 percent, life-cycle cost increase for 
        fewer satellites to be acquired, delays in satellite launches, 
        and deletions or replacements of satellite sensors. The 
        restructure also included removing 7 of the original 14 
        critical technologies from the program. Furthermore, three of 
        the remaining technologies remain immature and the program 
        continues to experience development problems, increasing risks 
        of further problems. At this point, the program has seen a 153 
        percent unit cost increase.
        <bullet> The GPS IIF program has faced technical challenges in 
        completing development and production, causing another schedule 
        delay in the launch of the first IIF satellite--over a 2-year 
        slip from the original launch date of December 2006 to February 
        2009. Moreover, the program continues to face cost increases 
        due to these technical problems. Specifically, the program has 
        requested over $100 million for fiscal years 2008 and 2009 to 
        cover the estimated cost overruns to complete production of the 
        first three space vehicles. In addition, program officials are 
        concerned that additional funds may be needed to complete this 
        program if additional delays are incurred--the program has 
        already spent $1.2 billion to date, which represents about 77-
        percent of the total cost originally estimated for the program. 
        (Note: The chart below reflects a larger cost because it 
        includes estimates for the GPS IIR, IIR-M, and IIF blocks of 
        the GPS program.)
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Not all of DOD's space programs are facing the problems being 
experienced by GPS, NPOESS, and SBIRS. For example, the Navy's Mobile 
User Objective System (MUOS), another communications satellite program, 
is meeting cost and schedule goals. Further, as discussed later in this 
testimony, newer Air Force acquisition efforts such as the 
Transformational Satellite (TSAT) Communications System and Space Radar 
have been taking actions to ensure they can meet their cost and 
schedule goals, though their funding has been reduced in light of 
overall affordability of space acquisitions. These two efforts were 
highly complex and ambitious and were predicted to be the most 
expensive military satellite developments ever.
    In addition, in December 2005, the Air Force was directed to begin 
efforts to develop competing capability in parallel with the SBIRS 
program; this effort was previously known as the Alternative Infrared 
Satellite System (AIRSS). We reported in September 2007 that DOD had 
not positioned the AIRSS effort for success. DOD agreed, and revised 
the effort's development strategy to reflect best practices. The effort 
has a new name, the Third Generation Infrared Surveillance (Third Gen), 
and is now a follow on to the SBIRS program. The first sensor 
prototypes are expected later this month.
    Lastly, our annual weapons system assessment this year will be 
reporting on challenges faced by the Evolved Expendable Launch Vehicle 
(EELV) program, as the two providers--Boeing and Lockheed Martin--
undertake a joint venture that will provide U.S. government launches of 
medium- to heavy-lift rockets. The consolidation of production, 
engineering, test, and launch operations under the joint venture, 
called the United Launch Alliance or ULA, is expected to yield cost 
savings in the future, but when and how much remains unknown. ULA 
expects the consolidation to be nearly complete by the end of 2010, but 
there are preliminary indications that some elements of the 
consolidation are falling behind schedule.
    Furthermore, the Air Force revised its acquisition and contracting 
strategy for EELV in 2005, which among other things increased program 
office oversight responsibilities. The change in contracting strategy 
created new data analysis activities for the program and expanded the 
types of expertise needed by the program office to utilize the new 
information provided by contractors. Despite its increased 
responsibilities, the program office is experiencing staff reductions 
and expects staffing vacancies to continue in the near term. The 
current military staff lacks some of the technical expertise needed to 
fully analyze contractor performance data now being collected under the 
new contracting strategy.
            causes of acquisition problems in space programs
    Our work has identified a variety of reasons for this cost growth, 
most notably that weapons programs are incentivized to produce and use 
optimistic cost and schedule estimates in order to successfully compete 
for funding. We have also found that DOD starts its space programs too 
early, that is, before it has assurance that the capabilities it is 
pursuing can be achieved within available resources and time 
constraints.
    We have also tied acquisition problems in space to inadequate 
contracting strategies; contract and program management weaknesses; the 
loss of technical expertise; capability gaps in the industrial base; 
tensions between labs that develop technologies for the future and 
current acquisition programs; divergent needs in users of space 
systems; diffuse leadership; and other issues that have been well 
documented in DOD and Government Accountability Office (GAO) studies.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Many of these underlying issues affect the broader weapons 
portfolio as well, though we have reported that space programs are 
particularly affected by the wide disparity of users, who include DOD, 
the intelligence community, other Federal agencies, and in some cases, 
other countries and U.S. business and citizens. Moreover, problematic 
implementation of an acquisition strategy in the 1990s, known as Total 
System Performance Responsibility, for space systems resulted in losses 
of technical expertise and weaknesses in contracting strategies that 
space programs are still dealing with the effects of.
    actions needed to address space and weapon acquisition problems
    Over the past decade, we have identified best practices that DOD 
space programs can benefit from. DOD has taken a number of actions to 
address the problems that we have reported on. These include 
initiatives at the department level that will affect its major weapons 
programs, as well as changes in course within specific Air Force 
programs. Although these actions are a step in the right direction, 
additional leadership and support are still needed to ensure that 
reforms that DOD has begun will take hold.
    Our work--which is largely based on best practices in the 
commercial sector--has recommended numerous actions that can be taken 
to address the problems we identified. Generally, we have recommended 
that DOD separate technology discovery from acquisition, follow an 
incremental path toward meeting user needs, match resources and 
requirements at program start, and use quantifiable data and 
demonstrable knowledge to make decisions to move to next phases. We 
have also identified practices related to cost estimating, program 
manager tenure, quality assurance, technology transition, and an array 
of other aspects of acquisition program management that space programs 
could benefit from. Table 1 highlights these practices; appendix II 
provides more detail.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                  constructive actions are being taken
    DOD is attempting to implement some of these practices for its 
major weapons programs. For example, we recently reported that DOD 
released a strategy to enhance the role of program managers in carrying 
out its major weapon system acquisitions. As part of this strategy, DOD 
established a policy that requires formal agreements among program 
managers, their acquisition executives, and the user community intended 
to set forth common program goals. In addition, DOD plans a variety of 
actions to enhance development opportunities, provide more incentives, 
and arrange knowledge-sharing opportunities for its program managers. 
Within this strategy, the department also acknowledged that any actions 
taken to improve accountability must be based on a foundation from 
which program managers can launch and manage programs toward greater 
performance, and must include an overarching strategy and 
decisionmaking processes that prioritize programs based on a match 
between customer needs and available resources. DOD highlighted several 
initiatives that, if adopted and implemented properly, could provide 
such a foundation. Some of these include establishing an early decision 
gate to review proposed programs at the concept stage, testing 
portfolio management approaches in selected capability areas and using 
capital budgeting accounts for programs in development.
    Additionally, as we reported previously, the Air Force adopted a 
``back-to-basics'' policy for space designed to reduce technology risk 
and ensure programs were more executable. Specifically, for its TSAT 
and Space Radar acquisition efforts, the Air Force committed to 
delaying product development until critical technologies could be 
demonstrated to work in a relevant environment. This stood in sharp 
contrast to previous programs, started with immature technologies, such 
as NPOESS and SBIRS.
    The Air Force also committed to deferring more ambitious technology 
efforts associated with these efforts to science and technology 
organizations until they are ready to be added to future increments. 
TSAT, for example, deferred the wide-field of view multi-access laser 
communication technology, and contributed about $16.7 million for 
``off-line'' maturation of this technology that could be inserted into 
future increments. It laid out incremental advances in other 
capabilities over two increments. Space Radar has deferred lithium-ion 
batteries, more efficient solar cells, and onboard processing for its 
first increment, and like TSAT, contributed toward their development by 
space and technology organizations. Further, both efforts have used 
systems engineers to help determine achievability of requirements.
    In our experience, the Navy has tended to follow good acquisition 
practices for its space programs, especially in relation to keeping 
technology risks out of programs. The Navy's MUOS is an example. 
Specifically, the MUOS acquisition effort began development with almost 
all of its critical technologies mature. Additionally, about 95 percent 
of design drawings had been completed at the critical design review 
milestone in March 2007. Since MUOS's development start in September 
2004, the program has been meeting its overall cost and schedule goals, 
with the first satellite expected to become operational in March 2010.
    Furthermore, the Air Force, U.S. Strategic Command, and other key 
organizations have made progress in implementing the Operationally 
Responsive Space (ORS) initiative. This initiative encompasses several 
separate endeavors with a goal to provide short-term tactical 
capabilities as well as identifying and implementing long-term 
technology and design solutions to reduce the cost and time of 
developing and delivering simpler satellites in greater numbers. ORS 
provides DOD with an opportunity to work outside the typical 
acquisition channels to more quickly and less expensively deliver these 
capabilities. In performing a review of ORS for this committee, we 
found that DOD has made progress in putting a program management 
structure in place for ORS as well as executing ORS-related research 
and development efforts, which include development of low-cost small 
satellites, common design techniques, and common interfaces.
    Other parts of DOD are also moving towards space programs with less 
risk and that have a greater chance of being more successful. The 
Missile Defense Agency's Space Tracking and Surveillance System (STSS) 
program office is seeking an operational constellation that would be 
easier to produce than originally envisioned for the constellation. The 
new development approach for the constellation would involve no 
technology breakthroughs or scientific discovery, and the program 
office wants to scale the system design so that it will only require 
only a 5- to 6-year build cycle.
    DOD has also pushed back the decisions to start the TSAT and Space 
Radar acquisitions so it could reformulate their acquisition schedules 
and approaches to make them more affordable within DOD's overall space 
portfolio. For example, TSAT is currently being assessed by the Office 
of the Secretary of Defense (OSD) to better ensure that proposed future 
funding levels for TSAT are affordable in the near term. In the 
meantime, the program office is continuing to fund risk-reduction 
efforts between two separate contractors to further reduce overall risk 
in TSAT. Similarly, the Space Radar program office told us that it is 
adjusting its acquisition approach to better balance affordability 
through incremental evolution of the Space Radar capability. In both of 
these cases, DOD will likely be better positioned with acquisition 
programs that are more affordable and executable in terms of meeting 
cost, schedule, and performance goals.
                       additional actions needed
    The actions that the Air Force and OSD have been taking to address 
acquisition problems are good first steps. The back-to-basics policy 
and ORS, in particular, represent significant shifts in thinking about 
how space systems should be developed as well as commitment from senior 
leadership. But, there are still more, significant changes to 
processes, policies, and support needed to ensure reforms can take 
hold.
    First, while DOD pilot initiatives related to portfolio management 
are targeted at addressing funding pressures, there has not been a real 
commitment to prioritizing investments across DOD. For the past several 
years, we have emphasized that DOD starts more space and weapon 
programs than it can afford, creating a competition for funding that 
encourages low cost estimating, optimistic scheduling, overpromising, 
suppressing of bad news, and, for space programs, forsaking the 
opportunity to identify and assess potentially better alternatives. 
Programs focus on advocacy at the expense of realism and sound 
management. Invariably, with too many programs in its portfolio, DOD is 
forced to continually shift funds to and from programs--particularly as 
programs experience problems that require additional time and money to 
address. Such shifts, in turn, have had costly, reverberating effects. 
This year, significant cuts were made to several major space programs 
including TSAT, Space Radar, and STSS largely in light of the 
realization that new, expensive programs were not affordable at a time 
when DOD was attempting to upgrade other capabilities and still 
contending with problematic programs like SBIRS. In the case of TSAT, 
resulting delays in capability could have a dramatic effect on other 
new programs, such as the Army's Future Combat System, which were 
counting on TSAT-like capabilities to enhance their performance.
    Second, as we have testified before, space programs are facing 
capacity shortfalls. These include shortages of staff with science and 
engineering backgrounds as well as staff with program-management and 
cost-estimating experience. Several of our reviews of major space 
programs have cited shortages of personnel as a key challenge that 
increases risk for the program, specifically in technical areas. In 
addition, during our review of DOD's space cost estimating function, 
Air Force space cost-estimating organizations and program offices said 
that they believed their cost-estimating resources were inadequate to 
do a good job of accurately predicting costs. Because of the decline in 
in-house cost-estimating resources, space program offices and Air Force 
cost-estimating organizations are now more dependent on support 
contractors. We recognize that there are actions being taken to 
strengthen the space acquisition workforce, but we have not yet seen 
the condition get much better at the individual program office level.
    Our past work has also pointed to capacity shortfalls that go 
beyond workforce. For example, in 2006, we reported that cost-
estimation data and databases are incomplete, insufficient, and 
outdated. In previous testimonies, we pointed to limited opportunities 
and funding for space technologies, and the lack of low-cost launch 
vehicles. The ORS initiative is designed to help alleviate shortfalls 
in launch and testing resources, but one concern raised in interviews 
with launch providers was that there was still not enough investment 
being directed toward low-cost launch.
    Furthermore, policies that surround space acquisition need to be 
further revised to ensure best practices are instilled and sustained. 
For example, DOD's space acquisition policy does not require that 
acquisition efforts such as TSAT and Space Radar achieve a technology 
readiness level (TRL) 6 (that is, testing in a relevant environment) or 
higher for key technologies before being formally started--key decision 
point B (KDP B). Instead, the policy suggests that TRL 6 be achieved 
later--at preliminary decision review (KDP C) or soon after. In fact, 
the back-to-basics policy that was adopted by the Air Force has not 
been incorporated into the space acquisition policy. Given that there 
are many pressures and incentives that are driving space and other 
weapon programs to begin too early and to drive for dramatic rather 
than incremental leaps in capability, DOD needs acquisition policies 
that ensure programs have the knowledge they need to make investment 
decisions and that DOD and Congress have a more accurate picture of how 
long and how much it will take to get the capability that is being 
promised. In addition, although the policy requires that independent 
cost estimates be prepared by bodies outside the acquisition chain of 
command, it does not require that they be relied upon to develop 
program budgets. Officials within the space cost-estimating community 
also believed that the policy was unclear in defining roles and 
responsibilities for cost estimators. We continue to recommend changes 
be made to the policy--not only to further ingrain the shift in 
thinking about how space systems should be developed, but to ensure 
that the changes current leaders are trying to make can be extended 
beyond their tenure.
    Last, while DOD is planning many new practices that will provide 
program managers with more incentives, support and stability, the 
overall environment within which program managers perform their work is 
very difficult to change simply with policy initiatives. Policies 
similar to the one DOD issued in 2007 to increase accountability of 
program managers have existed for some time, but according to DOD and 
Air Force officials, they have not always been practiced. For example, 
while DOD policy provides for program managers of major defense 
acquisition programs to serve as close to 4-year tenures as 
practicable,\1\ many serve for only 2 years. One example is the SBIRS 
program, which has had six program managers in 12 years. In fact, our 
work has shown that rather than lengthy assignment periods between key 
milestones as suggested by best practices, many of the programs we have 
reviewed had multiple program managers within the same milestone.
---------------------------------------------------------------------------
    \1\ DOD policy provides for the tenure of program managers of major 
defense acquisition programs to last until the completion of the major 
milestone that occurs closest in time to the date on which the person 
has served in the position for 4 years.
---------------------------------------------------------------------------
                              conclusions
    In conclusion, senior leaders managing DOD's space portfolio are 
clearly working in a challenging environment. There are pressures to 
deliver new, transformational capabilities, but problematic older 
satellite programs continue to cost more than expected, constrain 
investment dollars, pose risks of capability caps, and thus require 
more time and attention from senior leaders than well-performing 
efforts. To best mitigate these circumstances and put future programs 
on a better path, DOD needs to continue with the actions it has begun 
undertaken. However, these measures should be complemented by realistic 
estimating of what it will take to complete space programs, 
prioritizing programs for investment, and strengthening DOD acquisition 
policy for space. At the same time, DOD should ensure its ORS program 
is well-supported and focused on alleviating capability gaps as well as 
developing longer-term solutions for space programs. Taken together, 
such actions, with the support of Congress, should help senior leaders 
negotiate acquisitions in a challenging environment and ensure their 
commitments to reform can be sustained into the next administration.
    Mr. Chairman, this concludes my statement. I will be happy to 
answer any questions that you have.

    Senator Bill Nelson. Let us just get right on into the 
questions.
    We constantly hear about the spiraling need for 
communications. Let's talk about the transformational satellite 
(TSAT). It's supposed to address some of the growing 
communications requirements and has been described by the Air 
Force as the linchpin for the 21st century net-centric warfare. 
TSAT was, at one point, supposed to launch in 2012. Congress 
removed $130 million from the program and then in the next year 
$150 million, mostly to allow technologies to mature so that 
the program wouldn't be high risk.
    When the fiscal year 2008 budget was submitted, the first 
launch was supposed to be in the first quarter of 2016. The 
fiscal year 2009 budget request completely undermines the 
program. The Department of Defense (DOD) and the Air Force have 
pulled $3.6 billion out of the program through fiscal year 2013 
and have delayed the first launch until 2018 at the earliest, 
and the requirements for TSAT haven't changed. So what's going 
on?
    Mr. Payton. Mr. Chairman, perhaps I could address that. The 
TSAT spacecraft will be an immensely capable vehicle. It will 
serve a large number of users, first and foremost perhaps is 
protected strategic communications for our nuclear command and 
control systems. Additionally, it will serve relay for airborne 
intelligence, surveillance, and reconaissance (ISR) assets like 
Global Hawk, and also space-borne ISR assets. It will serve 
fleets on the high seas. It will serve communications on the 
move for our land forces, and of course, it is closely related 
with the Army's Future Combat System (FCS).
    As we move to Advanced Extremely High Frequency (AEHF)-4, 
the fourth AEHF spacecraft, that vehicle completes a global 
ring of geosynchronous satellites for protected strategic 
communications. With the fourth AEHF spacecraft, we now have no 
longer that first immediate schedule driver for the first TSAT 
spacecraft. With that as a fact, we are now looking at that 
first block of TSAT spacecraft and how we can best marry its 
capabilities to the schedules of its users.
    Again, with AEHF-4 filling the ring for protected strategic 
communications, we can now rephase the TSAT capabilities so 
that it can service the most important users first, again, 
amongst all the large number of different users it will have.
    We are taking this time from December until this spring to 
rephase the first block of TSAT capabilities and redefine that. 
We are not necessarily married to a 2018 launch. Again, that is 
part of the trade space to link up TSAT capabilities with its 
users.
    Senator Bill Nelson. What you have said is that part of the 
cut in TSAT is justified by the Air Force as a payment for the 
fourth AEHF, and I guess there were other higher DOD 
priorities. So I go back to the initial question. If TSAT is 
still the linchpin for the 21st century net-centric warfare, 
what is the higher DOD priority?
    Mr. Payton. Sir, again, it is a program-management, 
program-risk perspective of properly marrying and fielding the 
TSAT capabilities with its next immediate users.
    Senator Bill Nelson. Did you say that you were on a 2018 
launch date instead of a 2016 launch date?
    Mr. Payton. No, sir. We do not know yet what the first 
spacecraft launch schedule is like until we define the content 
of that first block of spacecraft.
    Senator Bill Nelson. So you don't even know that you are on 
a 2016 launch date?
    Mr. Payton. Any schedule prediction right now is premature, 
sir.
    Senator Bill Nelson. That is some new information.
    Mr. Payton. We are currently in work with both the user 
communities, the Marines, the Army, the Navy, the Joint Chiefs 
of Staff to identify the schedules for their top users. We are 
working with the technology folks, obviously. We have spent 
several years proving the technology readiness at the subsystem 
level. So, we are again in the process of re-architecting that 
first block of TSAT capabilities.
    Senator Bill Nelson. Tell me, if we are going to have this 
kind of delay, is there also going to be a requirement to buy 
more wideband global satellite communications (SATCOM) systems?
    Mr. Payton. That is part of the analysis that is in work 
this spring. Yes, sir.
    General Kehler. Mr. Chairman, if I could also add something 
to what Mr. Payton is saying? Sir, you said it exactly right 
when you said the requirement for warfighting capabilities that 
are promised through TSAT have not gone away.
    We know that the objective here is to get protected 
communications farther and farther and farther down into the 
forward echelons, which allows them to communicate in a 
protected way on the move, and that really is one of the key 
drivers to go beyond where we are right now with the Wideband 
Global Satellite (WGS) and AEHF.
    But we should not lose, sir, sight of the facts, sir, that 
we have just launched the first of what will now be six WGS 
satellites, which are a quantum leap in wideband 
communications.
    We are about to launch within the next year, we believe, 
the first of now four AEHF satellites, which again are in a 
quantum sense far more capable than the systems that they 
replace.
    Military satellite communications remain a top priority for 
the combatant commanders. We understand that it does. We think 
that the steps that we are taking right now are giving them 
vastly improved communications. What this does allow us to do 
with the insertion of the fourth AEHF is to take the investment 
that we have had in TSAT so far, particularly in the ground 
system, which we will have to continue regardless, and it 
allows us now to take the next couple of months to assess what 
the pace and scope of TSAT needs to look like.
    That is the pathway that we are on. There is a study 
underway. It is not a brand-new study. We have looked at this a 
lot of different ways, and we owe you some answers on this.
    Senator Bill Nelson. Admiral, what does the Navy think 
about the delay on TSAT?
    Admiral Deutsch. Sir, obviously, we have stated our 
requirements for protected communications a number of times, 
and how those protected communications are delivered to our sea 
base and our fleets at sea is certainly important. But as long 
as they are delivered, that is the most important thing.
    We are very concerned that the protected communications 
remain available and that they are in sufficient capacity to 
allow us to have the reach-back that we need based upon the way 
we intend to fight the future conflicts.
    Senator Bill Nelson. You said as long as they deliver it, 
but the question is ``when?''
    Admiral Deutsch. Yes, sir.
    Senator Bill Nelson. So what do you think about that?
    Admiral Deutsch. Sir, we certainly are interested in more 
protected communications available as soon as possible. With 
the current schedule, we believe that the sea base will remain 
viable. We would like to see more.
    Senator Bill Nelson. Ms. Chaplain, GAO has been critical of 
this acquisition path for TSAT. What is your assessment of this 
progress, and what is your assessment of this new information 
that we just got today?
    Ms. Chaplain. I think everything that has been described 
today is actually good in that some actions are being taken to 
make the TSAT program more executable, more affordable, and 
also to ensure that there are no capability gaps in the 
upcoming years.
    But I have always said that this investment needs to be 
looked at in the context of the DOD-wide systems portfolio, not 
just space because, as you said, it is the linchpin for the 
future global information grid. There are a lot of huge systems 
depending on this to achieve their kinds of capabilities. I 
think it is not just FCS. So I think when we talk about 
priorities, they need to be discussed in the context of the 
whole portfolio of weapon systems and just not the space 
portfolio.
    In terms of dates being in question, I think it is 
important to go back to all of these major systems and really 
get a good sense of what are their schedule delays. They are 
also facing delays themselves. So is any TSAT revised schedule 
still in synch with schedules like the FCS program, and what 
are their backup plans if TSAT is not available?
    I don't think just saying we can rely on other assets may 
be totally an answer for them. They probably need certain 
capabilities in the TSAT program to do what they are supposed 
to do.
    Mr. Payton. Mr. Chairman, I may have left an improper 
impression. The 2018 date is based on the classic analysis if 
you take so much money out of the program in these years, it 
will then slip the program so many years in the future. We are 
looking at something a little more granular than that or 
something a little more than just dollars out and schedule 
slipped. We are looking at the actual content. Clearly, 
protected communications is the top priority for the TSAT 
program.
    I am just not accepting 2018 and the analysis that led to 
the 2018 as being thorough enough. It could be earlier than 
2018. Again, depending on the needs of the warfighters and the 
TSAT's many, many different customers.
    Senator Sessions. I am sorry, Mr. Chairman. I went to the 
other room, and I had been told you were here. I should have 
remembered that.
    Senator Bill Nelson. I went to the wrong room also.
    Senator Sessions. General Shelton, what is your take, 
Strategic Command's (STRATCOM) view of the TSAT delay?
    General Shelton. Senator, STRATCOM has polled--as General 
Kehler has said, all the other combatant commanders (COCOMs), 
and the other COCOMs have military SATCOM very high on their 
priority lists. So STRATCOM is awaiting this analysis that is 
being conducted right now, anxious to see what the output of 
that analysis will be.
    Clearly, AEHF-4 is a priority now because of the slip to 
TSAT, but we are anxious to see what this analysis in the 
spring will yield.
    Senator Sessions. General Shelton, again, can you tell us 
what role the U.S. space assets and space personnel played in 
the recent successful intercept of our out-of-control National 
Reconaissance Office (NRO) satellite? Was that a joint 
operation? What lessons are we learning from this operation 
about command and control and integration of space assets?
    General Shelton. Yes, sir. It was very much a joint 
operation. In fact, STRATCOM was lead for planning for this 
event, not only for the intercept itself, but also the 
consequence management and dealing with the aftermath of the 
intercept.
    So assets included, of course, the----
    Senator Sessions. Did you decide that the Navy's SM-3 was 
the right vehicle to utilize to take out that satellite?
    General Shelton. Sir, that was General Chilton, in 
consultation with the Joint Staff and, ultimately, the national 
leadership that decided that that was the proper weapon. Yes, 
sir.
    Senator Sessions. Did I cut you off there? I'll let you 
finish?
    General Shelton. Let me just say that between Navy assets, 
Missile Defense Agency (MDA) assets, Air Force assets, a 
tremendous joint effort, probably a national effort pulled off 
in a very short period of time. It is almost unprecedented.
    Senator Sessions. I felt it was a good surprise test for 
the entire effort. It tested a lot of different things, 
including your ability to coordinate. I understand the Air 
Force had a role. What was their role in the process?
    General Shelton. Air Force assets were used to track the 
target satellite.
    Senator Sessions. To track the satellite?
    General Shelton. Track the satellite and produce a very 
precise vector on where that satellite would be, because when 
it broke the horizon for the Aegis shooter, it needed to be in 
a certain size box. We were well inside that box. So it gave a 
very good target for the shooter. The shooter was able to lock 
on, and the results speak for themselves.
    Senator Sessions. Mr. Payton, maybe you can comment on 
that, and did the Air Force incur costs in the course of what 
they were doing? Have they had to defer any other work as a 
result of that?
    Mr. Payton. The tracking sensors that General Shelton 
referred to are something that the Air Force has going on 24-7, 
365. So there's perhaps some overtime for analysts, I honestly 
don't know. But there were no extra immediate costs for the Air 
Force to participate in this exercise.
    Senator Sessions. Are you satisfied with the coordination 
and cooperation of so many entities that were involved in this? 
Did we learn anything that we could do better?
    Mr. Payton. I came from MDA before my current job, and this 
was executed as in a similar fashion as many MDA operations, 
where they do rely on several different assets from the Air 
Force, from the Army, from the Navy, to execute their mission. 
So this was just another routine exercise from the perspective 
of the coordination that was conducted.
    General Shelton. Senator, let me make one other comment on 
that in terms of lessons learned, if I could? The Chinese Anti-
Satellite (ASAT) test as well applies here. But there is a 
tremendous amount of data that is available, but because of the 
way we are architected right now, you have to pull all of that 
data together ad hoc. It is different networks. It is different 
levels of security. There are many different problems in 
pulling that data together.
    Yet again, we did it this time. But what we need is a 
system that pulls this together on a routine basis, and that is 
exactly what we are working for: integrated space situation 
awareness.
    Senator Sessions. I will ask whoever, I am not sure who the 
appropriate person is. But one of the things that I know we 
were concerned about is that the Chinese attack on the 
satellite was 450 miles up above the International Space 
Station, and it was going to create space debris that could 
endanger space activity for years to come.
    This was about 100 miles up, I believe, and we thought that 
the debris would re-enter the atmosphere. That is below the 
Space Station, of course. Did those facts bear out, and how are 
we doing with the debris situation? Were you accurate in your 
projections that the debris would not threaten the Space 
Station?
    General Shelton. Sir, for both the Chinese ASAT test as 
well as the intercept, the models that predicted the debris 
field did a pretty good job. Chinese ASAT test produced debris 
up at 850 kilometers, the engagement altitude, and that debris 
will literally rain down, naturally decay over decades.
    The test that was done occurred at 247 kilometers. That 
debris will probably, 90-plus percent of it, will be down 
within the next 2 months. What we can track right now is 10 
centimeters, roughly. We are tracking about 193 pieces left on 
orbit right now, and that will rapidly decay.
    So very different not only in terms of motivation for the 
event, but very different in terms of debris fallout.
    Senator Bill Nelson. Admiral, let us go to another program, 
the Multiple User Objective System (MUOS), ultra-high frequency 
(UHF)-band communication satellite. It is scheduled to launch 
around March 2010. What is the current status on this? Is its 
launch still on?
    Admiral Deutsch. Senator, I would like to say that it is 
doing fairly well on schedule. As a matter of fact, I think the 
schedule performance index is at about .97 right now. So we are 
still doing very well on schedule.
    Sir, I think the actual launch will be in December 2009, 
with initial on-orbit capability of March 2010. There is 
pressure on the schedule. I won't sit here and promise you that 
that will definitely be the date that it will launch. We are 
now in single-line flow, and with your experience, you are well 
aware of what happens at that time.
    That is where you get into the situations where, if you 
have a problem, you may have to stop and redesign a component. 
We have had a couple of components that have had some issues 
and have eaten up some of the margin. Having said that, we have 
successfully solved those component issues, and we believe that 
we are still on track for the initial launch in the winter of 
2009.
    Senator Bill Nelson. There have been technical issues with 
the ultra-high frequency follow-on (UFO) satellite, so that 
there is likely to be a gap in UHF capability. What is your 
analysis of this gap?
    Admiral Deutsch. Senator, the gap that you referred to is 
the gap between the likelihood or the probability of eight 
functioning satellites on orbit, eight UFOs, if you will. That 
has been established by STRATCOM, in consultation with the 
COCOMs, to be a 70 percent figure is what is desired.
    As of this month, the likelihood that there will be 70 
percent of the satellites still on orbit, that date is now 
within 9 months of the on-orbit capability of the first MUOS. 
So we have about a 9-month gap between the 70 percent 
availability and then a replacement satellite capability, which 
each MUOS not only carries a MUOS package, but also a UHF 
legacy package as well. So about a 9-month gap right now, sir.
    Senator Bill Nelson. Now that capacity, is that the 
commercial UHF capability?
    Admiral Deutsch. No, sir. The commercial capability not 
only the leased satellite (LEASAT) that is currently up and its 
fuel is expected to remain through about 2010, that is not 
factored into the 70 percent availability, nor is the 
commercial UHF capability that we are working on providing as 
part of the President's submit to Congress.
    Senator Bill Nelson. Has the Navy started the process to 
acquire commercial UHF?
    Admiral Deutsch. Yes, sir. Not only leasing, but also a 
hosted payload option. The leasing is besides what we have 
right now on LEASAT, as I just mentioned, we also are working 
on with Intelsat's Skynet. We have money programmed in the 2009 
submittal for fiscal year 2009 and fiscal year 2010 leases. We 
are also in the pre-solicitation synopsis release phase for the 
hosted payload.
    We have an industry day this month, as a matter of fact, to 
talk to industry about potentially hosting a payload. In our 
submittal to you, sir, we have money dedicated towards that.
    Senator Bill Nelson. Senator Sessions.
    Senator Sessions. The Chinese counterspace program by all 
accounts represents a significant commitment on their part. 
Yesterday, DOD released its 2008 report: ``The Military Power 
of the People's Republic of China.'' It highlighted their 
growing counterspace capability, which includes nuclear-tipped 
missiles; direct ascent ASATs, which we have seen; jammers; 
ASAT lasers; and radio frequency weapons. They are also 
building a domestic capability for the production of micro 
satellites, which could be used as space mines or space 
parasites.
    I will just ask this to you, and I am not sure who should 
be in priority to answer it. What value does China see in these 
counterspace weapons? How would they use them in a conflict? 
What do you think their ultimate objective is in terms of size 
and scope of the program? General Kehler?
    General Kehler. Sir, let me try this on. As a force 
provider for STRATCOM, which is what Air Force Space Command 
is, we wind up having to provide the STRATCOM space 
capabilities that can operate during times of conflict, and so 
this is a big issue for us.
    Let me start by saying, though, that as we look at the 
space domain today, the evidence that we see looks to be pretty 
clear. We have to expect that the space domain will be 
contested in any future conflict. We see evidence that 
potential adversaries and others are preparing to deny us the 
advantages that we have in space in lots of different places. 
The Chinese are one of those.
    As we look at them, the answer to the questions that you 
posed, though, is probably the most puzzling to us, and that is 
we don't know. It isn't clear to us what their intent really 
is. In terms of their acquisition, in terms of the ASAT test 
that they conducted a little over a year ago, and what those 
implications are for us for the future.
    What we believe we have to do, though, is be prudent. 
Therefore, we are preparing to have to continue to provide our 
space capabilities in a contested environment. We are working 
very hard on that, and so, sir, I can't answer for you 
directly--I am not sure anyone can answer directly where we 
think the Chinese are going here.
    I did read the report from yesterday. Fundamentally, it is 
information that we have been reporting to Congress in various 
venues. The key question, I think, and the report poses this 
question is ``why?'' What is it that they are doing, and what 
is their intent behind the visible activity that we can see?
    I can tell you that it is concerning to us, and those of us 
that are forced to prepare to provide military capability in 
conflict have to take account of the fact that we see the kinds 
of things that were shown in the report that was issued again 
yesterday. I believe that we are on a good pathway to address 
those. I also want to suggest to you that the Chinese are not 
the only folks that we watch with concern.
    Senator Sessions. I am sure that is true. What about 
Operationally Responsive Space (ORS)? It seems to me that 
throughout our DOD procurement, we need to be looking for 
capabilities that are less expensive and have substantial 
volume and a quick response time and ability to deploy 
promptly.
    I had a professor in college that talked about before it 
became, I guess, so common to think about the Russian tanks and 
the German tanks. The German tanks had leather interior and 
cost a fortune. But, as he argued, all it was was a piece of 
metal with a gun that could hit his target. You get more of 
them, you are better off. So it could be less attractive and 
superb in a lot of ways, but still to be able to do the job 
that we need to be doing.
    So let me ask this, General Kehler first. What are we 
starting to learn from the TSAT-2 experiment that we had in 
terms of, one, developing small technology satellite 
technology; two, improving our acquisition approach to 
satellites and launch vehicles; and, three, operational 
concepts related to warfighter? Would you start off with that, 
and I will ask anybody else to contribute?
    General Kehler. Yes, sir. First of all, I believe you are 
referring to Tactical Satellite (TACSAT)-2, and let me say at 
the outset that improving our responsiveness across the board 
is something that we think is critically important.
    Senator Sessions. What do you mean by ``responsiveness,'' 
for someone who might be listening in and not know what you are 
talking about?
    General Kehler. It covers a range of things for us, as a 
matter of fact. We have chunked this up, if you will, into 
three tiers' worth of what we think about responsiveness. The 
first is how do you make your existing capabilities more 
responsive? My colleagues and I believe that helping ourselves 
on the ground--which may sound a little odd here--is the first 
step to being more responsive. That is, how do we make more 
responsive the things that are on orbit today?
    In many cases, the way we have to go about that is by 
making the ground systems more responsive, using those 
platforms that are on orbit in better and more efficient ways 
and handing information, in many cases, directly from the 
platforms to the warfighters, which is something that the 
warfighters have always demanded.
    So the first step for us is to make sure the existing 
systems are more responsive, and largely, that is something----
    Senator Sessions. More responsive basically to the 
warfighter?
    General Kehler. More responsive to the warfighter in terms 
of being more timely and handing product over to them, whether 
that is imagery or whether that is communications product, 
whatever. Getting that farther down into the warfighting 
echelon sometimes is helpful as well.
    Then the second step for us is how do we make in big terms 
acquisition more responsive to the warfighter needs. As the GAO 
points out, it takes us too long to put things on orbit, and we 
have been addressing those issues. Part of our back-to-basics 
approach, for example, in acquisition, part of acquisition 
corrections that were made as a result of decisions we made in 
the 1990s, et cetera, all apply here. I believe that we can 
even do more in terms of coming up with a strategy that helps 
us to deploy capability sooner.
    In fact, we have people off looking at that and maybe we 
can come back and have a discussion with you at some point 
about the strategy that we have been on, the relatively small 
number of large platforms versus a large number of small 
platforms. Your tank analogy, if you will. I think that is a 
great question for us to ask ourselves.
    Of course, ORS. Then how can we position ourselves to have 
the ability as a national strategic capability to put platforms 
on orbit maybe within months as opposed to years? That is what 
ORS is all about. How do we make that affordable? How do we 
make that achievable? How do we make all of that feasible?
    To come full circle to your question, I think what TACSAT-2 
showed us, which was really the first of the experiments that 
we put on orbit that tries to follow a more rapid, smaller way 
of conducting our business, what that showed us more than 
anything else, more than the technical capability of the 
platform was it validated the concept.
    It validated for us that this makes sense for us to have in 
our toolkit as we try to improve our responsiveness across the 
board that at the one end of our ability to deploy capability, 
we want to have something that can put a smaller platform up 
there, maybe has a single purpose, doesn't last more than a 
couple of years, applies its output directly to the warfighter, 
is controlled by the warfighter, and is something that we could 
have as a replenishment, for example, capability if, in fact, 
we take losses on orbit or augmentation to supplement some 
capability that is up there.
    It is very, very promising to us, and I believe that the 
output of TACSAT-2 was a validation of the concept, not as much 
about the technology, that, we will get better at as time goes 
on. There were technologically good things about TACSAT as 
well, but I think, more importantly, it was a validation of the 
concept. It also helped us understand better where the gaps 
were in the concept. So, it helped us come back and address 
where those are and get those closed.
    Senator Sessions. I guess we know that there is a threat to 
any satellites we put up, that a lot of nations have the 
capability, if they put their mind to it, to threaten those 
capabilities. One response to it would be to be able to put 
another one back up on a very short notice, would it not? Would 
you agree with that?
    General Kehler. Yes, sir.
    Senator Sessions. So I guess my question is, are we moving? 
We talk about it, but my question is, are we moving to have a 
low-cost launch system? Are we going to have a low-cost 
satellite that would meet just those qualities and capabilities 
you mentioned for the warfighter and make sure that at least 
the people we have in harm's way are able to maintain the 
capabilities of our FCSs that all require satellite capability?
    General Kehler. The answer, Senator, is, yes, sir, we are.
    Senator Sessions. Secretary Payton, do you want to comment?
    Mr. Payton. One of the critical elements of shortening that 
timeframe to be more responsive to the COCOM is to shorten the 
amount of time it takes to assemble the spacecraft and put the 
requisite payload sensors on that spacecraft. That is called 
plug-and-play spacecraft.
    We currently have four TACSATs that have been defined. One 
has been launched. The other three are in different stages of 
preparation for launch. The fifth TACSAT will fly that 
conceptual plug-and-play spacecraft, a demonstration where we 
can plug together a spacecraft similar to the way laptop 
computers are plugged together after you phone the company and 
say, ``I need this kind of hard drive and this kind of memory 
and this kind of display.'' They plug-and-play a laptop for 
you. That is the same construct that we will demonstrate on 
TACSAT-5.
    Senator Sessions. It seems to me we would want to have in 
inventory some satellites that, I don't mean weeks, I mean 
within days, could replace one that fails or is damaged in some 
fashion. Is that part of your vision?
    General Kehler. Yes, sir. Again, we are headed in that 
direction. I would describe the current ORS effort, though, in 
crawl, walk, and run terms. We are crawling. I believe we are 
about to start walking.
    When we cross those thresholds, what we are doing with the 
ORS program right now is we are essentially developing the 
piece parts that allow you to get to a more and more and more 
responsive solution. When you get there, I believe you are then 
to the point where if you decide, some things may go on the 
shelf for immediate use, some things may be assembled and 
purchased within months, which may be sufficient to respond to 
warning. We will have the capability----
    Senator Sessions. I see the fiscal year 2009 through the 
fiscal year 2013 budget calls for $550 million for ORS. It 
appears to me to be modest. Who wants to comment on that? You 
are required to answer. What do you think?
    Mr. Payton. I will give that a shot, Senator. Again, we 
have to crawl, walk, run. Our first investments are into what 
we call enablers, like the plug-and-play spacecraft, like a 
spacecraft control center that can handle more than one kind of 
satellite constellation at a time, a multi-mission spacecraft 
operations center, where one person flies a certain kind of 
satellite in the morning and that same person is trained and 
qualified to fly a different kind of satellite in the 
afternoon.
    Additionally, we have to improve some of our ground support 
equipment. Right now, there is a launch vehicle called the 
Minotaur. We can only process one Minotaur at a time. Now we 
may need to be in the business of processing a Minotaur up in 
Kodiak, AK, for a launch and at the same time, one out of 
Wallops Island here in Virginia.
    So we have to invest in some of the fundamental enablers 
that sometimes are exotic, but typically are not. Those are 
where we are putting our money right now. Equally important, we 
are working with STRATCOM, who represents the combatant 
warfighters--the geographical combatant warfighters in this 
case--and quantifying what sort of capabilities, what sort of 
needs do those theater COCOMs have for systems like ORS. So, we 
are in the business operations side of it, quantifying what the 
theater commanders need, while additionally in parallel, we are 
working on those enablers that allow us to migrate from crawl 
to walk to run.
    Senator Bill Nelson. Admiral, with regard to this ORS, are 
you satisfied you are part of this? You have at least one 
senior scientist in the office.
    Admiral Deutsch. Yes, sir, we are satisfied. We would like 
to play a larger role. We certainly would like the Naval 
Research Laboratory, which has a pretty distinguished history 
in space and has a lot of talent, to also play a larger role. 
We are working it through the requirements process.
    Of note, like the fellow Services, we are strongly in favor 
of making the ORS office a joint office with a rotating 
director. This year, we will nominate an individual to perform 
as the director of the ORS office. So if we are lucky, we would 
certainly like to have that individual serve, and we look 
forward to, as General Kehler and Secretary Payton mentioned, 
advances in ORS.
    We think there is a need for it within Navy's requirements. 
There will be a growing need, as recent events have shown, in 
the future to be able to rapidly replenish and to put 
capability on orbit.
    Senator Bill Nelson. Do any of you all need any new 
authority to make the office more efficient, more effective?
    Mr. Payton. We looked at that closely. Initially, we 
thought there were all sorts of inhibitions to an organization 
like we have in Albuquerque. Come to find out the single 
largest benefit would be if their money were all research and 
development (R&D) money, instead of being divided up into 
procurement or operation and maintenance or science and 
technology (S&T) money. If all of their budget were single 
color money, R&D money, that adds a lot of flexibility to how 
rapidly they can respond to warfighter needs.
    Senator Bill Nelson. There was an issue about the 
electronic intelligence payload on TACSAT-2. What was the 
issue, and what was the resolution, and what was the lesson 
learned?
    General Shelton. Senator, the problem was signal 
intelligence operational tasking authority, and that is the 
purview of the National Security Agency (NSA). So getting that 
authority had not been worked out ahead of time. That is one of 
the key lessons learned from TACSAT-2. That, I am confident, 
will never happen again. We will work that well ahead of time 
and get the NSA's permission to have that operational tasking 
authority that is needed.
    Senator Bill Nelson. TACSAT-1 is supposed to launch this 
June or July. Are you ready to go? Are all of the issues 
resolved?
    General Shelton. To my knowledge, Senator, we are ready to 
go. I think it is more of a booster problem than anything.
    Senator Bill Nelson. Ms. Chaplain, GAO has been looking at 
the standup of the ORS office. What do you say?
    Ms. Chaplain. As you can hear the talk about ORS today, you 
realize that there are a lot of efforts involved with this 
program. Many on the short-term side, which involve developing 
these TACSATs and launching them, and also addressing potential 
capability gaps in some of the acquisition programs.
    There is also a very long-term effort to ORS to get to this 
vision of having satellites on the shelf ready to go at any 
moment. In addition to plug-and-play, that includes having 
common interfaces, having well-understood common design 
practices, and also having low-cost launch. Our concern, while 
we thought the ORS effort is doing a pretty good job of 
standing up the program office and getting staff and 
progressing with these S&T efforts, our concern is that over 
the long run, there is a chance that some of these short-term 
demands may end up overwhelming the long-term effort.
    So we have to keep our eye on things like getting low-cost 
launch and keeping up with the design effort and things like 
interfaces. So, in our review, we are going to be recommending 
that there be an investment strategy to help guide this program 
office. It is a small office. It doesn't have longstanding 
clout, like a huge acquisition program has. So it may have 
trouble negotiating a lot of the demands being placed on it if 
it doesn't have strategy and good support from above.
    General Kehler. Sir, if I could add something to that? 
Inside Air Force Space Command, we now have the Space and 
Missile Systems Center, the large acquisition house. A key 
issue for us all along here for ORS has been how do we attach 
the ORS office so that it can leverage the capabilities that 
are brought in, the money that is brought by the Space and 
Missile Systems Center.
    We are still working our way through that. The way we have 
done it today is that we have dual-hatted the director of the 
ORS office. So not only is he the director of the ORS office, 
but he also has a role in the Space and Missile Systems Center.
    That has been very helpful to us. It is a joint office. So, 
regardless of where we go with the leadership, we intend to 
make sure that relationship remains in whatever way we can make 
that happen because GAO is exactly right, that there has to be 
some attachment here for a smaller organization that will have 
to leverage the larger organization. We are committed to making 
that happen.
    Mr. Payton. Speaking on organizations, again, the ORS 
office has Air Force, Army, and Navy people onsite in 
Albuquerque. Additionally, there is a NASA representative 
onsite in Albuquerque from NASA Johnson Space Center, and even 
an NSA person is assigned there now, again to help us with the 
lessons that we learned from the first TACSAT-2.
    Senator Bill Nelson. Back on the issue of debris, General 
Shelton, what is your modeling and simulation roadmap?
    General Shelton. Right now, Senator, we have an Aerospace 
Corporation effort that provides that modeling and simulation 
capability for debris. That is also peer reviewed by some NASA 
work, and I think there are very consistent results between 
NASA's modeling efforts and aerospace's modeling efforts. So I 
think we have the best of all worlds here, where we have 
experts in DOD, experts in NASA whose results agree very 
closely.
    Of course, NASA is focused on the manned spaceflight side 
of things, and DOD is focused on the broader issues of 
spaceflight. But to have that agreement, I think we are doing 
very well on debris modeling.
    Senator Bill Nelson. On this same issue, we had to move 
some satellites to avoid debris from the Chinese. Has there 
been any satellite that has been damaged by the debris?
    General Shelton. Not to our knowledge, Senator. We have 
moved a couple, as you are aware. But neither of those resulted 
in damage, nor anything that we have seen to date that we can 
track that back to debris from the Chinese ASAT test.
    Senator Bill Nelson. All right, and what have your models 
shown that the Chinese debris is no longer going to pose a 
risk?
    General Shelton. It will be decades before all of that 
debris is down. Now, having said that, the models put the 
overall spaceflight risks on the order of 10 to the minus 6, 
which is 1 in 1 million. But that is if you take great solace 
in probabilities.
    Senator Bill Nelson. Okay, I am going to go to the Space-
Based Infrared System next. Senator Ben Nelson, did you want to 
get in on any of these issues we have discussed thus far?
    Senator Ben Nelson. I am not sure I know all of the ones 
that have been discussed so far, but I do have a couple of 
questions.
    Senator Bill Nelson. Go ahead, and then you finish and we 
will let you take off.
    Senator Ben Nelson. Okay. Thank you, Mr. Chairman.
    First, I want to welcome all of you here today. Thanks for 
your service, and much of what you are involved with today is 
clearly going to assist us in this global war of terrorism.
    My first question relates to the recapitalization and 
modernization. General Moseley has already said that the Air 
Force needs to recapitalize and modernize its fleet of both 
air-breathing and space systems. Of course, we are familiar 
with the new fighters, new bombers and tankers, and everything 
that is on the drawing board as well as those that have not 
been financed so far.
    But as we look at the Space Command, what space systems 
might be old and failing? I am thinking in part about all of 
the assets that are in the ground out in Nebraska and other 
areas, the missile systems that are there. Consequently, would 
that be part of the recapitalization to try to extend the life 
20 to 30 years of some of those assets that are already in the 
ground there?
    I guess I would ask you, Secretary Payton?
    Mr. Payton. Yes, sir. We have a plan to go to 2020 with our 
Minuteman fleet, and we have just finished a series of 
significant upgrades to that fleet. As we conduct aging tests 
with the technology in that fleet, we will be able to judge 
more accurately, but we think the technology improvements we 
have made recently can probably go to 2030.
    So we do know certain areas of the missile system that will 
need upgrading--avionics in the guidance package, for 
instance--but we are confident that we can get at least to 2020 
and high likelihood to 2030 with the upgrades that we have just 
finished for the Minuteman.
    Senator Ben Nelson. Do the generals agree with that?
    General Kehler. Sir, let me put a little bit finer point on 
what Mr. Payton has said. The Air Force Space Command does, in 
fact, have responsibility for the Nation's land-based 
intercontinental ballistic missile force. Congress has 
approved, over the last 5 or more years now, almost $7 billion 
in service life extension, if you will, to Minuteman. We are 
getting to the end of that time.
    We are very confident that we can take Minuteman to 2020. 
This has been service life extension of the boosters, the 
guidance system, the bus that carries the payloads if the need 
should arise, et cetera. We have also made some substantial 
investment in security improvements with additional concrete on 
the launch facilities, remote cameras, and other things. So we 
are very confident we can go to 2020.
    You in Congress have asked us about going from 2020 to 
2030, and quite honestly, we are still looking at that very 
hard. There is one school of thought that says that we can go 
to 2030, and I tend to think that is possible. But what I don't 
know is what additional investment will be required to do that, 
and so, we owe you some answers on that.
    We owe ourselves some answers on that as well. I am not 
ready to stand up and say that system definitely can go to 
2030. It looks like the work that has been done and the 
congressional support that has gone on so far puts us in a good 
position for that, but I think it is fair for us to take a 
harder look.
    We have never gone there before, sir, and much like some of 
our aging aircraft that we had some issues with, we don't know 
what Minuteman as a system behaves like when it gets over the 
age of 50 or 60 or approaches 70. So, that is something that we 
are going to have to come back and tell you.
    Senator Ben Nelson. In that regard, 5 years ago, the Deputy 
Secretary of Defense signed out a policy letter designating the 
Air Force as the executive agent for space. That seems to have 
been successful for us because at least the back-to-basics 
approach seems to generate what we would hope in the way of 
expertise as well as a plan.
    But the position of the Under Secretary of the Air Force is 
vacant, and I guess, Mr. Secretary, what is the Air Force's 
view regarding that position, if you know? Will it remain 
vacant until the end of the administration's time, and is the 
Air Force's view of the executive agent still operative today?
    Mr. Payton. Yes, sir. The DOD instruction, the DOD document 
that empowers the executive agent for space says that the 
Secretary of the Air Force is the executive agent for space. 
That individual can delegate that to the Under Secretary of the 
Air Force. The Under Secretary position is vacant right now. I 
cannot predict if it will be filled. It is a nominative, 
confirmed position.
    But we are fortunate in that Secretary Michael W. Wynne, 
the Secretary of the Air Force, is extremely knowledgeable in 
the space business, both launch vehicles and ground control 
segments and satellites, due to his background.
    Senator Ben Nelson. I certainly wouldn't suggest that he is 
not knowledgeable. I guess my concern is that without that 
position being filled, that he already has enough to do without 
taking on the Under Secretary's position. Or if he could do it, 
maybe we don't need the position of the Under Secretary?
    I am just hopeful that we won't saddle the Secretary with 
more than we should.
    Mr. Payton. Yes, sir.
    Senator Ben Nelson. Based on the fact that position is 
there.
    Mr. Payton. Sir, again, I cannot project into the future if 
there will be any nominees or anyone that----
    Senator Ben Nelson. Maybe I should call him and ask him, 
huh? I won't tell him you suggested that. It was my idea.
    One final thing, with the end of the Cold War, there seems 
to have been a pause in our investment in the U.S. nuclear 
community. So, in a February 10th LA Times article, the U.N.'s 
chief watchdog, Dr. Mohammed El Baradei, warned that the most 
imminent threat is not a new nation joining the nuclear club, 
but rather deadly material falling into the hands of 
extremists.
    With the risk of extremists pursuing dirty bombs, as we 
know, and also concern about anti-proliferation, are we in a 
position where we need to reinvest in new personnel and in new 
technology and new assets in this area? I guess I would ask 
you, General Kehler.
    General Kehler. Sir, first of all, proliferation concerns 
us very much. Attempts at counterproliferation, of course, are 
ongoing at all levels. In terms of our own nuclear forces, I 
can speak for, again, land-based strategic deterrent inside Air 
Force Space Command. When I took my job in October, the first 
question that I had was are we being good stewards of the 
Nation's land-based strategic deterrent? The answer that I came 
to was, yes, we are.
    I did that in a combination of visits to our field 
commanders, some assessments that our field commanders had 
done. The fact that we went back and reviewed the standards 
that we have for our nuclear activities, which, by the way, 
have been in existence for over 50 years now and, in some 
cases, since the end of the Cold War, have gotten more 
stringent.
    But what has changed since the end of the Cold War, there 
are some things out there that concern me. One is security. The 
good news is that the number of weapons since the end of the 
Cold War have declined drastically, and that is good. That is 
the way all of us wanted--
    Senator Ben Nelson. That is assuming that we know where the 
decline, where those that have declined are resident right now. 
Is that right?
    General Kehler. Yes, sir. We certainly do. We know where 
ours are.
    Senator Ben Nelson. Yes, but I am obviously concerned about 
where ours are.
    General Kehler. Yes, sir.
    Senator Ben Nelson. But I am less concerned about that than 
perhaps where the others are.
    General Kehler. That is the proliferation issue. What we 
have seen, again, in our own house is certainly with the 
decline in numbers came the decline in number of people 
associated with the nuclear mission, which inherently in that 
decline in the number of people, we have a decline in 
experience, and that is what concerns me.
    So we have done a number of studies in the Air Force, and 
those outside the Air Force have helped us look at this, in the 
last 6 months or so. There have been a number of 
recommendations made that we are now in the process of 
implementing to try to make sure that our experience base is 
firm, that we have made the investments that we need to make, 
that we are complying with our standards, that we have not 
taken our eye off of this most important, in my view, of all 
the balls that we have.
    So, we are addressing some recommendations at this point in 
our command that get to, for example, even increased security 
beyond where we find ourselves today. It gets to some changing 
in operating concepts and the way we do our business in the 
missile complexes to put security and surety first. So, I am 
very comfortable that we are on the right paths.
    I will remain concerned about our experience level. We have 
gone back to basics on that as well. We are going to make sure 
that we have done everything we can do to grow people with the 
appropriate experience, and we will pay attention to that and 
are already paying attention to that in many different ways.
    So the long answer to your question is I believe that we 
can have high confidence in the way we are operating our land-
based deterrent force today. I am concerned about 
proliferation. Of course, that is a concern across the board 
with us, and we do have some issues to go address in light of 
some of the reviews that we have done recently, and we will go 
address those.
    Senator Ben Nelson. Will the authorization request that we 
have, and are looking at, adequately handle the staffing 
requirements that you are talking about with developing the new 
expertise or the expertise in light of where we are today, and 
is at all adversely affected by the reduction in end strength 
within the Air Force?
    General Kehler. Again, speaking from within my command, I 
do believe we are adequately addressing this. This is largely 
the use of the people that we have, and it is making sure that 
we are fostering the development of certain folks who, from 
second lieutenant all the way up, are going to be developed as 
nuclear experts. I think we have a commensurate concern with 
the laboratories and elsewhere across the nuclear enterprise of 
whether we have the appropriate experience, whether we have the 
appropriate industrial capacity here to do what we need to do, 
and I think those are all good questions that are being 
addressed.
    Senator Ben Nelson. Okay, as long as the budget request is 
adequate for that. Because what I don't want to find is that, 
for example, the Air Force budget for planes and so forth is 
inadequate to the tune of $20 billion per year for each of the 
next 5 years, which is outside the budget and not part of the 
authorization request at all, but we are going to be presented 
with trying to deal with that.
    I hope there are no surprises of that kind dealing with the 
nuclear arsenal and the space issues.
    General Kehler. Sir, again, I can't speak outside my 
command. I can tell you that inside the command, I believe that 
we are adequately resourced.
    Senator Ben Nelson. Okay, all you can do.
    General Kehler. I will also add, though, if I may? One of 
my concerns in extending Minuteman from 2020 to 2030 is beyond 
the boosters, et cetera, it also goes to the weapons and 
whether we will have the appropriate industrial capacity to do 
everything we need to do for the weapons.
    Senator Ben Nelson. When will you know what would be 
required?
    General Kehler. Those assessments go on all the time. In 
terms of the stockpile, the warhead stockpile, those 
assessments are going on constantly. What we don't know yet is 
what we don't know about how some of these things age.
    Again, there are other efforts underway to make sure that 
we don't find ourselves in a very awkward position, and there 
are other folks besides me working with other committees here 
on the Hill to take a hard look at the weapons complex itself. 
I can't speak for that here other than as a consumer, as a 
customer of that, making sure that we are addressing it.
    Senator Ben Nelson. I understand.
    Thank you, Mr. Chairman. You have been very tolerant. Thank 
you.
    Senator Bill Nelson. Senator Thune?
    Senator Thune. Thank you, Mr. Chairman. I thank you all 
very much for your service and for being here today.
    I know the Chairman is anxious to move into closed session, 
but I wanted to find out and maybe these are questions that 
could be asked in that setting if they can't be answered in 
open session. But I wanted to get to this issue of the 
shootdown of the malfunctioning spy satellite a few weeks ago. 
I applaud the Navy's successful shootdown, but I also, at the 
same time, want to touch a little bit on the cost of a 
malfunctioning satellite because, obviously, whenever we shoot 
down something like that, we are blowing up a large amount of 
money on that particular item.
    So, I guess to the extent that you can discuss this in open 
session, I am curious to know, do we know what the malfunction 
was? What caused it? What is the cost of losing that satellite? 
Perhaps then maybe the question about how do we hold the 
contractor accountable? Do they reimburse the Government? Those 
sorts of questions, if anybody, Mr. Secretary, can answer that?
    Mr. Payton. I believe what we can say at this juncture is 
that it is an NRO satellite that was the target, and that is 
the limit of what we can say in this forum.
    Senator Thune. Okay, so those are all questions for another 
time.
    Senator Bill Nelson. If you can go with us to S-407?
    Senator Thune. That is where we are going to go next?
    Senator Bill Nelson. Yes. Ask that same question there.
    Senator Thune. Okay.
    General Kehler. Yes, sir. However, I would just add one 
other thing here. None of us sitting here represent the 
National Reconnaissance Organization (NRO) today.
    Senator Thune. Right.
    General Kehler. So I know I can't answer the specifics of 
your question. So I don't want to create an impression that we 
can go somewhere else and answer. I can't, and I don't think 
anybody else at the table can either.
    Senator Thune. Okay, let me ask, Mr. Secretary, last month 
the Chinese and Russians put forward a treaty proposal that 
would ban space programs. I am wondering if you could comment 
on that proposal and what the administration's position is on 
the general principle of a space weapons ban?
    Mr. Payton. Yes, sir. The presidential policy from August 
2006 on space says that arms control agreements or restrictions 
must not impair the rights of the United States to conduct 
research, development, testing, or operations in space. That is 
founded on a couple of principles. As a military acquisition 
group, we respond to what the President would say, clearly. But 
some of the difficulties of a space treaty of some sort would 
revolve around definitions and verification.
    Some of the best strategic treaties in recent memory have 
been founded on trust, but verify. So the verification regime 
would be very difficult for space weapons. For instance, a 
routine satellite that is up there doing a normal job could, 
toward the end of its life, as its last act, run into another 
satellite and, therefore, become an ASAT.
    So it is how do you verify that it won't do that? How do 
you define an ASAT in the first place? Early in the Shuttle 
era, the Soviet Union was concerned that the Space Shuttle was 
an ASAT, which, of course, it could not be. So the basic 
fundamentals of trust, but verify would be fundamentally 
impossible to do in space.
    Senator Thune. I know you have exhausted the Chinese ASAT 
test last year, and you talked, I think before I got here, 
maybe a little bit about the whole issue of proliferation. But 
I am curious to know if the panel could discuss how the notion 
of prompt global strike fits into countering those types of 
ASAT attacks. General?
    General Kehler. Yes, sir. I will take a stab at this, 
again, as a force provider for STRATCOM. The commander of 
STRATCOM has asked us to participate with both the Navy and the 
Army in investigating technologies and how we might give to him 
a capability to do prompt global strike. The objective is 
deterrence.
    At least from our perspective, as we would be looking to 
provide such capability to STRATCOM, the objective would be to 
enhance our deterrent posture. In any ways that we can enhance 
our deterrent posture, we think that we are preventing, 
hopefully, a conflict to begin with. If we can prevent a 
conflict, then we are into this discussion of a contested space 
domain as part of a conflict.
    So our view is that this has potential to contribute to our 
deterrent posture and in that way gives the commander of 
STRATCOM another arrow, if you will, in the quiver to use 
potentially in a conflict and, therefore, could hold some very 
important things around the world at risk. Whether that is a 
proliferating weapon that we discover somewhere or whether 
those are other kinds of targets, the commander of STRATCOM has 
seen the need to be able to hold those risks.
    Senator Thune. Okay.
    General Shelton. Senator, as we think through the threats 
to our space systems, some of them are ground based, some of 
them are space based. But in dealing with the ones that are 
ground based, our only option right now seems to be a kinetic 
strike against that ground-based asset that is engaging our 
space assets.
    That leads you down that road of prompt global strike. You 
also could consider a non-kinetic computer network attack or 
something like that, if you could get into the network, if they 
were even reliant upon a network, which is a huge intelligence 
challenge to start with. But as we think about either 
reconstituting or augmenting, you have to consider that that 
threat is still extant and deal with that threat on the ground 
before you put something into space and put it at risk just 
like the thing that was just taken out.
    So it is a complex problem, and as General Kehler said, 
dealing with that threat on the ground with some sort of weapon 
has to be a priority for us if we are going to consider 
contested domain as part of a conflict.
    Senator Thune. Thank you, all. Thank you, Mr. Chairman.
    Senator Bill Nelson. Secretary Payton, are you going to be 
able to answer his question in classified session?
    Mr. Payton. I am not knowledgeable on the details of the 
NRO spacecraft.
    Senator Bill Nelson. Now, your boss would be the Assistant 
Secretary, would he not?
    Mr. Payton. I work for Secretary Wynne.
    Senator Bill Nelson. Right. The Assistant Secretary 
position is vacant, isn't it?
    Mr. Payton. Under Secretary is vacant, yes, sir.
    Senator Bill Nelson. Under Secretary. That is the one that 
is dual-hatted?
    Mr. Payton. When the Under Secretary job is vacant, Mr. 
Wynne is dual-hatted.
    Senator Bill Nelson. He is also the Secretary of the Air 
Force and the Executive Agent for Space?
    General Kehler. I think he is talking about NRO.
    Mr. Payton. NRO. No, the dual-hatted position for both 
military space and NRO, that dual-hatted position evaporated in 
2005.
    Senator Bill Nelson. Okay. So to get Senator Thune's 
question answered, are you saying that there is nobody in your 
bailiwick, including the Secretary of the Air Force, that can 
answer that question, that we would have to go to the head of 
the NRO?
    Mr. Payton. That is accurate. Yes, sir.
    Senator Bill Nelson. Would the Director of National 
Intelligence be able to answer the question?
    Mr. Payton. If he could not answer it immediately, he could 
get it for you, to be sure.
    Senator Bill Nelson. Okay, and is there anybody in DOD that 
could get it? Could the Secretary of Defense get it?
    Mr. Payton. I could ask the question and run down the 
answer for you. But again, the spacecraft was an NRO 
responsibility.
    General Kehler. Senator, it isn't about us being able to 
get the answer. I just wanted to point out to you that those of 
us sitting at the table don't have the answer.
    Senator Bill Nelson. The head of NRO jointly reports to the 
DNI and the Secretary of Defense.
    Mr. Payton. Yes, sir.
    Senator Bill Nelson. So we could get it from either one of 
them. All right. What we need to do is to move quickly to S-
407, and we will resume in classified session. We will submit 
written questions for the record that we haven't had time to 
ask here. We are adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
                   evolved expendable launch vehicle
    1. Senator Bill Nelson. Mr. Payton and General Kehler, I recognize 
that this has to be a rough ballpark estimate as each launch will carry 
different satellites and booster configurations, but we need some rough 
estimate to determine if there are really savings to be achieved from 
the creation of United Launch Alliance (ULA). What is your best 
estimate as to what an average evolved expendable launch vehicle (EELV) 
launch costs?
    Mr. Payton and General Kehler. There are five classes of launch 
vehicles with a corresponding cost for each class used in the budget. 
The fiscal year 2009 EELV Launch Services costs follow:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                                Fiscal
                            Class                              Year 2009
------------------------------------------------------------------------
Medium......................................................      85.614
Intermediate
  Small.....................................................     102.405
  Medium....................................................     124.792
  Large.....................................................     146.060
Heavy.......................................................     207.624
------------------------------------------------------------------------

    Costs associated with EELV missions are distributed between two 
contract structures: EELV Launch Capability (ELC) provides the minimum 
capability required for the United States to maintain assured access to 
space and EELV Launch Services provides for booster production, 
materials and touch labor.
    ELC is a ``must-pay'' bill and provides a minimum national 
capability for space launch. This allows the Air Force to comply with 
the direction of the National Space Transportation Policy. The ELC 
contract funds both families of launch vehicles to a basic minimum 
capability (support four launches, surge to five launches, per family 
each year).

    2. Senator Bill Nelson. Mr. Payton and General Kehler, when do you 
expect to see the beginning of savings from the creation of ULA, and is 
the advertised 25 percent cost savings realistic?
    Mr. Payton and General Kehler. The formation of ULA will result in 
cost savings to the Government. The fiscal year 2008 President's budget 
reflected savings beginning in fiscal year 2011 as the ELC contract 
budget line was reduced by $105 million (the Air Force share of $105 
million annual savings to the total program based on a 70/30 cost ratio 
between the Air Force and the National Reconnaissance Organization 
(NRO)) as shown in the table below. As far as projected ULA cost 
savings being realistic, the proposed savings are currently being 
evaluated by Defense Contract Management Agency and Defense Contracting 
Audit Agency.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Historically, the 25 percent savings, as defined in the EELV 
Operational Requirements Document (ORD), was used to measure savings 
for EELV over heritage launch costs. The program is currently exceeding 
the 25 percent savings. The program has always met this objective with 
the current savings at 45 percent.

                          using the espa ring
    3. Senator Bill Nelson. Mr. Payton and General Kehler, the March 
2007 Air Force Space Test Program (STP) launch was the first time the 
EELV secondary payload adapter (ESPA) ring was used and with remarkable 
success, launching seven satellites from the adapter ring. This seems 
to be a ready option for more space test launches or for operationally 
responsive space (ORS) launches that should be used whenever possible. 
What are the plans to use the ESPA ring on future EELV launches?
    Mr. Payton and General Kehler. The Air Force has a goal to launch 
at least one ESPA ring mission per year beginning in fiscal year 2012. 
Implementation of the ESPA ring program is an important milestone in 
our efforts to provide affordable access to space for scientific, 
research, and development efforts. This secondary mission is contingent 
on missions with excess margin and appropriate launch profiles, 
spacecraft availability, funding availability, and acceptable 
operational mission risk.

    4. Senator Bill Nelson. General Shelton, do you think the ESPA ring 
could be used for more ORS launches?
    General Shelton. ESPA rings could enable more ORS launches. ESPA 
rings on all EELVs would reverse the downturn in the size of the 
Secondary Test Program (STP) launch manifest that has declined mostly 
as a result of fewer space shuttle opportunities. For example, the 
percentage of Navy STP experiments lifted into space declined from 2000 
when 23 percent were launched, to 2005 when only 5 percent launched.
    ORS could use the ESPA for S&T/R&D development in the same manner 
as STP does. ORS could also use ESPA for other activities provided the 
schedule and orbit are flexible, and the capability can be achieved 
with less than 200kg.

    5. Senator Bill Nelson. Admiral Deutsch, would the Navy be able to 
utilize or have an interest in using the ESPA ring for small satellite 
launches?
    Admiral Deutsch. Yes, increased use of EELVs equipped with EELV 
ESPA rings would help reverse the downturn in STP launch manifest slots 
resulting primarily due to declining space shuttle opportunities.
    Navy STP experiments reaching space declined from 2000 when 23 
percent were launched, to 2005 when 5 percent were launched. The EELV 
program will have thousands of pounds of excess throw weight. The smart 
use of this excess EELV capability would help to reinvigorate Navy 
space S&T. At least nine Navy current payloads have weight and orbital 
parameters that are compatible as a secondary payload for an ESPA-class 
launch.

                     operationally responsive space
    6. Senator Bill Nelson. General Shelton, a lot has happened with 
ORS since last year. The ORS office was stood up in May and the 
Strategic Command (STRATCOM) issued an initial concept of operations. 
From a STRATCOM perspective, what are the goals and requirements for 
ORS?
    General Shelton. STRATCOM's intent is to assure and enhance the 
space contribution to joint warfare by enabling timely support to 
emergent needs of Joint Force Commanders (JFCs) and other users. 
STRATCOM has expressed three desires with regard to ORS: first, to 
rapidly exploit and infuse space technological or operational 
innovations; second, to rapidly adapt or augment existing space 
capabilities and when needed to expand operational capability; and 
third, to rapidly reconstitute or replenish critical space capabilities 
to preserve operational capability.

    7. Senator Bill Nelson. General Shelton, is there anything--
capabilities, experiments, or analysis, etc.--that you want to see the 
office do that is not planned now, either in the future or in addition 
to what the office is doing now?
    General Shelton. I believe the ORS office is on track with their 
approach to pursuing responsive capabilities. We work closely with the 
ORS office, and provide them operational needs and operational 
perspective as they pursue initiatives. Clearly this is still a work in 
progress, but the vector is certainly positive.

    8. Senator Bill Nelson. General Kehler, what is your organizational 
vision for the ORS office?
    General Kehler. The ORS office currently operates under the 
authority, direction, and control of the Department of Defense (DOD) 
Executive Agent (EA) for Space. The Director of the ORS office reports 
directly to the DOD EA for Space for program execution. Air Force Space 
Command (AFSPC) is posturing itself to meet ORS expectations of 
executing projects under highly accelerated timelines. DOD understands 
the benefits and limitations of the current organizational structure 
and is prepared to reanalyze the organization of ORS after an 
appropriate amount of time has passed to observe ORS execution.
    The ORS concept is maturing and will continue to develop throughout 
the first few years of execution. The current focus of ORS is 
developing architectural concepts and enabling technology for 
responsive space. A joint office with an abbreviated chain of command 
provides a great opportunity to maximize the contributions of the 
Services and agencies.
    At some point in the future, the responsive space concept will need 
to shift from the technology demonstration phase into fielding 
operational systems. The Services, and in particular the Air Force, are 
charged with the responsibility for organizing, training, and equipping 
joint military forces for space operations. AFSPC takes this Service 
responsibility seriously and intends to work closely with the ORS 
office to plan for the transition of the concepts they develop into the 
Air Force organizational structure. We believe that the right place for 
a jointly staffed responsive space program office is as part of AFSPC. 
We look forward to fully integrating responsive space concepts into our 
portfolio of space programs.

    9. Senator Bill Nelson. General Kehler, are you getting cooperation 
from other entities?
    General Kehler. Yes, we are getting cooperation on ORS. Each of the 
Services and several government agencies have provided representatives 
to the ORS office. The two recent examinations of urgent STRATCOM 
requirements in communications and space situational awareness (SSA) 
involved the joint participation of all the different defense space 
organizations. We achieved superior responses to these needs by 
capitalizing on the different institutional capabilities.

    10. Senator Bill Nelson. Admiral Deutsch, I understand that the 
Navy has at least one senior scientist in the ORS office. What else can 
ORS bring to the Navy and can the Navy bring to ORS?
    Admiral Deutsch. What can Navy bring to ORS? Navy recently 
transferred an 0-5 Space Engineering billet to the ORS office and Navy 
is working to find the best qualified individual to fill the position 
given constraints on the force due to other commitments such as global 
war on terror and sea duty demands. The ORS office should avail itself 
of the work performed by the U.S. Naval Research Laboratory (NRL) and 
continue to use NRL's proven ability to develop and transition 
operationally-relevant capabilities as they have done over the last 50 
years using integrated government and industry teams. NRL also has 
exceptional assets, such as Blossom Point Ground Station, which have 
capacity and many of the characteristics needed to support ORS.
    What can ORS bring to Navy? Being forward deployed, naval forces 
are often the first responders in a crisis and are heavily dependent on 
space capabilities to support planning and operations. The ability to 
augment and reconstitute space capabilities, especially in denied 
areas, is critical to winning in maritime-dominated major conflict 
operations. ORS can help meet warfighter end-to-end needs for 
intelligence, surveillance, and reconnaissance (ISR) programs, 
communications, battlespace management, command and control, position, 
navigation and timing (PNT), and meteorological support. ORS resources 
could provide Navy with flexible options to protect and extend space 
capabilities in denied and restricted environments, reducing the impact 
of satellite vulnerability and reducing risk in strategic and tactical 
warning.

    11. Senator Bill Nelson. Mr. Payton, General Kehler, General 
Shelton, Admiral Deutsch, and Ms. Chaplain, are there any new 
authorities that the ORS office needs to operate more efficiently or 
effectively?
    Mr. Payton and General Kehler. The ORS office does not currently 
require any additional authorities to achieve the desired results. 
However, the greatest benefit to the program would be to receive all 
funding as research and development (R&D) funding instead of being 
divided into procurement or science and technology (S&T) funding. 
Having the ORS budget as R&D would add flexibility and speed in 
responding to warfighter needs.
    General Shelton. From a STRATCOM perspective, the ORS office has 
the authorities required for success. As the staffing levels mature in 
the ORS office, we expect their efforts and effectiveness will increase 
commensurately.
    Admiral Deutsch. Navy believes the ORS office has the appropriate 
level of authority at this time.
    Ms. Chaplain. The ORS initiative is just getting underway so it is 
premature at this point to definitively answer whether new authorities 
are needed. The joint ORS office intends to leverage off existing 
contracting and acquisition authorities of other organizations, as well 
as their resources, in meeting unmet space requirements. The office 
expects these leveraging efforts to streamline the overall process for 
delivering capabilities as soon as possible.

    12. Senator Bill Nelson. Mr. Payton, General Kehler, General 
Shelton, Admiral Deutsch, and Ms. Chaplain, TACSAT-1 is scheduled to be 
launched in the June-July timeframe and also has an electronic 
intelligence payload. Are the issues all resolved with TACSAT-1 so that 
there are not similar problems?
    Mr. Payton and General Kehler. The DOD will ensure needed 
authorities are in place prior to future TACSAT and ORS launches. 
TACSAT-1 was scheduled for launch in 2004 on a SpaceX Falcon-1 launch 
vehicle. Since the Falcon-1 launch capability is still not available, 
the ORS office is evaluating options for how to best use the existing 
TACSAT-1 space vehicle hardware.
    General Shelton. TACSAT-1A has been developed in response to a 
STRATCOM and ORS office request to upgrade the payload, utilizing 
lessons learned from TACSAT-2. One of the lessons learned was that 
SIGINT Operational Tasking Authority (SOTA) needed to be fully 
justified and approved for all appropriate future ORS projects. This 
will ensure authority for tasking, as well as allowing data to be 
released for processing. All parties involved in TACSAT-1A understand 
the importance of SOTA approval as a precursor to operations.
    Admiral Deutsch. Navy defers to STRATCOM.
    Ms. Chaplain. The joint ORS office expects to have a decision by 
July 2008 regarding the sensors that are to be incorporated on TACSAT-
1. Two issues surrounded the operation of TACSAT-2. First, the 
encryption device that was to be used in conjunction with the 
electronic intelligence payload on TACSAT-2 failed after launch. This 
caused concern regarding how to securely transmit information between 
platforms, for example, from satellite to aircraft. The second TACSAT-2 
issue pertained to the potential for misuse of the automatic 
identification system (AIS). While AIS is used to identify and locate 
ships, there was some concern that this sensor could be used to collect 
space intelligence information. Regarding TACSAT-1, it will not host an 
encryption device like TACSAT-2, so these satellites could not share 
this same problem. As for AIS, currently there is no sponsor willing to 
pay to add the AIS sensor to TACSAT-1. Without a funding source for AIS 
and commensurate operations and maintenance activities, AIS will not 
pose an issue to ORS.

                     joint space operations center
    13. Senator Bill Nelson. General Shelton, the Joint Space 
Operations Center (J-SPOC) stood up at Vandenberg Air Force Base (AFB) 
in 2005 and is currently completing a move into its permanent space at 
Vandenberg. Based on a J-SPOC fact sheet, the center ``provides a focal 
point for the operational employment for worldwide space forces'' and 
that it ``creates a single integrated space picture.'' Part of this 
responsibility, as I understand it, is to track all objects in space, 
including debris and understanding what the objects are doing. Modeling 
and simulation capabilities are key to presenting this space picture 
and to have the necessary SSA. My assumption is that your capability to 
do this is limited. What is your modeling and simulation roadmap?
    General Shelton. AFSPC's Space and Missile Systems Center (SMC), as 
well as Air Force Materiel Command's Electronic Systems Center (ESC), 
has the responsibility for developing the tools we need to modernize 
the J-SPOC. This modernization effort will enable command and control 
of space forces, and provide the SSA necessary to underpin all space 
operations. We need tools that combine vast amounts of data into 
decision-quality information, that help us analyze trends, and that 
provide decision aids for our operators. SMC and ESC are currently 
working with the Air Force Research Laboratory to accelerate work on 
prototype tools that will improve our capabilities while reducing the 
risk for the Integrated SSA and Space C2 acquisition programs. 
Additionally, AFSPC and AFRL have engaged with Department of Energy 
(DOE) modeling and simulation experts via technical interchange 
meetings to leverage DOE's considerable expertise in this area.

                      spaced-based infrared system
    14. Senator Bill Nelson. Ms. Chaplain, with the recent delay in the 
Space-Based Infrared System (SBIRS) program it appears that management 
reserves for SBIRS will likely be depleted in early 2009, several years 
earlier than intended when the program was restructured in 2006. If 
this is true, what, in your view, are the Air Force and the DOD going 
to have to do to address the problem?
    Ms. Chaplain. To keep the SBIRS program on track to meet schedule 
milestones, DOD will likely have to provide additional funds to address 
unanticipated problems, given the high complexity of the integration 
that remains on the first satellite, and the recently identified design 
flaw on the flight software. If DOD decides not to replenish management 
reserves once they deplete, unanticipated problems will consume these 
resources much earlier than planned, causing SBIRS to suffer additional 
schedule slips.

    15. Senator Bill Nelson. Ms. Chaplain, is the Government 
Accountability Office (GAO) planning to assess the efforts to resolve 
the software problems on the first SBIRS Geostationary (GEO) satellite?
    Ms. Chaplain. Yes, we have recently initiated an effort to 
determine the events and circumstances that contributed to the SBIRS 
flight software problem as a follow up to this committee's earlier 
request to review SBIRS. Through this effort, we intend to determine 
what software plans and alternatives DOD is considering, and the 
commensurate risks of each, as well as an approach for resolving the 
software problems. In addition, we will determine whether DOD has 
identified the cost and schedule implications to the SBIRS program as a 
result of the problems encountered with the flight software.

                schedule and need for follow-on program
    16. Senator Bill Nelson. Ms. Chaplain, in the fiscal year 2008 
budget request, the Air Force submitted a request for a program called 
the Alternative Infrared Satellite System (AIRSS) which was an 
alternative infrared program to SBIRS. By the time the budget request 
was submitted, the reason for the program was largely overtaken by 
events and Congress directed that the program be restructured. In the 
fiscal year 2009 budget request, the AIRSS program is gone and a new 
program called Third Generation Infrared Surveillance (3GIRS) is in the 
budget. This is supposed to be the follow-on to SBIRS. Have you had a 
chance to review the request for this third generation follow-on to 
SBIRS to determine if the program is appropriately timed and structured 
to address technology risk and readiness, and to meet the requirement 
for missile warning systems?
    Ms. Chaplain. We have not been requested to conduct an in-depth 
review of the 3GIRS, but we plan to continue to work informally with 
the program office to keep apprised of its overall plans and progress.

    17. Senator Bill Nelson. Mr. Payton, General Kehler, and General 
Shelton, what is the need date for a follow-on program and in this 
instance, is there an advantage to continue with the SBIRS program?
    Mr. Payton and General Kehler. Continuing to procure the SBIRS 
through GEO-4 is the lowest risk approach for continuity of service to 
meet critical national defense needs of missile warning, missile 
defense, battlespace awareness, and technical intelligence. SBIRS is 
the successor to the Defense Support Program (DSP) with increased 
capabilities to meet the four mission needs. The first SBIRS Highly 
Elliptical Orbit (HEO) payload is on orbit and test results are 
exceeding performance specifications. SBIRS GEO-1 satellite is making 
integration and test progress and the program is resolving flight 
software issues. GEO-1 is baselined for a December 2009 delivery. The 
infrared (IR) sensors for GEO-2 are proceeding well in thermal vacuum 
testing, and the GEO-2 satellite delivery is baselined for December 
2010. The fiscal year 2009 budget has procurement funding for GEO-3 in 
fiscal year 2009, and funding GEO-4 beginning with advanced procurement 
in fiscal year 2010. We will still require space-based infrared 
surveillance continuity of mission after SBIRS GEO-4. The 3GIRS 
program, which is currently focused on full-earth staring IR technology 
maturation and system definition, is also in our fiscal year 2009 
budget. There is adequate funding in the fiscal year 2009 budget 
request for 3GIRS to complete technology maturation and system 
definition activities. These efforts will inform the DOD to make a 
system design decision in late fiscal year 2010 and proceed with system 
design and development of 3GIRS.
    General Shelton. The missile warning, technical intelligence, and 
battlespace characterization missions that DSP and SBlRS perform are 
critical to the United States. The sensor sensitivity that SBIRS will 
provide will greatly improve our battlespace characterization, thereby 
increasing the value of this infrared data to our warfighters. As we 
consider a future that will see further proliferation of ballistic 
missiles with shorter burn times and lower heat signatures, our sensor 
capabilities need to keep pace. STRATCOM will continue to advocate for 
robust, capable IR sensors in space.

    18. Senator Bill Nelson. Mr. Payton, General Kehler, and General 
Shelton, what are the disadvantages?
    Mr. Payton and General Kehler. The key disadvantages of continuing 
to build SBIRS GEO satellites are parts obsolescence, older technology, 
and complex designs resulting in high recurring costs. The evolution to 
3GIRS would result in smaller, lighter, and mechanically simpler IR 
payloads to maintain the continuity of critical mission areas (missile 
warning, missile defense, technical intelligence, and battlespace 
awareness).
    General Shelton. From STRATCOM's operational perspective, a 
continuing strong IR sensor development program is needed. Whether that 
is accomplished under the rubric of the SBIRS program or some other 
avenue, it's clear that we must continue the research to constantly 
improve our space-based IR capability. Missile defense, missile 
warning, battlefield characterization, and technical intelligence are 
all enhanced by improved IR sensors in space.

                      synchronization of equipment
    19. Senator Bill Nelson. Mr. Payton, General Kehler, General 
Shelton, Admiral Deutsch, and Ms. Chaplain, user equipment to allow 
troops to use the special new military signal on Global Positioning 
System (GPS) satellites--the M code--is not yet available and may not 
be available until after all M code satellites are on orbit. Is the 
equipment to utilize the capabilities of other new satellites as they 
become available, such as the Wideband Global Satellite (WGS), Advanced 
Extremely High Frequency (AEHF) satellite, and the Multiple User 
Objective System (MUOS), on track to utilize the new satellites as soon 
as they become available?
    Mr. Payton and General Kehler. Terminal and satellite deployments, 
which for the Air Force include WGS and AEHF, are programmed to enable 
users to operate on the new systems as follows:

          (1) With the submission of the fiscal year 2009 FYDP, the Air 
        Force has synchronized the development of M-Code receiver 
        technology with the on-orbit availability of M-Code service.
          (2) At first WGS launch, over 885 currently fielded, joint 
        terminals, will be able to use the system's legacy X-band 
        capability. At the time of the sixth and final WGS launch, 
        4,586 joint terminals are programmed to be fielded to take 
        advantage of the new WGS Ka-band capability.
          (3) At first AEHF launch, over 1,290 currently fielded, joint 
        terminals, will be able to use the system's legacy MILSTAR-like 
        capabilities. At the time of the fourth and final AEHF launch, 
        83 percent of the joint terminals planned to take advantage of 
        the new AEHF waveform are programmed to have been fielded.

    General Shelton. The WGS Ground Multi-band Terminal started 
fielding last year before the launch of the first WGS. The initial 
fielding of these terminals will be complete by the end of fiscal year 
2011 (FOC by fiscal year 2014). There are currently a significant 
number of terminals already in the field which have already been 
passing communications over the satellite.
    The first AEHF satellite will be launched in January 2009 with only 
the Low Data Rate and Medium Data Rate capability, so AEHF is backward 
compatible with existing Milstar terminals. Once the second AEHF 
satellite is launched in fiscal year 2010, the Extended Data Rate 
capability will be made available to users; however, there will be 
limited terminals available initially (approximately 80), but 
increasing as the Services field the new terminals through fiscal year 
2016.
    The first MUOS satellite will be launched in December 2009, and it 
is backward compatible with the legacy UHF terminals. The legacy 
terminals, however, cannot fully utilize the increased channel capacity 
until the new terminals are fielded beginning in fiscal year 2011.
    STRATCOM emphasized terminal synchronization via our Integrated 
Priority List for fiscal years 2010-2015.
    Admiral Deutsch. Navy terminals for WGS and MUOS advanced waveforms 
are lagging behind the current satellite launches. WGS Ka capability is 
also being incorporated into the NMT terminal, and therefore, lags 
behind the WGS constellation IOC, however, the WSC 6 SHF SATCOM 
terminals are being upgraded to access the WGS Ka capability and 
finding for this has been programmed for procurement and installation 
beginning in fiscal year 2009. The Joint Tactical Radio System (JTRS) 
Airborne, Maritime/Fixed Station (AMF) terminal, required to access the 
MUOS constellation, has experienced delays and will lag the satellite 
by approximately 4 years.
    Ms. Chaplain. We have expressed concerns about synchronization of 
ground assets for these systems in previous reports and believe those 
concerns are still valid. We plan to provide your staff with more 
detailed concerns in briefings later this spring.

    20. Senator Bill Nelson. Ms. Chaplain, has GAO looked at the issues 
and problems associated with matching up user equipment and satellites, 
and if so, what are your recommendations for fixing this problem?
    Ms. Chaplain. As stated above, we are aware of sonic of the 
potential synchronization problems that may be occurring in the area of 
matching user equipment with satellite development. While we are 
currently studying this issue as part of an ongoing review of the GPS 
program, we have not been requested to perform other in-depth reviews 
matching user equipment development with space segment development for 
other space programs. Consequently, we are not ready at this point to 
make any recommendations on this issue.

    21. Senator Bill Nelson. General Kehler and General Shelton, it 
appears the backup ground station will control SBIRS rather than the 
main mission control station. The main control station for SBIRS, which 
also operates the DSP satellite, was supposed to begin operating SBIRS 
as soon as the HEO sensor was certified. Now it appears that the backup 
station will control SBIRS. We need an explanation of the schedules and 
funding for the mission control stations. Can you explain the schedule 
for the mission control station for SBIRS?
    General Kehler. The Mission Control Station (MCS) has command and 
control of the DSP satellite constellation under Increment 1 of the 
SBIRS program. The plan is for the SBRS MCS to control and report on 
all of the SBIRS assets, DSP, SBIRS HEO, and SBIRS GEO except for the 
period when the MCS is upgraded for SBIRS Increment 2.
    The Mission Control Station Backup (MCSB) is planned to be the 
primary peacetime backup to the MCS. To meet 1996 SBIRS ORD and CJCSV 
National Security Space Policy directives, the MCSB must have the same 
global and theater missile warning, missile defense, and battlespace 
awareness mission processing; ground station control; communications; 
satellite and payload command and control; and mission planning 
capabilities as the MCS.
    Since June 2004, the SBIRS ground baseline has included the MCSB 
HEO (MCSB-H) as the prime facility to operate and process data from the 
SBIRS HEO payloads. The MCSB-H will process HEO mission data and create 
HEO-only track data for the SBIRS MCS to fuse with DSP event data. The 
MCS will then report the consolidated event messages to the combatant 
commanders worldwide. A NORAD-STRATCOM operational acceptance decision 
and certification for HEO is currently scheduled for October 2008.
    The primary MCS is scheduled to be upgraded (hardware/software/
communications) for Increment 2 mission operations (consolidated DSP, 
HEO, and GEO) in fiscal year 2013. The Command will address potential 
MCSB-H upgrades in future budget submissions.
    General Shelton. The MCS at Buckley AFB is scheduled to be upgraded 
to perform the SBIRS HEO mission by first quarter fiscal year 2012. 
During the upgrade, residual DSP and SBIRS GEO mission processing will 
be done at the training facility at Buckley, and SBIRS HEO processing 
will remain at the MCSB at Schriever AFB. Following that upgrade the 
DSP, SBIRS GEO, and SBIRS HEO mission processing all will be performed 
at the MCS. The MCSB will be upgraded to provide a backup capability by 
third quarter fiscal year 2012.

                             space weather
    22. Senator Bill Nelson. General Kehler, General Shelton, and 
Admiral Deutsch, a February 11, 2008, article in Space News discusses 
the NASA Advanced Composition Explorer (ACE) Satellite. This satellite, 
which transmits information about space weather and solar wind, is now 
10 years old. According to the article, it could fail any day and there 
are no plans to replace it. What are your concerns if this satellite 
should stop functioning?
    General Kehler. The DOD has a long history of partnering with other 
U.S. agencies such as NOAA and NASA to meet the Nation's space 
environmental support needs. To avoid duplication of effort and to 
achieve least-cost solutions, these partnerships have routinely 
involved the sharing of data obtained by one agency, but used by all 
agencies. The data obtained by the NASA ACE satellite falls into this 
category. The ACE spacecraft is a key national asset providing data 
exploited by both the DOD, civil, and international operational and 
research communities. This data is essential to providing DOD SSA.
    As a Nation, theses partnerships between the DOD, NOAA, and NASA 
are essential to the success of our space environment support 
infrastructure. No single agency has the manpower or fiscal resources 
to complete this task alone. By better institutionalizing strong 
partnerships to leveraging one another's resources, we look to develop 
near-term mitigation strategies for ACE, while building a comprehensive 
long-term strategy to obtain environmental capabilities to meet 
evolving SSA requirements.
    General Shelton. We view space weather information as an essential 
piece of SSA. The ACE provides important information that offers a 
timely warning on approaching solar activity and gives our satellite 
operators 30-180 minutes lead time before our satellites experience the 
impacts of space environmental events. The loss of ACE would result in 
decreased forecast accuracy and reduced warning time of solar events 
for our satellite, ground radar, and communications system operators. 
Currently, there is no near-term program to replace ACE. STRATCOM will 
continue to advocate to replace this vital capability as we continue to 
utilize the remaining space and ground space weather sensors.
    Admiral Deutsch. If the ACE satellite stops functioning, the 
resulting degraded ability to predict the onset of geomagnetic storms 
will prevent operational space weather forecasters from providing 
accurate predictions, alerts, and warnings of harmful environmental 
conditions. The resulting reduced time available for operators and 
engineers to safeguard assets, invoke protective measures, engage 
backup network systems, and retain SSA during solar storms would 
severely compromise military operations for missile defense radars and 
GPS-guided munitions.

    23. Senator Bill Nelson. General Kehler, General Shelton, and 
Admiral Deutsch, the National Polar-orbiting Operational Environmental 
Satellite (N-POES), a joint Department of Commerce-DOD satellite 
program, was supposed to carry a sensor that would help GPS satellites 
maintain accuracy in the face of solar activity that can disrupt GPS 
accuracy. This satellite is no longer on the N-POES manifest. What are 
the plans to get this capability in the future?
    General Kehler. The sensors you are referring to are part of the 
NPOESS Space Environmental Sensor Suite (SESS). These sensors are 
designed to sense conditions in the near-Earth space environment that 
can impact space services such as GPS and UHF SATCOM. These same 
capabilities have contributed to our space environmental situational 
awareness for the past 2 decades with similar sensors on our Defense 
Meteorological Satellite Program weather satellites and were expected 
to continue on NPOESS. SESS was demanifested during the NPOESS Nunn-
McCurdy process. To address potential sensing gap shortfalls, AFSPC is 
working with Air Force Weather Agency, Air Force Research Agency, and 
our national partners to examine alternative options such as purchasing 
sensors to fly on other agency platforms. Other alternative concepts 
include examining small satellite sensor packages that can take 
advantage of room on ESPA and commercial satellites. This analysis 
effort is focused on examining the entire space environmental 
architecture supporting SSA operations and is expected to be completed 
in time for input into the 2012 POM.
    General Shelton. STRATCOM is working with AFSPC to advocate for a 
replacement program for those sensors canceled from the NPOESS program.
    Admiral Deutsch. Navy defers to Air Force's response.

                              acquisition
    24. Senator Bill Nelson. Ms. Chaplain, could you please give a 
brief summary of where progress has been made on improving acquisition 
programs for space systems and where you think there is still 
improvement needed?
    Ms. Chaplain. Progress has been forthcoming on improving 
acquisition programs for space systems, particularly in approaches to 
technology development for programs such as TSAT. However, progress has 
been somewhat slow due in large part to the fact that DOD is still 
suffering the consequences of historical problems in its space 
portfolio and is not prioritizing investments in a concerted fashion. 
As I commented in my statement, there are also critical shortages in 
technical and program management skills. It is also not clear to what 
extent improvements have been made in cost estimating for space. We 
previously reported that program assumptions were optimistic in areas 
such as technology readiness, industrial base capabilities, reliance on 
heritage systems, complexity of software, etc.

                international cooperation opportunities
    25. Senator Bill Nelson. Mr. Payton, recently the United States and 
Australian governments announced that Australia would participate in 
the WGS communication satellite system and that an additional sixth 
satellite would be purchased. This is really a win-win situation. Are 
there other opportunities to partner with allies and friends in 
satellite communications?
    Mr. Payton. The Air Force, in partnership with the National 
Security Space community, actively explores opportunities to build and 
expand partnerships on current and future satellite communications 
programs. As we continue to assess future satellite communications 
requirements and capabilities, we will explore opportunities for 
building and expanding our partnerships with friends and allies.

                         science and technology
    26. Senator Bill Nelson. Mr. Payton, General Kehler, General 
Shelton, Admiral Deutsch, and Ms. Chaplain, the Services, the Defense 
Advanced Research Projects Agency (DARPA), and other agencies invest in 
basic research for space and related technologies. How do program 
requirements shape S&T expenditures?
    Mr. Payton and General Kehler. The Air Force S&T community works 
closely with system developers and operational users to identify those 
technologies that could enable future warfighting capabilities, thus 
shaping S&T investment and expenditures. AFSPC prepares the ``AFSPC 
Science and Technology Guidance for the Air Force Research Lab'' each 
year to provide recommendations in the context of programmatic guidance 
and Air Force priorities. The latest guidance, dated April 2007, 
includes the integrated space technology needs of STRATCOM and other 
Combatant Commands in support of their operational requirements from 
the Future Years Defense Program through fiscal year 2030. The Air 
Force then balances these needs with other Air Force needs to pursue 
integrated technology capabilities that support our warfighters' 
highest priorities.
    General Shelton. STRATCOM works with DARPA and the Services' S&T 
organizations to ensure they understand our longer term operational 
needs. The Services' acquisition agencies determine actual program 
requirements and drive the priorities for S&T expenditures. STRATCOM 
provides general advocacy for needed space technologies by hosting 
Senior Warfighter Forums and creating an Integrated Priority List, 
which informs both the S&T and acquisition processes. Additionally 
STRATCOM participates in prototyping and rapid development processes, 
such as sponsoring Advanced Concept Technology Demonstrations.
    Admiral Deutsch. Basic and applied research goals tend to focus on 
enabling fundamentally new capabilities and are usually not tied to 
existing program requirements. As investments move into more advanced 
technology areas, they are rooted more and more closely to programs of 
record. These investments are often in capabilities ``within reach'' of 
being proven in the near-term and transitioned to the operational 
community. NRL is Navy's corporate laboratory for basic and applied 
research. NRL leadership rigorously reviews proposals every year with 
the Office of Naval Research (ONR) and the resulting investments make 
up the NRL ``Base Program''. These investments are made typically made 
based on the potential for enabling new foundational understanding and/
or breakthrough capabilities; they are not tied to program of record 
requirements. Navy's decades-long investment in developing clocks for 
precision time which enabled the GPS is a space-based example of this 
process.
    ONR invests broadly in S&T for the Navy. ONR divides S&T 
investments into categories described as Discovery and Invention, 
Innovative Naval Prototypes, and Future Naval Capabilities. The Future 
Naval Capability (FNC) program focuses on providing Enabling 
Capabilities (ECs) to close warfighting gaps. A three-star Navy and 
Marine Corps Board of Directors, the Technical Oversight Group, 
approves the FNCs based on their contribution to closing a warfighting 
capability gap. The FNCs must provide measurable operational 
improvement within 5 years and are inherently the S&T investments most 
closely tied to existing programs of record. ONR's recent and current 
space S&T investments were made within the Innovative Naval Prototype 
category; this investment is often called the ``Space INP''. While the 
Space INP did not require an operational program sponsor prior to 
investment, the Space INP prototypes selected for development (i.e. 
TACSAT-4) were directly traceable to either naval analysis of needs 
(such as data exfiltration from buoys) or to jointly-validated 
requirements known to be only partially met.
    Ms. Chaplain. We have previously reported that there are mechanisms 
within the space community and DOD designed to ensure S&T efforts are 
coordinated and are focused on achieving broader goals and that 
redundancy is minimized. For example, within the space community, a 
forum called the Space Technology Alliance was established in 1997 to 
coordinate the development of space technologies with an eye toward 
achieving the greatest return on investment. At the DOD-wide level, 
there was also a Joint Warfighting S&T Plan, which ties S&T projects to 
priority future joint warfighting capabilities identified by higher-
level documents. These overall plans, in turn, are used by DOD 
laboratories to direct investments in S&T. Further, in 2004, DOD was 
directed to develop a strategic plan for space S&T investments to 
further tie S&T efforts to program requirements. However, while there 
are processes in place to link program requirements to S&T 
expenditures, our work has generally found that large space acquisition 
programs tend to conduct the technology development needed to achieve 
desired capabilities.

    27. Senator Bill Nelson. Mr. Payton, General Kehler, General 
Shelton, Admiral Deutsch, and Ms. Chaplain, several years ago, at 
congressional direction, a space S&T roadmap was prepared. Has this 
roadmap ever been used to guide investments? Is there a need for an 
updated roadmap?
    Mr. Payton and General Kehler. The 2004 DOD Space S&T Strategy was 
prepared in response to congressional direction for a space S&T 
roadmap. Supporting this strategy are four S&T Vector Roadmaps used to 
guide investments. The Vector 1 Roadmap identified and estimated costs 
for technologies to enable next generation launch capability and 
continues to guide technology investments. The Vector 2 Roadmap 
established the initial technical guidance for the ORS office, while 
the Vector 3 Roadmap has been used to guide investments in space 
control technologies focused on SSA and defensive counterspace 
capabilities. Finally, the Vector 4 Roadmap identified and estimated 
costs for enabling technologies for Command, Control, Communications, 
Computers, Intelligence, Surveillance, and Reconnaissance (C\4\ISR) 
capabilities. From an Air Force perspective, updated roadmaps would be 
beneficial and the Air Force is currently developing a Research and 
Development Strategic Plan that will provide a space S&T roadmap to 
guide investments in this area.
    General Shelton. I would defer to the Air Force to answer this 
question.
    Admiral Deutsch. The space S&T roadmap was developed in 2003/2004 
and did help guide S&T investments. The roadmap also helped validate 
existing investments. Two of the four roadmap vectors were related to 
ORS. The jointly-developed Plan for ORS, submitted to Congress in April 
2007, intended for the management of these two vectors to be tasks for 
the Joint ORS Office. These vectors are specific to the most recent 
roadmap. Updating the roadmap has inherent value due to the increased 
communication that occurs within the S&T community as each organization 
explains their priorities and current investments.
    Ms. Chaplain. If done effectively, roadmaps can lay out an 
incremental path toward achieving significant advances in capabilities, 
and help ensure overall investments in technology development are 
affordable. The space S&T roadmap was an outgrowth of the DOD space S&T 
strategy, which DOD was directed to develop in 2004. We found that the 
strategy provided a foundation for enhancing coordination among space 
S&T efforts since it specified overall goals and established several 
mechanisms to help senior leaders gauge whether investments were 
focused on those goals. Moreover, the development of the strategy 
itself helped spur collaboration within the DOD space S&T community 
since it required diverse organizations to come together, share 
knowledge, and establish agreement on basic goals. Since the strategy 
had only recently been issued, it was too early to assess whether the 
direction and processes outlined in the strategy would be effective in 
supporting and guiding future space S&T efforts. Additionally, DOD 
officials were still working out the details of some implementation 
mechanisms, including the roadmap. Since our January 2005 report, we 
have not conducted any subsequent reviews of DOD's utilization of the 
space S&T strategy or efforts to update it.

    28. Senator Bill Nelson. Mr. Payton, General Kehler, General 
Shelton, Admiral Deutsch, and Ms. Chaplain, transitioning successful 
S&T efforts is always difficult. What in your view leads to better 
transition?
    Mr. Payton and General Kehler. The Air Force's ``back-to-basics'' 
concept and Block Approach, work to deliver systems through discrete, 
clearly defined increments, based on sound systems engineering 
principles. This approach reduces development and production risk by 
maturing technologies prior to system development, deferring some 
capabilities to later increments when their technologies are mature. 
The Air Force has also increased its emphasis on technology transition 
and is using knowledge management tools and databases to track 
promising technologies and determine how they might impact current 
programs. Additionally, the Air Force is exploring ways to better 
achieve advanced technology/manufacturing readiness levels through 
prototyping to demonstrate capabilities in an operational environment.
    General Shelton. Successfully transitioning technology requires 
significant interaction among the operational, acquisition, and S&T 
communities. A regular, ongoing dialogue helps focus the efforts on 
compelling, future operational needs. In the space arena, designing 
experiments with residual operational capability in mind certainly 
eases the transition.
    Admiral Deutsch. Transition is always a delicate process because 
managers of formal programs have not budgeted to assume responsibility 
for capabilities that evolve from S&T efforts of an outside office. 
Navy experience with transition suggests two steps are crucial for this 
process: (1) as soon as a S&T project shows serious potential to 
satisfy an operational need, make candidate long-term sponsors aware of 
it and attempt to get them involved in the development process, and (2) 
obtain strong support, in writing, from operational commands that want 
the capability.
    Ms. Chaplain. We have found through our acquisition best practices 
work that leading commercial companies use three key techniques for 
successfully developing and transitioning technologies, with the basic 
premise being that technologies must be mature before transitioning to 
the product line side.

        <bullet> Strategic planning at the corporate level: Strategic 
        planning precedes technology development so managers can gauge 
        market needs, identify the most desirable technologies, and 
        prioritize resources.
        <bullet> Gated management reviews: A rigorous process is used 
        to ensure a technology's relevancy and feasibility and enlist 
        product line commitment to use the technologies once the labs 
        are finished maturing them.
        <bullet> Corroborating tools: To secure commitment, technology 
        transition agreements solidify and document specific cost, 
        schedule, and performance metrics labs need to meet for 
        transition to occur.

    We found that DOD had taken steps to improve its technology 
transition processes, but it lacked many of the techniques that are 
hallmarks of leading companies' ability to transition technology 
smoothly onto new products. From a strategic perspective, we found that 
the Department lacked strong influence at the corporate level to guide 
the Department's technology investments. In addition. DOD was not using 
a gated process with criteria that would allow lab and program managers 
to know when a technology was ready to transition. Consequently, 
technologies were often not ready when needed and acquisition programs 
pulled the technologies into their programs too early, leading to 
inefficiency during product development, and cost and schedule 
increases. Furthermore, we found that while the military Services were 
using technology transition agreements, use of these agreements was 
low.

    29. Senator Bill Nelson. Mr. Payton, General Kehler, General 
Shelton, Admiral Deutsch, and Ms. Chaplain, DARPA launched and 
successfully demonstrated Orbital Express to show that a satellite 
could be refueled on orbit. Does this demonstration play a role in 
future acquisition decisions?
    Mr. Payton and General Kehler. The lessons learned and capabilities 
demonstrated by Orbital Express (OE), particularly the ability to 
service a satellite on-orbit, will help inform future plans for the 
development and fielding of responsive space systems. In the near-term, 
DARPA is developing the Front-end Robotics Enabling Near-term 
Demonstration (FREND) program. FREND is a follow-on project to OE that 
allows for interaction with military and commercial spacecraft in a GEO 
with the potential to extend spacecraft service life.
    General Shelton. OE helped demonstrate the art of the possible. The 
remaining questions center on the operational utility of the concept. 
On the surface, on-orbit refueling and/or servicing is appealing. But 
the cost-benefit trades must consider satellite components that either 
age or are outdated (e.g., computers, solar panels reaction wheels), 
calling into question life extension by refueling. Designing component 
replaceability into the satellite also is questionable, given the 
current nature and design of satellites. In fact, it may prove more 
cost-effective to launch a new satellite rather than design in repair 
on orbit capability. An exception may be satellites that would be 
highly maneuverable by design, for any number of reasons. In this case, 
on-orbit refueling might be desirable. Much more trade study is 
required to fully explore these concepts.
    Admiral Deutsch. We believe the capabilities demonstrated by OE 
will inform space acquisition programs to consider employing them in 
future space vehicles.
    Ms. Chaplain. Though the concept behind OE is one that is believed 
to be a key enabler for more responsive, self-maintaining space 
systems, we do not know yet whether or how this particular DARPA 
project will enable future acquisition efforts. It is not currently a 
key enabling capability for the ORS initiative's conceptual construct.

    30. Senator Bill Nelson. Mr. Payton, General Kehler, General 
Shelton, Admiral Deutsch, and Ms. Chaplain, much of the work of the S&T 
community is focused on high risk concepts, where as much is learned 
from failure as from success. Are the space capabilities being looked 
at in the high risk programs generally the sort of capabilities in 
which the acquisition community is interested?
    Mr. Payton and General Kehler. Yes, space capabilities are reviewed 
by the Space S&T Council, which meets twice a year to assess 
investments and provide for a coordinated space S&T program. The Air 
Force S&T community works closely with system developers and 
operational users to identify those technologies--whether high risk or 
lower risk--that could enable future warfighting capabilities and in 
which the acquisition community is interested. The S&T program strives 
to reach a Technology Readiness Level that supports Product Center 
prototyping, productization, and tech insertion into systems 
development. The Air Force continues to rebalance and focus its core 
S&T competencies to aggressively pursue high payoff technologies 
directed towards countering the new threats of today, while modernizing 
weapon systems for tomorrow.
    General Shelton. I would defer to the Air Force to answer this 
question.
    Admiral Deutsch. Naval space S&T investment, while often using some 
aggressive Technology Readiness Level items, tends to focus on 
operational prototyping to prove system level performance and 
demonstrate operational capability. S&T investments of lower risk are 
generally targeted toward moderate enhancements to current capabilities 
and are part of ONR's FNC investments. FNCs are expected to transition 
in the near-term and therefore involve the acquisition community from 
the start. In general, the higher the risk of the S&T investment, the 
further from transition to the acquisition community the capability is.
    Ms. Chaplain. It is appropriate that the acquisition community be 
focused on technologies that can be matured in the near-term rather 
than technologies that are still in their nascent stages. Including 
such high-risk development in an acquisition program would likely 
render cost, schedule, and performance estimates unreliable.

                      coordination across services
    31. Senator Bill Nelson. Admiral Deutsch, do you see any areas 
where the Services and other agencies could improve cooperation in 
providing space capabilities, including coordination in planning for 
terminals and user equipment?
    Admiral Deutsch. The Services look for every opportunity to develop 
satellite capabilities based upon validated requirements. The Joint 
Capabilities Integration and Development System process provides a 
means to coordinate requirements between Services.

                      space industrial base study
    32. Senator Bill Nelson. Mr. Payton, General Kehler, General 
Shelton, Admiral Deutsch, and Ms. Chaplain, the DOD recently completed 
a space industrial base study that looked at, among other things, the 
space workforce. This study identified some alarming gaps in the space 
technical design, integration, and systems engineering disciplines. Are 
you familiar with the study and what can be done, or are you doing, to 
address some of these problems?
    Mr. Payton and General Kehler. A DOD Space Industrial Base study to 
include the space workforce was recently finalized. The study 
identified gaps in the space technical design, integration, and systems 
engineering disciplines. DOD and AFSPC concerns are in the following 
specific disciplines: science, technology, engineering, and mathematics 
(STEM). Excellence in STEM disciplines provides an asymmetric advantage 
to DOD, AFSPC, and all warfighters.
    DOD, with AFSPC support, is taking steps to address workforce 
issues through the National Defense Education Program (NDEP). NDEP is 
striving to meet the challenge of educating, training, recruiting, and 
retaining workers in the STEM disciplines. NDEP encourages K-12 
students' interest in science and math and funds scholarships and 
fellowships in critical DOD research areas.
    The scholarships and fellowships are provided through a program 
within NDEP called Science, Math, and Research for Transformation 
(SMART). This program provides graduate education in science and 
engineering areas. In turn, the graduates incur a DOD service 
commitment.
    The NDEP also funds scholarships and fellowships in research areas 
critical to DOD. The SMART is the largest program in the NDEP 
portfolio. In place since fiscal year 2005, SMART provides graduate 
level schooling in 15 different science and engineering disciplines in 
return for a DOD service commitment. The first of the SMART graduates 
are now entering the DOD workforce and making important contributions 
to our Nation's defense.
    NDEP and SMART are important initiatives in addressing education 
issues and experience levels in our workforce today. However, we must 
continue to concentrate on the human capital challenges in the space 
workforce.
    General Shelton. I would defer to the Air Force to answer this 
question.
    Admiral Deutsch. Navy provided inputs to the National Security 
Space Office (NSSO) on the Space Industrial Report. Navy understands 
the importance of the recommendations in the report and continues to 
implement programs to address our concerns with the space industrial 
base.
    The Navy is an active participant in the K-12 STEP program. Our 
leadership across the space enterprise consistently completes community 
outreach in this area. Navy commands such as Space and Naval Warfare 
Systems Command (SPAWAR) and NRL have college internship programs where 
students can participate in the space system design process. The Naval 
Academy's Aerospace Engineering Department offers an astrospace track 
where approximately 40 students graduate each year. As students, they 
collaborate with industry, the NRO and NRL on small satellite and 
system design. Some of their systems are selected to be manifested for 
flight with the DOD's STP. The Naval Postgraduate School (NPS) plays a 
critical role in the development of this Nation's space professionals. 
The Space Systems Engineering and Operations curricula provide robust 
technical education to officers and government civilians of all 
Services. Additionally, NPS offers distance learning opportunities for 
officers, enlisted personnel, and civilians to earn a Masters in Space 
Systems Operations or a 4-course certificate in Space Operations.
    The Navy is lock-step with the NSSO as they prepare the way ahead 
for a National Security Space Cadre. The Navy Space Cadre Office 
participates in the Space Professional Working Group (SPWG) where the 
roadmap is developed and refined. The Navy has identified its officer 
billets and personnel and is working with the SPWG to find a DOD 
solution to identifying the civilian space workforce.
    All Navy acquisition personnel are held to the high standards of 
Defense Acquisition Workforce Improvement Act (DAWIA) and complete 
continuous education from the Defense Acquisition University and 
acquisition curricula at the NRO, SPAWAR, Naval Air Systems Command 
(NAVAIR), and Naval Sea Systems Command (NAVSEA). Additionally, the 
Navy depends on the NRO and the National Security Space Institute for 
additional space training ensuring that its acquirers have a well-
rounded space and acquisition foundation.
    Ms. Chaplain. We are aware of this particular study but have not 
been provided a copy or briefed on it. However, our work has also 
identified gaps in technical and program management skills in space 
programs and made numerous recommendations for closing these gaps. 
These include recommendations to the Air Force to conduct a zero-based 
needs assessment of its space acquisition workforce, recommendations to 
DOD to adopt best practices to support program managers and hold them 
accountable, and recommendations to DOD to address critical skill 
shortages in the area of cost estimating. We are happy to brief your 
staff further on this work as well as the scope and methodology of 
ongoing work we are doing for the committee on broader acquisition 
workforce issues.

    [Whereupon, at 3:40 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                       WEDNESDAY, MARCH 12, 2008

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                       STRATEGIC FORCES PROGRAMS

    The subcommittee met, pursuant to notice, at 10:10 a.m. in 
room SR-232A, Russell Senate Office Building, Senator Bill 
Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Bill Nelson, E. 
Benjamin Nelson, Inhofe, Sessions, and Graham.
    Majority staff members present: Madelyn R. Creedon, 
counsel; and Richard W. Fieldhouse, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; Gregory T. Kiley, professional staff 
member; Robert M. Soofer, professional staff member; and 
Kristine L. Svinicki, professional staff member.
    Staff assistants present: Kevin A. Cronin and Ali Z. Pasha.
    Committee members' assistants present: Christopher Caple, 
assistant to Senator Bill Nelson; Andrew R. Vanlandingham, 
assistant to Senator Ben Nelson; M. Bradford Foley, assistant 
to Senator Pryor; Anthony J. Lazarski, assistant to Senator 
Inhofe; and Todd Stiefler, assistant to Senator Sessions.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    Senator Bill Nelson. Good morning. Thank you all for being 
here today.
    We are starting out with the first of two panels, and we 
are privileged to have General Chilton, the Commander of 
Strategic Command, with us.
    General, we will put your written statement in the record.
    General Chilton. Thank you, Senator.
    Senator Bill Nelson. Senator Sessions' and my written 
statements will be in the record so that we can get right into 
questions.
    [The prepared statements of Senator Bill Nelson, Senator 
Sessions, and General Chilton follow:]
               Prepared Statement by Senator Bill Nelson
    I would like to welcome our witnesses this morning. On the first 
panel we have General Kevin Chilton, the new Commander of the Strategic 
Command. On the second panel we have with us Assistant Secretary of 
Defense Michael Vickers; General Weber, Assistant Deputy Chief of Staff 
of the Air Force for Air, Space, and Information Operations; Admiral 
Stephen Johnson, Director Strategic Systems Programs; and Tom 
D'Agostino, Administrator of the National Nuclear Security 
Administration. We welcome all of you and look forward to a good 
conversation this morning. We will move to the second panel at around 
11:00 or so.
    General Chilton we welcome you this morning in your new role at the 
Strategic Command.
    Both panels have submitted statements that will be included in the 
record, so there is no need to read formal opening statements.
    The record will remain open until close of business Monday for any 
additional questions for the record.
                                 ______
                                 
              Prepared Statement by Senator Jeff Sessions
    We meet today to receive testimony from two panels on strategic 
forces programs in review of the National Defense Authorization Request 
for Fiscal Year 2009 and the Future Years Defense Program. For the 
first panel, we welcome General Chilton, who is making his first 
appearance before the subcommittee as Commander of U.S. Strategic 
Command. General Chilton, you are now responsible for assisting this 
subcommittee in our evaluation of whether our U.S. strategic forces and 
policy are appropriate to the post Cold-War security environment in 
which we find ourselves. We are pleased to be working with you in this 
capacity as we examine these important efforts.
    The second panel will provide an opportunity to delve more deeply 
into the various service plans and programs for strategic forces as 
well as examine plans for revitalizing our nuclear infrastructure. 
Witnesses on the second panel include Mr. Vickers, the Assistant 
Secretary of Defense for Special Operations/Low Intensity Conflict and 
Interdependent Capabilities; Major General Webber, USAF; Rear Admiral 
Stephen Johnson, USN; and Mr. D'Agostino, the Administrator of the 
National Nuclear Security Administration (NNSA), an element of the 
Department of Energy.
    This hearing is an opportunity to assess the progress our Nation 
has made toward adapting our strategic forces and deterrence doctrine 
to a new security environment characterized by terrorist groups and 
rogue nations--groups against which traditional deterrence approaches 
may not work--as well as the need to defend our interests against more 
traditional threats and peer competitors.
    The 2001 Nuclear Posture Review (NPR) established a conceptual 
framework for thinking about deterrence in this new strategic age, and 
serves as a useful guide for understanding the relationship between 
offensive and defensive strategic forces, as well as the relationship 
between nuclear and conventional weapons--all of which must play a role 
in deterring strategic attacks against the United States, its forces, 
and its friends and allies. If we examine how well we have done in 
drawing down our nuclear forces while simultaneously improving our 
conventional strike capabilities, fielding missile defenses, and 
securing a responsive nuclear infrastructure that hedges against future 
changes, I assess that our progress has been mixed.
    While the nuclear-drawdown appears to be proceeding in good order, 
the same cannot be said about the fielding of the advanced conventional 
strike capabilities necessary to reduce reliance on nuclear strike 
forces. We lack today the capability to deliver prompt, conventional 
strikes against fleeting, high value targets at extremely long ranges. 
The development of this capability, sometimes referred to as ``Prompt 
Global Strike,'' lagged in the past due to a lack of consensus between 
Congress and the administration over the administration's preferred 
approach, known as the Conventional Trident Modification. Congress, 
however, has demonstrated a willingness to consider alternative 
approaches to PGS, and has provided funding in a defense-wide account 
to do so. We look forward to hearing from the witnesses about their 
respective PGS candidate solutions.
    The most impressive change in our strategic posture since the NPR 
lies in the area of missile defense. In 2001, we could count only upon 
our Patriot batteries to provide limited missile defense protection 
against short range ballistic missiles. Today, we deploy over 24 
ground-based interceptors for the defense of the United States against 
long-range North Korean ballistic missiles; a similar number of SM-3 
missiles are available for deployment on some 17 Aegis BMD ships to 
defend against short to medium range ballistic missiles; and the Army 
deploys thousands of improved Patriot PAC-3 missiles to defend our 
forces against short-range threats. Supporting these interceptors is a 
global system of upgraded early warning and tracking radars and the 
command and control system necessary to link together these multiple 
sensors and interceptors. We must continue to field missile defense 
capabilities in numbers sufficient to address the threat, while 
ensuring sufficient testing and improvements to these systems to stay 
ahead of adversary capabilities. Additionally, we must continue to 
extend missile defense coverage to our allies, who arc now under 
increased risk of ballistic missile attack; by doing so, we preserve 
alliance cohesion and freedom of action in defense of our combined 
national interests.
    The NPR also called for a threat and capabilities-based approach in 
the area of nuclear weapons. Specifically, the NPR called for a 
transition from a nuclear stockpile with large numbers of deployed 
warheads to a smaller stockpile augmented with a responsive 
infrastructure which would be capable of responding to emerging threats 
and to changes in the global security environment. Although the concept 
of a Reliable Replacement Warhead (RRW) emerged after the development 
of the NPR, the RRW was--and perhaps still is--viewed as a key enabler 
on the path to this smaller stockpile. This committee, on a bipartisan 
basis, authorized funding to continue the study of the RRW but the 
final Omnibus Appropriations Bill for Fiscal Year 2008 did not provide 
funding. In spite of that outcome, I am pleased that the administration 
has requested funding, once again, in fiscal year 2009 for continuing 
the design definition and cost study for the RRW.
    General Chilton, in a speech you gave in January, you addressed the 
topic of RRW in very plain terms. You said, ``This is not a problem 
that we can push down the road to another generation to worry about. 
This is a problem that we have to face today. . . . I don't say we need 
a decision right now, but we ought to be spending the resources to 
answer the questions . . . that are on the table today. A decision on 
which way we are going to go to make sure we have the most capable 
nuclear deterrent . . . that we can provide for the citizens of this 
country for the remainder of this century. . . . These are century-long 
decisions. I say let's get on with it.''
    I agree with your comments, General, and hope the committee will  
again this year--as it has done in the past three authorization bills, 
support funding for the RRW.
    The subcommittee will also hear today from Mr. D'Agostino, on the 
progress being made in developing the ``responsive infrastructure'' 
called for in the NPR. My own assessment is that metrics of 
responsiveness were slow to be developed; that progress against 
existing metrics was not rigorously exercised or measured; and as a 
result, progress has been largely unrealized. Last year, Los Alamos 
successfully re-established the capability of manufacturing plutonium 
pits for use in the stockpile. Prior to this achievement, however, the 
Nation had been without the capability to manufacture this essential 
nuclear component for over 18 years. I take nothing away from the hard 
work it took to achieve this milestone. I ask only if this is the pace 
of progress that was contemplated in the NPR and if not, what can we do 
to move toward a more responsive infrastructure.
    The NNSA has also embarked upon an analysis of alternatives for 
what it calls ``Complex Transformation.'' The objective of this 
transformation is to make the nuclear weapons complex smaller, more 
responsive, efficient, and secure by consolidating operations and 
relocating activities among sites. These consolidations would result in 
a reduction in total facility square footage of approximately 9 million 
square feet. I believe that it is important to size our nuclear weapons 
complex for the stockpile we are supporting while maintaining the 
essential capabilities. I hope that this important initiative will be 
sustained over time.
    I look forward to discussing these and other topics with our 
witnesses today. I thank them for their service to our Nation.
                                 ______
                                 
           Prepared Statement by Gen. Kevin P. Chilton, USAF
                              introduction
    Chairman Nelson, Ranking Member Sessions, and distinguished members 
of the subcommittee:
    Thank you for the invitation to be here today. This is my first 
opportunity to appear before you as Commander of United States 
Strategic Command (USSTRATCOM). I look forward to further strengthening 
our relationships in pursuit of our common enduring goal of protecting 
this great Nation. The men and women of USSTRATCOM are committed to 
achieving this goal as well. They have performed superbly over the last 
year, demonstrating dedication across the breadth of our assigned 
missions both at home and abroad.
    Under the superb leadership of my predecessor, USSTRATCOM underwent 
remarkable change in a very short period of time to stand up new 
organizations to address a broad range of mission assignments. 
USSTRATCOM is now in the process of maturing these organizations with 
an increased focus on day-to-day operations and integration. I am here 
today to provide my thoughts on the challenges we face, and to ask for 
your assistance to ensure USSTRATCOM possesses the means to accomplish 
our missions.
                      national security challenges
    Many of our national security structures, processes, and 
capabilities were developed during the Cold War, shaped by DOD's focus 
on a singular, symmetric threat. The dangers of the past have evolved 
and are complicated by new sources of conflict and challenges to 
stability. These new and evolving challenges defy the primarily force-
on-force solutions of yesterday; requiring more complex, and in some 
cases, elegant solutions tuned to each adversary and circumstance.
    Our Nation faces four persistent and emerging global challenges. 
First are the challenges posed by established nation-states, some 
resurgent, others emerging, who seek to undermine or subvert U.S. 
policy objectives.
    Second, we note the continued rise of non-state actors, 
predominantly in the form of global terrorists rooted in extremist and 
violent ideologies. These new adversaries are distributed, networked, 
and fleeting. Enabled by information technology and financial support, 
they are able to maintain a global presence by recruiting, training, 
inciting, and directing attacks in a variety of ways, including through 
cyberspace.
    Third, we continue to face the potential catastrophic use of 
weapons of mass destruction (WMD). We believe the most dangerous threat 
to the U.S. today is that of non-state terrorist groups acquiring and 
subsequently using WMD against the U.S.
    Finally, we see both state and non-state actors attempting to 
supplant our advantage in various operational domains. The ``global 
commons'' of space and cyberspace are vitally important to our way of 
life. Our civil, military, and commercial activities are dependent upon 
access to cyberspace and space-based capabilities, and we can expect 
future adversaries to attack these dependencies. Our dependence on 
these capabilities and their associated vulnerabilities requires us to 
focus our efforts to ensure U.S. freedom of action in these domains.
                       assessment of the command
    Following my confirmation, I conducted a review of USSTRATCOM's 
roles, missions, capabilities, and priorities. I discovered a command 
working arduously to execute a diverse set of global missions, each 
vital to the security of our Nation. On advice from Members of 
Congress, I toured our National Laboratories to better understand our 
nuclear stockpile. I also met with a number of Members of Congress and 
their staffs to determine how we might work together to resolve 
outstanding deficiencies in critical capabilities.
    I believe USSTRATCOM's missions can be divided into two major 
categories. In the first category are global missions that require us 
to operate across physical and/or functional boundaries. The three 
mission areas within this category are Strategic Deterrence Operations, 
Space Operations, and Cyberspace Operations. We have forces assigned to 
USSTRATCOM in each of these mission areas that execute operations every 
day. All of these missions are global in nature and are insensitive to 
lines drawn on a map.
    The second category is comprised of those global missions where our 
purpose is not to operate across boundaries, but rather to knit 
together seams between boundaries. Today, USSTRATCOM is not assigned 
operational control of any forces within this category of missions. 
However, we have dedicated teams addressing the challenges of fielding 
and advocating for an integrated Missile Defense system; integrating 
Department of Defense (DOD) planning and advocacy efforts to better 
combat the threats posed by WMD; managing the allocation of DOD's high 
demand/low density Intelligence, Surveillance, and Reconnaissance (ISR) 
assets; and integrating Information Operations (IO) in support of all 
combatant commands. As our missions develop, we are placing emphasis on 
readiness, detailed planning, command and control, and execution; 
supported by robust, realistic, and periodic command-wide exercise 
programs.
                          strategic deterrence
    During the Cold War, the U.S. model for deterrence was based upon a 
robust capability to employ nuclear weapons via aircraft, 
intercontinental ballistic missiles (ICBMs), and submarine launched 
ballistic missiles (SLBMs). Known classically as ``nuclear 
deterrence'', this original Triad was designed to deter the Soviet 
Union. When combined with razor-sharp readiness and a bilateral 
dialogue that stressed both a mutual understanding of one another's 
capabilities and decisionmaking processes, the Triad underpinned the 
U.S. deterrence posture that successfully kept the peace for over 50 
years.
    Although the strategic landscape has dramatically shifted since the 
end of the Cold War, the concept of deterrence and the need to deter 
adversaries from attacking our vital interests is just as important in 
the 21st century as it was in the last century. However, today's more 
complex strategic landscape demands excellence and nuance across a much 
broader set of national security challenges. To address these 
challenges, our model for deterrence has evolved. Today, strategic 
deterrence is embodied by a new Triad borne of the 2001 Nuclear Posture 
Review. The Triad now emphasizes the integration of offensive 
capabilities, both nuclear and conventional; defensive capabilities; 
and a responsive defense infrastructure, all enabled by intelligence, 
planning, and global Command and Control (C2). These efforts are ably 
led by our Joint Functional Component Command (JFCC) for Global Strike 
and Integration (JFCC-GSI).
    The nuclear capability of the original Triad remains a vital part 
of our deterrence strategy. In light of this, USSTRATCOM is re-
examining our oversight role of the Nation's strategic nuclear forces. 
We reviewed the U.S. Air Force report of the Minot weapons transfer 
incident, as well as other independent investigative reports, and have 
implemented organizational and oversight changes to refocus USSTRATCOM 
on our nuclear mission responsibilities. We also intend to increase the 
oversight of Operational Readiness and Nuclear Surety Inspections of 
our assigned or gained units.
    While our nuclear capability remains vital, our ability to 
integrate conventional long-range precision weapons is every bit as 
important. Although our conventional forces are second to none, we no 
longer have these forces forward-deployed permanently throughout the 
world. Therefore, it is prudent to have the ability to defeat attacks 
and eliminate high value targets at global ranges on short notice. We 
have a Prompt Global Strike delivery capability on alert today, but it 
is configured only with nuclear weapons, which limits the options 
available to the President and may in some cases reduce the credibility 
of our deterrence.
    The capability we lack is the means to deliver prompt, precise, 
conventional kinetic effects at intercontinental ranges. The ability to 
hold at risk sites in otherwise denied territory is a key element of 
our strategic deterrent capability. At present, the complex and 
evolving threat environment necessitates the rapid development and 
demonstration of a prompt conventional global strike capability. I 
appreciate past congressional discussions concerning the need to fill 
our Prompt Global Strike (PGS) capability gap and wish to thank 
Congress for providing the fiscal year 2008 resources as we continue to 
address this capability shortfall. The Air Force, Navy, and Army are 
coordinating with USSTRATCOM and the DOD Office of Acquisition, 
Technology, and Logistics to conduct research, development, test, and 
evaluation of technologies which hold the greatest promise for new 
capability development. While we are making progress, we must place 
emphasis on a near-term solution to fill a gap that exists today.
Reliability, Safety, and Security of the Nuclear Stockpile
    The National Nuclear Security Administration (NNSA) and DOD share 
responsibility for the reliability, safety, security, and effectiveness 
of the Nation's stockpile of nuclear warheads, and for the quality and 
responsiveness of the enterprise necessary to sustain it. I want to 
assure the committee that as a member of the Nuclear Weapons Council 
(NWC), I appreciate the concerns expressed by Congress with respect to 
both the status of our nuclear stockpile and the role nuclear weapons 
will play in our Nation's defense in the 21st century. Congress has 
directed a number of activities in the coming year which will provide 
opportunities to further the national dialog on our strategic posture. 
We look forward to participating in this national discussion.
    Our strategic nuclear forces have stood watch over the Nation for 
over 50 years, always prepared to conduct a mission we all hoped would 
never be necessary. Supported by weapons and infrastructure that were 
as modern as we could make them, and military and civilian personnel 
that were ready 365 days a year, 24 hours a day, we succeeded in 
deterring our adversaries, assuring our allies, and preserving the 
peace.
    Our Nation has invested heavily in increasing our scientific 
understanding and extending the life of nuclear weapons designed during 
the Cold War. To date, these efforts have successfully provided 
confidence in the reliability of our weapons without the need to 
conduct nuclear tests. Today the Stockpile Stewardship Program (SSP) is 
working--our nuclear stockpile remains reliable, safe and secure. Our 
assessment is based upon a solid foundation of past nuclear testing and 
augmented by cutting-edge scientific and engineering experiments and 
analysis, advanced computing and simulation, and extensive flight tests 
of warhead components and subsystems.
    However, we are not confident that the SSP, or any conceivable 
weapon's life extension program will provide future USSTRATCOM 
Commanders the same level of confidence that I am pleased to express to 
you today. We recognize the current path of indefinitely relying on 
legacy nuclear weapons refurbished through a series of life extension 
programs entails accepting significant future risks to reliability, 
safety, security, and maintainability, as well as considerable expense.
    Our legacy weapons were designed to maximize destructive capability 
while minimizing weight and volume, facilitating long range weapons 
delivery with great effect to deter a threat with a similar symmetric 
capability. Weapon performance margins, maintainability, and longevity, 
while important design criteria, were made a lower priority in the 
manufacture of these weapons to facilitate higher yield to weight 
ratios. These design trade-offs were acceptable at the time for several 
reasons. First, our Nation maintained a robust nuclear weapons 
production infrastructure that was able to quickly fabricate large 
numbers of weapons. Second, we produced successive generations of 
nuclear weapons every 15-20 years. Finally, we were able to routinely 
test our weapons.
    As the threat to our Nation has evolved, so have the requirements 
driving nuclear weapons design. Emergent states seek a nuclear weapons 
capability and non-state actors and terrorists seek to acquire nuclear 
weapons. Other declared nuclear powers continue to modernize their 
nuclear weapons, delivery platforms, and infrastructure. Conversely, 
the U.S. has effectively eliminated its nuclear weapons production 
capacity and allowed its infrastructure to atrophy. We no longer 
produce successive generations of nuclear weapons and we have 
discontinued underground testing. Current U.S. policy is to retain the 
fewest number of operationally deployed nuclear weapons required to 
meet national security objectives.
    Over time, the environment degrades the functionality of both non-
nuclear and nuclear weapons components, negatively impacting extremely 
tight performance margins that exist in our weapons today, thereby 
reducing weapon reliability. The highly optimized designs of our legacy 
weapons limit opportunities to improve safety and security standards 
through a warhead life extension strategy. A broad suite of modern 
safety and security features that were not available during the design 
and development of our legacy systems are available today and could be 
used to help prevent exploitation by terrorists, rogue nations or 
criminal organizations. Modern design technology will dramatically 
increase the maintainability of our stockpile which will serve to 
maximize long term reliability while minimizing long term costs. 
Finally, modern warhead designs offer a high potential for avoiding 
future nuclear testing.
    In light of these changes in the strategic environment and the 
aging of our stockpile and its supporting infrastructure, we recommend 
pursuing an alternate weapon modernization strategy. This strategy 
should focus on improved weapon reliability, safety, security, and 
maintainability. These are the priorities for 21st century nuclear 
weapon design, not the 20th century criteria of maximizing destructive 
capability and minimizing weight and volume.
    If the Nation is going to maintain a nuclear deterrent, the 
capabilities that support this deterrent should be second to none. We 
must care for the stockpile whether we possess one weapon or thousands. 
It is important to note that improvements to our aging infrastructure 
will be required whether or not we decide to pursue an improved warhead 
design. This cannot be accomplished without investment in requisite 
infrastructure and human capital. The last nuclear design engineer to 
participate in the development and testing of a new nuclear weapon is 
scheduled to retire in the next 5 years. The transition to a more 
modern stockpile will re-invigorate the design and engineering 
technology base--especially its human resources--and enable a more 
responsive and cost-effective infrastructure. A revitalized 
infrastructure will facilitate a reduction of the large inventory of 
weapons we maintain today as a hedge against strategic uncertainty and 
weapon reliability concerns, and will allow us to sustain our nuclear 
capability and expertise throughout the 21st century.
    Some contend that an effort to modernize our nuclear stockpile 
would lead to increased proliferation. We assert a modern stockpile 
designed to provide a reliable, safe, and secure nuclear umbrella will 
serve to dissuade and deter our adversaries, and assure our allies, 
reducing their perceived need for an indigenous nuclear program.
    To facilitate an informed national debate of all of these issues, 
USSTRATCOM supports the continuation of the Reliable Replacement 
Warhead (RRW) Design Definition and Cost Study to explore a replacement 
for aging warheads in the stockpile. Completion of this study during 
fiscal year 2009 in parallel with the planned Nuclear Posture Review 
will provide Congress and the administration the information needed to 
effectively evaluate alternative strategies for the long-term 
maintenance of the Nation's nuclear weapons stockpile. The information 
from this study is critical to developing a comprehensive nuclear 
strategy that meets future national security requirements.
National Command and Coordination Capability (NCCC)
    The strategic environment is fundamentally more complex than it was 
when our current point-to-point nuclear command and control (C2) system 
was developed more than 50 years ago. For example, the threat that some 
states will acquire and deploy ICBM technology, combined with our 
ability to counter these threats with missile defense systems, demands 
a C2 capability that rapidly and efficiently provides assured and 
responsive connectivity between national leaders. This scenario reduces 
our decision time to mere minutes and calls for a C2 capability that 
extends beyond legacy Cold War systems and capabilities. We have set a 
course to modernize our single-purpose and aging C2 system to allow for 
secure, enduring, and continuous communications under current scenarios 
as well as those emerging threats that we are likely to confront.
    Our strategy is to sustain our legacy nuclear C2 system while 
expanding our capabilities to address a broader scope of military 
challenges. We are transforming the circuit-based, point-to-point 
communications systems that comprise our legacy nuclear command and 
control capability to a system that fully leverages new information 
technologies. Furthermore, we are focusing resources and efforts to 
implement a C2 architecture that provides global C2 capabilities, as 
well as systems that can be seamlessly integrated with the broader, 
national capabilities that support the President and senior leaders. We 
are working diligently to ensure our ability to provide end-to-end C2 
under the most stressful scenarios envisioned.
    Our concept of operations calls for the enduring and survivable 
ability to conduct operations from geographically dispersed locations 
through collaborative access to data, services, and information. The 
evolution of our legacy nuclear command and control system will undergo 
careful evaluation and review to ensure no reduction in capability. It 
is imperative that as we assess and deploy our new systems and 
capabilities, they be subjected to rigorous testing to ensure 
interoperability with other ongoing initiatives to enhance national and 
senior leader communications capabilities.
                            space operations
    During the 20th century, the Nation approached space as a new 
frontier. Our focus was to win the exploration race and to understand 
and develop our capabilities in this ultimate high ground. Today, we 
depend upon space-based capabilities to conduct commerce, advance our 
interests, and defend our Nation. To this end, USSTRATCOM's Joint 
Functional Component Command for Space (JFCC-SPACE) conducts space 
operations on a daily basis.
    Increasingly, space-based capabilities enable all other war-
fighting domains. In the 21st century, the mindset of space as purely 
an ``enabler'' must change. We must view our activities in the space 
domain in the same way we regard activities in the domains of land, 
sea, air, and cyberspace. As space-based capabilities provide critical 
support to forces in other domains, space operations must also receive 
support from forces outside the space domain.
    The Chinese kinetic antisatellite test (ASAT) conducted in early 
2007 made it clear that space is not a sanctuary. We can expect similar 
challenges in the future. To ensure our freedom of action in space we 
need to maintain an acute awareness of the objects in space, and the 
terrestrial threats that could interrupt or deny our space operations. 
Our adversaries understand our dependence upon space-based 
capabilities, and we must be ready to detect, track, characterize, 
attribute, predict, and respond to any threat to our space 
infrastructure.
    Space protection requires robust Space Situational Awareness (SSA). 
While sustaining our current space surveillance systems, we need to 
simultaneously improve our sensor coverage of the space domain with a 
mix of ground and space-based sensors, and improve the data 
transmission architecture and equipment necessary to fuse the data we 
collect into useable information. Additionally, we must continue to 
foster collaborative datasharing with our allies to enhance global 
coverage. The analogy of a 1,000 ship navy built through a coalition of 
nations can be applied to space, and the ability to leverage and expand 
space partnerships with our allies holds the potential to dramatically 
improve Space Situational Awareness.
    Global satellite communication to include nuclear command and 
control, uninterrupted position, navigation, and timing, missile 
warning, intelligence collection, and environmental observation are 
essential space-based capabilities required by the warfighter and the 
Nation. These existing space-based capabilities must remain viable 
while conducting research, development, and fielding of replacement 
capabilities. We must also ensure that the current space-based 
capabilities we provide to the Nation can be either adequately defended 
or delivered by alternate means in times of crisis. We ask for funding 
support to ensure there is no interruption in the provision of these 
capabilities to our warfighters and our Nation.
    Assured access to space will remain an imperative for the U.S. 
Today, the dominant threat to access does not come from an external 
threat, but from the need to properly sustain and modernize our launch 
ranges at Vandenberg and Cape Canaveral. We ask for continued attention 
to and appropriate investment in these mission assurance programs.
    We must also continue to make investments in the human capital that 
will enable USSTRATCOM to face the challenges of tomorrow. These 
challenges require the development of a cadre of space professionals, 
in all Services, with the requisite skill, talent, training, and focus 
that will ensure our ability to develop new or improved capabilities 
and operate and defend them in the future.
                         cyberspace operations
    Like space, cyberspace is a unique global domain in which the U.S. 
must maintain freedom of action. It serves as a worldwide neural 
network, a conduit that links human activity and facilitates the 
exchange of information at speeds measured in milliseconds. Potential 
adversaries recognize the U.S. reliance on the use of cyberspace and 
constantly probe our networks seeking competitive advantage.
    In this emerging warfighting domain, USSTRATCOM, through the Joint 
Task Force for Global Network Operations (JTF-GNO) and the Joint 
Functional Component Command for Network Warfare (JFCC-NW), in 
partnership with the Joint Staff is leading the planning and execution 
of the National Military Strategy for Cyberspace Operations. In this 
role, we coordinate and execute operations to defend the Global 
Information Grid (GIG) and project power in support of national 
interests.
    Over the last year, the Defense Department has sought to enhance 
the security of the GIG by improving personal identification and 
authentication measures, standardizing operational security procedures 
and software, and reducing access to non-mission essential web sites. 
While generally effective, these defensive measures require 
augmentation to defeat sophisticated adversaries. As the cyber attack 
on Estonia demonstrated, the Defense Department must also plan and 
train to operate the GIG while under attack. USSTRATCOM is actively 
planning and executing operations to detect and counter attacks on the 
GIG while coordinating responses with other DOD and interagency 
elements.
    For as much as USSTRATCOM has accomplished in this domain, 
cyberspace operations is the least mature of USSTRATCOM's operational 
mission areas. Our challenge is to define, shape, develop, deliver, and 
sustain a cyber force second to none. We pledge to continue to work 
with Congress as we continue to develop future resource and manpower 
requirements. As we continue to define the necessary capabilities to 
operate, defend, exploit, and attack in cyberspace, we ask for 
increased emphasis on DOD cyber capabilities. Our most immediate 
challenge is adequately trained personnel. USSTRATCOM needs a dedicated 
and highly trained force provided by the Services to conduct network 
warfare. As we continue to develop our cyberspace capabilities, we look 
forward to the day when we have trained and equipped Service 
organizations (e.g. brigades, battalions, wings, groups, and squadrons) 
assigned to USSTRATCOM to conduct network warfare.
                         information operations
    The Joint Information Operations Warfare Command (JIOWC) remains 
the center of excellence for DOD IO. Through JIOWC, USSTRATCOM has 
refocused our IO efforts to reinforce and support our three global 
missions of strategic deterrence and space and cyberspace operations. 
Specifically, we shifted from regionally focused efforts centered on 
individual combatant commands to concentrate on integrating Strategic 
Communication planning, Operations Security (OPSEC), Military Deception 
(MILDEC), and Electronic Warfare (EW) capabilities to enable 
USSTRATCOM's global mission sets. Additionally, USSTRATCOM recognizes 
that controlling the use of the electromagnetic spectrum and ensuring 
its constant availability to friendly forces is not only of fundamental 
importance to all three of our operational missions, but to every other 
combatant command. To that end, we have undertaken a DOD-wide effort to 
identify joint EW effects requirements, highlighting Service-level EW 
capabilities and gaps in order to provide joint solutions for ensuring 
global electromagnetic spectrum access.
                            missile defense
    Missile technology continues to proliferate, thereby increasing the 
need for a credible missile defense capability as an essential element 
of America's National Security Strategy. Missile defense systems raise 
our adversaries' ballistic missile development costs by reducing their 
systems' effectiveness. In addition, our missile defenses enhance 
deterrence by denying adversaries the benefits they might seek by 
threatening the U.S. or our forces and allies with a missile attack.
    Our missile defense systems must be ready to defend against a 
missile that launches and lands in the same combatant commander's 
region; a missile that launches from one region and lands in an 
adjacent region; or is launched from one region, overflies an adjacent 
region and lands in a third region. It is our responsibility to ensure 
concepts of operations, the design and integration of sensor suites, 
missile warning systems, and the mechanics of battle management systems 
all address these scenarios.
    As we move forward in the next year, USSTRATCOM, through our Joint 
Functional Component Command for Integrated Missile Defense (JFCC-IMD) 
is leading a collaborative effort with geographic combatant commanders 
to develop a global integrated missile defense concept of operations 
that will lay the groundwork for our future Ballistic Missile Defense 
System (BMDS) Command and Control architecture. We are also examining 
the merits of incorporating cruise missile defense capabilities into 
the BMDS Command and Control architecture to address this growing 
threat in a cost-effective manner. We continue to support DOD and 
Department of State efforts to deploy the BMD mid-course radar and 
Ground-Based Interceptor capabilities in Europe, which are an integral 
part of the transition from limited defensive operations against a 
North Korean ICBM attack to an architecture capable of defending the 
U.S. and Europe from missile attacks originating from Southwest Asia as 
well.
    The Missile Defense Agency (MDA) had an excellent year. In 2007, 
MDA conducted five successful AEGIS Standard Missile flight tests (one 
in conjunction with the Japanese Maritime Self-Defense Force) and four 
Terminal High Altitude Area Defense (THAAD) flight tests. Additionally, 
they conducted one Near-Field Infrared Experiment (NFIRE) test on-
orbit, and one Network-Centric Airborne Defense Element (NCADE) air-to-
air test. In September 2007 a successful ground-based midcourse 
interceptor test was conducted using operational crews. In July 2007, 
the early warning radar at Fylingdales Royal Air Force base completed a 
major hardware and software upgrade to improve detection, object 
classification, and precision tracking of ballistic missiles launched 
against the U.S. This site, along with the site at Beale AFB is now 
equipped with the Upgraded Early Warning Radar (UEWR), making both 
sites critical components of the BMDS. These modernizations contribute 
significantly to the accuracy, and hence effectiveness, of missile 
defense tracking information and provide a single configuration that 
will enhance the sustainability of these radars.
    The BMDS was exercised extensively throughout 2007. Between April 
and August, operational warfighters exercised missile defense 
operations in six joint and combined combatant command level exercises. 
These efforts dramatically increased the level of operational 
warfighter involvement in the development and fielding of the BMDS.
    In the coming year, multiple BMDS exercises and tests, complemented 
by the development of the global integrated missile defense concept of 
operations will serve to validate our ability to ensure the efficient, 
coordinated, and prioritized use of limited missile defense resources. 
In support of the development of critical capabilities, USSTRATCOM has 
also continued to perform its advocacy responsibility for the global 
missile defense mission area, in full collaboration with the MDA and 
the combatant commanders.
    As our missile defense system continues to mature, it will continue 
to influence our adversaries' perception of the economic and political 
cost they must incur to pursue missile technologies. While missile 
defense as a defensive shield is important, its ability to assure 
allies, dissuade competition, and deter adversaries is equally vital. 
To achieve these goals, we need your continued support.
    I would like to emphasize that the recent successful operation to 
intercept the decaying satellite was not a test of our missile defense 
system. Some components of the system underwent a one time modification 
to facilitate accomplishment of this mission. However, these components 
are being returned to their original configurations to continue 
defending against the ballistic missile threat.
              combating weapons of mass destruction (cwmd)
    For more than half a century we lived in a world in which a few 
major powers possessed nuclear, chemical, and/or biological weapons. 
The U.S. has led efforts to encourage nuclear-capable nations to secure 
their materials and technology, as well as encourage those nations 
retaining chemical and biological weapons to disavow them as the major 
powers did long ago. While we have had some successes, such as Libya, 
and more recently, progress with North Korea, a number of nations 
continue to possess or seek WMD. Additionally, some nations with WMD 
capability are experiencing political unrest, thus placing their 
weapons at risk of capture by those hostile to the United States and 
our allies.
    Presidential direction, the National Strategy to Combat WMD, and 
the recently publicized Inspector General report on DOD Initiatives for 
CWMD made it clear the U.S. requires an integrated approach to 
deterring our adversaries and protecting our Nation from those who 
would employ WMD against us.
    While every regional combatant command is assigned the mission to 
counter WMD in its geographic area of responsibility, it is 
USSTRATCOM's responsibility to integrate the family of DOD CWMD plans 
and to advocate within DOD for desired CWMD capabilities from a global 
perspective. We do this through the USSTRATCOM Center for Combating 
Weapons of Mass Destruction (SCC). Last year the Department's concept 
plan to integrate and synchronize CWMD operations and activities was 
approved by the Secretary of Defense (SECDEF). This plan provides the 
blueprint to coordinate worldwide CWMD operations by supplying an 
effects-based template for regional combatant commanders to use in 
tailoring their regional CWMD plans, operations, and activities. 
USSTRATCOM has enhanced DOD's operational capability suite by 
initiating the standup of a Joint Elimination Coordination Element 
(JECE) to conduct operational level WMD-Elimination planning (including 
deliberate, crisis action, and adaptive planning), joint training, 
command and control, and elimination operations exercises in support of 
joint force commander requirements. The JECE focuses on the activities 
and operations necessary to train and prepare joint forces and command 
and control elements to conduct WMD-Elimination missions. Recently 
deployed in support of U.S. Pacific Command's major force exercise, 
Ulchi Focus Lens, the JECE performed admirably, supporting the 
formation of the first Joint Task Force Headquarters for the 
elimination of WMD.
    In our advocacy role, leveraging the Defense Threat Reduction 
Agency's (DTRA) WMD expertise, SCC completed the CWMD Joint Integrating 
Concept (JIC) outlining the future integrated architectures and 
capabilities (2015-2027) for the CWMD mission. We have used this 
visionary document as the foundation for development of the first CWMD 
Joint Capabilities Integration and Development System (JCIDS) 
requirements document which provides a holistic prioritization of 
current combatant command capability needs.
    Over the past year, Congress supported our top two capability 
needs; technologies for detecting shielded nuclear materials at 
standoff distances, and a joint effort with United States Special 
Operations Command to develop a CWMD intelligence predictive assessment 
capability. USSTRATCOM continues to support DTRA through the 
integration of interagency activities with the Departments of Energy, 
State, Homeland Security and the Defense Advanced Research Projects 
Agency to accelerate research and development efforts for critical 
standoff detection capabilities. Timely response to nuclear and 
radiological events through enhanced sample collection, packaging, 
transport, and precise data analysis is required to establish 
attribution, thus contributing to deterrence.
    We ask for your continued support in helping us build on the 
successes realized through Proliferation Security Initiative programs 
and the Nunn-Lugar Cooperative Threat Reduction initiative, the DTRA 
CWMD mission portfolio, and the Chemical/Biological Defense Program. 
These programs enhance the capacity and capability of partners and 
allies to better secure and govern their own countries. By building 
global partnerships, the U.S. enhances the development of resident 
counterproliferation capabilities. This strategy facilitates the 
interdiction and elimination of WMD by other nations, promotes regional 
stability, presents a consolidated front to the threat, and enhances 
U.S. security by eliminating threats far from our shores.
             intelligence, surveillance, and reconnaissance
    In 2007 USSTRATCOM and our Joint Functional Component Command for 
Intelligence, Surveillance, and Reconnaissance (JFCC-ISR) led ISR 
planning in support of the operational surge in Iraq. The planning, 
allocation, execution, and assessment of ISR missions have been vital 
to the improvement of the security situation in that region. We 
continue to improve our global ISR management processes. As the 
sophistication and volume of warfighter ISR needs continue to grow, so 
does the need to employ DOD's limited ISR assets in close coordination 
with the rest of the Nation's surveillance and reconnaissance 
capabilities, as well as those of our allies.
    To that end, we have invested significant effort in strengthening 
DOD's internal and external organizational relationships to enable more 
efficient ISR operations. When we assessed strategies to achieve a more 
efficient ISR enterprise, the need to integrate national and Defense 
ISR capabilities to satisfy the Nation's intelligence requirements 
became clear. In October 2007, the DOD took a major step toward 
improving the Defense ISR Operations Enterprise by integrating the 
functions performed by JFCC-ISR and the Defense Joint Intelligence 
Operations Center to form the Defense Intelligence Operations 
Coordination Center (DIOCC). The DIOCC serves as the primary focal 
point for interface with the recently established National Intelligence 
Coordination Center and is part of a strategy to help ensure our 
limited surveillance and reconnaissance capabilities are aligned with 
the Nation's and the Department's strategic priorities. These changes 
reflect the direction, concurrence, and collaboration of the SECDEF and 
the Director of National Intelligence.
    In addition to improving our organizational approach, we are 
reviewing USSTRATCOM's intelligence structure. When USSTRATCOM 
established joint functional component commands, some of its key 
intelligence functions were divested. We are reviewing our intelligence 
support requirements at the component and headquarters level to better 
posture intelligence support for each of USSTRATCOM's mission areas.
                               conclusion
    We live in a world where threats to our safety and security emerge 
and change daily. USSTRATCOM's missions and capabilities support our 
national objectives of protecting and defending the homeland, assuring 
our allies, dissuading undesirable competition, and deterring and when 
necessary, defeating our adversaries. The men and women of United 
States STRATCOM form a responsive warfighting command with a global 
perspective that is in the fight today, and perhaps even more 
importantly, is uniquely positioned to anticipate, prepare for, and 
deter future crises.
    I appreciate the opportunity to share my thoughts with you and I 
look forward to partnering with you in the future as we work together 
to ensure our Nation is secure. Thank you.

    Senator Bill Nelson. I want to give the courtesy of turning 
that opportunity over to Senator Sessions for his questioning. 
I'm going to have to step out of the room for just a minute, 
and will be back in, so Senator Sessions.
    Senator Sessions. Thank you, Senator Nelson.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions [presiding]. Thank you, Mr. Chairman, and 
thank you for your leadership and commitment to the subject of 
our subcommittee. It's an important subcommittee.
    General Chilton, thank you for being here. We value your 
leadership.
    Senator Inhofe, I know you have another committee hearing, 
at this very moment. If you'd like to go first or--I will be 
pleased to yield to you--if that would be convenient with your 
schedule.
    Senator Inhofe. Here's the observation I want to make, and 
I wanted to do it when the chairman was here. We actually have 
two hearings going on at the same time now, the Readiness and 
Management Support Subcommittee and this one. I was looking 
forward to hearing the opening statement of General Chilton, 
and what I'd like to do is get an opinion from General Chilton 
on the three phases of missile defense: the boost phase, the 
midcourse phase, and the terminal phase and to get, in your 
opinion, your thoughts on where we are on each one.
    This is one of the major areas of misunderstanding by the 
American people. I can remember people introducing amendments 
on the floor of the Senate that we never did consider. But, 
they were there, saying, well, we don't need to have redundancy 
in midcourse, for example, and we don't need to be putting 
money into kinetic energy booster, would, in fact, on the boost 
segment we're pretty much negative right now, we don't have 
anything that's out there working.
    So, I'd just like to have you give us a little update on 
where you think we are--what our timing is, and what is really 
important that is coming along in these three phases of 
progress.
    General Chilton. Senator, I'm happy to discuss that. I'll 
caveat my comments, first, by saying that, of course, the 
Missile Defense Agency (MDA) is the technical expert in this 
area.
    Senator Inhofe. Yes.
    General Chilton. But as a warfighter, when I look at 
missile defense, writ large, I do look at it in those three 
phases that you described, for the following reasons. Again, 
I'll tell you, I'm a little colored by my youth, where my 
father worked, actually, on the Anti-Ballistic Missile (ABM) 
system, way back in the early 1970s, and I remember him telling 
me, as a young man, he said, ``Son, the best way to get these 
things is in the boost phase,'' he says, ``because that's when 
they're hot, the thrust is coming out, you can see them,'' he 
says, ``but it's a challenge, because you have to get a little 
closer. The hard part is the later you get into the flight.'' 
That wisdom of my father has not changed.
    Boost phase: you have the rocket coming off the pad, it's a 
limited 2- to 3- to 4-minute time period, where it's very 
visible and trackable and discernible, and it's very 
vulnerable. The key there is to be able to bring effects to 
bear against it, ordnance to bear against it. There's the issue 
of being close enough and having a weapon that can do that. 
It's an area that we are probably least mature in. I'd say we 
are, as you look at what's deployed today. But, an area we want 
to continue to work very strongly, because every warfighter 
will demand that.
    The midcourse phase we're talking about is when the rocket 
quits and before the reentry vehicle enters the atmosphere, so 
it's actually in space as it's transiting space at this phase. 
It's another time when, if you can get at the threat early in 
that phase, that's desirable. It's also, obviously, desirable 
to develop and field technologies to interdict in this phase. 
The ground-based missile defense system that we have deployed 
in Alaska and in California addresses this.
    Envisioned improvements to the sea-based system will add 
another weapon system that can address this phase, and it's an 
equally important phase. What gets hard in this phase is you go 
from tracking a really hot booster to a very cold reentry 
vehicle up in space. So different sensors are needed, and it's 
a different challenge, but one that we've worked through pretty 
successfully with our deployed systems.
    Probably our most mature, if you think about how long we've 
had them deployed, is the terminal phase. Now you're talking 
about the reentry vehicle as it starts coming down through the 
atmosphere into the local area. We've started that, back in 
1991, in Operation Desert Storm, with the improvements to the 
Patriot system, and we've advanced those with PAC-3. That is 
your last effort, last opportunity to do it.
    The terminal systems are not particularly capable, if at 
all, against intercontinental-range missiles, but they are more 
capable against--theater-based short-range to medium-range 
missiles. So, when you look at the threat in total, whether it 
be that you're concerned about defending the United States of 
America from an intercontinental attack or a region, forces 
deployed in a region from a short- or medium-range attack, I 
think the approach that we're taking, the layered approach of 
trying to address the vulnerabilities of these systems in 
boost, midcourse, and terminal is the right approach to take.
    Senator Inhofe. I think the greatest deficiency to work 
with right now is the boost phase.
    General Chilton. It's the most challenging, for sure, 
Senator.
    Senator Inhofe. Senator Sessions and I have been around 
long enough to remember when this all started, and fighting the 
battle that's been in a continuous fight, particularly through 
the 1990s. We even had one veto of a defense authorization 
bill, in 1996. The reason was that we don't need to be moving 
as fast as we're moving on this whole system.
    If you're going to get into this cyber thing, this might be 
a good time to do it, because I was fascinated by his 
discussion, there.
    Senator Bill Nelson [presiding]. You all go ahead and 
continue your questions, both of you.
    Senator Sessions. Since Senator Inhofe has another 
committee at the same time, but----
    Senator Bill Nelson. Sure.
    Senator Sessions. Why don't we follow up a little, for the 
record, on the discussion we had about cybersecurity.
    I would just note that, World War II, decisive events 
occurred when we were able to break the Japanese and German 
codes and have information that was critical to the war, and 
saved lives, and assisted us dramatically. We're so committed, 
as a nation, to computer systems: our Future Combat System 
(FCS) for the Army, and our Air Force and Navy systems are all 
computerized.
    First, to what extent is maintaining security of those 
systems your responsibility, General Chilton? Can you tell us 
whether or not you have a plan in place, that you're moving 
forward with, that will provide us confidence in the security 
of this system? If you haven't gotten it, how close are you to 
getting it?
    General Chilton. Thank you, Senator.
    You're exactly right, there's good analogies to the World 
War II time period and to now and the future, when we think 
about how we protect that critical information to our military 
operations. When I think about where we are in computers, I 
just put it in respect that we've transitioned from the ways 
that we used to transmit and store information, which was in 
file drawers and paper and through, maybe, radio frequency 
communications, to this network that we're involved with now, 
where we store information on, and transmit information.
    Senator Sessions. Could I ask a question on that?
    General Chilton. Sure.
    Senator Sessions. Would one difference in today and in 
World War II be that in World War II you had to intercept the 
message while they were being sent, which is a very short 
period of time, but today so many of these messages are 
permanently recorded, if you could penetrate the system, you 
could recall those messages years before?
    General Chilton. That's a great point, Senator. If what 
we're seeing today, in the taking of information from networks, 
or storage devices on the network, is akin to what? I would say 
espionage. So, in your analogy, in the old days, you would have 
to go and break into those files with a flashlight in your 
teeth and a camera, or take them away. Now you can do that from 
the comfort of your desk and your access to a computer system, 
or attempt to go into stored information on the network. So we 
have to be very cognizant of that vulnerability.
    What Strategic Command (STRATCOM) has been chartered to do, 
with regard to the network, is to operate and defend the 
Department of Defense (DOD) portion, which you'll hear it 
referred to as the Global Information Grid. That's another 
coined phrase to talk about the set of addresses that end in 
.mil, for military, or .smil, for classified military.
    What we're not chartered to defend--and I think this is 
important to understand--is the .gov--so, probably the domain 
that you operate in quite frequently on the Hill--or any other 
agency within the government; the .edu, which our science and 
university systems exchange a lot of information on, and we 
actually go out and get information whether it be through 
Google or whatever search engine; or the .com networks that a 
lot of our financial systems or other systems throughout the 
infrastructure of the country rely on for their operations. 
STRATCOM is not chartered to defend those.
    Senator Sessions. Who defends those?
    General Chilton. The Department of Homeland Security is 
chartered to do that. The President's initiative that was just 
signed out in his recent National Security Presidential 
Directive is the kickoff, really, of a large effort to go off 
and address that.
    Senator Sessions. Are you responsible for the Services--
Army, Air Force, Navy, Marines?
    General Chilton. We're responsible for the network, and 
they use that network: .mil and .smil. So we have set up a 
construct, under the Joint Task Force for Global Network 
Operations, under the command of General Charles Croom, who 
reports to me, to operate that military network and to 
promulgate orders to bring unity of command and effort, to make 
sure we're configuring it using the right defensive systems, 
the right procedures, to protect that DOD portion of the 
network.
    But, it's not just enough to build defenses, in my mind; 
because no defense will ever be impenetrable. I think, as we 
think about defending this vital domain, we have to go from the 
high end of technology investments all the way down to the 
lowest end, which is your newest recruit coming in, and he's 
going to get on and use that system, whether he be a soldier, 
sailor, airman, or marine, and to make sure that individual 
knows that the way he behaves and utilizes his or her computer 
on their desk can affect the entire system. They can create 
vulnerabilities by not following the correct procedures. They 
can also be a defender, even though they may be a maintenance 
officer working on airplanes, or enlisted person working in 
administration, they can be part of a network of people who are 
watching out for people misusing or abusing that network.
    So when I think about our responsibilities, and I think 
about it from a very low to a very high-end continuum, and I'm 
very encouraged by the seriousness with which the Services are 
taking this issue, and the attention they're bringing to it, to 
address it across the spectrum.
    Senator Sessions. There's an article, recently, indicating 
that our networks are increasingly under attack. Can you, in 
this open forum, share some of the things that----
    General Chilton. Yes, Senator, and I would characterize 
them not ``under attack'' as much as being exploited. When I 
say that, to go back to what I talked about earlier, from an 
espionage perspective. There are individuals or entities coming 
into the networks and downloading vast quantities of 
information. Now, that doesn't impede the way we work, day in 
and day out, but it's a collection of unclassified information 
that, if you put those pieces together, you can, maybe, discern 
certain things about the way we operate or uncover certain 
vulnerabilities in the way we might operate. You're doing that 
without having to actually train someone to infiltrate the 
United States of America and get access to files in a file 
cabinet.
    Senator Sessions. You could do that from a foreign nation.
    General Chilton. You could, and so, that to me is different 
than an attack. I think what we saw in Estonia, previously, was 
more of an attack, where there was an effort by an unknown 
entity or group of people to come in and actually slow down the 
network and the responsiveness of the Estonian network. That 
was more of an attack, rather than espionage. But you have to 
worry about both. We have to be worried about both.
    Senator Sessions. General Chilton, I don't think this would 
break the defense budget. I think it is very important. My 
personal view is that you should have the money and the 
personnel needed to do this job. In the scheme of things, it 
would be a small investment that could be exceedingly important 
to us, because there's just no doubt, if our adversaries have 
figured out a way to penetrate our systems, the costs could be 
far greater than we would have to expend to make them more 
secure.
    General Chilton. Senator, I would agree with you, but I 
would also add that it's not just operating and it's not just 
defending. We have to make sure we have the focus on operating, 
because I'm convinced, after the Estonia incident, that we'll 
never build the perfect defense. We will be attacked in time of 
war, and we need skilled people who understand, and that can 
train to continue to operate that system and make it fight, 
even though it's under attack, just like we do in every other 
domain. We don't shut down our airfield operations just because 
we're under attack. We keep working through it, and we have the 
right equipment, et cetera, to do that. So, we need to be 
thinking about that.
    But, we also need to be thinking about offense through this 
domain. The New Triad talks about having strike capabilities 
that include kinetic nuclear, kinetic non-nuclear, and 
nonkinetic. This is the perfect domain to conduct nonkinetic 
attack in the event of war in the future, and to have those 
capabilities. This is the area, I would say, where we are least 
mature or robust in manpower, expertise, and focus. We at 
STRATCOM right now, are doing studies with the Services and 
with our partners at the National Security Agency (NSA), who 
are a big part of this program, in bringing capabilities to 
understand exactly what we need as we go forward in this 
century. I expect that, when we come in, in the fiscal year 
2010 budget, the 2010 Program Objective Memorandum, we'll have 
laid out those requirements and started to see the investments 
in the offensive part of this domain, which is equally 
important, in my view, to the defense. If for no other reason, 
it's because we've always looked as having offense as part of 
any good defense in any domain.
    Senator Sessions. That's well said.
    Mr. Chairman, I'll be glad to turn back to you. I have a 
few more questions, but I'll be glad to follow up.
    Senator Bill Nelson. As a courtesy to the Senator from 
Nebraska, and rather than hold you up, I've flipped it to our 
colleague from Alabama. Just be mindful that we have to finish 
the first panel in 30 minutes, and I have a stack of questions.
    So, the other Senator Nelson is recognized.
    Senator Ben Nelson. Thank you, Mr. Chairman, and I'll be 
mindful of the time requirements.
    Thank you, General Chilton. We are very pleased that you're 
at the helm for the STRATCOM. With all the elements that are 
required to be on both offense and defense, we believe that 
you're well positioned to do it. We want to make certain that 
you have all the financial tools and other tools necessary to 
be able to do that.
    If we think about Cold-War legacy, and you've indicated 
this before--that we can't just maintain that deterrent that 
we've enjoyed in the past indefinitely by extensions and by 
life-extension programs. At what point in time, in your 
opinion, do we reach a tip-over, where we just are only trying 
to extend the life of that deterrence? Then, number two, what 
is your sense of the importance of the Reliable Replacement 
Warhead (RRW) as a key component of both land-based and sea-
based deterrence, respectively?
    General Chilton. Thank you, Senator, for that question. I 
want to begin by thanking the chairman for some advice he gave 
me as I was leading up to confirmation hearings. Senator 
Nelson, I think you'll remember an office call, where you asked 
me some questions, and used some acronyms that I confessed 
ignorance to, and you commended that I go out and immerse 
myself in the nuclear enterprise early in my command. I have 
done that, sir, and I've learned a lot.
    Senator Bill Nelson. There's the expert, right over there.
    General Chilton. I know.
    I have gotten to know Secretary D'Agostino very well. But, 
I have done that, Senator, and I've formed some views, and also 
some concerns. Your first question would be one of my concerns 
that I've come to appreciate better.
    Every year, STRATCOM is required to certify the 
reliability, safety, and security of our current nuclear 
stockpile. Every year, that stockpile gets older, and we do 
this on 1-year increments. The program put in place, the 
Stockpile Stewardship Program has been a tremendous thing for 
the United States of America. It's identified issues with our 
old weapons early enough for us to start working on them, and 
that has led to the Life Extension Programs that we're seeing, 
particularly in the W-76 right now.
    What I can't get comfortable with is you know there's an 
edge out there that you're creeping toward with regard to these 
weapons, because they were designed to be 15- to 20-year-life 
weapons. Because of the way we made them, and our whole 
architecture that was in place in the Cold War, which was based 
on: if you have a problem, test or make a new one; and when you 
had an infrastructure that could produce thousands a year, that 
was a reasonable way to approach it. Now we don't want to test, 
and we don't have an infrastructure that can really produce 
anything. That makes me nervous, as you go forward, about any 
problems that might develop in the current old inventory.
    I try to pin down the scientists, but they will not be 
pinned down, because they are very objective about this, and 
rightfully so. I liken it to approaching a cliff, and I don't 
know how far away from that cliff I am, and that gives me 
discomfort with regard to continuing a strategy of life 
extension.
    I think there's an economic side of that, too, that I'm 
probably not the best to speak to, but I liken it to trying to 
maintain our 40-year-old automobile vanishing vendors, parts, 
and technologies, suppliers change. Not only that, these 40-
year-old automobiles were not designed to be maintained, they 
were designed to be replaced at about 15- to 20-year intervals. 
That gives me pause, as you go down a life-extension approach.
    That said, I think we need to answer these critical 
questions, and address them.
    As we look to the future, I support a modernization of the 
weapons that we put on top of these delivery platforms, which I 
think the Services have done a very good job in modernizing and 
sustaining. But, they do us no good if we don't have a warhead 
on top of them to provide the deterrent for the future. I 
believe that deterrent will still be required in the 21st 
century. I believe we need a modern weapon that's designed with 
21st century requirements, as opposed to 20th century Cold-War 
requirements, that can meet those future requirements. Those 
are some of the conclusions that I've drawn on that.
    Senator Ben Nelson. If we look at the fiscal year 2009 
funding as it is at the moment, do you think it's sufficient to 
complete the Phase 2A study? Is it possible to get us some idea 
of what the costs might be in order to do that, particularly if 
this budget's not sufficient to do that, because I agree with 
Senator Sessions that we want to make certain you have the 
tools that are necessary to carry out the responsibilities for 
deterrence.
    General Chilton. Senator, the funds to do the Phase 2A 
study are in Dr. D'Agostino's portfolio. I don't want to speak 
for him, and he will be on the second panel, and will perhaps 
address them more specifically. What I can tell you, in the 
2008 submission there is an estimate in the order of around $60 
to $80 million, if my memory refreshes me, to complete that 
study. I think that is still a valid number required somewhere 
near the high 60s or high 70s--million dollars--and he can give 
you the exact number--that's needed to finish the study. What's 
important about doing that study is, it's not a decision to go 
down the path; it will inform a decision for the next 
administration, next year. My concern as the warfighter is, as 
I look at the enterprise, in general and across the needs to 
the future, it's just clear to me that this is a problem that's 
been brewing for a while, and now is the time to address it, 
now is the time to answer the questions, so that we can come to 
a decision in the next administration, preferably early, and 
move out, both to guarantee our security posture for the 
future, but to make sure we're heading down the correct 
business path for the country to achieving that.
    Senator Ben Nelson. Whether it's the airplane life 
extension or whether it's the life extension of the weapons, 
there has to be a point where it's no longer either 
economically feasible to do it, nor is it possible to get that 
extension, indefinitely. So, that's why I think it's extremely 
important that we know what it's going to take, and some idea 
of what kinetic nuclear and kinetic non-nuclear warheads are 
going to be required as a replacement, over some period of 
time, of what we currently have.
    General Chilton. I couldn't agree more, Senator. Thank you 
for the question.
    Senator Ben Nelson. As probably a lot of people know, 
western Nebraska hosts the balance of the missile fields of the 
90th Space Wing, the Mighty Ninety. Last year, the Air Force 
was directed to extend the life of its intercontinental 
ballistic missile (ICBM) fleet from 2020 to 2030. I'm assuming, 
based on what you've said, that we've been able to modernize 
and keep the lift instrument in a modern state of preparation. 
Is that fair?
    General Chilton. Senator, there's two parts to that. One is 
the security of those systems, and the other is their 
capability to launch. I bring a bias to this, I'll admit to 
you, because my job was to make sure both of those were 
adequately supported in my last job. But I think the record 
will show that the Air Force has made substantial investments 
in improving the security of the launch facilities and the 
training of the forces that protect those facilities, and I 
think they're moving in the correct direction there.
    With regard to the life extension of the Minuteman III, the 
big issue last year was not having enough test resources to be 
able to certify its readiness to the 2030 time period, and that 
was addressed in the funding, and supported.
    We knew, at the time, though, that, since the rest of the 
infrastructure was set for a 2018-2020 comfort level, that 
there would probably be additional investment required in some 
areas. This would be in support equipment, like transporters 
that move the missiles to and from the field, or when you have 
to pull one out for maintenance, various test equipment in the 
back shops, that, maybe in the past, if you said, ``I only had 
to get to 2018, I don't need to put any more money into these, 
but now, if I'm going to go to 2030, there'll be some level of 
modernization or refreshment, or at least sustainability for 
another 10 years, that's required.''
    So, I anticipate that the Air Force will take a real hard 
look at that to make sure that they've crossed the t's and 
dotted the i's in their investments to be able to get out 2030 
across the spectrum. That's important to do.
    Senator Ben Nelson. Thank you very much, Mr. Chairman.
    Thank you, General.
    General Chilton. Thank you, Senator.
    Senator Bill Nelson. General, share with the subcommittee 
what you think is the most significant management issue and the 
programmatic issue that you're concerned about.
    General Chilton. Yes, with regard to all the programs 
across STRATCOM?
    Senator Bill Nelson. STRATCOM.
    General Chilton. I have two that come to mind, Senator, if 
I might say two. One would be the--and it's not quite a program 
yet--and I've already referred to it--and this is the 
modernization effort for our warheads. I think the investments 
need to be made to answer the tough questions now.
    For an established program, the Transformational Satellite 
Communications (TSAT) program, I would say, comes to mind, 
Senator. Where we are on that program in this submission is the 
Air Force is going off and restudying the program, with 
responses to be provided in the April time period, as far as 
the way ahead for that program. As the combatant commander 
(COCOM), I hesitate to champion any one particular system. My 
charter, I think, is to talk to capability. So, Senator, what 
I'd like to address is my capability concerns here, that I've 
felt that particular program was addressing. Now I ask: So, how 
do we get there from here?
    Senator Bill Nelson. Let me just ask you, right there since 
it looks like it's going to be delayed to 2018, what are the 
options?
    General Chilton. Sure. I shared that same question with the 
Air Force, Senator. Because here's what I'm worried about: one 
is, our nuclear command and control relies on a survivable and 
secure connection that runs through the satellite constellation 
belt in the Extremely High Frequency (EHF) radio frequence 
spectrum. We get that today through Military Strategic and 
Tactical Relay (MILSTAR). It will be replaced by the Advanced 
EHF (AEHF) satellite system. In the last design construct, the 
TSAT system, that would be one element of the TSAT system that 
would continue that capability.
    This capability is one that I would lump with Global 
Positioning System, I'd lump with weather, I'd lump with 
intelligence gathered from space, as a capability we have just 
become used to and we just don't envision ever having to 
tolerate a gap in these capabilities. We wouldn't want to plan 
for it, that's for sure.
    So, the risk in that EHF connection was always on the back 
end, because we were only getting three Advanced Extremely High 
Frequency (AEHF) satellites, and you really needed four. What 
was the fourth? TSAT was a vision. The acquisition of the 
fourth AEHF, kind of, addresses that back-end concern, but only 
sort of. Here's where I have my concern. We're still going to 
launch the very first one in calendar year 2008--by the 
schedule, early fiscal year 2009. So, it only lasts so long. 
So, you have to be looking long range, out in the 2018 time 
period, the 2020 time period there, on how you're going to 
continue this connection. I haven't seen a complete storyline 
of how you're going to do that for that capability. Now that's 
a STRATCOM parochial perspective.
    The second area where I'm chartered to look across all 
COCOMs needs would be the ever-increasing bandwidth demand that 
we see coming down the road, whether it be for our increased 
investment and fielding of systems like the Global Hawk, full-
motion video systems like Predator, et cetera, of envisioned 
space architectures that will demand higher bandwidth, of 
systems like the Army FCS that demands higher bandwidth. In 
that regard, it's not so much a uninterrupted capability that I 
worry about, it's a step up in capability that seems to be--on 
the horizon to be demanded. So, probably like you, I await, 
anxiously, for the Air Force's report back, in April, to see 
what they're going to do with the remainder of the money in the 
program, how they're going to reconstruct that to address these 
capability issues that I'm concerned about.
    Senator Bill Nelson. Well, they delayed the program between 
2008 and 2009. I'd like to know, for the committee, were you 
consulted when $3.6 billion was removed from the program in the 
2009 budget request?
    General Chilton. Senator, as far as the 2008 reduction and 
time schedule, I was part of that. So I was very aware of that, 
and the development of it, and I believe I testified to this--I 
was comfortable with a 2016 initial launch date, because it, 
classically, takes about a year and a half, a year, to check 
out the first satellite on orbit--a year. I like that extra 
year of pad to support what we envision as a 2018 need date if 
you didn't have an AEHF-4, which was not in the program then, 
and so I was comfortable with that.
    Now we have an AEHF-4, and the question is, how long does 
AEHF-1 last? Are we comfortable with that? When does the fifth 
element, whether it's TSAT or something else, come onboard? Is 
2018 the right time period? 2020? That's the decision space 
we're in.
    With regard to the reduction in the program that was taken 
when it was and I was not consulted when that decision was 
made.
    Senator Bill Nelson. I think that's significant.
    Senator Sessions.
    Senator Sessions. Thank you.
    On the TSAT, my understanding of the concept was that we 
needed to transition to a more capable satellite, and the TSAT 
would replace the fourth, and would put us on the road of 
increased capabilities. That's the leap-ahead technology that 
President Bush talked about, and others have. So, the sooner 
you can do this, the better. But, if we can't get there, we 
need to know that. How do you see that possibility of--
occurring now?
    Have we given up? I mean, we've basically made a decision 
not to go with a fourth?
    General Chilton. Sir, I've heard no one say that, with 
regard to giving up, in any conversation I've had. I've had 
multiple conversations since this----
    Senator Sessions. Giving up, in terms of----
    General Chilton. Going to the next level, at some point.
    Senator Sessions. But, didn't we originally plan to do it 
with the fourth satellite?
    General Chilton. That was going to be the beginning of the 
next level, because, really, to get there, you have to add more 
than just the one new satellite. Most every constellation we 
have requires three to four to complete the global-nature 
capability of this. That first satellite's schedule was 
primarily being driven by the first need that I said STRATCOM 
has, which was to make sure we could sustain that command-and-
control network that I needed in STRATCOM for our nuclear 
command-and-control mission. But, it was also the first step up 
in capability to a new approach to moving information around.
    Senator Sessions. Has that slipped? I know we've been 
discussing that. Is it still possible that we can bring TSAT 
online--I mean, I guess what I'm saying is, if you're going to 
put a--launch a satellite--AEHF, I guess, is what we call it. 
But you could put a TSAT instead of that, then you've begun the 
new system, and have greater capability, instead of our 
bringing up a fourth older satellite system and always slipping 
that.
    General Chilton. Yes. What the Air Force is going to answer 
for us in April is what the actual schedule impacts and 
capability impacts. I'm not sure which way they're going to go, 
if they're going to reduce the delivery time or the 
capabilities, or whatever. They're going to have to make some 
decisions, though, because of the reduction.
    But, when you think about it, AEHF is a tremendous step up 
from where we are today. I mean, it's a tenfold increase. So, 
don't get me wrong on my support for that program. I'm excited 
about AEHF coming up, and the increased bandwidth that'll 
provide to the warfighter.
    TSAT, though, was a whole different approach. I use the 
analogy from the old Laugh-In days, when Lily Tomlin was 
sitting there, plugging in telephone calls. That's kind of the 
way our satellites work today. You have to have dedicated 
switching between the two people that are communicating. The 
promise of TSAT was, it would take us to the way our Internet 
works today, where you don't have to dial up somebody, you can 
just message, and it'll get to them through the network system. 
If you want to get information from the system, you don't have 
to have a specific phone number, you can search and find a menu 
of opportunities, and pull that information down. That's the 
vision of TSAT as we move into that new technology in space, 
that we really enjoy today in our networks on the ground today.
    Again, I'd reiterate, I've heard no one in the Services say 
we want to step back from moving to that step. They are my 
concern's as I've described them.
    Senator Sessions. Let me follow up on your study on the 
Reliable Replacement Warhead (RRW). We need to make a decision 
about that. I think you are correct that now's the time to do 
so, and we're not prepared to make it, because we don't have 
enough information and we haven't studied the issue 
sufficiently. Is that correct?
    General Chilton. That's fair, Senator. I think what the 
RRW-2A proposed study was to answer questions, to tee us up for 
a decision.
    Senator Sessions. Now, you just indicated it would take $60 
to $80 million to complete that study. That's the best estimate 
we have?
    General Chilton. I would defer the exact number, to the 
next panel. But, my understanding is around $66 million to 
complete that study.
    Senator Sessions. Well, our difficulty, Senator Nelson, is, 
the President's budget is only a $10-million request, and we 
have some members in the House that are not supportive, and 
that may have had some impact on the budget request they made. 
I just think this is, in the scheme of things, a real important 
decision, and we might as well do it now and not put it off. If 
the report comes back and says, ``RRW is not the best way to 
go,'' so be it. But, to continue to muddle on with life-cycle 
improvements or trying to keep these systems going is worrisome 
to me. So, that's just something I think we're going to have to 
confront. Are we going to put the money up and make this 
decision, or are we going to let it go without the kind of 
analysis that ought to be given to it?
    On the RRW, we're drawing down nuclear weapons now, 
according to our Moscow Treaty we signed, and we will 
dramatically reduce the numbers to, what, 1,700 to 2,200----
    General Chilton. That's correct, Senator.
    Senator Sessions.--warheads, and there are fewer types of 
warheads in our inventory, in the stockpile. All of these 
warheads will also have exceeded their designed lifetimes, and 
some have aged to multiples of their designed lifetime.
    So, now, do you do the certification of the warhead?
    General Chilton. A group that does report to me, and then I 
certify the reliability and safety and security of the 
stockpile.
    Senator Sessions. So, it's the fact that concerns over the 
age of these warheads. Now that we have a lot fewer of them, so 
if a defect appears, we have a problem. We don't have, at this 
time, an ongoing system to build any warheads. We may be the 
only nuclear-power country in the world that does not have an 
ongoing manufacturing system. Is that correct?
    General Chilton. I'll take that for the record, Senator.
    [The information referred to follows:]

    All other declared nuclear weapon states, to include Russia, China, 
Pakistan, India, United Kingdom, and France are continually improving 
their nuclear delivery systems, weapons infrastructure, weapons, 
testing facilities, and technologies. Since the early 1990s the 
Presidential moratorium on nuclear testing and suspension of new 
warhead development, the U.S. no longer maintains the continuous cycle 
of new development, production, deployment and retirement of warheads 
that other nuclear weapon states sustain. Our current focus is on 
extending the lives of existing warheads in the stockpile well past 
their original design lives. We currently only have the capability to 
produce individual replacement components and are currently producing 
about 10 plutonium pits per year in a converted research and 
development lab to replace pits destroyed during surveillance testing. 
This lack of production capability and responsive infrastructure forces 
the U.S. to maintain a larger stockpile than necessary as a hedge 
against a technical failure of a weapon or unforeseen geopolitical 
risk. The result is the U.S. is the only nuclear weapon state that is 
not modernizing its weapons to increase their performance margin 
confidence, security, safety, and maintainability.

    General Chilton. But, your assessment, I would not call 
what we have today any kind of a manufacturing capability. We 
have a laboratory-type environment that can produce, at best, 
eight, my understanding, a year. So I don't consider that it's 
certainly not robust, and I don't consider that a manufacturing 
capability.
    Senator Sessions. So all of these factors that lead you to 
believe it's time for us to do a study and make a decision 
about the future needs and other factors that you've mentioned?
    General Chilton. That's correct, Senator.
    Senator Sessions. Have you personally reviewed this, as 
commander of STRATCOM--do you favor moving to an RRW, based on 
what you know today?
    General Chilton. Senator, based on what I've learned over 
the last several months, and my look at this, I won't pick a 
design here, but I'll tell you, as a COCOM and as someone who's 
chartered to provide a nuclear deterrent for this Nation, in 
the future, I would say we need a modernized nuclear warhead 
that has high reliability, safety and security features that 
are improved over what we currently have, and maintainability 
of design, which we absolutely do not have in the basic design 
today. Those would be my capability requirements for our 
warheads. In the safety and security area, they are safe and 
secure today, by 20th-century standards. But, I think we are 
responsible to look forward, and a lot has changed since 2001 
with regard to threats to these weapons from terrorist-type 
organizations that didn't exist before.
    The reliability issue is important, because, as I stated 
earlier, these weapons were designed in a time period where you 
would refresh them about every 20 years, you could produce 
thousands in a year, and you could test, if you had a question. 
So reliability was pretty low on the design criteria for these 
weapons, as compared to where it needs to be today, which is 
right up at the top, if you don't want to test.
    Then the maintainability issue, I've said also, I think 
they were not designed to be maintained, and, as we look to the 
future, both from an economic standpoint and from a standpoint 
of being able to make sure we can continue to preserve the 
capability, we need to put that in the design criteria right 
upfront.
    Senator Sessions. Well, I thank you for that, and just 
mention one question, and our time is running short. I know we 
need to get to the second panel. Some notable strategic 
experts, such as former Secretary of Defense William Perry and 
former Secretary of State Henry Kissinger, have written an 
article calling for the United States to set nuclear 
disarmament as a goal. Perry and others believe that the goal 
of nuclear disarmament accords the United States the high moral 
ground for its nonproliferation initiatives. On the other hand, 
such a goal makes it more difficult for the United States to 
achieve a national consensus on nuclear weapons policy, because 
compromise is unattainable between those who support and reject 
that goal.
    How would you assess the strategic implications of a world 
in which the United States does not possess nuclear weapons?
    General Chilton. Senator, first, I do not consider those to 
be diametrically opposed positions. As a father, and someday, 
hopefully, a grandfather, I would, of course, love to envision 
a world free of nuclear weapons. But, I also envision, and 
desire to envision, a world that is free for my children and 
grandchildren to grow up in, a country that is free to do that. 
Unilateral disarmament will not preserve that in a world where 
other countries possess nuclear weapons, particularly in 
quantities enough that could destroy our way of life, if they 
should decide to use them against us.
    Senator Sessions. So, if a country had a few nuclear 
weapons, and let's say, they knew we considered them a rogue 
state, and we were to abandon our nuclear weapons, would it not 
be in their interest to seek to achieve checkmate potential by 
expanding their production of nuclear weapons?
    General Chilton. Well, I think that's good logic. I think 
the possession of nuclear weapons by other countries demands 
that the United States have a nuclear deterrent. I would like 
to see that day when there aren't any, but I don't envision 
that, personally, from a practical sense, in the remainder of 
this century. Given that position, and given the, I think, very 
important mission that this command has been given, to preserve 
our strategic deterrence for the preservation of this country, 
it is time for us to make the hard decisions and the 
investments to answer the questions of: how are we going to 
posture ourself for this century, while, at the same time, 
working to achieve that other goal? I don't think that it's an 
either/or. I think we need to dream and work toward the day, 
with other countries, hand in hand, not unilaterally, to 
achieve that vision someday. But, at the same time, we cannot 
let our guard down, so long as they're a threat to this 
country.
    Senator Sessions. You have to go on. You just made me 
recall the late William Buckley, I think, on Firing Line with 
Norman Cousins on the Saturday Review. He was editor, I think, 
of that, at the time. Cousins waxed eloquent on the need to 
reach out and be peaceful and create a world in which a war 
didn't take place. Buckley listened patiently and concluded, 
saying, ``Well, Norman, I'm glad you're working for those 
goals, and I'm very supportive, but I hope you won't mind if I 
take care to preserve and protect the security of the United 
States while you're working all this out.'' I think it's fine 
for people to talk about ideas, but I want to see if it's going 
to work before I buy into it. I think perhaps we've over-
interpreted, perhaps, what they were saying. I don't think they 
expected us to act in any reckless way. But we need to confront 
these issues, deal with them effectively, make our plans for 
the future. I can't imagine it would result in the elimination 
of warheads, although we are drawing down the number 
dramatically.
    General Chilton. Dramatically.
    Senator Sessions. If we're going to maintain warheads, 
should there be a newer, safer, more reliable warhead, or can 
we continue the whole stockpile? Those are the questions that 
we need to be making now, I think and answers that we need to 
be getting.
    General Chilton. Thank you, Senator.
    Senator Bill Nelson. General, let me pose a series of 
questions, here, to you, and let's get them on the record, and 
then we'll get on to the second panel.
    General Cartwright had said, when he was the Strategic 
Commander, ``It's very important to me, the expansion of the 
system beyond the long-range ICBMs, to start to address those 
that hold at threat our forward deployed forces, our allies, 
and our friends.'' Those are more in the short- and medium-
range ballistic missiles, things that Patriot and Standard 
Missile II and III will be able to address, and Terminal High 
Altitude Area Defense (THAAD), as it comes on. Do you agree?
    General Chilton. I do, Senator. I would say that I'm much 
encouraged by the block approach that MDA has taken. I think it 
has added clarity to the investment, and also helps us focus on 
how we're moving forward. Block one being initial capability to 
defend against North Korea; and block two focused on the 
regional area and increasing investments there; and block 
three, for steps to take to defend to the United States against 
Iran; four, to expand that defensive capability to include our 
allies; and five, to flesh out the second major contingency 
approach to the regional threat. So, as you see that, we have 
fielded the North Korean portion of that already, and I think 
we are taking the appropriate emphasis in block two right now, 
while working in each of the blocks across the board.
    Senator Bill Nelson. All right. There's something called 
the Joint Capability Mix (JCM) Study. Now there's a second 
version. It suggests that we need more THAAD and Standard 
Missile III interceptors than envisioned in the first study. Is 
that correct?
    General Chilton. Senator, I'm not sure that that has 
reported out formally; let me take that for the record, to get 
back to you on that, because I want to be absolutely certain.
    [The information referred to follows:]

    Senator, the recently completed study, which I believe you refer to 
as the second version, was a sensitivity analysis on the Joint 
Capability Mix (JCM) Study II called JCM II Plus. With this additional 
information, the Joint Requirements Oversight Council validated the JCM 
II Study recommending an increase in minimum quantity of upper tier 
interceptors needed beyond those programmed in the President's budget 
2008.

    General Chilton. I have heard the same reports that you 
have had on that, but I have not seen the second JCM study that 
would say that. It wouldn't surprise me. I think it's certainly 
recognized in the block approach by MDA, that's saying that, 
no, what we're today is not going to be adequate for the long 
term.
    Senator Bill Nelson. Well, when you find out, then, we want 
to be briefed on that second version of the study, as well.
    General Chilton. Absolutely, Senator. I'd be happy to.
    Senator Bill Nelson. All right. Now, your command had the 
lead for planning the shootdown of the satellite that just came 
down. I need you to be brief, because we need to change panels, 
here, but I want you to explain the process, which started back 
in December, including when the decision was made that it was 
possible to get it, and the agencies involved.
    I want you to do that right now, and then I want you to 
provide, for the record, the modifications that were made to 
the Aegis Ballistic Missile System to enable to do that, those 
modifications that you made on the software and all that.
    Senator Bill Nelson. Well, go on and answer that quickly.
    General Chilton. Sure.
    Senator, I'd like to provide, for the record, a written 
portion of what you asked for, for me to do quickly, verbally, 
here, because I'm sure I'll not be able to do it very fast, 
because it was pretty extensive, all the work that was done 
there.
    Let me begin by saying first, how proud I am of STRATCOM 
and all the agencies that participated in this. Just to be a 
part of that, it was such a humbling experience to watch this 
Government, this Nation, come together in the fashion that it 
did to solve this problem as quickly.
    It began before Christmas, when the Director of the 
National Reconnaissance Office (NRO) expressed a concern about 
the frozen hydrazine aboard this satellite, his concern that it 
could endanger the populace on the ground, and his question to 
the Director of MDA, ``Is there anything you can do?'' I was 
brought into the loop immediately, when those questions were 
asked, in a phone call from General Obering to me that said, 
``Here, take a look at this. We'll get back to you after 
Christmas.'' Between Christmas and New Year's. I received a 
call from General Obering, and he says, ``We're not there yet, 
but so far, on where we've looked at this, our experts say they 
don't see any showstoppers. This is going to be challenging. 
The schedule's going to be an issue, because we knew about when 
the satellite was going to come down.'' Essentially, they had 6 
weeks to do what they would normally do in 6 months. We knew, 
at STRATCOM, there was going to be a lot of information brought 
together to help advise a decision on even--if we determined 
was technically feasible; in parallel, we had to be building a 
decision package to decide even if you could do it, ``Assuming 
you could do it, would you do it? What are the pros and cons of 
that?'' Sir, that took the great support of the National 
Aeronautics and Space Administration, the NRO, Air Force Space 
Command, contractor workforce, MDA, to do that.
    But, as this moved forward to the culmination of this 
event, the United States Navy was obviously at the tip of the 
spear there and did a marvelous job. It was a complete joint-
service approach and interagency, too. If you numbered them all 
up, I think we counted 16 different organizations in our 
Government, from organizations like Federal Emergency 
Management Agency, Defense Threat Reduction Agency, et cetera, 
that helped us be successful in mitigating this threat to the 
people of the world.
    Senator Bill Nelson. Okay. Now, why isn't that an 
antisatellite capability (ASAT)?
    General Chilton. Well, Senator, I think we approached this 
completely--and the analogies have been made in the press, 
``What's the difference between you, and what you did, and the 
Chinese?'' I think they're absolutely, completely apples-and-
oranges in the description of them.
    First of all, we told the world what the problem was and 
what we were going to do. We did extensive analysis and 
research, and have been very transparent on what our 
estimations of the increased risk to on-orbit vehicles would be 
as we approached the decision, and we've continued to publish 
exactly what's happened as a result of that. The Chinese, on 
the other hand, didn't tell anybody what they were going to do, 
they didn't advise anybody of the risks they were going to 
increase. We took steps to make sure that we mitigated the 
risks, not only to the populace of the planet, which was our 
mission and why we did this, but we were worried about on-orbit 
capability, and we took this intercept at an altitude that 
would ensure that that problem would go away in short order. 
The Chinese effort will be and the consequences of that effort 
will be with us for estimates of up to a century, the risk that 
that will pose.
    Their intentions on why they developed this system have not 
been stated. Our intentions have been clearly stated, and our 
transparency in what we have done and our modification of a 
system to do this, and our intent to unmodify those systems and 
go back to what they're originally intended to do, has been 
very transparent, I think, Senator.
    Senator Bill Nelson. The bottom line is that the Chinese 
have left tens of thousands of pieces up there, at least 250 
miles high and higher, that are going to be up there, as you 
say, for decades, and that pose a threat to everybody else's 
space assets; whereas, our intent, in shooting this down, was 
exactly the opposite, at about 120 miles high, get it so it's 
going to degrade faster and it's going to have a more 
predictable landing, and you're going to bust up that thousand 
pounds of hydrazine.
    General Chilton. That's correct, Senator. I'd only just 
make one minor correction. I would have liked to have waited 
til it was down to 120, because our vision of shooting it as 
low as possible. What turned out to be as low as possible was 
around 150 nautical miles. But, that said, our pre-shot 
estimates were tracking very closely, if not better, to those 
estimates, because the intercept was so successful, it really 
fractured the satellite dramatically, and we think the size of 
pieces that we can trace will all be down in the next 60 days, 
and the modeling of the pieces that are too small for us to see 
will be down before the end of the year. So I think that's a 
dramatic statement, that we took that level of interest and 
sensitivity into the mission that we executed.
    [The information referred to follows:]

    Previous testimony addressed the meetings and discussions that 
occurred during the December 2007 timeframe between Mr. Large 
(Director, National Reconnaissance Office (NRO)), Lieutenant General 
Obering (Director, Missile Defense Agency (MDA)), and General Chilton 
(Commander, U.S. Strategic Command (CDRUSSTRATCOM)) which lead to the 
initial planning efforts.
    The planning team met in early January 2008 to determine potential 
options for presentation to the NSC. This team included personnel from 
USSTRATCOM and its Joint Functional Component Commands, NRO, MDA and 
Aegis-MDA. In mid-January CDRUSSTRATCOM presented the concept brief for 
satellite engagement to the President and received direction to focus 
on a course of action involving intercept with an SM-3 missile.
    This direction permitted MDA to begin software and system 
modifications enabling the SM-3 to execute the intercept. MDA spent 
months altering software to permit optimal target recognition. Target 
characterization and desired aim point determination were key 
parameters to be addressed by the software.
    In late January, CDRUSSTRATCOM presented the refined course of 
action and was directed to begin operational planning for the satellite 
intercept. MDA continued to work on ship and missile system 
modifications necessary for successful engagement.
    All modifications and deliveries took place on schedule in the 
first half of February 2008. In mid-February, CDRUSSTRATCOM presented 
the Operational Intercept Plan to the NSC; received Presidential 
authorization for intercept which culminated in a Chairman, Joint 
Chiefs of Staff, Execution Order.
    Following this execute order, CDRUSSTRATCOM began rehearsals for 
the intercept operation. Six days after being directed to intercept the 
satellite, all engagement parameters were favorable and the satellite 
was successfully intercepted on February 20, 2008.

    Senator Bill Nelson. Well, congratulations to you and to 
all your team and all the multiple agencies that were involved 
on this.
    General Chilton. Thank you, Senator.
    Senator Bill Nelson. As you look at the Minot-Barksdale 
problem, do you think that your command is going to have the 
oversight and the inspections to see that we have this nuclear 
security for the future?
    General Chilton. Yes, Senator. We've taken some steps since 
then. Now, what I've found out is that, over years gone by, the 
STRATCOM went from actively participating, in the days of 
Strategic Air Command, before STRATCOM, to the migration 
through the post-cold-war period, had stepped back from, 
obviously, conducting, because that was no longer their job, 
but to even monitoring, kind of, over-the-shoulder, if you 
will, these inspections. That was reinstituted immediately 
after the Minot incident. So, all the inspections then--and we 
intend to move forward, to have a member of our inspector 
general team, not conducting the inspection--that's not our 
job--but, to be there when they're done, and make and report 
back to me about how comfortable they are with the way these 
inspections are being conducted: Are they standardized? Are we 
satisfied with the level of scrutiny being taken? That's only a 
minor step that we have done, but important.
    Additionally, we've increased focus, up to the commanders 
level in STRATCOM, on the status of our nuclear forces. It's 
part, in my immersion in the weapons side that we've discussed 
already here, but weekly I am briefed on our entire nuclear 
force structure, all our task forces, their readiness, any 
issues that may come up; and those are done to--a weekly 
briefing to me and the entire staff, that everyone is aware of. 
That's new.
    In addition to that, we've set up a construct within the 
headquarters that will report up to the vice commander of 
STRATCOM, on a quarterly basis originally, that is chartered 
from a colonels working group, general officer intermediate 
group, to take a look at the entire nuclear enterprise, so that 
we're not only watching security of the weapons, we're watching 
security of the facilities, we're paying attention to the 
health of the launch platforms and delivery platforms, as well 
as the weapons. So, an across-the-board enterprise examination 
that will address issues that, maybe, before were understood at 
lower levels, but not being elevated to the appropriate levels 
in the command. These are a few of the steps we're taking.
    I'll tell you, we're also going to robust our exercise 
program in this area. We had devolved to--I believe, into a 
kind of a checklist or command-post-type exercise when we 
exercised these systems. I'm a little bit from Missouri on 
this. If you tell me you can do this, I'm going to ask you, on 
occasion, through exercises, to show me that you can still do 
that. That's above and beyond the safety and security 
inspection; this is more of an operational focus. So, we're 
going to increase that emphasis in the command, as well.
    Senator Bill Nelson. Okay. Last question, and then we'll 
bring the other panel up, and the record will remain open for 
any questions that we want to submit in writing.
    We have this little conflict here between the warfighter in 
the area of title 10 military authority and title 50 
intelligence authority as we look at this cyberspace operation 
and responsibility. So, can you give your thoughts of what you 
think it's going to take to resolve this quandary? Could you 
tell us if you think legislative action is needed?
    General Chilton. Right. Senator, I do not think legislative 
action is needed. I think there's honest disagreement among 
some people, but pretty good agreement among others. I'll give 
you an example. I mean, title 50 is an important law that we 
have, that protects the citizens of the United States from 
intelligence--the intelligence collection that is rightly 
targeted at adversaries. There are some who think, because of 
that, that only people with title 50 organizational 
responsibilities, that those organizations should be in charge 
of anything that would have title 50 associated with it. But, 
we have examples today where we maintain that protection of the 
U.S. citizens, we maintain the rules of title 50, but we 
actually use the title 50 assets in combat operations. The 
examples I would use would be the RC-135 platform, which is 
stationed at Offutt Air Force Base, the U-2 platform, a unit 
that I used to command, where we have people that have title 50 
authorities, that examine the intelligence collected by those 
platforms, but day-in and day-out, they're deployed, working 
for the CENTCOM commander, and they're using that information 
to conduct combat operations. At the same time, the title 50 
chain-of-command authority has to certify that they are 
following the rules, and that they're trained and certified to 
do that. So, there you see a classic case of title 10 combat 
operations being closely supported by people with title 50 
authorities, that are certified and kept--and held to be 
accountable to those laws, that's in a very effective 
application of those two titles.
    I think that, as we look forward into the cyber domain, is 
a model that I would advocate for.
    The tension today is based, in a lot of areas, on the 
limits of resources that we have. As I spoke with Senator 
Sessions earlier in the testimony, growing and--for us, 
identifying the requirements and growing those capabilities, 
which is primarily human capital for the future, is very 
important for us in this stage of development of the cyberspace 
domain and how we think about how we would conduct warfare in 
the future there. They're just aren't quite enough people that 
we need in some areas; in other areas, it's a matter of focus. 
There are talents that we can use, and we just need to bring 
them to bear to this command. As a COCOM, I need to demand the 
Services provide those resources so that I can conduct the 
mission that I've been assigned. The Services, we've had good 
dialogue with them and they are excited about doing that.
    Senator Bill Nelson. Well, thank you, General. We 
appreciate it. Thank you for your service to our country, and 
you are always welcome in this committee.
    General Chilton. Thank you, Senator.
    Senator Bill Nelson. We look forward to the continuing very 
good relationship.
    May I call up the second panel, please.
    General Chilton. Thank you, Senator.
    Senator Bill Nelson. Thank you. [Pause.]
    We're pleased to have Assistant Secretary of Defense, 
Michael Vickers. We're pleased to have Major General Richard 
Webber, who is the Assistant Deputy Chief, Operations, Plans, 
and Requirements; Rear Admiral Stephen Johnson, Director of 
Strategic Systems Programs for the Navy; and the Honorable Dr. 
Thomas D'Agostino, Administrator of the National Nuclear 
Security Administration.
    Each of your statements will be put in the record.
    [The prepared statements of Mr. Vickers, Major General 
Webber, Rear Admiral Johnson, and Mr. D'Agostino follows:]
             Prepared Statement by Hon. Michael G. Vickers
                            opening remarks
    Chairman Nelson, Senator Sessions, and distinguished members of the 
subcommittee: I welcome the opportunity to describe our progress in 
transforming the Nation's strategic capabilities to meet 21st century 
security challenges. I know that you understand the importance of this 
effort, and I want to thank the members of the subcommittee for your 
support. Successful transformation of our strategic capabilities will 
require a sustained partnership between the Department of Defense (DOD) 
and Congress.
             implementing the nuclear posture review (npr)
    The NPR determined that the Cold War Triad of nuclear strike 
systems is not adequate to address the range of potential challenges in 
the new security environment. Accordingly, the NPR established a New 
Triad possessing broader capabilities, including offensive strike 
systems (nuclear, non-nuclear, and non-kinetic); defenses (active and 
passive); and a revitalized defense infrastructure, supported by 
enhanced Command and Control, Intelligence, and adaptive planning 
capabilities. Though not explicitly addressed in the NPR, capabilities 
in the areas of space and Information Operations are clearly among 
those needed to meet current and future security challenges.
    We have had mixed progress to date in fielding these capabilities. 
We have had significant success in achieving an initial capability to 
defend the United States against the emerging long-range ballistic 
missile threat from North Korea and the Middle East, and in fielding 
defenses to protect U.S. deployed forces and those of our coalition 
partners. Much more challenging has been the effort to sustain nuclear 
force capabilities and revitalize the nuclear infrastructure, and to 
develop a prompt, non-nuclear global strike capability.
             nuclear forces and a responsive infrastructure
    We continue to draw down the number of operationally deployed 
strategic nuclear warheads, as well as our supporting stockpile of 
nondeployed warheads, to the lowest level consistent with our national 
security requirements and commitment to allies. That said, nuclear 
forces remain the ultimate deterrent capability that supports U.S. 
national security. Even as they decline in numbers, nuclear weapons are 
an essential and enduring element of the New Triad, and they underpin 
these New Triad capabilities in a fundamental way.
    The extended nuclear deterrence commitment the United States 
provides is key to assuring allies and friends of the credibility of 
U.S. security commitments. U.S. nuclear weapons deter potential 
adversaries from the threat or use of weapons of mass destruction 
against the United States, its deployed forces, and its allies and 
friends. In the absence of this ``nuclear umbrella,'' some non-nuclear 
allies of the United States might perceive a need to develop and deploy 
their own nuclear capability.
    At present, the United States is the only recognized nuclear 
weapons state that does not have the ability to produce new nuclear 
weapons in quantity. Accordingly, the lives of existing warhead types 
are being extended through refurbishment. Successive programs to extend 
the service life of the current inventory of warheads, however, can 
decrease our confidence in their performance as these warheads deviate 
from their baseline designs validated using nuclear test data.
    Our long-term goal is to rely more on a revived infrastructure and 
less on the nondeployed warhead stockpile to respond to unforeseen 
events. We seek replacement of existing warheads with Reliable 
Replacement Warheads (RRW) of comparable capability to our current 
weapons that would be less sensitive to manufacturing tolerances or to 
aging of materials. They would be certifiable without nuclear testing, 
and have advanced safety and security features that can not be built 
into our current weapons.
    Safety and security take on enhanced importance in the post-
September 11 world. While our current systems are safe and secure, RRW 
will incorporate improved, state-of-the-art safety and security 
features that will reduce still further any chance of unauthorized use.
    The desired size of a responsive nuclear infrastructure, measured 
in terms of the number of warheads it could produce or refurbish per 
year, would depend on a number of key variables; but once RRWs are 
deployed in significant numbers, many of the warheads now retained in 
the stockpile as a hedge against reliability problems could be retired. 
Until a truly responsive nuclear infrastructure is operational, 
however, the United States will need to retain an appropriate inventory 
of nondeployed warheads to manage geopolitical, technical, and 
operational risks. The Department will soon provide a white paper, 
``National Security and Nuclear Weapons in the 21st Century,'' 
discussing the considerations behind U.S. requirements for nuclear 
weapons in greater detail. This paper will help inform the Nuclear 
Posture Review to take place next year.
                    non-nuclear prompt global strike
    The 2006 Quadrennial Defense Review highlighted an important gap in 
prompt, long-range conventional (non-nuclear) strike capabilities. 
Land-based conventional forces, such as fighter and bomber aircraft, 
could take hours to days to deploy and strike a target. Prompt Global 
Strike capabilities may be needed for time-sensitive operations such as 
interdicting the transfer of WMD to terrorists, or preventing a rogue 
state from launching a ballistic missile armed with a WMD payload. 
Today, nuclear-armed ballistic missiles are the only means the United 
States possesses for engaging distant, fleeting targets promptly 
(within about an hour from the time of an execution decision).
    Last year, in response to our request for funding for the 
Conventional Trident Modification program, Congress appropriated funds 
for research and development of technologies that could be applied to a 
wider range of concepts that might provide a prompt, non-nuclear, 
global strike capability. I want to thank the members of this 
subcommittee for your support of Prompt Global Strike. DOD accordingly 
will continue to develop and propose options to expand the range of our 
strategic capabilities in this area.
                      missile defense capabilities
    Missile defense remains a top priority for the administration. 
Missile defenses constitute an essential element of our overall 
national security strategy to dissuade and deter states of concern from 
acquiring or using ballistic missiles, and to protect our citizens from 
the threat of missile attack should deterrence fail. We greatly 
appreciate the strong support this subcommittee has provided toward 
developing and procuring this critical capability.
    We continue to make good progress in providing an initial 
capability to protect our population and territory against the emerging 
long-range ballistic missile threat from North Korea and the Middle 
East. At the same time, through deployment of Aegis SM-3 and PAC-3 
systems, and continued development of Theater High Altitude Area 
Defense and the airborne laser, we are ensuring we can protect our 
forward-deployed forces and those of our coalition partners against 
shorter-range missile threats.
    We have already seen the benefits of the initial defense against 
long-range missiles when we activated the system during the North 
Korean ballistic missile tests in July 2006. The capability to engage a 
missile launched in the direction of the United States allowed U.S. 
leaders to consider a wider range of options than would have otherwise 
been available. This capability also serves to devalue any future North 
Korean attempt to use its missiles to threaten or coerce the United 
States.
               international missile defense cooperation
    The United States is committed to working with allies and friends 
to strengthen our collective capabilities to deal with the dangers of 
WMD and ballistic missiles. Our largest missile defense cooperation 
partner is Japan. Facing a direct threat from North Korean missiles, 
Japan is acquiring both Aegis SM-3 interceptors and PAC-3 batteries. 
Japan achieved a major milestone in December 2007, when its destroyer 
Kongo successfully intercepted a ballistic missile target with an SM-3 
interceptor--a first for an allied naval vessel. In March 2007, Japan 
deployed its first PAC-3 firing unit, which together with the Kongo 
affords the Japanese a layered capability to defend against ballistic 
missiles. With Japan, the United States is co-developing the SM-3 Block 
IIA interceptor, a more capable version of the current sea-based 
interceptor, and we are developing operational plans to share 
information and to integrate our systems more effectively.
    Another important area of missile defense cooperation is our work 
with Israel. We continue to cooperate on the Arrow missile defense 
system and have begun to explore with Israel options for addressing 
ballistic missile threats that exceed the Arrow's defensive capability. 
An important component of our missile defense cooperation is an 
ambitious bilateral exercise program over the next 2 years that will 
realistically test our joint capability to address ballistic missile 
threats.
                     european missile defense sites
    In January 2007, the President directed us to proceed with 
negotiations on basing U.S. missile defense elements in Poland and the 
Czech Republic. These defenses are intended to counter the emerging 
threat both to the United States and to friends and allies in Europe 
posed by Iranian development of longer-range ballistic missiles. We 
have had several rounds of negotiations with Poland on a draft 
agreement to base ground-based missile defense interceptors on its 
territory. These sessions have been productive, and we have made good 
progress on a draft text. While the new Polish Government has 
emphasized its position that the agreement should result in a net 
benefit to Poland's security, it recognizes the growing ballistic 
missile threat to Europe and the contribution these missile defense 
assets can make to the North Atlantic Treaty Organization (NATO) 
security.
    In parallel, we have had a number of rounds of negotiations with 
the Czech Republic on an agreement to base a missile defense tracking 
radar on its territory. These talks have also made great progress and 
we are in the process of addressing a small number of issues that, once 
resolved, will allow us to finalize the draft text. Czech officials 
have shared our commitment to concluding these agreements, while at the 
same time ensuring that U.S. missile defense assets in Europe will be 
interoperable with, and complementary, to ongoing NATO missile defense 
efforts.
                        missile defense at nato
    In addition to pursuing bilateral cooperation programs in missile 
defense, we are working within NATO on the Alliance's response to the 
growing ballistic missile threat. We are pleased with the progress 
being made in the NATO Active Layered Theater Ballistic Missile Defense 
(ALTBMD) program, which will provide the Alliance's deployed forces a 
defense against short- and medium-range missiles.
    To protect the indivisibility of Allied security, it is important 
for the rest of the Alliance to be protected against ballistic missile 
attack. NATO Heads of State and Government recognized the technical 
feasibility of missile defense at the 2006 Riga Summit, and NATO 
continues to make progress in this area. While the planned U.S. sites 
in Poland and the Czech Republic will be important contributions to 
Allied security, these elements will not protect Allies in southeastern 
Europe from shorter-range ballistic missile threats. It is our hope 
that at the Bucharest summit in April, the Alliance will be in a 
position to recognize the growing missile threat; support territorial 
defense as a means of addressing that threat; and welcome the 
contribution that European-based U.S. missile defense assets will make 
in protecting most Allies against long-range ballistic missiles. NATO 
also continues to cooperate with Russia in the NATO-Russia Council on 
Theater Missile Defense, and we have expressed our willingness to work 
with Russia on broader Missile Defense in the NATO context.
                missile defense cooperation with russia
    Because we are building a new security relationship with Russia 
whose foundation does not rest on the prospect of mutual annihilation, 
and because we believe that Russia also faces an emerging ballistic 
missile threat from states such as Iran, we have invited Russia to join 
us in a cooperative effort to pursue missile defense.
    U.S. and Russian missile defense experts have met a number of times 
over the last year to share intelligence assessments of the Iranian 
ballistic missile program; discuss transparency and confidence building 
measures that could address Russia's concerns about our planned missile 
defenses in Europe; and seek ways in which we could work jointly with 
Russia to address ballistic missile threats. We have proposed 
cooperation in such areas as modeling and simulation; sharing of early-
warning data; building a joint regional missile defense architecture; 
and conducting joint exercises and wargames. Missile defense also 
featured prominently in last October's ``2+2''meeting in Moscow, where 
Secretaries Gates and Rice discussed a number of strategic issues with 
their Russian counterparts. We remain committed to showing through our 
continued discussions, and through our concrete proposals, our sincere 
desire to work with Russia to address an emerging threat that affects 
us all while demonstrating that our missile defense program poses no 
threat to Russia.
                           space capabilities
    We rely on services provided by space capabilities in all facets of 
our daily lives, and these capabilities are vital to our national 
security and the global economy. At the same time, potential 
adversaries continue to seek means to counter the advantages we obtain 
from space and to use space capabilities against us. Our space 
capabilities face a wide range of threats such as radio frequency 
jamming, laser blinding, and anti-satellite systems, including the 
anti-satellite capability demonstrated by China last year. In this 
regard, we are working to assess the strategic implications of such 
counter-space capabilities for our vital interests in space, and are 
carefully factoring the results of our assessments into our 
architecture planning efforts and investment priorities.
    U.S. National Space Policy is based on a number of longstanding 
principles. The U.S. rejects claims of sovereignty by any nation over 
space; rejects limitations on the fundamental right to operate in or 
acquire data from space; and retains the right of free passage through 
and operations in space without interference. Consistent with these 
principles, the U.S. views purposeful interference with its space 
systems as an infringement on its rights and will take those actions 
necessary to preserve its freedom of action in space.
    U.S. National Space Policy directs the Secretary of Defense to 
develop capabilities, plans, and options to ensure freedom of action in 
space, and if directed, to deny such freedom of action to adversaries. 
The Department's investment strategy for space and space-related 
activities seeks to balance a number of requirements. We need to: 
modernize space situational awareness capabilities to ensure ample 
warning of hostile acts; improve protection plans to ensure required 
capabilities are available in a contested space environment; develop 
architectural solutions, including Operationally Responsive Space 
concepts, to ensure capabilities are available when needed; establish 
an operations posture, to include appropriate planning and exercises, 
to respond to attacks on U.S. space interests; and ensure the ability 
to deny adversaries the use of space capabilities to harm our forces or 
our homeland.
    The DOD further implements our National Space Policy by supporting 
efforts to promote safe and responsible use of space. We seek mutually 
beneficial international cooperation on space activities, and support 
commercial and foreign space surveillance needs to ensure safe space 
operations. DOD seeks to promote compliance with existing legal 
regimes, acceptance of international debris mitigation guidelines, and 
development of additional voluntary guidelines for safe and responsible 
space operations. We also do our best to protect mutual security 
interests related to dual-use space technology and services.
                 information operations and cyberspace
    Providing our combatant commanders the capability to integrate into 
their planning the various elements of Information Operations--computer 
network operations, electronic warfare, psychological operations, 
military deception, and operations security--has become even more 
important in the information age. Our potential adversaries, both 
nation-states and non-state actors, continue to seek ways and means to 
counter the advantages we obtain from our use of information, and to 
turn those same advantages against us in both conventional and in 
unconventional ways. We are assessing the strategic implications of our 
potential adversaries' capabilities in this regard, and factoring those 
results into our planning and investment priorities for information 
operations.
    We are continuing to develop deterrence strategies to address 
potential adversaries' attempts to counter our information advantages. 
We are working closely with our interagency partners, to define this 
domain in terms that will allow us to scope the missions that we will 
be asked to conduct. This domain crosses the physical boundaries within 
which we operate--space, air, land, and sea--as well as the 
organizational boundaries--military, civil and commercial--making this 
a complex problem. It is imperative that we understand our roles, both 
active and supporting, so as to provide the best possible options for 
the Nation.
    The ability to operate freely within cyberspace is critical to 
military operations and U.S. national security, but the threats to our 
computer networks are real and growing. Numerous organizations, such as 
the Joint Task Force-Global Network Operations, the Defense Information 
Systems Agency, U.S. Strategic Command, and the National Security 
Agency's Information Assurance Directorate are working together to 
defend our Global Information Grid. But while these significant 
resources and effort are devoted to defending our computer networks 
against attempted intrusions on a daily basis, technology changes, and 
so do the threats. We recognize that this will be a long-term effort, 
and while much remains to be done in this area, we are making progress.
                               conclusion
    Transformation of our Nation's strategic capabilities to meet the 
uncertainties and challenges ahead depends critically on a sustained 
partnership between DOD and Congress. We need to continue the progress 
on missile defense; sustain our nuclear capabilities through the RRW 
program and revitalization of the nuclear infrastructure; develop and 
deploy a conventional, prompt Global Strike capability; ensure 
continuity of service of our space systems as we recapitalize and 
modernize these capabilities; and protect our ability to operate freely 
within the information environment while preventing adversary use of 
information against our interests. I look forward to working with you 
to achieve these goals.
                                 ______
                                 
          Prepared Statement by Maj. Gen. Richard Webber, USAF
                            i. introduction
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to discuss our Strategic Nuclear posture. Your 
Air Force is fully engaged around the world fighting terrorism and 
insurgents in the global war on terror and fulfilling our roles as 
Airmen for the joint team. Simultaneously, we stand prepared for rapid 
response to conflict around the globe as our Nation's strategic 
Reserve. Air forces succeed when they have the resources to shape the 
future strategic environment and prepare for tomorrow's challenges. Air 
forces succeed when they remain focused on their primary mission as an 
independent force that is part of an interdependent joint team. Above 
all, the U.S. Air Force delivers sovereign options for the defense of 
the United States and its global interests: To fly and fight in air, 
space, and cyberspace.
                         ii. win today's fight
    Supporting U.S. Central Command (CENTCOM) and the global war on 
terror is a portion of what your Air Force does for our Nation's 
defense. Your Air Force is prepared to respond across the entire 
spectrum of conflict from rapid humanitarian aid to major combat 
operations.
    Fighting and winning the global war on terror is the number one 
priority; however, it is important to focus on protecting our Nation 
from other potential enemies, both traditional and nontraditional.
    Air Force engagement in CENTCOM is only the tip of the iceberg. 
Your Airmen operate around-the-clock and around-the-globe to provide 
all Combatant Commanders (COCOMs) with critical capabilities. Over 40 
percent of the total force and 53 percent of the Active-Duty Force are 
directly engaged in or supporting COCOM operations everyday. On any 
given day, the Air Force has approximately 206,000 airmen (175,000 
active duty plus an additional 31,000 Guard and Reserve) fulfilling 
COCOM tasks. This includes approximately 127,000 airmen conducting 
activities such as operating and controlling satellites, standing alert 
in our Intercontinental Ballistic Missile (ICBM) facilities, operating 
unmanned aerial vehicles, launching airlift and tanker sorties, 
providing intelligence assessments, and many other functions critical 
to each of the COCOMs. Also included are 57,000 airmen stationed 
outside the continental United States in direct support of the Pacific 
Command and European Command missions. Finally, a portion of the above 
forces plus an additional 22,000 airman from the current AEF rotation 
are made available for deployments in support of other COCOM 
requirements. At any given time, 34,000 of these airmen are deployed 
with 25,000 of them deployed to the CENTCOM AOR of which approximately 
6,600 are in-lieu-of (ILO) taskings. Since 2004, we have deployed 
approximately 24,000 airmen to perform ILO taskings.
                     iii. strategic nuclear forces
    The United States Air Force has underwritten the national strategy 
for over 60 years by providing a credible deterrent force, and we 
continue to serve as the ultimate backstop, dissuading opponents and 
reassuring allies by maintaining an always-ready nuclear arm. Airmen 
continue to stand silent sentry around-the-clock to protect our 
national security, and respond to any adversary should deterrence fail.
    Since the weapons-transfer incident of 30 August 2007, we have 
initiated multiple levels of review to ensure we have not only 
investigated the root causes of the incident, but more importantly 
taken this opportunity to review Air Force policies and procedures in 
order to improve the Air Force's nuclear capabilities. The Commander of 
Air Combat Command commissioned a Commander Directed Investigation 
(CDI), a tactical level investigation that focused on the facts of the 
incident and determined accountability. The Chief of Staff of the Air 
Force (CSAF) commissioned the Blue Ribbon Review, an operational-level 
review that focuses on the entire Air Force enterprise including both 
the aircraft and ICBM and reviews policies, procedures. The Secretary 
of Defense commissioned the Defense Science Review Board (DSB) review, 
a strategic-level independent review that focuses on the Department of 
Defense (DOD) enterprise and joint organizations. The Air Force takes 
its nuclear obligations seriously, and will continue to take any 
measure necessary to deliver this strategic capability safely. 
Consequently, we have identified the actions required to both enhance 
our strengths and correct those areas needing improvement. We have also 
submitted the Air Force unfunded requirements list to the House Armed 
Services Committee with a number of nuclear surety and security 
initiatives for consideration. The United States Air Force is committed 
to the nuclear mission.
Air Force Intercontinental Ballistic Missiles
    Minuteman is and will remain the Nation's land-based strategic 
deterrent through 2030.
    The National Defense Authorization Act (NDAA) for Fiscal Year 2007 
mandated that the Air Force modernize Minuteman III (MM III) ICBMs in 
the United States inventory as required to maintain a sufficient supply 
of launch test assets and spares to sustain the deployed force of such 
missiles through 2030. The Air Force is currently analyzing MMIII 
missile and ground systems to determine what activities are required to 
sustain the force through 2030. The Air Force has ongoing life-
extension programs designed to extend ICBM service life beyond 2020.
    During the 2005 Quadrennial Defense Review (QDR), the Defense 
Department agreed with the U.S. Strategic Command (USSTRATCOM) 
recommendation to reduce the ICBM force from 500 to 450. The USSTRATCOM 
analysis concluded a 450 Minuteman III force was sufficient to assure 
allies and deter potential adversaries. Headquarters Air Force Space 
Command (AFSPC) recommended and the USAF agreed that the 564th Missile 
Squadron (564 MS) at Malmstrom AFB, MT, was best candidate for 
deactivation. The 564 MS increased logistics sustainment costs because 
of its unique operating system versus other Minuteman III squadrons. 
Reduction of 564 MS also standardized the unit size and configuration 
at three bases.
    The NDAA for Fiscal Year 2008 requires the Secretary of Defense to 
submit a report to the Congressional Defense Committees ``. . . on the 
feasibility of establishing an association . . .'' between the 120th 
Fighter Wing, Great Falls, MT (Air National Guard) and the 341st Space 
Wing, Malmstrom AFB, MT (Active Duty Air Force). The Air Force must 
submit the report 15 days before removing the 41st missile from the 
564th Missile Squadron. The report is currently in coordination and 
anticipated delivery to Congress is April 2008.
    AFSPC commenced deactivation activities within the 564 MS in June 
2007. The Air Force will retain and modernize the 50 removed ICBMs for 
use in the Force Development Evaluation (FDE) program. Conversion of 
the 50 missiles for use as flight test, replacement and aging/
surveillance assets meets congressional direction to extend Minuteman 
operations through 2030.
ICBM Life Extension Programs (LEP)s
    1. Guidance Replacement Program:
    Replaces guidance set electronics on MMIII and improves reliability 
on the ground and in flight. The replacement program calls for 652 
kits: 450 are fielded; 180 are used for tests, spares, etc.; the final 
32 will be delivered in fiscal year 2009.
    2. Propulsion Replacement Program:
    Extends booster life through 2020 by re-pouring stages one and two, 
and re-manufacturing stage three. The replacement program calls for 605 
kits: 376 are fielded; 173 are used for tests, spares, etc.; the final 
56 will be delivered in fiscal year 2009.
    3. Propulsion System Rocket Engine Program:
    Refurbishes seven components and assemblies in the liquid 
propulsion post-boost vehicle. The Air Force installed 154 kits and 
will purchase 96 additional kits in fiscal year 2009. The future 
installation of 574 total kits will complete the program.
    4. Safety Enhanced Reentry Vehicle (SERV):
    Enables MMIII to carry the more advanced Peacekeeper MK 21 Reentry 
Vehicle (RV) while retaining the powerful MMIII MK 12A RV multiple 
independently re-targetable RV (MIRV) capability. Retirement of the 
older MK 12 RV is now possible, avoiding a costly $1 billion LEP. The 
Air Force fielded 75 kits and will purchase the 111 additional kits in 
fiscal year 2009. The fielding of 570 total kits completes the program. 
Deployment of the MK 21 RV enhances nuclear safety because the MK 21 RV 
design incorporates three additional safety features: Insensitive High 
Explosive, Fire Resistant Pit, and Enhanced Nuclear Detonation Safety, 
which the Drell Commission recommended, but not incorporated in the 
older MK 12 RV design. The Insensitive High Explosive and Fire 
Resistant Pit features reduce the likelihood of plutonium dispersal in 
cases of inadvertent impact or accident. The Enhanced Nuclear 
Detonation Safety design protects those electrical components critical 
to detonation from sources of unintended energy in order to prevent 
premature arming in abnormal environments. The Air Force is continuing 
to deploy SERV, with 75 kits already fielded, and will purchase 111 
additional kits in fiscal year 2009. The program will procure 570 kits 
total.
    5. Environmental Control System:
    Modernizes cooling system equipment in the Minuteman launch 
facilities and missile alert facilities. The Air Force installed 71 
launch facility kits and 6 missile alert facility kits and will 
purchase 126 kits in fiscal year 2009. Deployment of 499 total kits to 
all the launch facilities, missile alert facilities, and training sites 
will complete the program.
    6. ICBM Security Modernization Program:
    This three-part program consists of concrete enhancements, a fast-
rising secondary personnel access hatch, and a Remote Visual Assessment 
(RVA) camera. This comprehensive program began in fiscal year 2004. The 
Air Force completed concrete enhancements at all 450 launch facilities 
in 2007, more than a year ahead of schedule and 35 percent under 
budget. The Air Force installed fast-rising secondary personnel access 
hatches at 21 launch facilities. The Air Force also installed RVA at 5 
missile alert facilities and 50 Launch Facilities. The $10.5 million 
Congressional increase in fiscal year 2008 allowed the Air Force to 
purchase 90 additional RVA kits, enough to complete deployment at the 
first wing. Taken together, these programs give responding security 
forces situational awareness and adequate time to deny adversarial 
access to our launch facilities. In fiscal year 2009, the Air Force 
will purchase 100 fast-rising secondary personnel access hatches and 
147 RVA kits.
Helicopters
    The primary AFSPC helicopter mission, flown by UH-1N platforms, 
provides security forces with a continuous contingency response 
capability for the National ICBM complex. The Air Force District of 
Washington (AFDW) and several other MAJCOMS also use the UH-1N as an 
Operational Support Airlift/Very Important Person Special Air Mission 
(OSA/VIPSAM) platform. The UH-1N has noted deficiencies in payload, 
speed, range, endurance, battle space awareness, survivability, and 
adverse weather operations.
    Your average Air Force UH-1N airframe is 39 years old and some 
aircraft in the inventory exceed 13,000 flight hours. The UH-1N fleet 
shows its age with fatigue-related cracks in the tail boom and is 
currently undergoing its second tail boom replacement that will enable 
it to meet flight safety standards.
    The Common Vertical Lift Support Platform (CVLSP) is an Air Force 
effort to replace these UH-1Ns. AFSPC is the designated lead command 
and is in the process of finalizing the Analysis of Alternatives (AoA) 
to scope the available pool of platforms capable of accomplishing the 
multiple missions required by all users of the UH-1N. Following the 
AoA, AFSPC anticipates a final Capability Development Document (CDD) in 
early fiscal year 2009. Once the Joint Requirements Oversight Committee 
and the Office of the Secretary of Defense approve all requirements, 
the Air Force will develop an acquisition strategy to field this 
capability.
Nuclear Cruise Missiles
    The Air Force analyzed current and future roles for nuclear cruise 
missiles during the 2005 QDR and the fiscal year 2007 budgeting cycle. 
The Defense Department issued guidance on 20 December 2005 directing 
USSTRATCOM and the Air Force to study the nuclear cruise missile force 
structure, including the Air-to-Ground Missile (AGM) -86, Air Launched 
Cruise Missile (ALCM), and the AGM-129 Advanced Cruise Missile (ACM). 
The guidance also directed the Air Force to build a retirement schedule 
for the missiles.
    The USSTRATCOM/Air Force study examined considerations such as 
cruise missile inventory, operational capability, reliability, DOD 
direction and COCOM requirements. Based on these factors, the study 
recommended that the Air Force retire all ACMs, reduce the ALCM force 
to 528, retire all excess ALCMs, consolidate the ALCM force at Minot 
AFB, and retain ALCMs in the inventory through at least 2020, possibly 
2030. On 12 April 2006, the Deputy Secretary of Defense accepted the 
study recommendations. On 23 June 2006, the Commander of USSTRATCOM 
sent a letter to the Secretary of Defense supporting the study's 
findings and advocating adoption of the ALCM/ACM force structure 
recommendations. The Joint Chiefs of Staff and National Security 
Council endorsed the study recommendations as they pertained to the Air 
Force. On 17 October 2006 the Secretary of Defense directed the Air 
Force to retire the ACM and reduce the ALCM fleet to 528 missiles.
    The Air Force is removing from service, demilitarizing and 
destroying all ACMs and the excess ALCM missile bodies at the rate of 6 
ACMs and 12 ALCMs per month. We forecast completion of demilitarization 
for excess ALCMs in fiscal year 2011 and all ACMs in fiscal year 2013. 
The remaining nuclear cruise missile force will be consolidated at 
Minot AFB, North Dakota. These cruise missile force structure changes 
are part of a balanced force reduction that supports both the 
President's direction to reduce the active nuclear stockpile, and the 
United States' obligation under the 2002 Moscow Treaty to reduce the 
number of operationally deployed strategic nuclear warheads to 1,700-
2,200 warheads.
Warhead Replacement and Refurbishment
    A viable program of warhead replacement and refurbishment is 
essential to sustain a nuclear weapons stockpile of any size. Warhead 
replacement concepts continue to show promise for increasing long-term 
confidence in warhead reliability, and this strategy offers other 
advantages when compared with refurbishment. For example, a replacement 
warhead could incorporate improved safety and security features not 
considered feasible in a refurbished weapon, and replacement weapons 
could be better designed to interface with modern delivery platforms 
such as the Joint Strike Fighter. Decisions must be made very soon if 
we are to find the most cost-effective strategy to meet current and 
projected requirements. To that end, it is imperative that we pursue 
and complete the studies needed for informed decisions.
    In the absence of a replacement warhead, the Nuclear Weapons 
Council commissioned a 1-year phase-one study to define concepts for 
refurbishment of existing warheads for current and future air-delivered 
systems in November 2006. We are reviewing the findings of this study, 
and expect to recommend further studies to the Nuclear Weapons Council.
Strategic Bombers
    A new bomber is critical to upgrading the Nation's long-range 
strike capability to ensure range and payload, and ability to hold any 
target anywhere at risk. The Air Force has a three-phased approach to 
meet the Nation's long-range strike requirements. The first phase is to 
continue with the modernization of legacy bomber fleet to ensure 
sustainability and increase combat effectiveness. The 2008 NDAA 
mandated that the Air Force maintain a 76 Total Aircraft Inventory 
(TAI) for B-52s. This inventory includes 44 combat-coded, 15 training, 
4 test, 11 backup, and 2 attrition reserve B-52s. Additionally, the Air 
Force is complying with congressional language, which directs that no 
funds be obligated or expended for retiring any of the 93 B-52H 
aircraft 60 days after the Secretary of the Air Force submits a bomber 
force structure report prepared by the Institute for Defense Analyses 
(IDA). The IDA will deliver its report to the Air Force later this 
month and the Secretary of the Air Force will subsequently forward the 
report to Congress. The Air Force will retain the B-2 fleet at the 
current TAI. The second phase of the Air Force's approach is to 
leverage near-term technologies to field a next-generation long-range 
strike (NGLRS) capability to replace the oldest B-52s by 2018. This 
could include beginning the divestiture of legacy bombers as the NGLRS 
bomber reaches initial operational capability. The final phase consists 
of a quantum leap in technology and capability that employs a system of 
systems technology push for advanced improvements in speed, range, 
accuracy, connectivity and survivability in the 2035 timeframe.
                              iv. closing
    The United States Air Force continues to serve as the ultimate 
backstop, dissuading opponents and reassuring allies by maintaining an 
always-ready nuclear arm. Airmen continue to stand silent sentry 
around-the-clock to protect our national security, and respond to any 
adversary should deterrence fail.
    Your Air Force is preparing to dominate in the 21st century 
strategically, operationally, and tactically. Air Force strategic 
forces, the bulwark of our strategic deterrent capability, give us the 
means to ensure Global Vigilance, Global Reach, Global Power, and 
worldwide Expeditionary Combat Support by providing sovereign options 
for the defense of the United States and its global interests: These 
capabilities are essential to the joint fight and are a critical 
component of the future joint force. The Air Force is committed to 
advancing strategic capabilities to fully support the joint team. In 
order to maintain our strategic dominance, the Air Force must 
recapitalize and also be allowed to divest itself of outdated, excess 
platforms. Divesting excess platforms will provide the means to shift 
vital funds to recapitalization and modernization of the Air Force and 
to maintain a strategic deterrent second to none. Your Air Force 
appreciates your continued support in turning our vision into an 
operational reality. Above all, our Nation must invest today to ensure 
tomorrow's air, space, and cyberspace dominance.
                                 ______
                                 
            Prepared Statement by RADM Stephen Johnson, USN
    Chairman Nelson, Senator Sessions, distinguished members of the 
Strategic Forces subcommittee. Thank you for affording me the 
opportunity to appear before you to discuss our Navy's deterrent fleet 
and the ongoing efforts to ensure the continued reliability of our 
submarine strategic forces. The men and women of Strategic Systems 
Programs (SSP) are committed to maintaining the high reliability of our 
deployed Ohio class submarines with their Trident II D5 Missiles and to 
supporting emerging requirements of our combatant commanders. I am 
pleased to report to you that the Trident Strategic Weapons Systems 
continues to exceed the operational requirements established for the 
system. On 29 November 2007, U.S.S. Henry M. Jackson (SSBN 730) 
conducted the 120th consecutive successful missile launch as part of 
her Demonstration and Shakedown Operation. This record is unmatched by 
any previous missile launch system.
    Our 14 Trident Submarines, 8 of which are deployed in the Pacific 
and 6 in the Atlantic fleet, continue to provide an affordable and 
credible sea base deterrent for our national leadership. Two of our 
submarines, U.S.S. Alabama (SSBN 731) and U.S.S. Alaska (SSBN 732), are 
undergoing Engineering Refueling Overhauls. U.S.S. Henry M Jackson has 
completed her overhaul and post availability testing and is preparing 
for her strategic outload and return to the operational cycle.
                           d5 life extension
    The Trident II missile continues Life Extension on schedule and on 
budget. The Life Extension program procures an additional 108 missiles 
and redesigns missile and guidance electronics due to obsolescence to 
meet long-term inventory requirements which will ensure that our Ohio 
class submarines are fully out loaded throughout their service lives.
    The first Life Extended missile will be delivered to the Navy in 
fiscal year 2011. Testing of all components has gone well. Continued 
production of rocket motors has proven to be successful in maintaining 
our capability to field these critical assets.
    In Partnership with the United Kingdom, the Navy is evaluating a 
follow-on platform to replace the current Ohio Class SSBNs. The U.S. 
lead-ship will occur in fiscal year 2019.
                        nuclear weapons security
    SSP continues to pursue technologies which will provide credible, 
cost effective security for the nuclear assets entrusted to our watch. 
Our Marines and Navy Masters at Arms are providing an effective and 
integrated elite security force at both of our strategic weapons 
facilities. We will soon begin construction on our Limited Area 
Production Security Complex at Strategic Weapons Facility Pacific, 
Bangor, WA. When complete, this facility will provide a significantly 
higher degree of security for our ashore operations.
    The first of our Maritime Protection Force Units has been 
commissioned at Kings Bay Georgia in support of the Transit Protection 
System (TPS). The recently commissioned United States Coast Guard 
Cutter Sea Dragon will comprise a major part of our TPS, providing a 
security umbrella for our Ohio class submarines as they deploy and 
return from their deterrent patrols. The United States Coast Guard has 
been an exemplary partner in this essential mission.
   phase 2 study in support of the reliable replacement warhead (rrw)
    The Strategic Systems Program chaired and coordinated the RRW Phase 
2A design definition and cost study until the suspension of work by our 
national laboratories in accordance with congressional direction. The 
first order analysis of mass properties for the entire system are 
satisfactory, which means a modern warhead approach will fit within the 
space and weight constraints of our missile. At the stop work point, 
the directors of Lawrence Livermore National Laboratory, Los Alamos 
National Laboratory, and Sandia National Laboratories remain confident 
that a modern warhead design:

        <bullet> Can be certified without underground testing;
        <bullet> Will significantly improve safety and security;
        <bullet> Will significantly reduce the use of toxic material; 
        and
        <bullet> Can significantly improve manufacturability.

    It is important this study or one similar be resumed so that the 
next administration has the information it needs to complete, as 
mandated by Congress, a timely review of its nuclear posture. We should 
be developing the technologies needed for a modern warhead approach 
now, regardless of specific program application, in order to make these 
safety and security capabilities sufficiently mature for future 
application.
                                  ssgn
    The flexibility of this new capability was clearly demonstrated in 
May 2007 when U.S.S. Florida launched two Block IV Tomahawks from the 
same tube. The following day one Block IV and Block III were launched, 
demonstrating system capabilities of the Attack Weapons System 
including in-flight updates and retargeting, the first time this had 
been done from a submerged submarine. All missiles flew their complete 
profiles flawlessly to target. All four submarines have completed their 
conversion to SSGN Attack and Special Operating Force Platforms, with 
U.S.S. Georgia being returned to service later this month. U.S.S. Ohio 
(SSBN 726) has recently conducted the first operational SSGN deployment 
in the Pacific and is on her second deployment. U.S.S. Florida has 
completed her initial load out of Tomahawk missiles and is making final 
preparations for her first deployment.
                          prompt global strike
    SSP will leverage our successes with ongoing programs such as our 
Reentry Systems Applications and Guidance Applications programs and 
collaborate with other services as we participate in a new Defense Wide 
Conventional Prompt Global Strike Initiative to deliver a new 
conventional strike option to the combatant commanders. SSP continues 
to investigate technologies which will become viable for use on future 
Prompt Global Strike weapons systems which could be tailorable and 
adaptable into several platforms across the Department. Technologies 
such as thermal protection, navigation guidance and control, and 
advanced fuzing concepts must be further developed.
    Mr. Chairman and distinguished members of this subcommittee, I 
sincerely appreciate your continued support of Strategic Systems 
Programs and our Deterrent Fleet. Your efforts will ensure the 
continued credibility and reliability of our Trident II Weapons System 
and its remarkable Trident II D5 Missile, maintaining an unmatched 
record of success by any missile system. The men and women of Strategic 
Systems Programs are committed to the highest standards of safety, 
surety, and reliability of this remarkable system. Thank you again for 
the opportunity to appear before you today.
                                 ______
                                 
               Prepared Statement by Thomas P. D'Agostino
                              introduction
    Mr. Chairman, thank you for the opportunity to discuss U.S. nuclear 
weapon policies and programs. My remarks focus on our efforts to 
transform the nuclear weapons complex into a 21st century national 
security enterprise. I will address why we believe that the Reliable 
Replacement Warhead (RRW) concept should be pursued notwithstanding the 
recent decision by Congress not to fund completion of the RRW design 
definition and cost study.
    Before I begin, I want to remind you of the tremendous progress 
made over the past few years in reducing the size of our nuclear 
weapons stockpile. As you recall, in 2002, President Bush and President 
Putin signed the Moscow Treaty, which will reduce the number of our 
operationally deployed strategic nuclear warheads to 1,700 to 2,200 by 
2012. In 2004, the President issued a directive to cut the entire U.S. 
nuclear stockpile--both deployed and Reserve warheads--in half by 2012. 
But this goal was later accelerated and achieved 5 years ahead of 
schedule in 2007. As of the end of 2007, the total stockpile was almost 
50 percent below what it was in 2001, when the President took office.
    On December 18, 2007, the White House announced the President's 
decision to reduce the nuclear weapons stockpile by another 15 percent 
by 2012. This means the U.S. nuclear stockpile will be less than one-
quarter its size at the end of the Cold War--the smallest stockpile in 
more than 50 years.
    My Department of Defense (DOD) colleagues are prepared to address 
fundamental questions of why in the post-Cold War era we continue to 
need nuclear forces and why, although dramatically reduced, we need the 
number of nuclear warheads in the stockpile that we plan to have. My 
testimony will focus more narrowly on our efforts to ``transform'' the 
U.S. nuclear weapons stockpile and supporting infrastructure. In this 
regard, further stockpile reductions rest on: (1) our ability to 
transform the nuclear weapons complex into a more responsive 
enterprise, (2) ongoing efforts to understand challenges to the 
stockpile and modern means of addressing these challenges such as the 
RRW, and (3) efforts between successive administrations and Congress to 
restore a consensus on the future nuclear deterrent, force posture and 
resulting nuclear weapons stockpile.
                transforming the nuclear weapons complex
    The Nuclear Weapons Complex is at a crossroads--maintaining the 
status quo is not an option we can afford. Delay and inaction will only 
increase the costs and elevate the risks associated with maintaining an 
aging stockpile. Regardless of stockpile transformation plans, these 
facilities need to be upgraded. The challenge for us will be to move 
from an aging nuclear weapons complex designed for the Cold War to a 
smaller 21st century national security enterprise that is integrated, 
modern, cost-effective, and that eliminates unnecessary redundancy, but 
that is also at the forefront of science and technology and responsive 
to future national security requirements.
    Complex transformation is more than simply replacing an aged 
physical infrastructure, it includes transforming our contracting, 
procurement and management practices to embrace the best in business 
and human capital practices. We also seek to leverage our core 
competencies in nuclear weapons design and engineering to advance our 
leadership in counterterrorism, nonproliferation, physical security, 
cyber security and support of the Intelligence Community. Our 
transformation strategy relies on four pillars:

        <bullet> Transform the nuclear stockpile through the Stockpile 
        Stewardship Program (SSP) in partnership with the DOD.
        <bullet> Transform to a modernized, cost-effective nuclear 
        weapons complex to support needed capabilities in our physical 
        infrastructure.
        <bullet> Create an integrated, interdependent enterprise that 
        employs best business practices to maximize efficiency and 
        minimize costs.
        <bullet> Advance the science and technology base that is the 
        cornerstone of our nuclear deterrence and essential to our 
        national security.

    Infrastructure improvements are a major part of complex 
transformation and we have made important progress in this area. For 
example, with the support of this committee, in 2007, we produced 
tritium for the first time in 18 years, and the Tritium Extraction 
Facility at Savannah River is now online. Still, some major facilities 
date to the Manhattan Project and cannot easily meet today's safety and 
security requirements, and the capabilities they provide must be 
restored. Let me cite two key examples:
Plutonium ``Pit'' Production:
    A sufficient capacity to produce plutonium pits for nuclear 
warheads is an essential part of a responsive national security 
enterprise and is required for as long as we retain a nuclear 
deterrent. Currently, we have a very small production capacity at Los 
Alamos National Laboratory (about 10 pits per year in Technical Area 55 
(TA-55). This capacity took 10 years to reconstitute, using aging 
scientific and manufacturing facilities. It is insufficient to support 
the stockpile for the long term and, if not redressed, requires 
maintaining a larger stockpile than would otherwise be desired. There 
are two key reasons why this is so:

        <bullet> Depending on warhead type, our best estimate of 
        minimum pit lifetime is 85-100 years. While this lifespan 
        exceeds previous estimates, degradation from plutonium aging 
        still introduces uncertainty in overall system performance, 
        particularly for lower margin systems. As the stockpile ages, 
        we must plan to replace many pits in stockpiled weapons.
        <bullet> As the stockpile continues to be reduced, we must 
        anticipate that an adverse change in the geopolitical threat 
        environment, or a technical problem or development, could 
        require manufacture of additional warheads on a relatively 
        rapid schedule. Currently, if we found a major system-wide 
        problem in the stockpile requiring pit replacement, we have 
        insufficient capacity for a timely response.

    As part of our transformation, the National Nuclear Security 
Administration (NNSA) has evaluated a variety of future pit production 
alternatives. NNSA's preferred alternative is to retain and build on 
the existing production facilities at Los Alamos. Whether we continue 
on our existing path or if we move towards an RRW based stockpile, we 
will need a capacity to produce about 50-80 pits per year. To do this, 
we would use existing facilities in TA-55 with the addition of a new 
Chemistry and Metallurgy Research-Replacement (CMRR) Nuclear Facility. 
In addition to its role in pit production, the CMRR will be the sole 
facility where we will be able to carry out pit surveillance, essential 
to maintaining the existing stockpile, as well as plutonium and 
actinide research and analysis. Our approach would provide sufficient 
production capacity to support smaller stockpile sizes, particularly 
when coupled with potential reuse of pits. A production capacity of 50-
80 pits per year is less than one-tenth of Cold War levels, when we 
were producing not 10 or 100, but thousands of warheads a year.
Uranium Component Production:
    As with plutonium, regardless of the type of stockpile we maintain, 
we will require a responsive capability and capacity to produce uranium 
components. Our uranium component production facilities date to the 
Manhattan Project. Securing these facilities from terrorism threats we 
face after September 11 is increasingly difficult and costly, as is 
operating them to modern safety standards. Every warhead, whether 
refurbished or replacement, will require uranium component manufacture. 
Construction of the Highly Enriched Uranium Materials Facility at the 
Y-12 National Security Complex in Oak Ridge will allow us to 
consolidate uranium storage with a significantly reduced security 
``footprint.''
    Although our emphasis has been on maintaining the stockpile by 
embarking on complex transformation and examining the potential promise 
of RRW, we have not lost focus on meeting our commitments to the 
Defense Department and to other customers. As I pointed out earlier, 
last year we reconstituted a limited plutonium pit manufacturing 
capability and produced new pits for the W88 warhead. This year we will 
continue to produce new W88 pits and begin installing equipment to 
increase pit production capacity to 30-50 pits per year by 2012-2014. 
In 2006 and 2007, respectively, we delivered the first refurbished B61-
7 and B61-11 bombs to the Air Force. We intend to maintain on-time 
delivery of these weapons to the Air Force in 2008.
    In addition, our 21st century national security enterprise will 
continue to leverage the scientific underpinnings of its historic 
nuclear weapons mission to respond to a full range of national security 
challenges beyond nuclear weapons. Indeed, the scientific capabilities 
and infrastructure developed for nuclear weapons are already being 
utilized by the Departments of Defense and Homeland Security, and by 
the Intelligence Community, and are recognized as essential to 
fulfilling the responsibilities of these organizations. For example, 
the NNSA laboratories have participated jointly with other government 
agencies in addressing a wide range of national security challenges--
all of which leverage NNSA's core mission of nuclear weapons 
development and sustainability. Recent examples include:

        <bullet> Supporting warfighter needs in Iraq with modeling, 
        analysis and systems to counter improvised explosive devices 
        (IEDs).
        <bullet> Supporting the DOD and the Federal Bureau of 
        Investigation in emergency render-safe and post-event technical 
        nuclear forensics.
        <bullet> Aiding the Intelligence Community in its 
        counterterrorism and nonproliferation efforts by drawing upon 
        our nuclear weapons expertise.
        <bullet> Developing and deploying integrated systems for 
        countering biological releases and bio-decontamination 
        technologies.
        <bullet> Developing and deploying portal detector technology to 
        prevent smuggling of special nuclear materials.

    Our challenge is to maintain these scientific and technical 
capabilities, which evolved from the weapons program when budgets were 
expansive, into the future when resources will be relatively 
constrained. We must find ways to leverage key capabilities by 
developing and strengthening strategic relationships with other Federal 
agencies in meeting our Nation's security needs.
    Our plan for transforming our physical infrastructure, released 
this past December and detailed in the draft Supplemental Programmatic 
Environmental Impact Statement as required by the National 
Environmental Policy Act, will consolidate special nuclear materials to 
fewer sites and locations within the nuclear weapons complex, close or 
transfer hundreds of buildings that are no longer required for the NNSA 
mission, and reduce NNSA's overall footprint by as much as a third. 
Over 10 years, we expect to eliminate at least 9 million square feet, 
or the equivalent of almost 200 football fields of floor space! 
Additionally, by eliminating multi-site redundancies and consolidating 
both mission and capability at our sites, we expect to dramatically 
improve efficiency and cut costs.
     evolution of our strategy for sustaining the nuclear stockpile
    Let us turn to the problem of stockpile stewardship and recall how 
we got to where we are today. In the years following the end of the 
Cold War, budgets for nuclear weapons programs were in ``free fall''--
funding was simply not available to sustain both research and 
development (R&D) and production capabilities. A strategic decision was 
made to emphasize R&D to ensure future capabilities to certify the 
stockpile while neglecting production--we mortgaged the present to 
ensure the future.
    That future was seen as science-based stockpile stewardship and 
life extension of our Cold War legacy warheads. When the U.S. stopped 
nuclear testing in 1992, it sought to replace this critical tool with a 
new SSP that: (1) emphasized science and technology coupled with a 
vigorous experimental program as a means to understand better the 
physics and chemistry of nuclear weapons and their operation, and (2) 
provided enhanced warhead surveillance tools so that we would have a 
much better chance of detecting the onset of problems in the stockpile.
    The goal of the SSP was to predict the effects of aging in our 
warheads so that we could replace aging components before they degraded 
overall system reliability. The end of the Cold War provided this 
opportunity--our focus was no longer on a continuous cycle of fielding 
new warheads to provide new military capabilities, but on sustaining 
existing nuclear capabilities.
    We call this ``life extension''--the process of observing the aging 
of individual components of warheads and replacing them before they 
fail. Consider this challenge. Your vintage 1965 Ford Mustang--
maintained as a collector's item--has been sitting in your garage for 
40 years. You monitor it for such items as a clogged carburetor, 
corrosion in the engine block, battery discharge, and you replace parts 
when you deem it necessary. But you don't get to start the engine and 
take it for a test drive. The trick is to assure that if you do need it 
right away--to take your wife (or husband) to the hospital in an 
emergency--that it would work with certainty. That's sort of what we 
have to do with nuclear weapons LEPs.
    Following the administration's Nuclear Posture Review, in 2003 we 
``took stock'' of 10 years of the SSP and came to some important 
conclusions.
    First, the SSP is working--today's stockpile remains safe and 
reliable and does not require nuclear testing. This assessment is based 
on a foundation of past nuclear tests augmented by cutting edge 
scientific and engineering experiments and analysis, and improved 
warhead surveillance. Most importantly, it derives from the 
professional (and independent) judgment of our laboratory directors 
advised by their weapon program staffs.
    Second, as we continue to draw down the stockpile, our laboratory 
directors are concerned that our current path--successive 
refurbishments of existing warheads developed during the Cold War to 
stringent Cold War specifications--may pose unacceptable risks to 
maintaining high confidence in warhead performance over the long-term 
absent nuclear testing.
    These concerns arise as we move further and further away from 
designs certified with underground nuclear tests, resulting from 
inevitable accumulations of small changes from a continuous process of 
aging, and refurbishment of aging components, over the extended lives 
of these highly-optimized systems.
    So, while we are confident that the SSP is working and that today's 
stockpile is safe and reliable, it is only prudent to explore alternate 
means to manage risk in seeking to ensure stockpile reliability over 
the long term.
    This is, in part, the impetus for our proposed work to study 
reliable replacement concepts: to ensure the long-term sustainment of 
the military capabilities provided by the existing stockpile, not to 
develop warheads for new or different military missions as is often 
portrayed.
    Specifically, we have examined the feasibility of providing 
replacement warheads for the legacy stockpile. By relaxing Cold War 
design constraints that sought maximum yield in a minimum size/weight 
package, it would allow design of replacements that are easier and less 
costly to manufacture, are safer and more secure, eliminate most 
environmentally dangerous materials, and increase design performance 
margins, thus ensuring long-term confidence in reliability without 
nuclear testing.
    Finally, we need to transform our complex with or without RRW. That 
said, we believe that RRW would offer means to transform to a more 
efficient and responsive, much smaller, and less costly nuclear weapons 
R&D and production infrastructure.
                             urgency of rrw
    We are often asked: If today's stockpile is safe and reliable, why 
do we believe it is important to start on RRW now? Why not wait a few 
years when you know more? There are four main reasons why I believe it 
is important to complete the reliable replacement study now.
    First, the study will provide critical information to insure that 
the next administration, as well as the bipartisan commission 
established by this committee, can complete a timely review of U.S. 
nuclear posture as mandated by Congress.
    Second, as I raised earlier, there are concerns about our ability 
to ensure the long-term safety and reliability of today's stockpile 
absent nuclear testing. For example, the first RRW was intended to 
replace a portion of W76 warheads deployed on the Trident SLBM system. 
That warhead comprises a large fraction of today's, and an even larger 
fraction of our future strategic deterrent force. It has no ``back 
up.'' Although we have not uncovered any problems with the W76, it is 
prudent to hedge against a catastrophic failure of that system by 
introducing a significantly different warhead design into the SLBM 
force. Our ability over the next 15 years to produce new plutonium 
parts is limited--the sooner we start the sooner we could achieve this 
diversity.
    Third, after September 11 we realized that the security threat to 
our nuclear warheads had fundamentally changed. The security features 
in today's stockpile are commensurate with technologies that were 
available during the Cold War and with the threats from that time. 
Major enhancements in security are not easily available via retrofits 
in the life extension programs. The car analogy is again relevant. 
Today's Mustang remains a high-performance automobile, has about the 
same dimensions and weighs only a few hundred pounds more than the 
first Mustangs, and has all the modern safety and security features we 
expect today--air bags, anti-lock brakes, GPS navigation, satellite 
radio, theft deterrent, and alarm systems. The 1965 version had none of 
these features, not even seat belts! We deploy warheads today that have 
1970-1980's safety, security, and anti-terrorism features. It does not 
mean that these warheads are not safe and secure, but we can do better 
and we should do better. Based on our initial assessments, I believe 
that RRW provides opportunities to incorporate the latest technological 
advances for precluding unauthorized use in a post-September 11 threat 
environment.
    Fourth, the RRW effort thus far has provided a critical opportunity 
to ensure the transfer of nuclear design and engineering skills from 
the generation who honed these skills with nuclear testing to the 
generation who will replace them. These skills are absolutely vital to 
the Nation, not just for sustaining our deterrent but in such areas as 
nuclear counterterrorism which will become even more important in the 
future. In a few years, nearly all of the older generation will be 
retired or dead. Without this opportunity coming at this time (and not 
5 years hence), we would not be able to sustain key capabilities.
                   response to arguments against rrw
    A number of concerns have arisen in our deliberations with Congress 
and others about the RRW program. Specifically, critics argue that:

        <bullet> RRW will undermine the nonproliferation regime either 
        by providing incentives for states to acquire or improve their 
        nuclear arsenals, or by impeding U.S. leadership in pursuing a 
        strengthened nonproliferation regime.
        <bullet> RRW will cause us to carry out an underground nuclear 
        test.
        <bullet> More broadly, the U.S. ``doesn't have its nuclear act 
        together''--its nuclear policies are not clearly embedded in a 
        broader international security framework. At minimum, it hasn't 
        communicated its nuclear policy clearly to Congress. Until it 
        does, some would argue, we should delay RRW and Complex 
        Transformation.

    On that last point, the United States has a coherent and rationale 
policy overarching nuclear weapons programs as reflected in the 2001 
Nuclear Posture Review (NPR), the Presidential directive (NSPD-28) 
addressing command and control and safety and security of U.S. nuclear 
forces, and the Nuclear Weapons Stockpile Plans issued annually by the 
President, among others. But we have not done as good a job as we 
should communicating these policies to Congress and the public. We are, 
however, doing better and I will return to this at the end of my 
statement.
    How is our proposed reliable replacement strategy consistent with 
nonproliferation and arms control? Some of you may be convinced that 
there might be valid reasons for going forward but are concerned that 
these reasons do not outweigh an overriding concern that such efforts 
could undermine U.S. leadership in the fight against proliferation. I 
appreciate such concerns, but ask that you consider the following 
points:

        <bullet> The RRW, by design, would not provide a new role for 
        nuclear weapons or new military capabilities, but rather would 
        help sustain the military capabilities of the existing arsenal.
        <bullet> Fielding the RRW would not increase the size of the 
        nuclear stockpile, rather it would enable further stockpile 
        reductions. Once a transformed production complex demonstrates 
        that it can produce replacement warheads on a timescale 
        responsive to technical problems in the stockpile, or adverse 
        geopolitical changes, then many Reserve warheads could be 
        eliminated--further reducing the nuclear stockpile and 
        reinforcing our commitment to Article VI of the 
        Nonproliferation Treaty.
        <bullet> Because replacement warheads would be designed with 
        more favorable performance margins, and therefore less 
        sensitive to incremental aging effects, introducing them into 
        the stockpile would reduce the possibility that the United 
        States would be faced with a need to conduct a nuclear test to 
        diagnose or remedy a stockpile problem. This supports overall 
        U.S. efforts to dissuade other nations from conducting nuclear 
        tests.
        <bullet> By incorporating modern security features, RRW would 
        strengthen security of U.S. nuclear weapons against 
        unauthorized use (e.g., in the event of a terrorist attack on 
        one of our storage facilities).
        <bullet> Finally, a safe, secure, and reliable U.S. nuclear 
        deterrent, credibly extended to our allies, supports U.S. 
        nonproliferation efforts because allies confident in U.S. 
        extended nuclear deterrence guarantees will not be motivated to 
        pursue their own nuclear forces. This nonproliferation role of 
        U.S. nuclear weapons is often underestimated. Indeed, the 
        nuclear weapon programs of North Korea and Iran have made our 
        nuclear guarantees to allies such as Turkey, South Korea and 
        Japan take on renewed importance.

    In summary, our vision to transform the nuclear stockpile and 
supporting infrastructure through reliable replacement concepts is 
complementary to, not inconsistent with, our nonproliferation policies 
and with the long-term goal of global nuclear weapons elimination.
                            nuclear testing
    Let me turn in more detail to the nuclear testing issue. I am most 
concerned about some misunderstandings expressed in the public sphere 
about our views on the possible need for nuclear testing. Let there be 
no doubt: Today's nuclear weapons stockpile is safe and reliable and 
has not required post-deployment nuclear testing to date, nor is 
nuclear testing currently anticipated or planned. But keeping this 
stockpile healthy is becoming an increasingly difficult challenge. 
Periodically we identify problems with warheads that in the past would 
have been resolved with nuclear tests. Our SSP has worked well so far 
to help us to avoid that prospect. The considered judgment of the 
national weapons laboratories directors, however, is that maintaining 
certification of the finely-tuned designs of an aging Cold War 
stockpile through the LEP effort and absent nuclear testing involves 
increasing risk.
    An alternative path is a stockpile based on replacement warheads 
that, unlike Cold War legacy warheads, would be designed for 
certification without additional nuclear tests. Indeed, our experts 
best technical judgment today is that it will be less likely that we 
would need nuclear testing to maintain the safety, security, and 
reliability into the future of the nuclear stockpile if we pursue a 
reliable replacement path employing all the tools of the SSP, including 
advanced quantitative means, than if we continue to rely on today's 
legacy warheads. In December, I provided Congress classified 
information giving further details on these matters.
    Why then do we think it's feasible to field an RRW without nuclear 
testing? There are four basic reasons:

        <bullet> First, replacement warhead designs would provide more 
        favorable reliability and performance margins than those 
        currently in the stockpile, and would be less sensitive to 
        incremental aging effects or manufacturing variances.
        <bullet> Second, feasible replacement designs would be firmly 
        rooted in the past nuclear test data base.
        <bullet> Third, by pursuing reliable replacement designs now, 
        we would be able to fully utilize the experience of those 
        remaining designers and engineers who successfully fielded our 
        current stockpile during the period of nuclear testing.
        <bullet> Fourth, the SSP over the past decade has provided 
        improved scientific and analytic tools, including advanced 
        supercomputer simulation and sophisticated experimental 
        capabilities, which were not available to the previous 
        generation of designers/engineers. These tools have led to a 
        much better understanding of the intricacies of nuclear weapons 
        physics and engineering. Indeed, we know more about the complex 
        issues of nuclear weapons performance today than we ever did 
        during the period of nuclear testing.

    These four factors, taken together, provide a solid foundation for 
our confidence that we can certify RRW designs without nuclear tests.
      factors affecting future adjustments to our nuclear posture
    It is important for us to describe how our concept for 
transformation--in light of evolving geopolitical threat environments--
could provide opportunities for further stockpile reductions. In this 
regard, the current plan for the nuclear force posture--developed in 
the 2001 NPR--established objectives for a range of deployed nuclear 
warheads, a nuclear force structure, and nuclear stockpile for 2012 as 
well as a general approach to sustain this force beyond 2012. Future 
administrations will of course adjust, refine and make changes to our 
posture in response to future events and circumstances. These changes 
might be unilateral or taken in concert with other nuclear powers. In 
any case, these changes will be governed by three basic factors: (1) 
the future geopolitical threat environment, (2) the success of 
technical efforts underway to ensure a safe, reliable and credible 
nuclear deterrent for the foreseeable future and to transform the 
nuclear weapons R&D and production infrastructure that supports it, and 
(3) our progress in fielding other strategic capabilities, including 
missile defenses and conventional precision strike.
    Geopolitical uncertainties are likely to dominate future 
considerations of an adjusted force posture. Will Russia succeed in 
transforming to a democratic society with rule-of-law, respect for 
human rights, and integration, both economic and political, with the 
west? Will China's military modernization and political trajectory 
affect the ability of the United States to protect key interests in the 
Pacific region? Will nuclear programs of North Korea, Iran, or emerging 
proliferants cause a proliferation ``cascade'' in which U.S. allies and 
friends in key regions contemplate ``going nuclear''? How such 
questions evolve over the next decade and more will affect how future 
administrations assess national security needs--including plans for 
assurance of allies--and adjust the level of deployed nuclear warheads 
(up or down), the composition of deployed nuclear forces, or both.
    There are other major uncertainties that are largely domestic in 
nature, and related to our efforts to sustain and, as necessary, 
modernize our forces. With regard to nuclear delivery systems, the 
planned force of 450 Minuteman III ICBMs will begin to reach end-of-
life in 2018. Will there be support to develop and deploy a follow-on 
capability to the Minuteman III ICBM? If so, when and how many will we 
deploy? If the ICBM force is not replaced at its end-of-life but 
retired, other nuclear force elements may need to be bolstered to take 
its place. There are comparable decisions regarding a possible next 
generation long-range bomber (sooner) and/or replacement of nuclear 
ballistic missile submarines (later) that will factor in as well to 
considerations of adjusting the future nuclear posture.
    With regard to the development of U.S. non-nuclear strategic 
capabilities, there is another set of uncertainties. Will prompt, long-
range conventional global strike weapons be developed and deployed?
    How many? What types? With what effects? What will be the future 
direction and scope of ballistic missile defenses? What technical 
advances/breakthroughs (e.g., hypersonic delivery systems) by the U.S. 
or potential adversaries will occur? Could these affect the military 
balance? Answers to these questions will determine whether such 
capabilities could complement nuclear strike capabilities or 
conceivably replace nuclear weapons for certain missions and thus lead 
to further adjustments in our posture.
    With regard to the nuclear warheads themselves, our long-term goal 
is to rely more on the capabilities of the infrastructure and less on 
Reserve warheads in the stockpile to respond to unforeseen events. 
Until we are confident that we have the capability to respond to 
unexpected developments, however, we will need to retain more Reserve 
warheads than otherwise would be desired. Specifically, our inability 
to produce plutonium pits in sufficient quantities means that 
additional warheads are kept in Reserve to hedge against technical 
problems that could arise in the stockpile or adverse geopolitical 
changes.
    If we have an opportunity to realize the benefits of the RRW 
program, and a more responsive infrastructure that the RRW could 
facilitate, there will be opportunities for additional stockpile 
reductions. We are examining a series of potential milestones, 
reflecting progress on RRW and a responsive infrastructure, that would 
allow consideration of further adjustments to the Reserve stockpile. 
Accomplishing these milestones would represent levels of confidence 
gained, or uncertainties reduced, as we proceed forward with stockpile 
and infrastructure transformation. At various points, accumulated 
progress would be assessed to see if further adjustments to the Reserve 
stockpile are warranted. To the degree that geopolitical trends evolve 
in more favorable directions, opportunities exist to consider options 
for lower deployed as well as Reserve Forces.
                   current status of the rrw program
    As I said at the beginning of my statement, the Consolidated 
Appropriations Act, 2008 did not fund completion of the RRW design 
definition and cost study. The Departments of Defense and Energy 
continue to believe that the warhead features characteristic of the RRW 
are the right ones for ensuring the future of our Nation's nuclear 
deterrent. Moreover, Congress specifically requested that the 
administration continue related work in fiscal year 2008 in three key 
areas:
        <bullet> First, the act provided $15 million for a new 
        ``Advanced Certification'' campaign designed to address issues 
        raised in the recent JASON's study of the feasibility of 
        certifying reliable replacement designs without nuclear 
        testing.
        <bullet> Second, the act added $10 million to the Enhanced 
        Surety campaign ``to increase the safety and security of 
        weapons in the existing stockpile and develop new technologies 
        for incorporation into potential future systems.'' This is 
        fully consistent with efforts to apply state-of-the-art 
        technology to replacement warhead designs to enhance security 
        and prevent unauthorized nuclear weapons use by terrorists.
        <bullet> Third, Congress appropriated $15 million in the 
        National Defense Appropriations Act for Fiscal Year 2008 for 
        the U.S. Navy to carry out studies related to the integration 
        of an RRW warhead with the Trident SLBM reentry system.

    NNSA's fiscal year 2009 budget request continues and extends fiscal 
year 2008 related activities in the following areas:

          Advanced Certification ($20 million request): To continue 
        efforts begun in fiscal year 2008 to review, evaluate and 
        implement key recommendations from the JASON's RRW study 
        regarding approaches to establishing an accredited warhead 
        certification plan, without nuclear testing, in an era where 
        changes to nuclear components will occur due to aging or design 
        defects.
          RRW ($10 million request): To enable maturation of the RRW 
        design in order to address questions raised by the JASON's 
        review of RRW feasibility study activities. Design refinement 
        is necessary to establish parameters for potential impacts on 
        certification. It will also facilitate documenting the work 
        that has been completed through 2007 to support future 
        administration decisions on options for our nuclear weapons 
        stockpile.

    Completion of the RRW study was not funded in part due to concerns 
that the administration had not fully communicated its policies which 
guide nuclear forces, posture and programs, including the RRW program. 
The administration will shortly provide to Congress a second paper to 
accompany its white paper on nuclear policy transmitted to Congress in 
July 2007 by Secretaries Rice, Gates, and Bodman. This second paper 
outlines in detail the overall strategy which guides nuclear weapons 
programs including the size of the nuclear weapons stockpile and 
operationally-deployed strategic forces, and how we manage the risk of 
a less-than sufficient warhead production infrastructure. Our goal is 
to restore a consensus with Congress to complete the reliable 
replacement study as a means to ensure that the next administration, as 
mandated by Congress, can complete a timely review of its nuclear 
posture.
    Let me conclude my statement here. I thank the chairman and the 
committee for the opportunity to discuss these critical issues for our 
Nation.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Bill Nelson. Senator Sessions, I'll certainly turn 
to you, if you want to go ahead, depending on your time 
schedule.
    Senator Sessions. Please go first, Mr. Chairman. I'll be 
here, and thank you for the courtesy.
    Senator Bill Nelson. All right.
    Secretary Vickers, when your position was reorganized, the 
position picked up new areas of responsibility. These areas 
included the strategic and nuclear matters, missile defense, 
and space policy. This is pretty large and diverse. What do you 
do to manage all of that diversity? Do you have any 
recommendations for changes?
    Mr. Vickers. Sir, I believe the reorganization which 
created Special Operations/Low Intensity Conflict and 
Interdependent Capabilities is actually working quite well. 
We've had extensive discussions with the Government 
Accountability Office about this. What it has provided is a 
single senior civilian official for--to have oversight of the--
from a policy perspective, the Department's operational 
capabilities, from strategic to conventional to special 
operations and irregular warfare. It's enabled us to bring this 
together at a higher level in the Department than we had 
before, for integrated documents, such as the Guidance for the 
Development of the Force, which is the Department's strategic 
plan for capabilities out to 2020 and beyond.
    My portfolio, as you said, is rather extensive. It divides 
between oversight of current operations worldwide, and then 
responsibility for the future force, but I believe it is 
consistent with the responsibilities of other assistant 
secretaries. I do have four excellent deputies--Brian Green 
being one of them, who does strategic capabilities. I try to 
concentrate my efforts among the different Deputy Assistant 
Secretaries of Defense (DASDs) in high-priority items; for 
example, our space protection strategy and space control in the 
strategic area, which has a lot of attention since the Chinese 
ASAT test; our cyber policy, and particularly cyber deterrents; 
and the issue you just raised earlier about the division of 
labor between Title 50 and Title 10, while monitoring our 
missile defense efforts and our nuclear modernization efforts. 
Brian, for instance, has been taking the lead on negotiations 
in Europe in support of the State Department and Acting Under 
Secretary John Rood, and then do that correspondingly with the 
other areas, as well. But, strategic capabilities gets every 
bit as much of my attention as the other areas, sir.
    Senator Bill Nelson. Senator Graham, we just started the 
second panel. As a courtesy to you, Senator Sessions and I 
would defer, if you have a few questions. We're going to be 
here and we have a long list of questions.
    Senator Graham. Thank you very much. I'll be short.
    One, I appreciate you both allowing me to do this. Senator 
Sessions has been a great help with the mixed oxide (MOX) 
program.
    My questions will be to Tom, over here.
    The MOX program, Mr. Chairman, in case you're not familiar 
with it, we entered into an agreement with the Russians, many 
years ago now, during the Clinton administration, to take 34 
tons of excess weapons plutonium that's not needed to maintain 
our nuclear arsenals, that's very dangerous weapons-grade 
plutonium, and convert it to commercial fuel. This is called 
MOX, and we're going to do that at Savannah River site. It will 
allow us to take 34 tons off the market, save hundreds of 
millions of dollars in storage costs, because it would go from 
being stored in an indefinite period to becoming commercial 
fuel. It'll go from swords to plowshares. We're building that 
facility at Savannah River site, and the House constantly cuts 
funding for this program. I think it's a huge nonproliferation 
effort by both countries to take weapons plutonium off the 
market, and turn it into commercial fuel.
    Tom, could you give us an update of construction on MOX and 
where we stand financially?
    Mr. D'Agostino. Certainly.
    Thank you very much, Mr. Chairman. I appreciate the 
committee, and Senator Graham, for your question.
    The MOX program is incredibly important to the United 
States Government and, I believe, the citizens of this country, 
because it will not only eliminate the 34 tons that you 
described, sir, but, I feel, provides an opportunity actually 
to eliminate additional tonnage of plutonium that we feel is 
not needed for national security purposes----
    Senator Graham. How much money would we save if we don't 
have to store this forever?
    Mr. D'Agostino. Well, it's as you described. From a life-
cycle-cost standpoint, right now we spend $750 million a year 
in the National Nuclear Security Administration (NNSA) to 
protect the weapons that we have and the material that we hold. 
Now, not all of that is for just plutonium, but a significant 
chunk of that is. It's spread out, as you described, across a 
few sites--Los Alamos, Livermore, and the Pantex plant. So a 
good chunk of those hundreds of millions of dollars that we 
spend would have to continue to be spent, out in the future, 
even if you immobilize it, because it still has to be 
protected. We feel, as you've described, it's much better to 
actually extract the resources out of that material. This 
country has invested a lot of money to make that material, we 
don't want to continue to spend hundreds of millions of dollars 
indefinitely out into the future. We'd like to extract the 
financial resource and the gain out of that material for the 
benefit of the citizens of this country, which, clearly, the 
MOX plant will do.
    It's a demonstrated and proven technology. The French have 
been doing it for multiple decades without any safety 
incidents. We feel that, as General Chilton looks at the 
stockpile out into the future, we've already declared an 
additional 9 metric tons, that there may be opportunities to 
add more material to that inventory to be downblended and 
ultimately used to generate electricity.
    Senator Graham. Where do we stand in terms of construction?
    Mr. D'Agostino. The design is well over 90 percent 
complete, so we have a very good handle on the costs and 
schedule of this project. Constructionwise, overall, both 
design and construction, we're well over 20 percent on the 
construction path. We have already put down many thousands of 
metric tons I should say, cubic yards of concrete; the 
foundation is in, the construction is well underway. It's 
looking marvelous, actually.
    Senator Graham. In the House budget, what does it do to our 
construction schedule?
    Mr. D'Agostino. As a result of what we have right now in 
the omnibus, we will have an impact on the construction 
schedule. I can't tell you exactly, because we're going to do a 
detailed cost. What we would have to do is rebaseline the 
project. But we did lose more than $100 million out of that 
project. That will have to be added onto the project, unless, 
of course, it gets restored in the future 2009 budget.
    Senator Graham. Right.
    Mr. D'Agostino. I'm very concerned that it adds to the 
cost. We don't think it's an optimal way to put together a 
large project, sir.
    Senator Graham. Now, the nonproliferation aspect, it was 
under the nonproliferation part of the Government, and that's 
been moved. Is that a good idea?
    It is a nonproliferation program.
    Mr. D'Agostino. In my view, it's a nonproliferation 
program. It's a program that this administration should, and 
will, take credit for as a nonproliferation activity. My focus 
is to get the project built. I mean, I think that's what we 
have to do. Clearly there's energy benefits to it, but it's 
primarily conceived of as a nonproliferation program to 
eliminate this material from further use in a warhead, either 
by this country or any other country.
    Senator Graham. Well, anything you could provide to this 
committee about the importance of this program.
    Mr. Chairman and ranking member, South Carolina has agreed 
to accept 34 tons of weapons-grade plutonium that exist in 
different sites around the country, consolidate it at South 
Carolina, save a lot of money over time, take this excess 
plutonium, build a MOX plant, turn it into commercial-grade 
fuel that can never be used in bombs again, and it can go into 
our commercial reactors to provide power. South Carolina has 
agreed to do this, and we're a couple of years behind schedule, 
so anything this committee can do to get this program moving 
forward would be a great benefit to the country, because the 
Russians have agreed to do the same thing. You know, 34 tons of 
weapons-grade plutonium is a large amount of plutonium existing 
here and in Russia, and if we can turn that sword into a 
plowshare, I think the world will be safer. We're willing to do 
that in South Carolina, save the system billions of dollars 
over the life of this plutonium, but we just need to get it 
moving.
    Mr. D'Agostino. Yes, sir.
    Senator Graham. So thank you for the opportunity to put 
that on the record.
    Senator Bill Nelson. Tomorrow at 2:30, the Emerging Threats 
and Capabilities Subcommittee is having a hearing on this 
subject, and they will go into detail. So, you might make a 
note of that.
    Senator Graham. Well, thank you very much, Mr. Chairman. 
Senator Sessions was great, last year, making sure we keep this 
thing on track.
    Thank you, Senator.
    Senator Bill Nelson. Senator Sessions, go ahead.
    Senator Sessions. Secretary Vickers, can you bring us up to 
date on the Department-wide activities to implement the Prompt 
Global Strike concept? This is the concept that we would be 
able to strike, globally, within minutes, without using a 
nuclear warhead, just a conventional-type missile, and maybe 
even an inert warhead. The plan had originally been to convert 
Trident submarine missiles for this project, and Congress has 
not approved that. Where are we heading on that?
    Mr. Vickers. I'd be happy to, sir.
    As you noted, the near-term operation of Conventional 
Trident Modification (CTM) has moved into a defense-wide 
account to look at a broader range of technologies, from 
hypersonics to conventional ICBMs to new reentry vehicles that 
could be used in our sea-based platforms. Common aerospace 
vehicle is another air option that's under consideration. So, 
there's a fairly wide range of technologies that have different 
characteristics, in terms of overflight, but still meet the 
Prompt Global Strike requirement.
    The key aspect of that is that they are in the research-
and-technology phase, and they're basically oriented at the 
midterm efforts, so 2015 CTM remains our, really, only near-
term option in the next 3 years, so we continue to pursue, as 
aggressively as we can, this wide range of technologies, and 
that's where we are right now.
    Senator Sessions. Admiral Johnson and General Webber, would 
you describe your services' ideas and alternatives that you're 
looking at?
    General Webber. I'll go first.
    Yes, Senator Sessions. On the Air Force side, again, it's a 
technology effort. We are working carefully with a program that 
started off under the Defense Advanced Research Projects 
Agency, called hypersonic technology. We're looking at a 
potential test in the fiscal year 2009 timeframe, to start 
making sure that we understand and are properly developing that 
technology. But, it's a technology effort, at this time.
    Admiral Johnson. Sir, the Navy has proposed several 
technologies to Secretary Vickers and the team that's working 
the defense-wide account. We think that there are a wide range 
of opportunities, including scaling up the Flechette warhead 
that was the previous research and development effort that the 
Navy did. That warhead's been tested at 5,000 feet per second 
and a little over 7,000 feet per second. It's particularly 
effective for the purposes, and it can be used in a wide range 
of applications, other than Navy. So, we would propose two 
flight tests, one to meet the necessary range safety 
requirements, whether it would be a ballistic missile or some 
other Air Force options, but it would be a common range-safety 
approach; and then further tests on warheads.
    Mr. Vickers. Senator Sessions, if I could just add one 
point and this is very important. We talked about the 
technology options that we have in the midterm--it's a very 
important capability, to give future presidents additional 
options for this Prompt Global Strike requirement that we don't 
have today, for terrorists transferring nuclear material, a 
ballistic missile launch, or perhaps a space control ASAT 
launch, or something else, where we have, essentially, nuclear-
only options for Prompt Global Strike today.
    Senator Sessions. I agree that this is an alternative to 
nuclear weaponry. It's a concept that is really part of a 
drawdown of our nuclear stockpile. It's something that we need 
to work out. I offered the amendment--which lost--to convert 
our Trident missiles--conventional Trident missile modification 
that we talked about, and so I'm worried about it.
    It's not any large change, except we can go longer 
distances, quicker. I mean, if we're having aircraft in the 
air, and they could use a missile to strike a target if they 
happened to be there, and they happened to be close--so, this 
is--in terms of--if it doesn't have a warhead on it, it's 
really no different than that, is it, Secretary Vickers?
    Mr. Vickers. It is not, sir.
    Senator Sessions. Now, General Webber, the Air Force 
concept concerns me, because it seems to run afoul of the same 
criticisms that Congress, who didn't agree with me, the 
majority, found fatal with the conventional Trident 
modification. Can you tell us, is this a concept that would in 
any way be more palatable than what we have now?
    General Webber. Senator, absolutely. I think it starts to 
get at the issues of ambiguity that Congress was concerned 
about. First, you worry about, where did this item launch from? 
Is it coming from a platform that's a declared strategic 
platform or from a location on the Earth, like an ICBM field, 
that's a declared strategic location? So, this concept could be 
moved to a different location.
    The second step is, when it launches out, what does that 
profile look like, in terms of the flyout of the trajectory? 
What does it look like to sensors, in terms of the kind of 
missile it is, how hot it burns, et cetera? We're looking at 
profiles, trajectories, and missiles that would be completely 
different from declared strategic platforms. So, you'd have a 
different location and a different profile.
    Senator Sessions. I think we need to look at that, Mr. 
Secretary, because, rightly or wrongly, if our colleagues here 
think that's going to somehow implicate the same risk that we 
had before, that it might be misinterpreted, then we don't have 
enough money to do everything we'd like, so we're going to have 
to be careful about that.
    General Webber. Yes, sir.
    Senator Sessions. Mr. Vickers, the European site--I won't 
go into detail about that. I had the opportunity to meet with 
the Czech ambassador last night. We know the President has met 
with the Polish leadership. Can you give us any update on the 
current status of the negotiations between Poland, the Czech 
Republic, and the United States with regard to establishing 
what I think to be very important--a strategic missile defense 
site in Europe?
    Senator Bill Nelson. We are going to have General Obering 
here on April 1.
    Senator Sessions. All right.
    If you'll be brief on that----
    Mr. Vickers. I will, sir. We're very close with the Czechs, 
we believe we essentially have concluded negotiations for the 
remaining environmental issue. With the Poles, we are a bit 
further behind. It has been brought up with modernization 
issues, with the discussion the President's just had with Prime 
Minister Tusk. But, we're very optimistic that we can conclude 
both agreements this year.
    Senator Sessions. Well, I think that's important, and I 
think we need to do our part, in the U.S. Congress. It's going 
to protect the United States and would keep our allies in 
Europe far safer than they would be, far less subject to 
intimidation and threats from a nation like Iran, who continues 
to develop missile systems.
    Thank you.
    Senator Bill Nelson. Mr. Secretary, the Defense Science 
Board Nuclear Task Force report on this Minot-Barksdale fiasco, 
one of the main conclusions of the task force was a decline in 
nuclear focus, and I quote, ``characterized by embedding 
nuclear mission forces in non-nuclear organizations.'' The 
criticism was aimed at both the Air Force and the Office of the 
Secretary of Defense. One of the recommendations was that there 
should be an Assistant Secretary for the nuclear enterprise.
    What say you?
    Mr. Vickers. Well, I have extremely high regard for General 
Welch. I respectfully disagree about the Assistant Secretary. 
It is true that, across the enterprise, nuclear weapons issues 
have been embedded with other organizations. Before, it was 
with regional, Europe and Russia. Today, it is more of a 
capabilities focus. But, we've always had a DASD under various 
names--forces policy, strategic capabilities--that has had 
oversight of those capabilities; Brian Green being the current 
one today. I believe the capabilities approach provides a 
better approach than the regional approach. Assistant 
secretaries are fairly scarce to deal with problems like China, 
for example, and to integrate it with other capabilities, where 
we want to bring to bear space, information, or conventional 
strike options--for instance, next-generation bomber is a 
subject near and dear to my heart, both a conventional platform 
and a strategic platform; it's vital for both. So no 
organizational arrangement is perfect. I believe the current 
one provides good oversight over strategic policy and 
operational capabilities across the board. But, again, I have 
the highest regard for General Welch.
    Senator Bill Nelson. All right.
    General Webber, that same task force took to task the 
structure of the Air Force, because they recommended that a 
single technical organization be created, headed by a major 
general who reports directly to the Chief, and I quote, ``that 
has full responsibility and accountability with the Air Force 
for, and only for, nuclear systems and procedures.''
    What do you think, and what's the status?
    General Webber. Sir, we have moved out smartly on all of 
these recommendations. When you take the Commanders Directed 
Initiative, the Commander-Directed Investigation, the Blue-
Ribbon Review, and the Defense Science Board, and if you roll 
them up together, 128, roughly, recommendations, and we are 
tracking that with an Air Force general officer, a Nuclear 
General Officer Steering Group that has resulted in these 
activities. We've upped from a one-star to a three-star to 
oversee how we work out all of these recommendations. Of 128, 
all but 3 were directly for the Air Force, and those other 3 
might be things that were going to go to the Office of the 
Secretary of Defense (OSD), but we're going to follow how we 
hook up with those changes in processes.
    Now, turning specifically to what we've already changed, in 
addition to a three-star now leading the General Officer 
Nuclear Steering Group, we have made the decision to have a 
two-star-led director for plans, operations, and requirements 
on the air staff, that would be a direct-report to my boss, 
Lieutenant General Darnell. So that will be the rollup of all 
of the nuclear responsibilities.
    Also, within the Air Force, on the technical side, we have 
now combined, under a one-star--it used to be a colonel--all of 
our nuclear weapon activities in the Nuclear Weapons Center. 
So, now you have cradle-to-grave responsibilities for Air Force 
nuclear weapons in one single activity.
    Senator Bill Nelson. So, the Defense Science Board 
recommendation that the commander of the Air Combat Command 
should ensure that the 8th Air Force has the full authority for 
the daily B-52 operations, both nuclear and conventional, 
that's not being adopted by the Air Force, is what you're 
saying.
    General Webber. Sir, that is not correct, and that 
recommendation was dealing very specifically with the skip-
echelon relationships that 8th Air Force had with Air Combat 
Command Headquarters, in terms of day-to-day responsibilities. 
That is one of the activities that's already been changed, and 
those responsibilities are now aligned under the 8th Air Force 
commander, sir.
    Senator Bill Nelson. How about the B-52 initial training 
course at Barksdale and the B-52 weapons school course? Will 
the flight training include the nuclear mission?
    General Webber. Yes, sir. Those are also items that have 
already been fixed. We now will have a nuclear curriculum in 
the B-52 weapons school curriculum--that's already been added--
as well as, the flight training unit now has a simulator of--
both classroom and simulator profiles that involve the nuclear 
mission.
    Senator Bill Nelson. The Air Force and the nuclear 
community categorizes accidents and incidents involving nuclear 
weapons, depending on the nature and the severity of the 
accident. The lowest-level category is a ``dull sword'' 
followed by ``bent spear,'' ``broken arrow,'' ``empty quiver,'' 
and ``nuke flash.'' Has this Minot-Barksdale incident been so 
categorized?
    General Webber. Yes, it has, sir, and I am not familiar 
with how that was categorized. I can provide that for the 
record.
    [The information referred to follows:]

    [Deleted.]

    Senator Bill Nelson. Well, it appears that over 200 ``dull 
swords'' have been categorized since 2001. How many ``dull 
swords'' have occurred since the Labor Day incident involving 
this Minot-Barksdale incident?
    General Webber. I'm not aware of that, and will provide 
that for the record, sir.
    [The information referred to follows:]

    [Deleted.]

    Senator Bill Nelson. Okay.
    Admiral Johnson, on to the RRW. The first warhead to be 
replaced under the original schedule was the W-76. Now, with 
the schedule change, what is the decision with respect to the 
W-76? Are they going to undergo a life extension?
    Admiral Johnson. Yes, sir. The W-76 life-extension program 
is ongoing. When we met, last year, on these same subjects, we 
were about to go into production on the arming, fusing, and 
firing circuits, which are provided by the Navy. We have done 
that. We are in production on that portion. The warhead 
section, which is done by Mr. D'Agostino's team at the 
Department of Energy (DOE), is about to go into production. The 
W-76, one program, life-extension program, will move forward, 
even if we work on RRW or some other variation of a modern 
warhead.
    Senator Bill Nelson. Well, it's run into some technical 
problems. Have you been involved in the resolution of the 
technical issue?
    Admiral Johnson. Yes, sir. Mr. D'Agostino's probably best 
qualified to answer the details of that.
    Senator Bill Nelson. All right, I'll get to him in a 
minute.
    Admiral Johnson. Yes, sir.
    Senator Bill Nelson. Has it been resolved yet?
    Admiral Johnson. No, sir, although I believe we are about 
to resolve our production issues. It's an example of restarting 
a vendor base and a capability that existed years ago and has 
been shut down. I think, from my perspective, we're 
experiencing reasonable and relatively predictable delays, 
although you don't know exactly where they'll show up, in 
restarting production. I would think we will find similar but 
different kinds of delays, if Congress chooses to life-extend 
other programs.
    Senator Bill Nelson. All right. Is it going to impact the 
schedule of having the first life-extended W-76 ready in early 
fiscal year 2009?
    Admiral Johnson. I don't know for sure. If we stick with 
early in 2009, I think it's likely that we'll make that, or 
mid-2009. Most of our decision meetings are, maybe, 60 days 
from now, and we can give you a joint technical answer with 
more skill then. Part of this--and we're in an open hearing, 
but part of the material issues that we're talking about 
require time to do tests. Of course, concrete takes 21 days to 
set. You can't make it set faster than that. Although this 
isn't a concrete material, it has that kind of time-related 
testing that goes with it. So, I think we'll know pretty well 
in 60 days.
    We see no delay whatsoever in our ability to operate the W-
76 warhead series. We have a great deal of flexibility on 
schedule, and although it's an important subject, I don't 
consider it a crisis, by any means at all. It's, I think, 
normal for a restart.
    Senator Bill Nelson. So we're looking at the middle of 2009 
for the life extension at the earliest.
    Admiral Johnson. At the earliest. Yes, sir.
    Sir, I lost track of whether you said fiscal year or 
calendar year, but I'll go with calendar year--shortly after 
the new year, I think, would be about the earliest.
    Tom, you're more qualified than I.
    Senator Bill Nelson. Go ahead, Mr. D'Agostino.
    Mr. D'Agostino. Okay. Certainly. Admiral Johnson was 
actually right on the money. We are continuing the tests on 
this particular material. If the tests continue, hopefully, as 
we expect they will, we'll be able to make a decision, on being 
able to use this material, within the next few months, as part 
of our production cycle, which takes us probably to April 2009 
to actually get that first production unit up and out the door.
    I would note that, of the hundreds of different types of 
materials and parts that need to be made, this was the one that 
really hung us up, and it's very important, as Admiral Johnson 
mentioned, that it really demonstrates the issues associated 
with trying to re-establish a capability that was established 
many decades ago, and build things exactly the way we did it 
during the cold-war era. That is the type of thinking that we 
want to make sure that this administration, but, more 
importantly, future administrations, aren't hampered by our 
inability to replicate the past perfectly. So, this provides us 
an opportunity to study different approaches. That was one of 
the main ideas behind looking at reliable replacement concepts, 
is there a better way, now that we know that we have different 
priorities on importance, to do things, out in the future?
    Senator Bill Nelson. Well, another reason was the safety 
and surety.
    Mr. D'Agostino. Yes.
    Senator Bill Nelson. Now, given the fact that, in creating 
one of the newest warheads, the W-88, there was a conscious 
decision not to use all the available safety features--how can 
you assure us, in this RRW, that we're going to have all of the 
safety in that or the life-extension program?
    Mr. D'Agostino. It's a great question. The W-88 was 
designed and fielded in--basically, starting in the late 1970s, 
early 1980s time period. So, the design effort actually goes 
back to a point in time, as the General described, where we 
were constantly in a cycle of designing and building and 
replacing warheads, and we weren't as concerned about whether 
these things would have the longevity, because we expected, at 
least, if the trend would continue, that we would take that 
system out of the stockpile and would replace it with new. Now 
that we are looking at a different strategic environment, now 
that we know a lot more--we have these supercomputers that tell 
us a lot more about materials and how things age--now that we 
have a security environment that's dramatically different than 
we had during the cold war, to evaluate options to input into 
future systems, safety features like insensitive high 
explosives, security features that would be important, and we 
could discuss in a closed session, that reflect future threats. 
We think it's important to study those and those are important 
things for a future deterrent.
    Senator Bill Nelson. Last year, you had some requests 
scattered throughout several budget lines in the NNSA budget 
for the work in support of the RRW. So, tell us, what's the 
scope of the work in support of it?
    Mr. D'Agostino. Certainly. Last year, we submitted one 
line, actually, for RRW. It wasn't--about $88 million, as 
General Chilton described earlier. We felt that it capitalized 
on work that we had been doing for the Nation, actually, in 
looking at enhanced surety, or enhanced safety and security for 
future systems.
    What we've proposed in the 2009 budget is activities 
consistent with congressional direction, which is to do work in 
advanced certification, which is to answer this whole question 
of: certification--can you deploy a warhead without underground 
testing?--which is a key factor, for me personally, as well as 
for this administration, and, I believe, future 
administrations, to examine that question, and also to put in 
these safety and security features.
    So, we have a budget line for advanced certification, of 
$20 million. We have an additional $10 million for enhanced 
surety, which is the safety-and-security piece. Then, we have 
this $10 million requested for RRW in order to be able to 
answer the questions that the JASONs asked and that Congress 
has asked us to answer.
    Realistically, the only work on RRW-type system--type work, 
which is specific to the joint Navy/DOE project is this $10-
million effort, and it is focused on answering the questions 
that Congress had asked of us.
    Senator Bill Nelson. General Webber, on ICBM security, one 
measure was the remote visual assessment cameras at the sites, 
to monitor them. Yet, the Air Force hasn't funded this. They 
put it on their unfunded list, and then, Congress has to add 
the funds. So, again, the same thing has happened in your 
budget, just $300,000 on the unfunded list, to sustain this 
system and install what you all say has high military utility 
and avoids a lot of security personnel. What should we assume?
    General Webber. Sir, I would take a different perspective. 
We are very excited about what remote visual assessment is 
doing for us, so much so that in my previous job, before coming 
here, I was working with the folks on what the requirements 
would be for block one of the capability, so that we could 
actually get it out there faster.
    We now have 5 missile alert facilities and 50 launch 
facilities installed. What you see in that 2009 unfunded line 
is the fact that we bought the hardware and installed the 
hardware. We didn't program because we were moving it as fast 
as we could, we didn't program the satellite access that would 
take the pictures and move that back to the missile alert 
facilities. So, that's why it showed up in the fiscal year 2009 
unfunded requirements list.
    Senator Bill Nelson. Well, you don't have any money in 
there to run them.
    General Webber. That's what I'm talking about, sir. We 
purchased them through a contract, and the contract folks are--
they're paid for to buy the kits, and install and maintain the 
kits. What we didn't purchase was the satellite access fees to 
move the picture back to the missile alert facility.
    Senator Bill Nelson. So, you want us to do that for you.
    General Webber. We put that on the list. But, it's going to 
be programmed, from 2010 on out. The fact that we were able to 
break the program into a block approach and move capability 
forward meant that we got out of our own synchronization.
    Does that answer your question, sir?
    Senator Bill Nelson. Often, we see things that are put on 
the unfunded list that you expect Congress to bail you out. It 
looks like this is one.
    Senator Sessions.
    Senator Sessions. Mr. D'Agostino, I have just a few brief 
questions. If we develop a new RRW, will it be your agency that 
supervises the production of that?
    Would DOE be the entity that procures it?
    Mr. D'Agostino. We would be the agency that procures it. 
Before we would get to that point, we would finish the study to 
tee up for a future administration whether or not to develop--
--
    Senator Sessions. You're right.
    Mr. D'Agostino. But, the Navy actually has the lead--on the 
joint project team, to get that study completed. Then if it 
gets to production, then we would produce it for----
    Senator Sessions. All right. With regard to maintaining our 
current stockpile--you are in charge of that, and you put out 
the money to pay for that, right?
    Mr. D'Agostino. Yes, sir. That's correct, Senator.
    Senator Sessions. Now, the money you put out does not come 
from the DOE, does it?
    Mr. D'Agostino. The money that I put out to maintain the 
stockpile comes from the DOE. It is part of the NNSA budget.
    Senator Sessions. Is that Defense Department budget or is 
it Energy?
    Mr. D'Agostino. It's Energy budget, sir.
    Senator Sessions. So, the maintenance of the warhead would 
be Energy budget?
    Mr. D'Agostino. The maintenance of the stockpile--I mean, 
we do it there but it's not completely Energy. The majority of 
it is Energy; however, we provide components to the Department 
of the Navy and to the Air Force, components that have to be 
switched out. So, the Services also have a maintenance 
activity----
    Senator Sessions. My time's running out--but, with regard 
to any new systems, would that come from the Defense budget or 
Energy budget? Our RRW, let's say that were approved.
    Mr. D'Agostino. With regards to that, we're in charge of 
producing and providing it to the Defense Department. That part 
would come from the Energy Department budget. Then, once the 
warhead is in the Services' custody, they have an obligation 
and it depends on the warhead itself, of how often certain 
parts have to get switched out, so there's a joint 
responsibility for maintenance, which comes out of both 
budgets. Once the Services are done, they provide it back to 
the DOE, and we have 100-percent maintainability requirement.
    There's a period of time in the warhead's life where there 
is a joint responsibility for maintaining the warhead itself. 
During that time, we integrate quite closely to provide parts.
    Senator Sessions. It's a DOE budget request, but it's a 
Defense 050 budget category on the Federal budget. Is that 
correct?
    Mr. D'Agostino. That part is correct. I'm not sure about 
the 050 part, but I think that's correct, yes.
    Senator Sessions. I just want to point out that there are a 
number of instances in this whole process in which Defense 
Department needs something, and Energy delivers. I'll just be 
frank with you, I sense Energy lacks the intensity of interest 
in keeping costs down because it's really coming from another 
source other than your budget. If the Air Force needs an 
aircraft, and they can save money on it, they can generally 
spend that money on other priorities the Air Force needs. You 
don't have that intensity of interest. So, I'd encourage you, 
because these projects are nuclear, not to yield--not to accept 
any bid--any costs we hear about it. I think we're paying too 
much for some of these things, and DOE needs to be very 
aggressive in containing costs. Just my two-cents worth.
    Mr. D'Agostino. Yes, sir.
    Senator Bill Nelson. We're going to wrap up here pretty 
quick. I just have a couple of questions.
    Mr. Secretary, you heard me talking to the STRATCOM 
commander earlier about THAAD and the Standard Missile 3. Were 
you consulted on the 1-year delay of the THAAD program?
    Mr. Vickers. My staff was aware of it, I was not personally 
consulted. I believe the program is now back on track from the 
delays of the four firing units; 6 months and 12 months, 
respectively, is the latest information I have.
    Senator Bill Nelson. Well, the information we have is that 
the Department has not gone beyond planning for 96 THAAD 
missiles and 147 SM-3 interceptors, and that the MDA has 
delayed the next version of the SM-3, and the budget request 
would produce a 1-year delay in the THAAD system.
    Mr. Vickers. What I was referring to, sir, was the four 
firing units that had been slipped to schedule--6 months, I 
think, for one and two, and 12 months--that I think they have 
rejuggled, recently, and brought it back. SM-3, I think, is 
still an issue for us, but I'll have to get back to you on 
that, sir.
    [The information referred to follows:]

    While the February 2008 budget justification for fiscal year 2009 
slipped THAAD Batteries 3 and 4 fielding 1 year, the Missile Defense 
Agency made internal realignments which restored the $65 million in 
fiscal year 2009 to enable award of the THAAD Batteries 3&4 interceptor 
long lead contract as originally planned and avoids the delay and 
production gap for Batteries 3&4. Delivery of Batteries 3&4 will 
complete procurement of the 96 interceptors for the first 4 batteries. 
Further, the Agency is working with the Department to address the 
procurement of 2 more THAAD Batteries (5&6) with spares, for a total of 
128 additional interceptors, consistent with the recommendations of the 
Joint Capabilities Mix Study conducted by the Joint Staff in 
association with the combatant commands.
    In President's budget 2009, the SM-3 Block IB development schedule 
was slipped one year, causing a future missile buy to change from an 
SM-3 Block IB configuration to Block IA. However, the Agency is working 
with the Department to procure an additional 116 SM-3 Block IB missiles 
in accordance with the Joint Capabilities Mix Study, resulting in a 
total of 263 missiles procured.

    Senator Bill Nelson. Okay. We put some specific language in 
last year's authorization bill about this, and it doesn't seem 
like the Department is paying attention to it. So, we'd like 
some answers.
    Mr. Vickers. Yes, sir. The goal of the program is to strike 
a balance between short- and medium-range threats, and long-
range, and then near-term and longer-term, and we want to get 
as much capability as we can in the hands of the warfighters, 
as soon as possible.
    Senator Bill Nelson. Let me tell you, those COCOMs want 
that THAAD, they want that SM-3, and they want those Patriots.
    Mr. Vickers. Yes, sir, and we need THAAD for southeastern 
Europe defense and NATO defense, as well, sir. Yes, indeed.
    One point, if I could just add, sir, on our earlier 
discussion. It's very important to align OSD oversight with 
General Chilton's responsibilities. He is now moving, if he 
hasn't briefed you on this already, to broader deterrence plans 
against a wide range of actors, looking at nuclear, cyber, and 
space, as well, and it's important, I think, that oversight be 
aligned in any organizational design, whatever we would look 
at.
    Senator Bill Nelson. Mr. D'Agostino, your agency seems to 
want to finance third-party financing, and you've worked it 
into your long-term plan. That's where a private party would 
build a building or a facility, and then lease it back to the 
Government. Now, the Office of Management and Budget (OMB) has 
some pretty strict rules about when and the circumstances that 
the Government can enter into that, as does DOE. The facility 
must have commercial value, and the arrangement has to be more 
economic to the Government than building the building itself 
and the facility. The NNSA contractor, in many of the proposals 
that have been discussed, would enter into the lease, not the 
Government. Why doesn't NNSA enter into the contract?
    Mr. D'Agostino. Actually, I'm not aware of that particular 
detail. I don't know if that's been completely determined, that 
it's the actual NNSA contractor. We do have an arrangement, 
right now, at Y-12, in that area, and you're correct, sir, that 
we are looking at this approach, see if it makes sense for two 
other sites that I'm aware of, off the top of my head. I'll 
look into that particular point. I'd like to take that one for 
the record, if I could.
    [The information referred to follows:]

    The NNSA's nuclear weapons complex contains many facilities that 
are very old and need to be replaced. Third-party financing is among 
the options NNSA considers for constructing facilities that, when NNSA 
no longer needs them, could be used by the private sector. Contractors 
have signed leases for third-party financed projects in the past 
because they are the primary tenants of the leased facilities. If the 
Department of Energy (DOE) selects a new contractor in the future, the 
lease can be assigned to the new contractor. If the contractor no 
longer needs the facility, it can terminate the lease and the developer 
would seek a new tenant. The National Nuclear Security Administration 
(NNSA) is considering whether it would be advantageous for NNSA to sign 
leases as to future third-party financed projects--e.g., for facilities 
in which NNSA, rather than a contractor, would be the primary tenant. 
Provided below is additional information on specific projects:

        <bullet> To date, NNSA has completed one third-party financed 
        project under the provisions of OMB Circular A-11. The Jack 
        Case and New Hope Centers at Y-12 are two office buildings: the 
        former is 412,700 ft.\2\ facility and the latter is 137,157 
        ft.\2\ and offers expanded meeting space. These Centers, 
        occupied in July 2007, were constructed for $125 million, and 
        leased to the NNSA's M&O contractor, which signed a 5-year 
        lease with three 5-year options.
        <bullet> At the Los Alamos National Laboratory (LANL), NNSA is 
        considering the construction of a 450,000 ft.\2\ modern science 
        complex consisting of offices, light labs, and a self-
        sustaining infrastructure using third-party financing. The 
        contractor is currently working, at their own financial risk, 
        to develop a business case and acquisition strategy plan, which 
        includes subcontractor selection which will be submitted to 
        NNSA. The DOE acquisition process requires the Federal 
        Acquisition Executive (AE) to make a decision, based on the 
        Alternatives Analysis and recommended preferred alternative, if 
        an alternatively financed project provides the best alternative 
        for the government. This decision would not occur before 
        December 2008.
        <bullet> At Y-12 NNSA is seeking to replace its outdated 
        Complex Command Center and is considering using third-party 
        financing. The acquisition strategy for this potential 
        construction project has not yet been determined.

    Senator Bill Nelson. You can imagine what happens to the 
lease if the NNSA outside contractor is no longer the operator 
of the facility.
    Mr. D'Agostino. Right.
    Senator Bill Nelson. Okay.
    Mr. D'Agostino. I think that's right. Yes, sir.
    Senator Bill Nelson. All right.
    Now, in many of the proposals, the land on which these 
proposed buildings are to be built is government land, behind 
the security fence, that would be sold to, or leased to, a 
developer. In the lease situation, the lease would contain the 
normal clause that the lease could be canceled at any time.
    Mr. D'Agostino. That's correct.
    Senator Bill Nelson. If that's the case, what would happen 
to the building? Would it revert back to the NNSA?
    Mr. D'Agostino. I think, in the lease situation, the idea 
behind the lease is that, should the Government determine that 
it does not have the mission there, or determine--and 
essentially would want--maybe, whether it's changing mission or 
further consolidation or downsizing--we would have to determine 
what is in the best interest of the Government, return that 
building back to the NNSA or actually sell it off, in effect. 
So, there are probably a couple of different approaches, and I 
think it would probably be situation-dependent.
    Senator Bill Nelson. Well, the other question that's begged 
is, does the building behind the DOE security fence have 
commercial value, and it could be leased by a private entity if 
either the lease or the building lease was canceled?
    Mr. D'Agostino. Right. If the determination has to get made 
before we'd even enter into this type of an agreement, 
recognizing where the building is. If it's determined that the 
Government doesn't have a need there before, the fenceline 
would have to change, clearly. It would most likely only happen 
in the situation where we'd be getting out of that mission 
completely in that area. Therefore, moving the fenceline 
wouldn't be a problem of having two different types of mission 
activities--one, a commercial one, closely located with--inside 
an enduring, long-term mission.
    Senator Bill Nelson. Well, before you jump into this, I 
would suggest that you find out about the fiasco in the United 
States Air Force with regard to base housing on five Air Force 
bases, including Patrick Air Force Base, in Florida.
    Mr. D'Agostino. Okay.
    Senator Bill Nelson. They are getting themselves into a 
situation where they turned it over to a contractor, in some 
cases with a lease, and as they come down their checklist, they 
can be in a situation where the builder, the lessee of the land 
who builds the base housing, would be in a situation that they 
could go out and rent that base housing to outside people, and 
it's within the security fence.
    Mr. D'Agostino. I'll look into that, sir.
    Senator Bill Nelson. This is a real live one, right now 
with five Air Force bases, and the worst, egregious example of 
how the contractor has botched it up is Patrick Air Force Base. 
So, there's lessons learned. You all ought to pay attention to 
that before you start to jump into this.
    Mr. D'Agostino. Yes, sir.
    Senator Bill Nelson. In some proposals, the developer would 
not be subject to Federal procurement or contracting 
requirements, or DOE orders. You have to look at that, and 
would that exemption extend to exempting the facility from the 
jurisdiction of the Defense Nuclear Safety Board? So what's 
wrong with the regular process of seeking funds for the 
Government to build a building?
    Mr. D'Agostino. My goal is to look at all avenues to 
satisfy the mission requirements in the most responsible way 
possible, which involves a combination of financial, 
programmatic, and the like. I have to make sure that these 
considerations are properly reflected in any decision that gets 
made to move down in that direction.
    What's clear to me, when I look at our current nuclear 
weapons complex, is that I have something right now that is 
unwieldy, if you will, sir. It has built up over a period of 50 
years. Many of these facilities are just right-after-World-War-
II types of facilities, and the status quo of just maintaining 
what I have is not appropriate. So, I want to dramatically 
shift the footprint, and essentially reduce the footprint by 
about 9 million square feet, which will take us from 36 to 25 
million square feet.
    I've been very clear, not only to the contractors, but, 
more importantly, my direct-reports, that I want to make sure 
that all options are on the table. I just don't want to keep 
doing business like we used to do business, just continuing to 
do management and operating-type contracts in the past, and 
this is an element of that. I mean, I've been expansive on it 
from the standpoint of making sure we look at all options and 
to make sure that we meet the criteria, not only from OMB, but 
from Congress, as well, from the Public Works Committees, from 
the authorization committees, and from our own DOE regulations.
    From my standpoint, A.J. Eggenberger, who's the Chairman of 
the Defense Board, and I talk, on I won't say--certainly not on 
a weekly basis, but talk on a basis where he understands about 
our large projects that we have coming out, and we try to work 
out and make sure that we don't--we're not compartmentalizing, 
if you will, Defense Board oversight, because that--in my view, 
it's a very good input for me, an independent input on whether 
or not we're doing the right thing, from a safety standpoint.
    Senator Bill Nelson. Well, you just don't want to get 
yourself in a situation, in highly sensitive, secure areas, 
such as the DOE that you suddenly have, because of lessees and 
lessors the access to secured areas by people that are not 
cleared.
    Mr. D'Agostino. Absolutely. Yes, sir. I'll take a look at 
the Patrick Air Force Base example, as well as relook at your 
question, sir, on how the lease payments are made, whether it's 
through the Department itself or through the contractor.
    Senator Bill Nelson. Okay. Thank you all for your 
participation today.
    The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Bill Nelson
                          safety and security
    1. Senator Bill Nelson. Mr. D'Agostino, some of the work in 
relation to a Reliable Replacement Warhead (RRW) is focused on 
increasing the safety and surety of nuclear weapons. Have the 
requirements been determined for just how inherently safe or secure a 
nuclear weapon should be?
    Mr. D'Agostino. Yes. There are safety standards and criteria 
against which nuclear weapon designs and operations are compared before 
the designs are accepted or the operations permitted. Nuclear weapons 
must incorporate design features that minimize the possibility of 
accidental and/or inadvertent nuclear detonation. The following are 
design requirements for nuclear weapons: 1) Normal Environment-prior to 
receipt of the enabling input signals and the arming signal, the 
probability of a premature nuclear detonation must not exceed one in a 
billion per nuclear weapon lifetime; 2) Abnormal Environment-prior to 
receipt of the enabling input signals, the probability of a premature 
nuclear detonation must not exceed one in a million per credible 
nuclear weapon accident or exposure to abnormal environments; and 3) 
One-Point Safety--the probability of achieving a nuclear yield greater 
than 4 pounds of TNT equivalent in the event of a one-point initiation 
of the weapon's high explosive must not exceed one in a million. 
However, our understanding of the risks involved and the threats 
present in our operational environment have changed over time. 
Therefore in accordance with Presidential guidelines, we continuously 
examine our designs and procedures to maximize their safety and 
security; however, there is not a set definition of an inherently safe 
or secure weapon.
    A large part of the Department's effort to examine our designs and 
procedures is done in the Enhanced Surety subprogram of the Engineering 
Campaign. This subprogram develops and matures modern weapon safety and 
use-control technologies. All of the technologies being developed 
through this subprogram are targeted for the next insertion 
opportunity, into a weapon in the active stockpile. Included are 
advanced firing-sets and strong-links, surety sensors, power 
management, and advanced use-denial technologies. All of these 
technologies are technically feasible and are being matured on a pace 
intended to allow them to be chosen by the weapon system manager, with 
manageable cost risk, based on Department of Defense (DOD) requirements 
for the weapon system.

    2. Senator Bill Nelson. Mr. D'Agostino, I ask this because in the 
past, specifically with respect to the W-88, one of the newest warheads 
in the inventory, there was a conscious decision not to use all 
available safety features. How do we, Congress, know that even if we 
fund the safety and surety work that it will be incorporated into any 
RRW or life extension program?
    Mr. D'Agostino. Even though the W88 is the newest nuclear weapon in 
the U.S. arsenal, it was still designed, developed, and produced during 
the Cold War. The W88 is an excellent illustration of the paradigm 
shift embodied in the RRW strategy. The Cold War paradigm was to 
optimize yield in the smallest possible package and then include safety 
to the greatest extent possible. The W88 is an extraordinary system, 
very effective while including some modern safety features. However, 
meeting the weight, volume, and material limitations imposed by the 
unique environment of Submarine Launched Ballistic Missiles during the 
Cold War constrained the number of surety features we were able to 
implement in that system. The end of the Cold War provided the 
flexibility to shift from systems optimized for yield and weight that 
include surety to systems optimized for surety yet are still sufficient 
to meet the current military need. The importance of taking advantage 
of this flexibility was punctuated by the events of September 11. We 
must continue to evolve and advance our surety to stay ahead of a 
threat that is evolving in technical capability and intent.
    The decision on the exact types and amounts of surety features to 
include will be based on the weapon platform, technology maturity, 
threat assessment, risk, cost, and benefit to the stockpile. The RRW 
strategy will allow for maximizing the inclusion of modern surety 
technologies, while life extension programs will be more constrained 
due to low margin, available space, and the need to minimize deviations 
from the existing nuclear test base. In all cases, the final selection 
will be an optimized set of tradeoffs that the Nuclear Weapons Council 
will agree to. We will provide you and your staff with updates on the 
design and development of any RRW or Life Extension Programs.

    3. Senator Bill Nelson. Major General Webber and Admiral Johnson, 
would you like to comment on this?
    General Webber. The security environment has changed dramatically 
from the Cold War when our current weapons were designed. At the time, 
the primary driver was the greatest yield within the allowable weight. 
Terrorism had not yet come to the forefront, and security was 
maintained with greater numbers of personnel rather than designed into 
the warhead. While we cannot comment on the trade-off decisions made 
for the W-88, the Air Force position is to increase the surety features 
of our weapons either in a RRW or Life Extension Program design. Our 
goal is to include as many surety features as possible while meeting 
our operational requirements.
    Admiral Johnson. The maturity of the surety and safety technologies 
and level of risk in the weapons environment are design drivers in the 
creation of a new nuclear weapons system, with extra emphasis being 
placed on safety and surety. These surety and safety features typically 
require additional space and weight that can be more readily 
accommodated given the modifications incorporated into the RRW design.

                              contracting
    4. Senator Bill Nelson. Mr. D'Agostino, the National Nuclear 
Security Administration (NNSA) transformation plan discussed the idea 
of being more DOD-like. In other words NNSA would establish 
requirements for an object and then the contractor would deliver the 
object from the contractor's facility using a contractor workforce. How 
far are you taking the DOD-like approach?
    Mr. D'Agostino. The NNSA is currently developing a contract 
strategy through an open, public process that is focused primarily on 
the three weapons production contracts that expire in 2010, but the 
strategy could also affect the other NNSA Management and Operating 
contracts. NNSA has issued 2 Requests for Information (RFI), received 
written input from industry and other interested parties, and conducted 
over 30 one-on-one meetings in March 2008 with RFI respondents to 
discuss their ideas in detail. Options being presented include 
obtaining nuclear production services and products from a contractor 
owned and contractor operated facility; and obtaining non-nuclear 
production products and services from a contractor owned and contractor 
operated facility. Either of these two options would move NNSA to a 
model similar to DOD contracts. There are other contracting options 
under consideration, and ideas contained in responses to the two RFIs, 
that could move NNSA closer to DOD-like contract structures.

    5. Senator Bill Nelson. Mr. D'Agostino, would this be limited to 
having industry building some part of or all of a full-up nuclear 
weapon?
    Mr. D'Agostino. Since the inception of the nuclear weapons program, 
industry has been supplying materials, some weapons parts, and some 
components that are used in nuclear weapons. A substantial portion of 
the non-nuclear components are ``outsourced'' through the Kansas City 
Plant. In this regard, a significant portion of our contracting/
subcontracting fits well into the DOD model asked about in the previous 
question. There is a substantial amount of nonrecurring and some 
recurring design and engineering work that enables series production or 
purchase of products. The ongoing surveillance work can identify issues 
with aging of materials that is difficult to define and purchase as a 
product. As technologies and environmental requirements change, there 
has been a substantial amount of work needed to requalify materials, 
processes, and components used in actual weapons and/or the production 
of weapons. This workload would also be very difficult to define and 
purchase as a product. Where we can, I believe we are doing so, even 
for sensitive materials that used to only be produced within federally-
owned facilities.
    There are critical aspects which are reserved to federally-owned 
sites, and these principally involve special nuclear materials and 
surety. What is critical to maintain within effective Federal control, 
is explicit weapon design, nuclear material manufacturing processes, 
surety (safety, security, and use control), and the assembly and system 
integration, testing, and quality acceptance processes necessary to 
qualify items for war reserve and other weapon program uses (such as in 
support of experiments and testing performed by the nuclear weapon 
design laboratories). I do not anticipate that we would ever purchase a 
full-up nuclear weapon commercially, but we already purchase a 
substantial amount of what goes into our weapons commercially and are 
evaluating ways to increase that amount where cost and security 
considerations permit.

    6. Senator Bill Nelson. Mr. D'Agostino, how would you get 
competition?
    Mr. D'Agostino. A key element of our contract strategy is to 
identify actual or perceived barriers to competition, and to determine 
how best to mitigate those barriers to ensure a robust competition. 
Several of the more than 30 respondents to our 2 RFIs identified 
concerns regarding the potential for winning a NNSA contract 
competition as compared to the resources required to compete. However, 
on balance, we are very encouraged by the level of interest generated 
by our RFIs, particularly among contractors who have not traditionally 
competed for NNSA Management and Operating contracts. Moreover, the 
information obtained through the RFIs and one-on-one meetings with 
potential bidders should help us to develop contract solicitation 
documents and define an open acquisition process that ensures the 
desired robust competition.

                    nuclear incidents and accidents
    7. Senator Bill Nelson. Major General Webber, the Air Force nuclear 
community categorizes accidents and incidents involving nuclear weapons 
depending on the nature and severity of the accident and incident. The 
lowest level category is a ``dull sword,'' followed by ``bent spear,'' 
``broken arrow,'' ``empty quiver,'' and ``nuke flash.'' Has the Minot 
incident been categorized?
    General Webber. [Deleted.]

    8. Senator Bill Nelson. Major General Webber, it appears that there 
have been over 200 dull swords since 2001. How many dull swords have 
occurred since the Labor Day incident involving the unknowing movement 
of nuclear weapons from Minot to Barksdale?
    General Webber. [Deleted.]

                                science
    9. Senator Bill Nelson. Mr. D'Agostino, maintaining premier science 
capabilities in the NNSA national laboratories is key to maintaining 
the stockpile in the future, recruiting and retaining the best and the 
brightest and carry out the many other national security-related work 
that the labs perform in addition to the nuclear weapons work. I am 
concerned that in the NNSA plans for the future complex there is too 
much focus on production and not enough emphasis on maintaining the 
science base. In some instances it seems that there is an assumption 
that the science can or should be maintained by entities other than 
NNSA. Are you sure that we are not diminishing science for the sake of 
budgets?
    Mr. D'Agostino. No, we are not sacrificing science for budgets. The 
science capabilities at the NNSA national laboratories continue to be 
world-leading. Our computational capabilities, experimental facilities 
and scientific staff have met the tremendous challenge of maintaining 
the safety, security, and reliability of the stockpile without recourse 
to underground nuclear tests. We look forward to even greater progress 
in stockpile science as the major new experimental tools become 
available in the next few years (e.g., National Ignition Facility and 
Dual Axis Radiographic Hydrodynamic Test Facility 2nd Axis). The next 
10 years will see these tools exploited to solve many longstanding 
scientific questions important to our nuclear weapons designs. These 
facilities were major investments in the complex since 1992. During 
that same time, the infrastructure for production continued to age, and 
this coupled with increased demand for security, required that we 
invest now in some modernization in the production facilities, as we 
have for the past decade invested in Stockpile Stewardship Program 
tools. We continue to be committed to stockpile science but in a 
constrained budget, we will challenge the science program to operate at 
reduced funding while addressing issues in the stockpile.

                           pit manufacturing
    10. Senator Bill Nelson. Mr. D'Agostino, the NNSA budget request 
makes several changes in the way the budget request for pit 
manufacturing is configured. The original pit budget line was 
established to bring visibility and discipline to process of 
manufacturing and certifying the W-88 pits. Will this reorganization of 
funding allow visibility to all aspects of the pit manufacturing 
process not only for W-88 pits, but also for any future pits?
    Mr. D'Agostino. The Pit Manufacturing and Certification Campaign 
was an important program that achieved success in reconstituting pit 
manufacturing within the nuclear weapons production complex (addressing 
a serious shortfall in production capability) and establishing a 
limited pit manufacturing capability of 10 pits per year. With the 
Campaign's objectives achieved, we have placed pit manufacturing and 
pit technology development under Directed Stockpile Work as an 
established capability supporting the stockpile. In making this 
placement, however, we still recognize its continuing importance by 
defining specific funding lines under Stockpile Services that ensures 
visibility and management consideration during budget preparation and 
implementation. Pit manufacturing also continues to be a separate area 
for management attention during Quarterly Program Reviews.
    Pit certification, as a part of the Pit Manufacturing and 
Certification Campaign, also achieved the primary Campaign objective of 
assuring that the newly-manufactured pits were certified for use in the 
stockpile. Having achieved this goal, and with no clearly identified 
next-generation pit build, the pit certification funds were moved to 
the Science Campaign to continue work on the development and 
improvement of certification capabilities and techniques that are 
required to assure nuclear performance in weapon systems. These 
activities include a unique dynamic plutonium experiment program to 
improve plutonium material models that support our simulation 
capability, development of engineering testing and analysis to ensure 
that primaries can perform under stockpile to target conditions, and a 
universal baselining capability to generically assess the performance 
of any new or stockpiled weapon system. These efforts are synergistic 
with the elements of the ongoing Science Campaign, and can be managed 
more effectively within this structure. Once a new requirement for 
manufacture of a specific pit type is established, NNSA management will 
reconsider the need for any recombination of pit manufacturing and 
certification to ensure success of the mission.

                      reliable replacement warhead
    11. Senator Bill Nelson. Mr. D'Agostino, what is the scope of the 
work in support of an RRW concept supported in the NNSA budget? I ask 
this because last year in the fiscal year 2008 budget request there was 
funding for both a specific RRW design in the RRW line and also 
engineering and science work to support the RRW concept generally 
scattered throughout several budget lines.
    Mr. D'Agostino. Funding that specifically applies to the RRW is 
located within Directed Stockpile Work. $10 million is requested in 
fiscal year 2009 to enable maturation of the specific RRW design to 
address the issues raised by the JASON review. The funds are not 
sufficient to complete the RRW Phase 2A design study. Consistent with 
the fiscal year 2008 appropriations act, work on certification tools 
relevant to legacy and future systems continues, and is located within 
the campaigns.

    12. Senator Bill Nelson. Admiral Johnson, the Navy included funding 
in its fiscal year 2009 budget request for the arming, firing, and 
fuzing system for the RRW-1. The full amount of this money is early to 
need given the actions of the Energy and Water appropriators in fiscal 
year 2008. What amount of this money can be usefully used, for what 
purpose, and how much is excess?
    Admiral Johnson. The Navy placed fiscal year 2008 funding on hold 
when Congress zeroed funding for the NNSA in the Fiscal Year 2008 
Energy and Water Authorization Bill. No Navy effort on the RRW is 
planned unless approved and funded by Congress and coordinated with 
NNSA. If approved and funded, the Navy will use $14 million to continue 
efforts to define requirements and architectures to support an 
integrated/adaptable Arming, Fuzing, and Firing (AF&F) including 
developing Navy/Air Force/U.K. requirements, investigating AF&F 
concepts, architectures and technologies needed to support those 
requirements and performing an analysis of adaptability. This work is 
critical to the next AF&F and should be applicable to Navy, Air Force 
or U.K. warheads. The fiscal year 2009 effort is contingent on 
congressional approval of the fiscal year 2008 plan.

                                bombers
    13. Senator Bill Nelson. General Chilton, the Air Force is looking 
at beginning to field a next generation bomber by 2018 and a more 
technologically advanced bomber by 2025. What are your key requirements 
for future long range strike platforms?
    General Chilton. Our bombers remain a valued element of our nuclear 
forces and are expected to remain so into the future. Bombers are 
uniquely useful in communicating measured concerns in response to other 
nation's activities as we seek to continue to deter the use of nuclear 
weapons in the future. In that regard, future bombers must be 
survivable against advanced threats and possess the range, endurance, 
and payload capability needed to deliver effects against multiple 
targets deep within hostile territory and far from their operating 
locations.

    14. Senator Bill Nelson. General Chilton, after several years of 
debate and now a requirement that the Air Force maintains 76 B-52 
bomber aircraft, the funding for the B-52 is on the Air Force unfunded 
priority list. What is your understanding as to how the 76 will be 
funded if Congress does not provide the additional funding?
    General Chilton. U.S. Strategic Command (STRATCOM) is aware of the 
funding challenges the Air Force faces in sustaining the 76 B-52Hs and 
understands the Air Force is working to resolve the issue.

                          strategic deterrence
    15. Senator Bill Nelson. General Chilton, in your statement you 
talked about the importance of bilateral dialogue as an element of 
deterrence. The bilateral and multilateral dialogue seems to be more 
difficult as our enemies are not really states per se, while States are 
competitors. Do you see a need to improve military dialogue with and 
among competitors?
    General Chilton. Yes, I do see a need to improve military dialogue 
with and among competitors. Although many state actors can now be 
considered competitors rather than adversaries, numerous state 
adversaries still exist. As your question suggests, today's complex 
strategic landscape increases our National security challenges. Just as 
our model for deterrence has evolved to keep up with these challenges, 
so has our realization of a need to broaden military dialogue-not just 
with our traditional competitors, but with those who are beginning to, 
or are likely to emerge.
    The value of military dialogue with our competitors is based on the 
ability to build understanding of each others' intentions, and the 
ability to identify practical steps to improve bilateral and 
multilateral cooperation. Understanding each others' specific 
perceptions and respective doctrines goes a long way in ensuring our 
force postures are perceived in their proper context. The result is 
enhanced strategic stability.

    16. Senator Bill Nelson. General Chilton, how would you go about 
improving and enlarging such military-to-military dialogue?
    General Chilton. We are improving and enlarging our military-to-
military dialogue with competitors by expanding into additional areas 
beyond traditional nuclear dialogue. For example, in support of 
geographic combatant commands, I have emphasized international 
engagement on space. If this avenue of engagement begins to produce 
meaningful dialogue, then we'll move on to our cyberspace mission as 
the next area for expanded military-to-military dialogue with our 
competitors.
    In line with new concepts of tailored deterrence, military-to-
military dialogue must also be tailored. These relationships depend, 
obviously, on the nature of the relationship with the competitor or 
adversary. Our access to certain states and non-state actors is 
restricted by limited, and sometimes non-existent, diplomatic 
relationships. In these situations, our ability to improve and expand 
upon such military-to-military dialogue would depend on proxy 
relationships, both through allies and in some cases competitors.
    While I am optimistic about the slow but steady military dialogue 
with our competitors, it is also important to note that despite a 
considerable investment in time and resources last year, many 
competitors have shown little interest in completing our scheduled 
dialogues. Therefore, we are reducing this year's overall number of 
events and refocusing our efforts on the quality and completion rate of 
the remaining dialogue opportunities.

                          missile warning gap
    17. Senator Bill Nelson. General Chilton, do the current schedules 
for the space-based infrared satellite (SBIRS) geostationary (GEO) and 
high earth orbit (HEO) elements, assuming that there are four GEO 
satellites and four HEO sensors, avoid a missile warning gap?
    General Chilton. Barring unexpected problems with current on-orbit 
assets, the schedule for the four SBIRS GEO satellites, plus the two 
HEO sensors and their scheduled replacements, will avoid a missile 
warning gap.

    18. Senator Bill Nelson. General Chilton, do you believe there may 
be a need for more SBIRS satellites or HEO sensors?
    General Chilton. The United States will need the capability to 
provide missile warning for the foreseeable future. At present, the 
program of record provides adequate coverage, but we will eventually 
need a follow-on capability.

                     operationally responsive space
    19. Senator Bill Nelson. General Chilton, the Strategic Command 
sets the requirements for operationally responsive space (ORS). What 
are your key priority requirements and are there any areas where more 
good could be done?
    General Chilton. The key priority requirements for ORS are 
determined based upon the urgent needs as expressed by Joint Force 
Commanders (to include U.S. STRATCOM) and, in some circumstances, the 
needs of services or agencies. In general, the priority areas are 
battlefield awareness, communications and command and control. At this 
stage of the program it is important to establish common standards and 
interfaces to enable a timely responsive capability for the future.

       nonproliferation and combating weapons of mass destruction
    20. Senator Bill Nelson. General Chilton, the Strategic Command has 
the responsibility to coordinate capabilities of the regional 
commanders to combat weapons of mass destruction (WMD). What do you see 
as the technology challenges to the commanders and what should be the 
development priorities?
    General Chilton. Detection of Chemical and Biological Agents, and 
Nuclear Fissile material at standoff ranges is one of the greatest 
technological challenges to combating the proliferation of WMD. It is 
vitally important to increase detection ranges of WMD beyond the 
current passive detection capability in order to locate and challenge 
the movement of WMD before it reaches our shores.

    21. Senator Bill Nelson. General Chilton, how does Strategic 
Command participate in developing research priorities?
    General Chilton. One of my responsibilities is development of 
requirements for CWMD on behalf of the Combatant Commanders. These 
requirements provide a foundation for Services and Combatant Support 
Agencies to focus research efforts and development of state-of-the-art 
technologies. As advocate for CWMD capabilities, we closely monitor the 
progress and military utility of this research to adjust priorities as 
needed. We focus efforts in documents such as the draft Joint 
Capabilities Document (JCD), our Integrated Priorities List (IPL) and 
the Counterproliferation Review Committee Report to Congress. We then 
advocate through various technology development forums such as 
exercises and experiments, Science and Technology Symposia and the 
Joint Capability Technology Demonstration (JCTD) process, and finally 
through oversight groups such as the Science Advisory Board and the 
Strategic Advisory Group.

                 defense science board recommendations
    22. Senator Bill Nelson. Major General Webber, the Defense Science 
Board (DSB) recommendations dealing with the Minot weapons transfer 
incident took the organizational structure of the Air Force to task. 
The DSB recommended that a single technical organization be created, 
headed by a major general who reports directly to the Air Force Chief 
of Staff, ``that has full responsibility and accountability with the 
Air Force for, and only for, nuclear systems and procedures.'' What is 
the status of this recommendation?
    General Webber. The Air Force continues to take its nuclear 
responsibilities seriously. With creation of the Air Force Nuclear 
Weapons Center (AFNWC) at Kirtland AFB in 2006, the Air Force 
consolidated most nuclear weapons responsibilities in a single 
technical organization under the command of an Air Force Colonel 
reporting directly to the Vice Commander, Air Force Materiel Command. 
The AFNWC assumed further nuclear responsibilities when it incorporated 
the former Air Force Nuclear Weapons and Counterproliferation Agency in 
2007. To address concerns of the Defense Science Board the Air Force 
has appointed a Brigadier General to command the AFNWC.
    The AFNWC includes the 377th Air Base Wing, Kirtland AFB, NM and 
the 498th Armament Systems Wing. The 498th Armament Systems Wing 
includes the 896th and 898th Munitions Support Squadrons (MUNSS), the 
Oklahoma City Air Logistics Center (OC-ALC) Cruise Missile Product 
Group, and the 498th Nuclear Systems Support Group, Kirtland AFB, NM. 
The Intercontinental Ballistic Missile (ICBM) System Program Office 
(SPO) is scheduled to move into the AFNWC on 1 July 2008. When this 
occurs the AFNWC will encompass, in a single technical organization, 
all functions involved in providing end-to-end stockpile management for 
all of the Service's nuclear systems.
    In addition to the AFNWC, a new organization was created on the Air 
Staff, the Directorate for Nuclear Operations, Plans and Requirements. 
The organization is headed by a major general and was created to 
support the field commander as well as work operational policy issues 
that drive the technical requirements.

    23. Senator Bill Nelson. Major General Webber, the DSB recommended 
that the ``Commander of Air Combat Command (COMACC) should ensure that 
8th Air Force has the full resources, authority, and accountability for 
daily B-52 operations--nuclear and conventional.'' What is the status 
of this recommendation?
    General Webber. COMACC directed his staff to review and rewrite Air 
Combat Command Pamphlet 38-158, titled ``Manpower and Organization''. 
This new version will clearly state the responsibilities of the Major 
Command and 8th Air Force. Headquarters U.S. Air Force is the authority 
for decisions on organizational responsibilities and corresponding 
resource adjustments. COMACC directed the stand-up of a focused Global 
Deterrence Force for B-52 and B-2 operations, dedicated to U.S. 
STRATCOM, emphasizing the nuclear mission. Standup is expected this 
July.

    24. Senator Bill Nelson. Major General Webber, the DSB recommended 
that the ``COMACC should direct that the B-52 initial training course 
at Barksdale and the B-52 Weapons School course include flight training 
in the nuclear mission.'' What is the status of this recommendation?
    General Webber. Numerous administrative, academic, procedural, and 
technical changes were directed and implemented for the B-52 initial 
training course. Further changes are currently in coordination for 
formal approval by higher headquarters.
    The following specific changes have been implemented:

          1. Revised: B-52 Formal Training Unit (FTU) course syllabus 
        incorporated commission and panel recommendations; revisions 
        were approved by higher headquarters.
          2. Added Event: FTU Day 1, Class 1. FTU commander personally 
        briefs every B-52 student on the incident to include its 
        causes, effects, and implications to the Nation's deterrent 
        capability. This brief also includes results and 
        recommendations of the panels and commissions.
          3. Added Event: FTU Day 1, Class 1. FTU commander personally 
        teaches every B-52 FTU student the nuclear Personnel 
        Reliability Program academic training.
          4. Added Event: FTU Day 2. Aircrew nuclear discipline 
        academic class taught personally by the Second Bomb Wing Vice 
        Commander to every B-52 FTU student.
          5. Added Event: FTU simulator training. Added nuclear 
        simulator mission for every B-52 FTU student.
          6. Added Event: FTU flight training. Added nuclear flight for 
        every B-52 FTU student emphasizing nuclear command and control 
        procedures, nuclear procedures, and nuclear weapons.
          7. Added Event: FTU mission training. Nuclear weapons 
        academic qualification class (both missile and gravity).
          8. Changed: All B-52 FTU instructors must maintain combat 
        mission ready on all nuclear mission qualifications and 
        currencies to include nuclear command and control testing, 
        nuclear weapons qualifications, and nuclear alert 
        qualifications.

    The following proposed changes are in review:

          1. Added Event: Communication equipment class.
          2. Added Event: Additional nuclear simulator.
          3. Added Event: Additional nuclear flight.
          4. Added Event: B-52 instructor upgrade syllabus-academic 
        class on instructing nuclear training, simulator on instructing 
        nuclear items in the simulator, flight on instructing nuclear 
        items in the aircraft.

    The following specific changes have been made to the U.S. Air Force 
Weapons School (USAFWS) syllabus:
Nuclear Weapons Physics Lecture (Course PPP208E) Classroom, 2.5 hours
    Presentation of the principles of nuclear weapons physics. The 
class will include the history of US nuclear weapons development and 
deployment, theory, construction, fuzing and firing, and safety and 
security features. Permissive action link (PAL)/coded switch system 
(CSS) concepts and operations instructions are also included in this 
class.
Nuclear Weapons Theory, Effects and Hazards Lecture (Course PPP210E) 
        Classroom, 1.5 hours
    Discussion of nuclear weapons effects and effects of bomber 
aircraft in proximity of a nuclear detonation (NUDET). Discussion will 
also include closed cockpit operations and flash blindness equipment, 
use and considerations.
B-52 Nuclear Weapons Inventory Lecture (Course SSS400E) Classroom, 2.0 
        hours
    Detailed description and breakdown of all bomber deliverable 
nuclear bombs, missiles, and their warheads. The lesson will include 
operating procedures, delivery parameters, yields, and options.
B-52 Suspension and Release Avionics System for Nuclear Weapons 
        Employment Lecture (Course AVS265E) Classroom, 1.0hour
    Description, weapons installation, operation, applicability and 
limitations of B-52 nuclear weapons-associated suspension and release 
equipment.
B-52 Nuclear Weapons Preflight (Course AVS262E) Weapons Storage Area, 
        2.0 hours
    Instruction from Weapons School instructors and munitions personnel 
plus students hands-on participation in nuclear weapons preflight. At 
the completion of this class, the student will have completed the 
requirements for 2nd Bomber Wing `OGRE' and 5th Bomber Wing `NEUTRON' 
training.
B-52 Nuclear Operations (WST--4 of 5 in syllabus)
    Simulator type: Integrated B-52 WST.
    Student/instructor ratio: 2:1 Pilot/Radar Navigator, 1:1 Electronic 
Warfare Officer.
    Support: None.
    Configuration: Mission 575, 12 <greek-e> AGM-129, 8 <greek-e> AGM-
86B, 8 <greek-e> B-61, 8 <greek-e> B-83, 900 <greek-e> chaff, 192 
<greek-e> flare, 140k fuel load. Mission duration: 4.0 hours.
    Mission description: Instructs students on nuclear operations and 
malfunctions on all B-52 deliverable nuclear weapons.
Strategic Attack: Global Deterrence Strike-Nuclear (sortie 5 of 19 in 
        syllabus)
    Aircraft type: 2 <greek-e> B-52H.
    Student/instructor ratio: 2:1 Pilot/Radar Navigator, 1:1 Electronic 
Warfare Officer.
    Support: U-TAC/EC range, 1 <greek-e> EA platform, 2 <greek-e> Red 
Air.
    Configuration: Beyond Line Of Sight data link, Electronic 
Countermeasures Improvement, USAFWS Electronic Countermeasures tapes, 
220k fuel load. Mission duration: 8.0 hours.
    Integration: Red Air requirement may be filled by USAFWS.
    Mission description: Instructs students how to employ AGM-86B, AGM-
129, B-61, and B-83 nuclear weapons in a nuclear global deterrence 
strike requiring threat defense and package integration against both 
air- and ground-based threat systems. This mission emphasizes advanced 
planning and employment aspects of nuclear weapons in a simulated 
combat environment drawing from academics and student experience.
    The B-52 Pilot, Navigator, and Electronic Warfare Officer Initial 
Qualification syllabi were rewritten to include nuclear employment 
training in addition to the integrated nuclear training simulator 
mission from previous syllabi. The FTU and contracted instructors 
started Class 08-03 under the new, nuclear added, syllabus 20 Feb 2008. 
The B-52 Weapons School Course was approved for implementation in 
December 2007. All syllabi listed below were rewritten, staffed and 
approved by Air Combat Command operations (A3) on the listed dates.

------------------------------------------------------------------------
            TRACK--NBR                      TITLE         APPROVED--DATE
------------------------------------------------------------------------
B52.03............................  B-52 Aircraft              15 Jan 08
                                     Commander Upgrade
                                     Course.
B52.04............................  B-52 NAVIGATOR AND         08 Jan 08
                                     RADAR NAVIGATOR
                                     BASIC COURSE.
B52.05............................  B-52 ELECTRONIC            09 Jan 08
                                     WARFARE OFFICER
                                     BASIC COURSE.
B52.12............................  B-52 Pilot and             08 Jan 08
                                     Aircraft Commander
                                     Basic Course.
B52.13............................  B-52 RADAR NAVIGATOR       09 Jan 08
                                     UPGRADE COURSE.
WS.11.............................  USAF WEAPONS               19 Dec 07
                                     INSTRUCTOR COURSE
                                     (WIC), B-52.
------------------------------------------------------------------------


    25. Senator Bill Nelson. Major General Webber, the focus of the DSB 
report was on the general organization of the Air Force and the B-52. 
Have you or General Darnell, your boss, looked at the training, 
organization, and structure of the B-2 force to ensure that the same 
weaknesses do not exist there?
    General Webber. Whiteman Air Force Base (AFB) and the B-2 
enterprise from its inception considered the nuclear mission as the 
cornerstone of its training program. Beginning in Initial Qualification 
Training and continuing through all formal syllabi including B-2 
Weapons School, the nuclear mission is emphasized and competency must 
be established before completion. The B-2 flight training tasking 
message also emphasizes the nuclear mission and ensures each crewmember 
maintains the highest level of competency.
    Due to the unique requirements of operating with a small aircraft 
fleet size, the B-2 was forced to optimize for the nuclear mission at 
its inception. Every squadron including the Weapon School and 
Operational Test are located at Whiteman AFB. The two front-line Bomb 
Squadrons own all the aircraft and are properly manned for their 
nuclear mission requirements.
    The results of the limited nuclear surety inspection in the fall of 
2007 and the recent nuclear surety inspection (NSI) this June both 
support the argument that an effective organization and training 
concept of nuclear operations currently exists at Whiteman AFB. In 
fact, the recent June NSI was characterized by the Inspector General as 
``one of the strongest NSIs on record.''

    [Whereupon, at 12:10 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                         TUESDAY, APRIL 1, 2008

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                   BALLISTIC MISSILE DEFENSE PROGRAMS

    The subcommittee met, pursuant to notice, at 2:46 p.m. in 
room SR-232A, Russell Senate Office Building, Senator Bill 
Nelson (chairman of the subcommittee) presiding.
    Committee members present: Senators Bill Nelson, Levin, 
Pryor, Inhofe, and Sessions.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; and 
Peter K. Levine, general counsel.
    Minority staff member present: Robert M. Soofer, 
professional staff member.
    Staff assistants present: Kevin A. Cronin and Jessica L. 
Kingston.
    Committee members' assistants present: Christopher Caple 
and Caroline Tess, assistants to Senator Bill Nelson; Jon 
Davey, assistant to Senator Bayh; M. Bradford Foley, assistant 
to Senator Pryor; and Todd Stiefler, assistant to Senator 
Sessions.

       OPENING STATEMENT OF SENATOR BILL NELSON, CHAIRMAN

    Senator Bill Nelson. Good afternoon.
    Mr. Young. Good afternoon.
    Senator Bill Nelson. Each of your written statements will 
be put in the record, and Senator Sessions and I are dispensing 
with our opening statements so we can get right to the 
questions.
    [The prepared statement of Senator Bill Nelson follows:]
               Prepared Statement by Senator Bill Nelson
    The Subcommittee on Strategic Forces meets today to consider the 
ballistic missile defense programs of the Department of Defense, and 
the missile defense budget request for fiscal year 2009.
    Today, I want to express my deep concern that the ballistic missile 
defense program is out of balance. With an annual budget of over $9 
billion, the Missile Defense Agency (MDA) is simply not placing 
sufficient priority on near-term missile defense capabilities needed 
now by our regional combatant commanders to defend our forward-deployed 
forces, allies, and friends against existing short- and medium-range 
missiles.
    This should be our very first missile defense priority. North Korea 
and Iran, to name just two nations, have many hundreds of such missiles 
today, and our combatant commanders do not have the capability to 
defend their forces, let alone other nations in their regions. This is 
not a hypothetical problem; these are real missiles that can reach our 
troops today. But the MDA has not planned or budgeted sufficient funds 
to provide the defensive capabilities we need, and MDA ought to know 
it.
    Since 2006, the military has conducted a series of analyses called 
the Joint Capabilities Mix Study that looked at what our upper tier 
missile defense capabilities and needs were for our regional commands. 
Specifically, they were looking at the Aegis Ballistic Missile Defense 
system and its Standard Missile-3 (SM-3) interceptor and the Terminal 
High Altitude Area Defense (THAAD) system.
    Last year this subcommittee was told that the Joint Capabilities 
Mix Study concluded that our military would need about twice as many 
SM-3 and THAAD interceptors as the MDA was planning to buy. It turns 
out that is the minimum level that we need. So, did the Department of 
Defense increase the number of interceptors it planned to buy? No.
    Instead, it submitted a budget request for fiscal year 2009 that 
would delay THAAD Fire Units 3 and 4 by a year, and cause a production 
break of 18 months. It still plans to buy only 96 THAAD missiles and 
147 SM-3 interceptors. That is simply not enough to do the job.
    By comparison, the United Arab Emirates (UAE). which is a little 
smaller than the State of Maine, wants to buy 144 THAAD missiles from 
us, which would be 50 percent more than the Defense Department is 
currently planning to buy for our own military. The UAE would have 
twice as many THAAD interceptors per Fire Unit as our own military will 
have.
    The MDA could easily plan for and buy many more of these systems 
for our own military, and could produce them at more economical rates, 
which would bring down the cost per missile and provide the capability 
sooner. But instead of making this investment, the MDA has been 
spending billions of dollars on far-term research and development 
programs that will not provide any operational capability for another 
decade.
    One example of this misplaced spending is the Airborne Laser (ABL) 
technology demonstration program. The original estimate for the ABL 
program in 1996 was that it would cost $1 billion and take until 2001 
to complete the demonstration. Instead, it has had a 500 percent cost 
increase, to $5 billion, and will not be completed until 2009 at the 
earliest, a delay of 8 years. This system, if it could be made to work, 
would not provide an operational capability for another decade. Given 
its many inherent problems, we don't know if it can be made to work, or 
whether it will be affordable, or survivable.
    Last year, MDA asked for more than $500 million for ABL. Think of 
the real, near-term SM-3 and THAAD capability we could buy with half a 
billion dollars. Think of the defensive capability we could provide for 
our forward-based forces, and allies and friends who are within range 
today of hundreds of short- and medium-range missiles.
    I believe the MDA should commit to fielding sufficient SM-3 and 
THAAD systems to meet the operational needs of our combatant commanders 
in a timely fashion. That means putting more money into these near-term 
systems, and less money into the far-term, high-risk systems that won't 
provide capability for another 10 years. I hope we can finally start 
making some progress on this front. We owe our military forces no less.
    We have a number of other issues to consider at this hearing, 
including the fact that the Department of Defense failed to comply with 
a provision of the National Defense Authorization Act for Fiscal Year 
2008. That law requires that, if the Department requests any long lead 
items for additional SM-3 interceptors or for THAAD Fire Units 3 and 4 
in fiscal year 2009, it should request procurement funds, rather than 
research and development funds, for those systems. However, the 
Department did not comply with the law. Instead, it requested research 
and development funds for buying long lead items for additional SM-3 
missiles. That is unacceptable; the Department should comply with the 
law.
    These are just two of the important issues we will discuss at 
today's hearing. I appreciate the witnesses appearing before the 
subcommittee, and I look forward to their testimony.

               STATEMENT OF SENATOR JEFF SESSIONS

    [The prepared statement of Senator Sessions follows:]
              Prepared Statement by Senator Jeff Sessions
    Mr. Chairman, I join with you in welcoming all our distinguished 
witnesses to this hearing on our missile defense programs. I note that 
while this is Secretary Young's first appearance before the 
subcommittee, it is most likely to be General Obering's last, as he has 
announced plans to retire by the end of the year.
    May I just say, at the outset, that we owe a huge debt of gratitude 
to General Obering for having provided this Nation, our forces, and our 
allies a measure of protection against the ballistic missile threat. 
Indeed, before 2004, we had no missile defense capabilities, except for 
the Army's short-range Patriot system. Today, we have at the ready some 
two-dozen ground-based interceptors to protect our Homeland against 
long-range ballistic missiles, and a similar number of sea-based 
interceptors loaded on naval vessels capable of defending against 
short- and medium-range ballistic missile threats far from our shores.
    General Obering, you and the men and women of the Missile Defense 
Agency (MDA) should be proud of your accomplishments. As you prepare 
for your retirement, you should take comfort in the knowledge that your 
performance in this last duty assignment brings much credit to an 
already distinguished military career. You will be sorely missed.
    Secretary Young, it is good to have you here. Your views concerning 
Department oversight of the missile defense program are eagerly 
awaited. As is generally known, the MDA has been granted tremendous 
flexibility and freedom from the normal acquisition process.
    This new acquisition approach was necessary to enable the 
Department to field missile defense capabilities in time to address the 
threat. Indeed, it has! I would be interested to learn from you whether 
this might not serve as a model for future acquisition programs.
    General Campbell, as U.S. Strategic Command's lead for the 
integrated missile defense mission, the subcommittee will be interested 
to learn how well our missile defense programs are serving the needs of 
the warfighter. Important questions we would like you to address 
include: Are we fielding missile defense capabilities in numbers 
sufficient to pace the threat? Are we paying enough attention to the 
improvement of current capabilities to stay ahead of future threats? 
Where do we stand with respect to the transition of missile defense 
forces from MDA to the Services?
    Dr. McQueary, it is good to have you again before this panel. As 
the Director of Operational Test and Evaluation, we look forward to 
your assessment of MDA's Integrated Test Plan, and on the operational 
effectiveness of our current missile defense systems. It would appear 
that your testimony is very similar to last year, in that while you 
asses the current missile defense systems to be capable of providing 
protection against the threats for which they are designed, additional 
operationally realistic testing is necessary to raise the level of 
confidence in that assessment.
    Finally, Mr. Francis, we look forward to hearing the Government 
Accountability Office's recent recommendations with respect to the MDA.
    Mr. Chairman, I thank the witnesses for their service to the 
country and look forward to the hearing.

   STATEMENT OF HON. JOHN J. YOUNG, JR., UNDER SECRETARY OF 
DEFENSE, ACQUISITION, TECHNOLOGY, AND LOGISTICS, DEPARTMENT OF 
                            DEFENSE

    [The prepared statement of Mr. Young follows:]
             Prepared Statement by Hon. John J. Young, Jr.
    Good afternoon Senator Nelson, Senator Sessions, and members of the 
subcommittee. Thank you for the opportunity to appear before you today 
to discuss the fiscal year 2009 Department of Defense Ballistic Missile 
Defense Program and budget submission. I am pleased to update you on 
key issues facing the missile defense program and look forward to 
answering any questions you may have.
    The Defense Department has made great progress on missile defense 
since the President in 2002 made the deployment of an initial defensive 
capability a national priority. Indeed, within 18 months of the 
President's direction, the Missile Defense Agency (MDA) fielded our 
Nation's first long-range hit-to-kill ballistic missile defense 
capability.
    Moving with such urgency has required the MDA to operate with some 
flexibility in managing the Agency's portfolio of programs. The MDA has 
already fielded a limited capability to defeat a limited ballistic 
missile threat from rogue nations. I believe it is vital to the 
security of our Nation that we continue work to close system 
performance gaps and develop new technology to keep pace with the 
threat.
    To close these gaps, the MDA will need to continue to use spiral-
development and capability-based acquisition, allowing it to exploit 
technological opportunities and place greater capability in the 
warfighters' hands.
    Capability-based acquisition permits early deployment of limited 
capabilities that can be enhanced over time. This approach also allows 
requirements and standards to be added as we understand their impact on 
cost, schedule, and performance. This approach can help the program 
remain relevant to the threat and technologically current while at the 
same time providing maximum industry design trade space to deliver 
militarily useful, best-value capability. The primary goal is to add 
capabilities with demonstrated military utility, rather than to meet 
rigid requirements typically defined several years before any 
capability can be fielded.
    Capability-based acquisition hinges on knowledge-based, 
decisionmaking. To reduce risk and ensure program stability, MDA uses 
knowledge-point decisionmaking to drive investment decisions. Knowledge 
points are tied to the achievement of specific technical or performance 
requirements and allow MDA to develop new and advanced capabilities 
without having to make a long-term financial commitment. Failure to 
meet knowledge points could result in the slowing or even 
discontinuation of a program activity.
    The Department continues to exercise oversight of the MDA's 
development and deployment efforts. The Director of the MDA reports 
directly to me on missile defense matters, and we meet periodically to 
discuss program issues.
    I plan to conduct regularly Program Execution Reviews for all MDA 
programs. These reviews will provide me and other senior Department 
officials timely and in-depth program execution updates. Among other 
things, these reviews will compare actual results against schedule, 
budget, and performance goals and baselines, and describe any earned 
value cost variances.
    In addition, the Department of Defense has established a Missile 
Defense Executive Board (MDEB) that makes recommendations to me and the 
MDA Director and oversees implementation of the Agency's strategic 
policies and plans, program priorities, and investment options. Senior 
principals from the Office of the Secretary of Defense (OSD) staff, the 
Services, the Department's independent test community, the Joint Staff, 
and appropriate outside agencies sit on the board, which meets every 2 
months to provide oversight and guidance.
    One issue currently on the MDEB agenda is the transition and 
transfer of Ballistic Missile Defense System (BMDS) elements once they 
reach technical maturity. In 2002 the Department of Defense directed 
MDA to focus on developing, testing, and fielding near-term 
capabilities; the military departments would be responsible for long-
term procurement and operation and support activities of transferred 
BMDS elements. With the successful fielding of BMDS elements in 2004, 
the Department looked for ways to facilitate transition and transfer 
planning. We developed a master BMDS Transition and Transfer Plan to 
document agreements between the MDA and the military departments. My 
office updates the Transition and Transfer Plan annually in conjunction 
with MDA and the military departments. We have also identified a lead 
Service for most BMDS elements.
    As the missile defense system has gained technical maturity, it 
became clear to me, the Director of the MDA, and other Department 
officials that effective transition and transfer planning is the key to 
successful operation and support of the BMDS. The MDEB is currently 
evaluating proposals to adjust the process in a manner that will 
``normalize'' the transition and transfer process and ensure optimal 
system operations. The MDEB is also considering a revised BMDS program 
planning process which will provide the opportunity for the military 
departments and OSD to influence BMDS budget formulation and resource 
allocation using all appropriations in a defense-wide account. To 
complement this process, we are developing guidelines to specify 
military department and MDA responsibilities in preparation for, 
during, and after transition and transfer of BMDS elements. The 
Department plans to brief this committee in more detail once we have 
settled on a new path forward.
    I continue to be encouraged by the close interaction among MDA, the 
Director, Operational Test and Evaluation, the combatant commanders, 
and the Operational Test Agencies within the Services. Together they 
have developed an approach to ensure increasingly complex end-to-end 
tests of the system. The fact that the Director of the MDA and the 
Director, Operational Test and Evaluation jointly approve the 
Integrated Master Test Plan demonstrates to me the high level of 
cooperation between these organizations. Indeed, today you will find 
personnel from the Department's independent test community embedded in 
the management offices of the missile defense elements.
    I believe the close working relationship between MDA and the test 
community has also contributed to recent test successes. Last year 
alone MDA executed successfully a long-range ground-based intercept, 
six SM-3 intercepts of separating and unitary targets, and three 
Terminal High Altitude Area Defense (THAAD) intercepts of unitary 
targets. Each test included elements of operational realism and 
demonstrated to the warfighter the capabilities of the BMDS.
    While attending to environmental and safety concerns, MDA's future 
flight tests will continue to be increasingly realistic in operational 
terms. When appropriate to the test objectives and consistent with 
MDA's overall test campaign, each test will build on the knowledge 
gained from previous tests and add increasingly challenging objectives 
with the goal of devising scenarios that test elements of the system 
from end to end. This test approach increases knowledge and minimizes 
artificiality.
    The Government Accountability Office (GAO) continues to be actively 
engaged in reviewing the Ballistic Missile Defense Program. GAO 
conducted eight audits of the missile defense program in fiscal year 
2007. To further increase transparency, beginning in fiscal year 2008, 
MDA agreed to provide GAO with quarterly summaries that include 
integrated baseline review schedules (most recent and projected), 
percent complete, 6 month cost performance index, fiscal year cost 
variance, and cumulative cost variance. This information will be 
summarized annually in the BMDS Selected Acquisition Report for 
Congress.
    Like many members of this committee, I believe we need to field 
additional ballistic missile defense assets in the near-term. System 
elements like Aegis Ballistic Missile Defense and the THAAD could 
provide our combatant commanders as well as our friends and allies a 
significant defensive capability in just a few years. I am working with 
General Obering to achieve this goal through the Department's 
programming and budgeting process.
    At the same time, we must keep pace with the threat by equipping 
the warfighters with advanced BMDS capabilities. In the near future, we 
will require advanced discrimination, persistent sensor coverage, 
maneuverable interceptors, multiple volume capability, and a robust 
inventory. I believe that keeping pace with the threat while continuing 
to deliver effective capabilities requires an approach that balances 
near-term fielding and far-term development.
    The President's budget for fiscal year 2009 reflects the priorities 
set by the President and was developed by the Secretary of Defense and 
his most senior military and civilian advisors. The budget emphasizes 
the need to prepare for an uncertain and unpredictable future. We must 
maximize our capabilities gained from our limited defense dollars.
    Toward that goal, the Department is requesting $10.4 billion in 
fiscal year 2009 for continued development of a multi-layered system to 
protect the United States, its forces, and its allies from ballistic 
missile attack. $9.3 billion of that request supports the work of the 
MDA. The budgeted funds will pay the cost of fielding near-term missile 
assets, operating and sustaining these assets, and conducting a missile 
defense test program. A robust research and development program is also 
needed to keep pace with the advancing threat.
    I note that the National Defense Authorization Act for Fiscal Year 
2008 required the Department of Defense to transition from research, 
development, test, and evaluation-only budget requests for ballistic 
missile defense activities to requests with appropriate amounts in each 
appropriations title. For the fiscal year 2009 President's budget 
submission, the Department identified the operations and sustainment 
costs for each BMDS element and requested military construction funds 
for the European Site, the European Midcourse Radar and one forward-
based radar. The fiscal year 2009 President's budget did not include 
procurement funding for specified BMDS elements, but the Department 
will review this issue in preparation of the fiscal year 2010 
President's budget.
    We are grateful for the support of Congress, which has helped make 
fielding missile defense a reality. As we increase the effectiveness 
and reliability of the system, congressional approval of the 
President's request for missile defense funding will be essential. 
Cooperation between the Department and Congress on missile defense 
issues is one of the main reasons this program has been so successful 
over the last several years. I look forward to continuing that 
cooperation.
    Thank you for this opportunity to testify before the subcommittee. 
I look forward to answering any questions you might have.

  STATEMENT OF LT. GEN. HENRY A. OBERING III, USAF, DIRECTOR, 
                     MISSILE DEFENSE AGENCY

    [The prepared statement of General Obering follows:]
       Prepared Statement by Lt. Gen. Henry A. Obering III, USAF
    Good afternoon, Mr. Chairman, Senator Sessions, distinguished 
members of the subcommittee. Thank you for this opportunity to discuss 
the Department of Defense's Fiscal Year 2009 Missile Defense Program 
and budget. As Director of the Missile Defense Agency (MDA), I have the 
privilege of leading an outstanding group of men and women who are 
working hard every day to develop, test, and field an integrated, 
layered Ballistic Missile Defense System (BMDS) to defend the United 
States, our deployed forces, and our allies and friends against 
ballistic missiles of all ranges in all phases of their flight. I want 
to thank this committee for the support we have received for this 
critical defense program.
    We are requesting $9.3 billion in fiscal year 2009 for missile 
defense. Roughly 75 percent of this request, or $7 billion, will be 
allocated to the near-term development and fielding of missile defense 
capabilities. Of this amount, $715 million is for sustaining the 
capabilities we already have in the field today. I also want to 
highlight that, as has been the pattern for several years now, we will 
be spending about $2 billion of the funding in fiscal year 2009 (more 
than 20 percent of the missile defense budget) on test activities.
    The BMDS is daily becoming more integrated, robust, and global. The 
BMDS already includes fielded assets operated by Air Force, Army, and 
Navy units under the integrated control of combatant commanders. Our 
current, limited homeland defense against long-range ballistic missiles 
will soon be bolstered by additional interceptors in Alaska and the 
upgrade of an existing radar in Greenland to protect against enemy 
launches from the Middle East.
    The defense of deployed forces, allies, and friends against short- 
to medium-range ballistic missiles in one region/theater will be 
buttressed by additional Standard Missile-3 (SM-3) interceptors, more 
Aegis BMD engagement-capable warships, 2 Terminal High Altitude Area 
Defense (THAAD) fire units, and up to 100 modified sea-based terminal 
interceptors. Tying these assets together will be a global command, 
control, battle management and communications capability.
    Recent flight tests are confirming technological progress and 
operational effectiveness for short-, medium-, and long-range defensive 
capabilities. Since February 2007, MDA and the military Services have 
executed a successful long-range ground-based intercept, six sea-based 
intercepts of separating and unitary targets, and two THAAD intercepts 
of unitary targets. In the near future, MDA's capability development 
program is expected to yield enhanced capabilities to discriminate 
between enemy warheads and countermeasures and options for ``multiple 
kill'' capabilities to meet future challenges.
    To demonstrate the long-range BMDS capability, for example, we 
conducted an integrated flight test last September involving a 
realistic target launched from Alaska and tracked by the operational 
upgraded early warning radar in northern California. An Aegis ship and 
the sea-based X-band (SBX) radar in the North Pacific tracked the 
target as well. The target was successfully destroyed by a Ground-Based 
Interceptor (GBI) launched from an operationally configured silo in 
central California. The data needed to calculate a fire control 
solution for the interceptor was provided by the operational system and 
the operational command and control, battle management and 
communications system was employed by the warfighting commanders. 
Overall, this single test included numerous components separated by 
thousands of miles and managed by four executing organizations within 
the MDA.
    As missile defense capabilities expand worldwide, international 
cooperation with allies and friends is dramatically increasing. 
Assuming we obtain agreements with Poland and the Czech Republic and 
obtain congressional approval to proceed, MDA intends to begin site 
construction for additional long-range interceptors and a fixed-site 
radar in Europe to defend allies and deployed forces in Europe and 
expand the U.S. Homeland defense against limited Iranian long-range 
threats. Also, we have undertaken substantive cooperative efforts with 
European, Middle Eastern, and Asian nations. With the purchase of Aegis 
BMD and Patriot Advanced Capability-3 assets, and with our fielding of 
a transportable X-band radar at Shariki, Japan, is in the process of 
fielding a multilayered system interoperable with the U.S. system. 
Further, with MDA's support, the Department of Defense participated 
with Israel to develop an Israeli missile defense architecture that can 
meet threats expected in the next decade. We also held meetings with 
senior Russian officials and technical experts to discuss both threat 
perceptions and missile defense cooperation, including the potential 
for partnering with Russia in a joint regional architecture.
    Mr. Chairman, one last point before I continue. In February the 
Department of Defense called on our country's missile defenses to 
destroy a large tank of toxic fuel onboard an out-of-control U.S. 
satellite about to reenter the Earth's atmosphere. The uncertainty of 
when and where the satellite would reenter, and the near certainty that 
the fuel tank would survive reentry and possibly break up on Earth, 
drove the urgency of this mission. Using an extensively modified SM-3 
interceptor and a modified Aegis Weapon System onboard the U.S.S. Lake 
Erie, the Navy successfully destroyed the tank. The Department 
undertook this operation, carefully choosing an intercept altitude that 
would not add to the debris currently in orbit, to protect against the 
possible risk to life that a natural reentry of the satellite could 
have posed. After engagement, the toxic hydrazine dissipated in space, 
and, by now, most of the debris from the satellite body has burned up 
in the Earth's atmosphere.
    This was a very successful joint mission involving the Navy, U.S. 
Strategic Command, the MDA, the National Aeronautics and Space 
Administration, the National Reconnaissance Office, and other national 
security offices. MDA engineers worked closely with the Navy to modify 
the interceptor and the Aegis weapon system for this one-time 
engagement. This was a case where the missile defense system was 
unexpectedly pushed into service and performed exceptionally well. 
While this stands as an example of what the Nation received for its 
investment in missile defense, I want to be clear that it does not 
represent an operational anti-satellite capability. The time and level 
of technical expertise it took to plan and orchestrate this mission, 
the split-second fragility of the once-per-day shot opportunities, and 
the relatively low altitude of the satellite's decaying orbit did not 
approach the responsive and robust capability that would be needed to 
attack enemy space assets in wartime.
                             threat update
    To lay the foundation for our budget request, let me review why 
missile defense is so critically needed. There remains intense interest 
in several foreign countries to develop ballistic missile capabilities. 
In fact, there were over 120 foreign ballistic missile launches in 
2007, significantly exceeding what we observed in previous years. This 
comes on the heels of a very active 2006, during which time both North 
Korea and Iran demonstrated an ability to orchestrate campaigns 
involving multiple and simultaneous launches using missiles of 
different ranges. Currently, North Korea has hundreds of deployable 
short- and medium-range ballistic missiles and is developing a new 
intermediate-range ballistic missile and a new short-range, solid-
propellant ballistic missile, which it test-launched in June 2007. Iran 
has the largest force of ballistic missiles in the Middle East (several 
hundred short- and medium-range ballistic missiles), and its highly 
publicized missile exercise training has enabled Iranian ballistic 
missile forces to hone wartime skills and new tactics.
    North Korea's ballistic missile development and export activities 
remain especially troubling. Pyongyang continues to press forward with 
the development of a nuclear-capable ICBM. While the firing of the 
Taepo Dong 2 in July 2006, launched together with six shorter-range 
ballistic missiles, failed shortly after launch, North Korean engineers 
probably learned enough to make modifications, not only to its long-
range ballistic missiles, but also to its shorter-range systems. North 
Korea's advances in missile system development, particularly its 
development of new, solid fuel intermediate-range and short-range 
ballistic missiles, could allow it to deploy a more accurate, mobile, 
and responsive force. North Korea's nuclear weapons program makes these 
advances even more troubling to our allies and the commanders of our 
forces in that region.\1\
---------------------------------------------------------------------------
    \1\ Oral Statement by the Director of the Defense Intelligence 
Agency, Lieutenant General Michael D. Maples to the Senate Select 
Committee on Intelligence Annual Threat Assessment Hearing, 5 Feb 2008 
http://www.dia.mil/publicaffairs/Testimonies/Statement29.pdf; Current 
and Projected National Security Threats to the United States, 
Lieutenant General Michael D. Maples, U.S. Army Director, Defense 
Intelligence Agency, Statement for the Record, Senate Armed Services 
Committee, 27 February 2007 http://www.dia.mil/publicaffairs/
Testimonies/statement28.html.
---------------------------------------------------------------------------
    In addition to its uranium enrichment activity, Iran continues to 
pursue newer and longer-range missile systems and advanced warhead 
designs. Iran is developing an extended-range version of the Shahab-3 
that could strike our allies and friends in the Middle East and Europe 
as well as our deployed forces. It is developing a new Ashura medium-
range ballistic missile capable of reaching Israel and U.S. bases in 
Eastern Europe.\2\ Iranian public statements also indicate that its 
solid-propellant technology is maturing; with its significantly faster 
launch sequence, this new missile is an improvement over the liquid-
fuel Shahab-3.\3\ Iran has reportedly bought a new intermediate-range 
ballistic missile (IRBM) under development by North Korea; \4\ this 
underscores the urgent need to work with our allies in the North 
Atlantic Treaty Organization (NATO) to field and integrate long-range 
missile defenses in Europe. Moreover, Iran's development of a space 
launch vehicle using technologies and designs from its ballistic 
missiles means Iran could have an ICBM capable of reaching the United 
States by 2015.\5\
---------------------------------------------------------------------------
    \2\ Statement of Lieutenant General Michael D. Maples, 5 February 
2008.
    \3\ Acquisition of Technology Relating to Weapons of Mass 
Destruction and Advanced Conventional Munitions, 1 January to 31 
December 2005, Central Intelligence Agency, http://dni.gov/reports/CDA 
percent2011-14-2006.pdf .
    \4\ Statement of Lieutenant General Michael D. Maples, 5 February 
2008.
    \5\ Current and Projected National Security Threats to the United 
States, Vice Admiral Lowell E. Jacoby, U.S. Navy Director, Defense 
Intelligence Agency Statement For the Record Senate Armed Services 
Committee, 17 March 2005 http://www.dia.mil/publicaffairs/Testimonies/
statement17.html
---------------------------------------------------------------------------
    Syria is working to improve its ballistic missile capabilities and 
production infrastructure. Today Syria is capable of striking targets 
in Israel and Turkey, our southern NATO partner, using rockets and 
ballistic missiles. Syria can produce longer-range Scud variant 
missiles using considerable foreign assistance from countries such as 
North Korea and Iran.\6\ So our vigilance must extend well out into the 
future, when the threats we face today have grown and new threats may 
have emerged.
---------------------------------------------------------------------------
    \6\ Acquisition of Technology Relating to Weapons of Mass 
Destruction and Advanced Conventional Munitions, 1 January to 31 
December 2005, Central Intelligence Agency.
---------------------------------------------------------------------------
                 new missile defense program structure
    We have established a new block structure to organize our program 
of work and present our budget. The Agency has made this change to 
address concerns about transparency, accountability, and oversight and 
to better communicate to Congress and other key stakeholders. The new 
approach has several key tenets:

        <bullet> Blocks will be based on fielded missile defense 
        capabilities that address particular threats and represent a 
        discrete program of work--not on biennial time periods.
        <bullet> When MDA believes a firm commitment can be made to 
        Congress, the Agency will establish schedule, budget, and 
        performance baselines for a block. Block schedule, budget, and 
        performance variances will be reported.
        <bullet> Once baselines are defined, work cannot be moved from 
        one block to another.

    Based on the above tenets, MDA has currently defined five blocks 
(see figure 1). Blocks 1.0, 3.0, and 4.0 deliver capabilities for long-
range defenses, while Blocks 2.0 and 5.0 deliver capabilities to 
address the short- and medium/intermediate-range threats.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Future blocks (Block 6.0, etc.) will be added when significant new 
capabilities are expected to be fielded based on technological 
maturity, affordability, and need. For example, a new Block 6.0 might 
include enhanced defense of the United States against complex 
countermeasures, drawing on volume kill capabilities from the multiple 
kill vehicle (MKV) program, improved discrimination capabilities on our 
integrated sensor, command and fire control network as well as upgraded 
hardware and software on our weapon systems.
    MDA's budget is organized through the period of the Future Years 
Defense Program based on the new block structure. Also, program funding 
that does not fit into Blocks 1.0 through 5.0 is assigned to four 
general categories:

        <bullet> Capability Development--technologies such as the 
        Airborne Laser (ABL), MKV, Kinetic Energy Interceptor (KEI), 
        Far-Term Sea Based Terminal, Project Hercules, and the Space 
        Tracking and Surveillance System (STSS), which address future 
        challenges and uncertainties
        <bullet> Sustainment--operations and support of weapon systems, 
        sensors, and command and fire control components
        <bullet> Mission Area Investment--activities that support 
        multiple efforts and cannot be reasonably assigned to a 
        specific block or capability development program (e.g., 
        intelligence and security; modeling and simulation; systems 
        engineering and testing cores; safety, and mission assurance)
        <bullet> MDA Operations--activities that support the Agency, 
        such as Management Headquarters and Base Realignment and 
        Closure (BRAC)
          highlights of budget submission for fiscal year 2009
    Our priorities in the fiscal year 2009 budget submission include 
near-term development, fielding, integration, and sustainment of Blocks 
1.0 through 5.0; increasingly robust testing; and a knowledge-based 
Capability Development program.
Block 1.0
    We are nearing completion of the work in Block 1.0. We are 
requesting $59 million for fiscal year 2009, mostly to conduct 
additional system ground and flight tests to support a final Block 1.0 
capability declaration.
    This past year we saw an unprecedented pace of fielding of an 
integrated missile defense capability, much of it related to Block 1.0. 
In 2007 we emplaced 10 additional GBIs, for a total of 24 interceptors 
in missile fields at Fort Greely, AK, and Vandenberg Air Force Base, 
CA. In 2008 we plan to increase interceptor inventories up to a total 
of 30 at the 2 sites. By the end of 2008, we will complete work 
installing the Long-Range Surveillance and Track (LRS&T) capability on 
18 Aegis BMD ships. These ships will contribute to long-range defense 
by passing early detection, cueing, and tracking data across 
communications lines into BMDS communication and battle manager nodes 
located at Fort Greely and in Colorado Springs.
    This past year we transitioned the transportable forward-based X-
band radar at Shariki Air Base, Japan, from the interim site to a 
permanent location. This radar provides precise early detection and 
tracking to increase the probability we will destroy any lethal target 
launched by North Korea. The SBX completed crew training and testing 
off the coast of Hawaii and transited to the North Pacific to conduct a 
cold weather shakedown off Adak, AK, where it will be homeported in 
2009. The SBX participated in system flight tests this past year, 
including the September 28 long-range intercept test and the December 
17 engagement of a medium-range separating target at sea by our ally, 
Japan. This summer the radar will again participate in a long-range 
intercept test.
    In 2007 we completed the fielding of Command, Control, Battle 
Management, and Communications (C2BMC) infrastructure to improve our 
ability to operate with Japan and receive direct feed from the Space-
based Infrared System. We moved communications equipment and shelters 
to support the forward based X-band radar at Shariki and installed a 
second server suite at U.S. Pacific Command. We also began fielding 
enhanced C2BMC displays and improvements to our communications 
capabilities. The Parallel Staging Network we installed at U.S. 
Strategic, Northern, and Pacific Commands as part of the Concurrent 
Test, Training, and Operations (CTTO) capability, will be completed 
this year. Without impeding the operational readiness of the system, 
CTTO allows the warfighter to conduct training and the MDA to continue 
with spiral upgrades, testing, and development.
    By 2009 we plan to install additional planning and situational 
awareness capabilities to facilitate executive decisionmaking in the 
European Command. C2BMC capabilities also provide our senior government 
leadership situational awareness of hostile ballistic missile 
activities and updates on the performance of the BMDS.
Block 2.0
    Since 2002 we have expanded and improved terminal and midcourse 
defenses to defeat short- and medium-range threats from land and sea. 
We are requesting about $1.3 billion for fiscal year 2009 for Block 2.0 
fielding, development, and integration. This block represents the 
foundation of the capabilities required to protect forces we deploy 
abroad and our allies and friends, initially in a single region or 
theater of combat.
    We began fielding SM-3 interceptors in 2004. Block 2.0 comprises 71 
SM-3 Block I and IA interceptors (we will have 38 in inventory by the 
end of 2008). To date, we have converted 12 Aegis BMD LRS&T ships to 
engagement-capable ships. By year's end, we will have 18 Aegis BMD 
ships--15 destroyers and 3 cruisers--all of which will have 
surveillance and track as well as engagement capabilities. For the past 
3 years, the Navy and MDA have collaborated on plans for a Sea-Based 
Terminal defensive layer. We are upgrading the Aegis BMD weapon system, 
and the Navy is upgrading the SM-2 Block IV missile, the goal being to 
deploy up to 100 interceptors to provide a near-term terminal 
engagement capability on 18 Aegis BMD ships beginning in 2009.
    We are working closely with the Army to begin developing and 
fielding by 2009 two THAAD fire units, with the plan to deliver them by 
2010 and 2011. THAAD is uniquely designed to intercept targets both 
inside and outside the Earth's atmosphere. Consisting of 48 
interceptors and the associated radars and C2BMC, THAAD will provide 
transportable terminal protection from short- to medium-range ballistic 
missiles for our troops and our allies.
Block 3.0
    We are requesting about $1.7 billion for fiscal year 2009 to expand 
the defense of the United States to include limited Iranian long-range 
threats. Block 3.0 builds on the foundation established by Block 1.0. 
Block 3.0 provides 14 additional GBIs above what we plan to deploy by 
2008, along with 2 key radars needed for protection of the United 
States--the upgraded early warning radars at Fylingdales in the United 
Kingdom and at Thule in Greenland.
    This past year we completed operational testing of the Royal Air 
Force Fylingdales radar and made the radar available to the warfighter 
for emergency situations. In 2007 we began upgrades to the Thule radar 
and will continue to integrate it into the system by 2009. Together 
with the early warning radars in California, Alaska, and the United 
Kingdom, the Thule radar will ensure coverage of the United States 
against threats from the Middle East. In the Pacific theater, we will 
continue to enhance additional forward-based X-band radar capabilities 
in Japan and at other operating locations to meet warfighter needs.
    Block 3.0 also provides capabilities to defeat more sophisticated 
midcourse countermeasures. We are pursuing two parallel and 
complimentary approaches to counter complex countermeasures: first, 
more sophisticated sensors and algorithms to discriminate the threat 
reentry vehicle in the presence of countermeasures; and second, a 
multiple kill capability to intercept the objects identified by the 
discrimination systems as potential threat reentry vehicles. Block 3.0 
will focus on the first of these approaches. It includes upgrades to 
the GBIs, sensors, and the C2BMC system. The full implementation of 
this approach will be conducted in phases, with the first phase 
referred to as ``Near-Term Discrimination'' and the second phase as 
``Improved Discrimination and System Track.''
Block 4.0
    We are requesting about $720 million for fiscal year 2009 for Block 
4.0 fielding, development, and integration. Block 4.0 fields sensors, 
interceptors, and the C2BMC infrastructure needed to improve protection 
of the United States and, for the first time, extend coverage to all 
European NATO allies vulnerable to long-range ballistic missile attack 
from Iran. This block focuses on deployment of the midcourse X-band 
radar, currently located at the Kwajalein test site, to the Czech 
Republic and the establishment of an interceptor field in Poland, 
pending agreements with both governments. By devaluing Iran's longer-
range missile force, European missile defenses could help dissuade the 
Iranian government from further investing in ballistic missiles and 
deter it from using those weapons in a conflict. We believe that the 
long-range defense assets we are planning to deploy to Central Europe 
offer the most effective capability for defeating this threat.
    The European Midcourse Radar would complement sensor assets 
deployed in the United Kingdom and Greenland and provide critical 
midcourse tracking data on threats launched out of the Middle East. The 
radar also would operate synergistically with the planned forward-based 
transportable X-band radar, jointly providing early threat detection 
and discrimination of the reentry vehicles.
    An European Interceptor Site will consist of up to 10 interceptors, 
the two-stage configuration of our flight-proven three-stage GBI. A 
two-stage interceptor has less burn time than the three-stage version, 
which allows it to operate within the shorter engagement timelines 
expected. Nearly all of the components used in the two-stage 
interceptor are identical to those already tested and fielded in the 
three-stage interceptor, which means modifications required to design, 
develop, and produce a two-stage variant are minimal. Nor are such 
modifications unprecedented. In fact, the first 10 Ground-based 
Midcourse Defense integrated flight tests, conducted between January 
1997 and December 2002, successfully utilized a two-stage variant of 
the three-stage Minuteman missile. As we do with all system elements 
and components, we have planned a rigorous qualification, integration, 
ground and flight testing program for the two-stage interceptor.
    Several countries in southern Europe do not face threats from 
Iranian long-range missiles. Yet these same countries are vulnerable to 
the shorter-range ballistic missiles currently fielded by Iran and 
Syria. Mobile system sensors for Aegis BMD, THAAD, and Patriot are 
designed to be augmented by other sensors, like the European Midcourse 
Radar, and their interceptors are designed to engage slower short- to 
medium-range ballistic missiles systems. Together with other NATO 
missile defense assets, these missile defense forces will protect 
European countries vulnerable to short- and medium-range ballistic 
missiles when integrated into the NATO command and control structure.
Block 5.0
    We are requesting $835 million for Block 5.0 for fiscal year 2009. 
This block builds on Block 2.0 to expand the defense of allies and 
deployed U.S. forces from short- to intermediate-range ballistic 
missile threats in two theaters. Block 5.0 will increase the number of 
SM-3 and THAAD interceptors and improve the performance of the Aegis 
BMD Weapons System and the SM-3 interceptor.
    The SM-3 Block IB interceptor, a critical Block 5.0 development 
effort, will have major modifications to include a much improved seeker 
and a Throttleable Divert and Attitude Control System (TDACS). When 
combined with processing upgrades to the Aegis BMD Weapons System, the 
more capable Block IB interceptor will more readily distinguish between 
threat reentry vehicles and countermeasures. The Block IB expands the 
battle space and enables more effective and reliable engagements of 
more diverse and longer-range ballistic missiles. This year we look 
forward to completing design and testing for the two-color seeker and 
TDACS and commencing the element integration of the SM-3 Block IB 
missile in 2009.
    Block 5.0 includes delivery of 23 SM-3 Block IA interceptors, 53 
SM-3 Block IB interceptors, 2 additional THAAD fire units with an 
additional 48 interceptors, 1 X-band transportable radar for forward 
deployment, and the associated C2BMC support.
Development/Operational Testing
    Testing under operationally realistic conditions is an important 
part of maturing the BMDS in all five blocks. We have been fielding 
test assets in operational configurations in order to conduct 
increasingly complex and end-to-end tests of the system. Our testing to 
date has given us confidence in the BMDS's basic design, hit-to-kill 
effectiveness, and operational capability. While the system is 
developmental, it is available today to our leadership to meet real 
world threats.
    Our flight tests are increasing in operational realism, limited 
only by environmental and safety concerns. Each system test builds on 
knowledge gained from previous tests and adds increasingly challenging 
objectives. The Director, Operational Test and Evaluation, the 
Operational Test Agencies, and the warfighting community are very 
active in all phases of test planning, execution, and post-test 
analysis. Using criteria established by the warfighter and the Agency's 
system engineers, all ground and flight tests provide data that we and 
the operational test community use to anchor our models and simulations 
and verify system functionality and operational effectiveness.
    In 2007 we conducted many system ground and flight tests. Our 
flight test program for Ground-Based Midcourse Defense, Aegis BMD, and 
THAAD confirmed technological progress for short-, medium-, and long-
range defensive capabilities. Last year we executed successfully a 
long-range ground-based intercept, six SM-3 intercepts of separating 
and unitary targets, and three THAAD intercepts of unitary targets. As 
of today, we have demonstrated hit-to-kill in 34 of 42 attempts since 
2001. Last year alone we successfully intercepted the targets in 10 of 
10 attempts.
    After a legacy target failure in May 2007, we successfully 
completed Ground-based Midcourse Defense Flight Test-03a on September 
28, 2007. In this test, an operationally configured GBI launched from 
Vandenberg Air Force Base engaged a threat representative intermediate-
range target fired from Kodiak Island, AK, using sensor information 
from the operational upgraded early warning radar at Beale Air Force 
Base, CA. Trained crews manning fire control consoles reacted within a 
specified window under limited-notice launch conditions. This test 
leveraged fielded hardware and fire control software as well as 
operational communications, tracking, and reporting paths. The 
Exoatmospheric Kill Vehicle successfully collided with the target near 
the predicted point of impact, destroying it. This was our most 
operationally realistic, end-to-end test of the long-range defenses to 
date. Though they were not official participants of the test, the SBX 
and an Aegis BMD ship using its onboard SPY-1 radar also tracked the 
target and gathered data for post-test analysis.
    We also had enormous success with our integrated ground tests, 
which involve the operational long-range defense elements and employ 
the actual operational hardware. We test the system end-to-end by 
simulating engagements. These ground tests, conducted in a lab 
environment and in the field, involve the wider missile defense system 
community, to include the National Military Command Center, the 
Operational Test Agencies, and U.S. Northern Command. They teach us a 
great deal and give us confidence to move forward with our intercept 
tests. The most comprehensive to date, these tests demonstrated the 
ability of the system to execute multiple, simultaneous engagements 
using operational networks and communications and fielded system 
elements in different combinations. The warfighter also was able to 
evaluate tactics, techniques, and procedures. In 2008 and 2009 we will 
continue our integrated ground test campaigns.
    We completed five sea-based intercept tests in 2007. In all Aegis 
BMD tests, we do not notify the ship's crew of the target launch time, 
forcing crew members to react to a dynamic situation. This past year we 
successfully used Aegis BMD cruisers and destroyers to engage threat-
representative short-range ballistic missiles and medium-range 
separating targets. We conducted a test with the U.S. Navy involving 
simultaneous engagements of a short-range ballistic missile and a 
hostile air target, demonstrating an ability to engage a ballistic 
missile threat as the ship conducts self-defense operations. In 
November we simulated a raid attack on an Aegis BMD cruiser using two 
short-range ballistic missiles. The cruiser destroyed both targets.
    The December 2007 test off the coast of Kauai in Hawaii marked the 
first time an allied Navy ship successfully intercepted a ballistic 
missile target with the Aegis BMD midcourse engagement capability. The 
SM-3 successfully intercepted the medium-range separating target in 
space, verifying the engagement capability of the upgraded Japanese 
destroyer. It also marked a major milestone in the growing missile 
defense cooperative relationship between Japan and the United States.
    THAAD completed three intercept flight tests against threat-
representative short-range unitary targets in the atmosphere and in 
space. In addition, the THAAD radar and fire control participated in 
two Aegis BMD flight tests to demonstrate THAAD-Aegis interoperability. 
These initial THAAD intercept tests at the Pacific Missile Range 
Facility in Hawaii demonstrated integrated operation of the system, 
including radar, launcher, fire control equipment and procedures, and 
the ability of the interceptor to detect, track, and destroy the 
target. Soldiers of the 6th Air Defense Artillery Brigade stationed at 
Fort Bliss, TX, operated all THAAD equipment during the tests, which 
contributed to operational realism.
    In 2007 the MDA conducted 25 major tests and successfully met our 
primary test objectives in 18 of 20 flight tests. In doing so, we used 
the test ranges available to us today to maximum capacity. These totals 
include three Patriot tests, two Arrow tests, and the U.S.-Japan 
cooperative test. Our test plans for 2008 and 2009 will continue to use 
more complex and realistic scenarios for system-level flight tests and 
demonstrate interceptor capabilities against more stressing targets.
    In 2008 we are planning two system-level long-range intercept 
tests, and two more in 2009, all of which will push the edge of the 
envelope in testing complexity. The tests in 2008 will involve targets 
launched from Kodiak, AK, and missile defense assets separated by 
thousands of miles. We are expanding the number of sensors available to 
cue the system and engage targets. In our next long-range test, we will 
involve the early warning radar at Beale and the forward-based X-band 
radar, temporarily sited at Juneau, AK. This test also will demonstrate 
integration of the SBX into the sensor support system. The 
intermediate-range target will have countermeasures. Later in 2008 
Ground-based Midcourse Defense will attempt to defeat a longer-range 
threat-representative target and demonstrate the ability of the SBX to 
send tracking and discrimination data through Ground-based Midcourse 
Defense Fire Control and Communications to the Exoatmospheric Kill 
Vehicle prior to engagement.
    We plan three Aegis BMD intercept tests in 2008 and 2009. In 2008 
we will demonstrate an intercept of a unitary, short-range ballistic 
missile target in the terminal phase of flight using a SM-2 Block IV 
interceptor. Later this year we will conduct the second Japanese 
intercept test against a medium-range target warhead. In 2009 we will 
conduct an intercept flight test against a medium-range target to 
demonstrate an expanded battle space.
    The first test of THAAD this year will involve engagement of a 
separating target low in the atmosphere. In the fall, we plan to 
demonstrate THAAD's salvo-launch capability against a separating 
target. In late spring 2009 THAAD will engage a complex separating 
target in space. In 2009 we will increase test complexity by 
demonstrating THAAD's ability to destroy two separating targets in the 
atmosphere.
    In addition to our system flight- and ground-test campaigns, the 
MDA will continue to participate in Patriot combined developmental/
operational tests as well as Air Force Glory Trip flight tests.
Knowledge-Based Capability Development
    The proliferation of ballistic missile technologies and systems 
means we will face unexpected and more challenging threats in the 
future. We are requesting about $2.5 billion in fiscal year 2009 for 
capability development work to deliver advanced capabilities that will 
help ensure America's BMDS remains effective and reliable and a major 
element in our national defense strategy well into this century.
    Destroying ballistic missiles in boost phase will deprive the 
adversary of opportunities to deploy in midcourse multiple reentry 
vehicles, submunitions, and countermeasures, thereby reducing the 
number of missiles and reentry vehicles having to be countered by our 
midcourse and terminal defenses. Success in the boost phase will 
increase the probability we will be successful in defeating an attack 
in the other defensive phases. As part of this layered defense 
strategy, we are developing the ABL and KEIs.
    ABL is being developed to destroy ballistic missiles of all ranges. 
In 2007 the ABL program met all of our knowledge point expectations and 
cleared the way for the installation of the high-power laser on the 
aircraft by the end of 2008. We completed in-flight atmospheric 
compensation demonstrations and conducted low power systems integration 
testing, successfully demonstrating ABL's ability to detect, track, 
target, and engage non-cooperative airborne targets. Next we will 
integrate the high power systems and gear up for a series of flight 
tests leading to a full demonstration and lethal shoot-down in 2009 of 
a threat-representative boosting target.
    The KEI program will provide mobile capabilities to intercept 
ballistic missiles in the boost, ascent, or midcourse phases of flight. 
This multi-platform, multi-payload, rapidly deployable capability could 
not only extend the reach of the missile defense system, but it also 
will add another defense layer. In 2007 we completed hypersonic wind 
tunnel testing of the booster and successfully conducted static firings 
of the first- and second-stage motors. This year we are focusing on 
preparations for the 2009 flight test of the KEI booster, which, if 
successful, will demonstrate we are ready to proceed to intercept 
testing and integration into the system.
    We are pursuing parallel and complementary efforts to counter 
complex countermeasures. Project Hercules is developing a series of 
algorithms to exploit physical phenomenology associated with threat 
reentry vehicles to counter on-the-horizon advanced threats and 
counter-countermeasures for employment in system sensors, kill 
vehicles, and C2BMC. The algorithms will improve sensor and weapon 
element tracking and discrimination via data integration and multi-
sensor fusion data integration.
    In the years ahead we expect our adversaries to have midcourse 
countermeasures. The MKV program is developing a payload for 
integration on midcourse interceptors to address complex 
countermeasures by identifying and destroying all lethal objects in a 
cluster using a single interceptor. This past year we delivered the 
initial models and simulation framework for testing sophisticated 
battle management algorithms and developed the liquid fuel divert and 
attitude control system.
    Our strategy is to manage all future kill vehicle development under 
a single program office and acquire MKV payloads using a parallel path 
approach with two payload providers pursuing different technologies and 
designs. This strategy will allow us to better leverage industry 
experience and talent. The MKV approach leverages commonality and 
modularity of kill vehicle components on various land- and sea-based 
interceptors, to include KEIs, GBIs, and a Block IIB version of the SM-
3. The goal is to demonstrate a multiple kill capability in 2011 
through a series of component development and test events.
    We are undertaking significant upgrades to the BMD Signal Processor 
in the Aegis BMD weapons system. Through our cooperative program with 
Japan, we are upgrading the SM-3 Block I interceptor with the SM-3 
Block II to engage longer-range ballistic missiles. This faster 
interceptor will feature an advanced kinetic warhead with increased 
seeker sensitivity and divert capability. We also will implement 
upgrades to the Aegis BMD Weapons System. The first flight test is 
scheduled for 2012. The Far-Term Sea-Based Terminal program will expand 
upon the near-term capability provided by the SM-2 Block IV blast-
fragmentation interceptor by engaging longer-range threats. This year 
and next we will define weapons system requirements as we work toward 
initial fielding as early as 2015.
    We are developing the STSS to enable worldwide acquisition and 
tracking of threat missiles. Sensors on STSS satellites will provide 
fire control data for engagements of threat reentry vehicles and, when 
combined with radar data, will provide improved threat object 
discrimination. In 2008 we will deliver two demonstration satellites 
scheduled for launch later in the year and a common ground station. We 
plan to use both targets of opportunity and dedicated targets to 
demonstrate STSS capabilities from lift-off through midcourse to 
reentry. The knowledge gained from these demonstrations will guide our 
decisions on the development of a follow-on space sensor constellation.
    I believe the performance of the BMDS could be greatly enhanced 
someday by an integrated, space-based interceptor layer. Space systems 
could provide on-demand, near global access to ballistic missile 
threats, minimizing limitations imposed by geography, absence of 
strategic warning, and the politics of international basing rights. I 
would like to begin concept analysis and preparation for small-scale 
experiments. These experiments would provide real data to answer a 
number of technical questions and help the leadership make a more 
informed decision about adding this capability.
    We have had to restructure some development activities and cancel 
others as a result of reductions in our fiscal year 2008 budget. 
Reductions in funding for the European Site Initiative, STSS, ABL, and 
MKV programs will result in some schedule delays. Cuts in the system 
engineering work, including modeling and simulations, undermine our 
ability to develop and field an integrated system, which requires a 
collaborative effort by MDA and our industry partners that cuts across 
many disciplines and specialties. The ability to do this cross-cutting 
engineering work will become increasingly important as we move, for 
example, towards developing common kill vehicles and common 
interceptors.
    I remain deeply concerned about the future threat environment, and 
consequently believe each one of these efforts is critical to 
maintaining our defenses in the uncertain years ahead.
                            setbacks in 2007
    With our unprecedented success in 2007 came several setbacks. We 
experienced a target failure in our first attempt for FTG-03 as 
mentioned earlier. While this was only the second complete target 
failure in 42 flight tests, it was a signal that we needed to revamp 
our target program, which is underway. We are at a critical juncture in 
the target program transitioning from the legacy booster motors to the 
more modern Flexible Target Family, and I intend to make this a high 
priority in 2008.
    In addition, we are investigating a nozzle failure that occurred in 
the second static firing of the KEI second stage. While investigation 
is underway, we plan to execute the first booster flight in 2009.
    We also experienced some cost growth in the THAAD, Aegis, and GMD 
programs which is being addressed within the overall missile defense 
portfolio. The THAAD cost growth was due to test delays, additional 
insensitive munitions testing, and its deployment to the Juniper Cobra 
09 exercise in Israel. Aegis cost growth was generated from extended 
work on the SM-3 Third Stage Rocket Motor and the Divert and Attitude 
Control System. This work also delays the delivery of the Block 1B 
interceptors by 1 year. GMD cost growth was due to the modifications 
required for the two-stage version, the additional missile field in 
Alaska, and repair of the water damage silos.
                retaining integrated decision authority
    I would now like to turn to a topic very near and dear to me. I 
urge the committee to continue its support of the integrated decision 
authority that the MDA Director has been given for the missile defense 
portfolio. Working with the U.S. Strategic Command Commander, I have 
the ability to propose the evolution of the missile defense system 
based on all relevant requirements, acquisition, and budget 
information. This authority was necessary in light of the President's 
2002 directive to begin deployment in 2004 of a set of missile defense 
capabilities that would serve as a starting point for improved and 
expanded missile defense capabilities later.
    I present to you two telling quotes from the 2006 Defense 
Acquisition Performance Assessment (DAPA) report chartered by the 
Department.

          ``[T]he budget, acquisition, and requirements processes are 
        not connected organizationally at any level below the Deputy 
        Secretary of Defense. This induces instability and erodes 
        accountability. Segregation of requirements, budget and 
        acquisition processes create barriers to efficient program 
        execution.''
          ``Acquisition programs need to deliver timely products. Our 
        assessment is that the culture of the Department is to strive 
        initially for the 100 percent solution in the first article 
        delivered to the field. Further, the ``Conspiracy of Hope'' 
        causes the Department to consistently underestimate what it 
        would cost to get the 100 percent solution. Therefore, products 
        take tens of years to deliver and cost far more than originally 
        estimated.''

    Well, the DAPA report could have cited the one place in the Defense 
Department below the Deputy Secretary where requirements, acquisition, 
and budget authority comes together--the MDA. This authority has given 
me the trade space to make a balanced recommendation to the Deputy 
Secretary that has paid dividends for defense of our Homeland, deployed 
forces, allies, and friends.
    MDA has fielded an initial capability consisting of 24 GBIs; 17 
Aegis BMD warships capable of long-range surveillance and tracking, of 
which 12 are also capable of missile intercepts; 23 Standard Missile-3 
interceptors for Aegis BMD warships; 18 SM-2 Block IV interceptors; an 
upgraded Cobra Dane radar; 2 upgraded early warning radars; a 
transportable X-band radar; a command and control, battle management, 
and communications capability, and a SBX. None of this capability 
existed as recently as June 2004. This rapid fielding would never have 
been possible unless I had the integrated decision authority over 
requirements, acquisition, and budget. I think it is fair to say that 
this capability would have taken two to three times longer to field 
under standard Department practices--if not the ``tens of years'' cited 
by DAPA.
    Should this integrated decision authority be continued now that we 
have successfully met the President's injunction to quickly field an 
initial capability where no capability had previously existed? I would 
make four key points in favor of retaining this authority.
    First, the Director of MDA is in the best position to know the 
program's progress and challenges. This does not mean that I make 
decisions in a vacuum. We work closely with the Intelligence Community, 
the warfighter, and the Services on the threat, capability needs, and 
available resources. In addition to the external oversight from your 
committee and others in Congress and, of course, the Government 
Accountability Office, I also receive significant Department-level 
oversight from Under Secretary AT&L, the Office of the Secretary of 
Defense Comptroller, and the Missile Defense Executive Board. However, 
it does mean that I have a degree of control and trade space that is 
not available to the managers of other major defense acquisition 
programs.
    Second, because the ballistic missile threat is always evolving, we 
need to be as agile as possible in getting the latest capabilities to 
the warfighter. The integrated requirements, acquisition, and budget 
authority granted MDA's Director inevitably enables us to deliver a 
capability more quickly to meet the evolving missile threat.
    Third, while some see MDA's flexibilities as undeserved special 
treatment, others view MDA's integrated decision authority as, in 
effect, a ``test lab'' for the Under Secretary of Defense AT&L to 
examine alternative, creative approaches to acquiring joint 
capabilities.
    Fourth, ballistic missile defense is and always will be the 
quintessential joint program. No one Service could easily or naturally 
take responsibility for developing, testing, integrating, and fielding 
the BMDS. The trade space offered me as portfolio manager of the entire 
BMD program is considerably wider than it would be if MDA were wedded 
to one Service or merely an advocate within the Office of the Secretary 
or joint staff who is trying to negotiate with a myriad of individual 
program managers protecting their own turf.
    On a personal level, I take my stewardship responsibilities very 
seriously. I will not be in this position forever, and I know how 
vitally important it is to put my successor in the best position to 
give the warfighter the capabilities needed to negate the threats to 
our Homeland, deployed forces, allies, and friends. The integrated 
decision authority granted me as MDA Director does just that, and I 
urge your continued support.
                      organizational reengineering
    MDA's reengineering goal is to transform the organization into a 
single, integrated high-performance team capable of sustaining its 
development and test successes and maximizing its efficiency and 
effectiveness in acquiring, fielding, and supporting an integrated, 
operational BMDS. To accomplish this goal, I have established policies 
and defined responsibilities for providing qualified matrix support to 
the program directors/managers (PD/PM) responsible for delivering BMDS 
capabilities to the combatant commanders (COCOMs). Matrixing is an 
organizational concept that consolidates skills and resources under a 
functional manager who, in turn, allocates persons and resources among 
executing organizations needing these skills. Matrixed support includes 
such functions as engineering, contracts, business/financial 
management, cost estimating, acquisition management, logistics, test, 
safety quality and mission assurance, security, administrative 
services, information assurance, and international affairs. The matrix 
management process aims to strengthen PD/PM capabilities by assuring 
their accessibility to all expertise available to MDA; increasing 
accountability for quality of functional staff work; and allocating 
personnel resources according to the Agency's needs.
    MDA has established the following objectives to focus the 
reengineering efforts:

        <bullet> Implement a full matrix management construct to 
        strengthen functional responsibilities at both the BMDS and 
        element level of program execution;
        <bullet> Establish key new or restructured organizations and 
        centers to strengthen the implementation of an integrated 
        system;
        <bullet> Establish key knowledge centers to focus MDA resources 
        on and within critical mission technical areas; \7\
---------------------------------------------------------------------------
    \7\ Knowledge centers for Interceptors, C2BMC, and Sensors were 
established in January 2008. Centers for Space and Directed Energy will 
be established later in 2008.
---------------------------------------------------------------------------
        <bullet> Complete an organizational alignment assessment to 
        improve agency efficiency and effectiveness through elimination 
        of redundancy of functions and infrastructure, multiple layers 
        of management and noncritical functions, and a verification 
        that resources are aligned with MDA priorities; and
        <bullet> Relocate MDA offices from the National Capital Region 
        (NCR) to Huntsville and selected other locations to realize the 
        benefits of a centralized control/decentralized execution 
        strategy, facilitate leveraging all resources available in MDA 
        and propagate better cross-flow of expertise and information.
                      base realignment and closure
    The 2005 Defense BRAC Commission approved recommendations directing 
the realignment of several MDA directorates from the NCR to government 
facilities at Fort Belvoir, VA, and the Redstone Arsenal in Huntsville, 
AL. Specifically, a Headquarters Command Center for MDA will be located 
at Fort Belvoir, while most other MDA functions will be realigned to 
Redstone Arsenal. The transfer of government and contractor personnel 
from the NCR is already in progress; by the end of 2008, we will have 
transitioned some 1,100 personnel positions to the Arsenal. Also, 
construction will start in fiscal year 2008 on additional facilities to 
be opened in two phases in fiscal year 2010 and fiscal year 2011. 
Construction of the MDA Headquarters Command Center is also scheduled 
to begin in late fiscal year 2008, with occupancy in fiscal year 2010.
        missile defense agency engineering and support services
    Consistent with the Agency's reengineering, MDA has undertaken the 
task of improving how it procures contractor support services (CSS). 
The objectives of the change are to improve oversight, enable matrix 
management so the Agency can benefit more from cross-flow of 
information among different offices, enhance efficiency and 
transparency, and more accurately account for our cost of doing 
business. I have determined that the best path forward is to develop a 
new Agency-wide procurement; the designation for this procurement is 
Missile Defense Agency Engineering and Support Services (MiDAESS).
    We currently receive contractor support through a variety of 
different avenues, such as contracts, other government agencies, and 
General Services Administration orders. Over the next few years, the 
MiDAESS procurement will allow us to consolidate the CSS into a more 
efficient procurement, focused on the primary areas of technical, 
administrative, financial, and other support that our agency requires.
    Beginning in March 2007, we began discussions with our industry 
partners regarding MiDAESS. Throughout 2007, MDA has received industry 
feedback and continues to refine the details of how competition and 
contracting within MiDAESS will function. We plan to begin initial 
contract awards under MiDAESS in 2008.
                                closing
    Mr. Chairman and members of the subcommittee, in closing, I again 
want to thank you for your strong support of our program. Since 2002 we 
have achieved dramatic program efficiencies and effectiveness because 
we have been able to consolidate missile defense expertise and 
integrate all missile defense elements into a single, synergistic 
system. We have made tremendous progress deploying missile defenses to 
protect our Homeland, our troops deployed and our allies and friends. I 
also believe we have the right program in place to address more 
advanced threats we may face in the future.
    Our investment in missile defense is significant, but our 
expenditures would pale in comparison to the overwhelming price this 
Nation could pay from a single missile impacting America or one of our 
allies. We need your continued support to carry on the tough 
engineering and integration task of developing and enhancing worldwide 
ballistic missile defenses.
    This concludes my statement. I look forward to your questions.

 STATEMENT OF LTG KEVIN T. CAMPBELL, USA, COMMANDING GENERAL, 
      UNITED STATES ARMY SPACE AND MISSILE DEFENSE COMMAND

    [The prepared statement of General Campbell follows:]
            Prepared Statement by LTG Kevin T. Campbell, USA
                              introduction
    Chairman Nelson, Ranking Member Sessions, and members of the 
subcommittee, thank you for your ongoing support of our military and 
for the opportunity to appear again before this panel. As I shared last 
year, I do believe that this committee is a strong supporter of the 
Army and the missile defense community. This is especially important as 
we continue to field missile defense capabilities and to continue 
development of future capabilities for the Nation and our allies. Along 
with those testifying today, I am an advocate for a strong global 
missile defense capability.
    The committee is no doubt familiar with my duties and 
responsibilities as the Army's senior commander for space and missile 
defense as well as my position as the Commander of the Joint Functional 
Component Command for Integrated Missile Defense, a part of the U.S. 
Strategic Command (USSTRATCOM). In this role, I serve as the joint user 
representative working closely with the Missile Defense Agency (MDA), 
other Services, and combatant commanders to ensure that our national 
goals of developing, testing, and deploying an integrated missile 
defense system are met in an operationally sound configuration.
    Mr. Chairman, please rest assured that America's Army stands on 
point to defend our Nation against an intercontinental ballistic 
missile attack. Our soldiers continue to be trained and ready to 
operate the Ground-based Midcourse Defense (GMD) Element of the 
Ballistic Missile Defense System (BMDS) at Fort Greely, AK, Vandenburg 
Air Force Base, CA, and the 100th GMD Brigade's Missile Defense Element 
at Schriever Air Force Base, CO. These soldiers, as part of the joint 
team, continue to serve as our Nation's first line of defense against 
any launch of an intercontinental ballistic missile toward our shores. 
I am proud to represent them along with the other members of the Army 
and joint integrated missile defense community.
united states strategic command joint functional component command for 
  integrated missile defense: planning, integrating, and coordinating 
                            missile defense
    The Joint Functional Component Command for Integrated Missile 
Defense (JFCC-IMD), USSTRATCOM's global missile defense integrating 
element, has been operational for 3 years. The JFCC-IMD continues to be 
manned by very capable Army, Navy, Air Force, Marine Corps, and 
civilian personnel.
    USSTRATCOM, through the JFCC-IMD, continues to aggressively execute 
its mission to globally plan, integrate, and coordinate missile defense 
operations. Through a deliberate training and exercise program, the 
JFCC-IMD has improved our collective ability to defend this Nation. 
While the organization is still maturing, JFCC-IMD continues to lead 
the Department's transformation toward more robust integrated missile 
defense capabilities. The soldiers, sailors, airmen, marines, and 
civilians of this joint warfighting organization execute our mission to 
plan, integrate, and coordinate global missile defense operations and 
support by operationalizing new capabilities from MDA, developing 
global missile defense plans in collaboration with the geographical 
combatant commanders, and conducting cross-geographical combatant 
commander exercises to eliminate seams and gaps in order to maintain a 
strong defense against advancing threats. In summary, JFCC-IMD 
continues to build operational competence and warfighter confidence in 
the execution of our mission.
Continued Ballistic Missile Defense System Progress
    This past year has been another year of operational achievement for 
integrated missile defense. Since the last time I addressed this 
committee, the Global BMDS has gone from test bed operations to a 
system configured to support continuous defensive operations. Whether a 
test bed with a residual operational capability, or an operational 
system that supports research and development activities, it is 
understood that our efforts and decisions must be entirely focused 
along two lines--operational capability and spiral development of the 
BMDS. We balance both fielding of near-term and development of long-
term capabilities to meet the evolving threat to the Homeland. This 
balance cannot be achieved without comprehensive dialogue between MDA, 
the Services, and the warfighters--dialogue that is ongoing today and 
dialogue that must continue in the future.
    We are continuing to expand the current ballistic missile defense 
operational configuration. This past year, the early warning radar at 
Fylingdales Royal Air Force Base was upgraded to perform the missile 
defense mission. This radar is a key element of the BMDS for providing 
the initial limited defense capabilities to counter the emerging 
ballistic missile threat from Southwest Asia. The radar will also 
continue to perform its traditional role as an early warning radar. The 
addition of this radar marks the beginning of the integration of BMDS 
capabilities across five combatant commands to counter simultaneous 
ballistic missile threats from two ends of the globe. We expect the 
warfighting capability provided by such integration of platforms, 
doctrine, and personnel to continue to grow in the coming years to 
address emerging threats.
Continued Warfighter Contributions to BMDS Development
    As warfighters, we continue to participate in key BMDS tests to 
build confidence in the system's capabilities and provide input to 
future capabilities. For example, the 100th Missile Defense Brigade 
provided a trained and certified crew in support of a successful GMD 
flight test on September 28, 2007. Their support started with 
participation in pre-mission training conducted in both Huntsville, AL, 
and at their GMD Fire Control consoles at the Missile Defense Element 
at Schriever Air Force Base, CO. The crew provided critical expertise 
that enhanced system performance, assisting the engineers with 
validation of pre-mission parameters. These pre-mission events 
culminated with the conduct of the flight test, where the crew provided 
the Human-In-Control actions necessary for a successful launch and 
intercept. The brigade will also support the upcoming GMD flight test. 
For this flight test, the AN/TPY-2 Forward Based X-Band and Sea Based 
X-band radars will be integrated into the GMD system to validate their 
operational utility and to provide data for anchoring our modeling and 
simulation efforts.
    Since last year's testimony to this committee, we successfully 
intercepted ballistic missiles at low and high altitudes; in midcourse 
and terminal phases; and in endo- and exoatmospheric environments with 
our long-range ground-based interceptor, the Terminal High Altitude 
Area Defense (THAAD), and several Aegis Standard Missile-3s. We 
supported an international BMD partner with a successful exoatmospheric 
intercept from a Japanese Maritime Self Defense Force Destroyer. 
Conducting these system level flight and ground tests required the use 
of operational assets, the same assets that would be used to defend 
this Nation and our allies against a possible rogue state missile 
attack. JFCC-IMD worked closely with the combatant commanders and MDA 
to coordinate the availability of these assets to ensure sustained 
operational readiness during the conduct of the system level tests.
    The JFCC-IMD was able to balance the requirements of both 
operations and tests. This period of robust achievements underscored 
the warfighter's requirement to expedite development and deployment of 
a concurrent testing, training, and operations (CTTO) capability. We 
have made strides but we still have a ways to go. CTTO will permit 
developers and operators to maintain an operational capability of the 
BMDS while simultaneously developing, testing, or training on the 
system. Absent a mature CTTO capability, JFCC-IMD aggressively conducts 
an asset management process to ensure the highest level of operational 
readiness during the conduct of materiel development and tests.
Continued Advancements in System Capability
    JFCC-IMD, in partnership with MDA and the Services, has integrated 
additional missile defense sensors and shooters to enhance theater and 
strategic mission capabilities. We have institutionalized the 
Operational Readiness and Acceptance process to deliberately activate 
capabilities by baselining the known capabilities and limitations. 
Through this process, activation criteria, which are critical to 
establishing and maintaining capabilities, are clearly defined to 
ensure sustainable means are provided to the warfighter.
    We continue to refine our processes to ensure the warfighters' 
desired operational capabilities are considered by the materiel 
developer. Since I last appeared, the Warfighter Involvement Process 
(WIP) has matured significantly. Warfighter inputs and subsequent 
changes to the overall BMDS of systems started slowly but are steadily 
increasing in effectiveness. After 2 years of operator-generated input, 
we are now seeing changes incorporated in the BMDS. More significantly, 
capability requests are being reflected in USSTRATCOM's Prioritized 
Capability List submissions and in MDA's corresponding Achievable 
Capabilities List.
    A success story in the WIP is our partnership with MDA, the 
Services, and the combatant commanders in the expansion of the BMD 
capability into the European theater. In my role as the JFCC-IMD 
Commander, I have held discussions with the European Command to build 
stronger partnerships with our Allies should our Government conclude 
agreements for hosting a midcourse radar and interceptor site in 
Europe. If approved, the expansion of the BMDS into Europe will greatly 
increase the security of the United States as well as provide a measure 
of protection to our forward deployed forces and European allies that 
currently does not exist.
    Looking forward, we are engaged with the Department to balance the 
missile defense portfolio to ensure we are addressing both the threats 
of today and tomorrow. With more than 20 countries, several of which 
have an adversarial relationship with the United States, now possessing 
ballistic missile capability and technology, the threat to the United 
States and our allies is growing. The missile defense investment 
portfolio must address the warfighter needs for the near-term threats 
from these countries while developing new technologies to deter 
potential adversaries from their continued investment in ballistic 
missile technologies.
Taking Care of our Warfighters
    If we receive approval to proceed with a European capability, we 
need to ensure we provide quality facilities and services to our 
soldiers. If built, the European capability will most certainly be an 
enduring mission. The mission support infrastructure (barracks and 
morale and welfare facilities) is just as important to mission success 
as the hardware the soldiers will operate. We believe that the mission 
support facilities ``outside the wire'' are an integral part of the 
overall system. The investment in mission support infrastructure 
contributes immensely to the overall reliability of the system and the 
cost represents a very low percentage of the overall system 
construction and fielding cost.
    We should continue to work to improve the quality of life at our 
missile defense garrison at Fort Greely, AK. Soldiers in the 49th 
Missile Defense Battalion of the Alaska Army National Guard continue to 
defend the United States from ballistic missile attack from the 
remoteness of Fort Greely, AK. They continue to do so in an outstanding 
manner, without complaint, in an environment with infrastructure that 
does not meet current standards. While the Army is taking proactive 
steps to improve the quality of life at Fort Greely, the isolation of 
this remote location cannot be overstated. On the positive front, the 
Army recently awarded a contract to privatize the family housing at 
Fort Greely--soldiers and their families should start to realize 
significant housing improvements in the near future. Also, the Army is 
currently planning to replace an existing substandard fire station with 
one that will provide adequate coverage for Fort Greely's population 
and infrastructure. Challenges still remain as there is very limited 
support in the local community with respect to medical and dental care, 
special education needs, higher education opportunities, restaurant 
establishments, and other services that the vast majority of us take 
for granted. For example, the nearest medical specialist is over 2 
hours away. This is very problematic, especially when one considers the 
extreme weather during the winter months. Our soldiers and their 
families deserve more--we need to provide the adequate facilities and 
the services they need. The Army will continue to address these 
challenges to ensure better living conditions are realized for our 
soldiers and their families.
Army Infrastructure Contributions
    The Army also provides key test range assets for BMDS research and 
development. In addition to providing other vital Department 
capabilities, these unique facilities continue to serve as key BMDS 
enhancers for MDA. The United States Army Kwajalein Atoll/Reagan Test 
Site (USAKA/RTS) in the Republic of the Marshall Islands has been 
instrumental in the development and testing of the GMD system. USAKA/
RTS will continue to serve as a significant test bed for future BMDS 
technology development. Also, within the BMDS arena, the High Energy 
Laser Systems Test Facility on White Sands Missile Range, NM, is 
serving as a key lethality test bed for MDA's Airborne Laser Program. 
We ask for your continued support to ensure these vital testing ranges 
are postured to perform necessary BMDS testing.
   air and missile defense--an overview of the fiscal year 2009 army 
                           budget submission
    In addition to deploying the BMDS, MDA, the Services, and the 
combatant commanders continue to focus on improving theater air and 
missile defense capabilities. GMD and Theater Air and Missile Defense 
Systems are vital for the protection of our Homeland, deployed forces, 
friends, and allies. Air and missile defense is a key component in 
support of the Army's core competency of providing relevant and ready 
land power to combatant commanders.
    As the Secretary and Chief of Staff of the Army have previously 
testified, the Army is stretched after years of operating at war. To 
relieve the stress on the force, the Army is embarking on a path to 
restore balance. The Army's plan centers on four imperatives--sustain, 
prepare, reset, and transform. As we have seen with other Army combat 
capabilities, the requirement for air and missile defense units 
continues to grow, stretching the force. Operation Iraqi Freedom 
consumes significant quantities of our key missile defense 
capabilities, leaving other worldwide commitments underresourced.
    Already well underway, the Army has created composite air and 
missile defense battalions to transform the Air Defense Artillery into 
a more responsive and agile organization. These battalions address 
capability gaps, permitting us to defeat cruise missiles and unmanned 
aerial vehicles while maintaining our ability to defend critical assets 
from the ballistic missile threat. Composite air and missile defense 
battalions will capitalize on the synergies of two previously separate 
disciplines--short-range air and missile defense and high-to-medium 
altitude air and missile defense. Additionally, the Army has pooled air 
defense artillery battalions at the theater-level to provide air and 
missile defense protection based on the situation and mission 
requirements. This pooling concept supports the Army's effort to move 
to modular designs that allow force tailoring of units better sized to 
meet the combatant commander's needs.
    With that as a brief background, let me now focus on the Army's 
fiscal year 2009 budget submission for air and missile defense systems. 
The recently submitted President's budget includes approximately $2.23 
billion with which the Army proposes to execute current Army air and 
missile defense responsibilities and focus on future development and 
enhancements of both terminal phase and short-range air and missile 
defense systems. In short, the Army is continuing major efforts to 
improve the ability to provide warning, acquire, track, intercept, and 
destroy theater air and missile threats.
Army Integrated Air and Missile Defense (IAMD) System of Systems (SoS)
    In order to enhance its ability to destroy theater air and missile 
threats, the Army is continuing to transform its air and missile 
defense force from its traditional system-centric architecture to an 
integrated, component-based, IAMD SoS. The Army IAMD SoS Program 
provides full, network-centric, plug-and-flight integration of existing 
and future air and missile defense systems and enables their full 
technical, functional, and procedural integration into the joint IAMD 
arena. This modularization of air and missile defense capabilities will 
allow Joint Force Commanders to scale and tailor air and missile 
defense components functioning interdependently to deliver operational 
capabilities not achievable by the individual elements of the system. 
Given the diversified air and missile threat set and the limited 
resources to address the threat, development of IAMD SoS is the Army's 
top air and missile defense priority.
    In addition to the IAMD SoS interdependent capabilities, the Army's 
air defense community has initiated plans to meet the future challenges 
and demands, taking steps to sustain, prepare, reset, and transform our 
forces and equipment. These plans entail three main component areas of 
the Army's air and missile defense construct--terminal phase ballistic 
missile defense, cruise missile defense, and force protection.
Terminal Phase Ballistic Missile Defenses
    The Patriot/Medium Extended Air Defense System (MEADS) capability 
is designed to counter theater ballistic missile threats in their 
terminal phase in addition to cruise missiles and other air-breathing 
threats. Combining these systems with the soon to be deployed THAAD 
system brings an unprecedented level of protection against missile 
attacks to deployed U.S. forces, friends, and allies well into the 
future.
Patriot/Patriot Advanced Capability-3 (PAC-3) Overview
    Patriot is the world's only battle proven theater AMD system and 
will be a key AMD element for the next two decades, providing combatant 
commanders with modular, scalable, mission-tailored capabilities to 
greatly enhance operational force protection in support of the joint 
team. The Patriot is the Nation's only deployed, land-based, short-to-
medium range BMDS capability.
    The Army recognized that the Patriot force was heavily stressed and 
therefore developed a strategy to Grow-the-Force through a combination 
of pure-fleeting the existing Patriot force to PAC-3 capability and 
standing up two additional PAC-3 battalions. This strategy will 
increase our capacity to handle today's threat and alleviate logistical 
and training challenges of maintaining two separate Patriot 
configurations. Pure-fleeting of the Patriot force with PAC-3 will 
allow for improved capability and higher lethality against the Theater 
Ballistic Missile (TBM) and non-TBM threat as well as enable 
commonality across all Doctrine, Organization, Training, Materiel, 
Leadership and Education, Personnel and Facilities domains in the 
Patriot force. Also, the additional two battalions of Patriot PAC-3 
capability will meet the growing demands of the combatant commanders to 
provide global AMD against the entire threat set. Fiscal year 2007 
reprogramming actions and fiscal year 2008 funding initiated this 
strategy--funding in the amount of $492.8 million in the fiscal year 
2009 budget request will complete these initiatives and continue 
Patriot modifications.
    Last year, my statement addressed the ongoing Patriot fixes to 
operational deficiencies that were deemed necessary as a result of 
friendly fire incidents. The Army has taken steps to address lessons 
learned and correct the deficiencies. Based on the current fielding 
schedule, all Operation Iraqi Freedom fixes will be completed during 
fiscal year 2009.
Medium Extended Air Defense System Overview
    A top Army priority system for defense against short- and medium-
range tactical ballistic missiles and air breathing threats, the MEADS 
will be an integral part of the Army Integrated AMD SOS and capable of 
operating within a joint and coalition operational environment. The 
system will provide wide-area protection at strategic, operational, and 
tactical levels.
    MEADS, a cooperative development program with Germany and Italy, 
will provide a lighter, more deployable, maneuverable, lethal, network-
centric AMD capability. The program also includes development of the 
PAC-3 Missile Segment Enhancement (MSE) as the objective tri-national 
MEADS missile. The PAC-3 MSE is currently under development and will be 
integrated into the MEADS program. The MSE missile will provide a more 
agile and lethal interceptor that expands the engagement envelope of 
this system. The fiscal year 2009 budget request includes funding for 
MSE initial production facilities--production of the MSE is scheduled 
to begin in 2010. Fielding of MEADS is scheduled to begin in 2015 and 
be completed by 2028. We are confident that this path will provide our 
forces, allies, friends, and our Nation with the most capable air and 
missile defense system possible.
Terminal High Attitude Area Defense System Overview
    The Department of Defense is committed to fielding an advanced 
capability to defend against tactical ballistic missiles as soon as 
possible. THAAD is designed to provide a layered theater ballistic 
missile defense in support of the short- and medium-range ballistic 
missile threat. MDA is funding and manufacturing four THAAD batteries 
for the Army in an accelerated fielding that will commence in 2009. 
THAAD capabilities will begin to transfer to the Army in 2009. 
Synchronization between the Army and MDA is crucial in both the 
development and funding areas in order to ensure that the transition 
delivers a supportable warfighting system.
    To fully optimize the performance of the Patriot, MEADS, and THAAD 
defense systems, effective personnel training and development is 
essential. The United States Army Fires Center of Excellence at Fort 
Sill, OK, will provide our Nation with the best trained, organized, and 
equipped Air Defense Artillery leaders and units in response to current 
operational needs and future force warfighting concepts.
Joint Tactical Ground Station
    Joint Tactical Ground Station (JTAGS) is a transportable 
information processing system that receives and processes in-theater, 
direct down-linked data from Defense Support Program satellites. JTAGS 
provides our commanders with early warning of ballistic missile attack 
and essential information to defeat TBMs. The system disseminates 
warning, alerting, and cueing information on TBMs, and other tactical 
events of interest throughout the theater using existing communications 
networks. JTAGS determines the TBM source by identifying missile launch 
point and time and provides an estimation of impact point and time. 
Since the system is located in-theater, it reduces the possibility of 
single-point-failure in long-haul communication systems and is 
responsive to the theater commander. JTAGS also fulfills the in-theater 
role of USSTRATCOM's Theater Event System (TES). It is imperative that 
JTAGS be funded to integrate and evolve to use the next generation of 
Space Based Infrared System sensors. This will significantly enhance 
warning accuracy and timeliness while improving all aspects of theater 
missile defense. We request your continued support of this essential 
capability.
Cruise Missile Defense
    Our adversaries understand the value of cruise missiles. They are 
inherently very difficult targets to detect, engage, and destroy, and 
when armed with a weapon of mass destruction warhead, the effects from 
a cruise missile are catastrophic. The Army's Cruise Missile Defense 
Program is an integral element of the joint cruise missile defense 
architecture. We are also working closely with the joint community to 
assure development of doctrine that synchronizes our military's full 
capabilities against the cruise missile threat. Critical Army 
components of the joint cruise missile defense architecture are 
provided by the Joint Land Attack Cruise Missile Defense Elevated 
Netted Sensor System, the Surface-Launched Advanced Medium Range Air-
to-Air Missile, and the Patriot MSE missile. These systems are on 
schedule to provide an initial operational capability by 2012. 
Additionally, these systems will be networked within the IAMD SoS 
architecture, have an integrated fire control capability, and operate 
within a common command and control system. Initial operational 
capability is planned for 2014.
Force Protection
    In the conduct of Operation Iraqi Freedom, insurgents continue to 
pose serious dangers by employing indirect-fire tactics of quick-
attack, low-trajectory, urban-terrain-masked rocket, artillery, and 
mortar (RAM) strikes against U.S. forward operating bases in Iraq. To 
combat this threat, the Army developed a Counter-Rocket, Artillery, 
Mortar (C-RAM) capability--an integrated set of capabilities to provide 
warning and intercept of RAM threats. The primary mission of the C-RAM 
project is to develop, procure, field, and maintain a capability that 
can detect RAM launches; warn the defended area with sufficient time 
for personnel to take cover; intercept rounds in flight, thus 
preventing damage to ground forces or facilities; and enhance response 
to and defeat of enemy forces. C-RAM utilizes a SOS approach and is 
comprised of a combination of multi-service fielded and non-
developmental item sensors, command and control elements, and a 
modified U.S. Navy intercept system. The system utilizes a low cost 
commercial off-the-shelf warning system and a wireless local area 
network. Advances in the C-RAM capability will continue with funding 
that is requested in the fiscal year 2009 budget submit.
    Efforts are also underway to use the benefits of directed energy to 
potentially counter the RAM threat. Developmental work by joint 
entities within the Department is producing results that are promising. 
Within the next few years, through the Army's High Energy Laser 
Technology Demonstration Program, we are very hopeful we will produce a 
mobile solid state laser weapon system that will serve as a 
complementary resource to the present and future kinetic energy 
capability in countering RAM projectiles. Your continued support in 
this area will ensure we advance indirect fire protection capabilities.
                               conclusion
    Mr. Chairman, the Army is a member of the joint team fighting an 
adaptive enemy in a persistent conflict while transforming to meet 
future threats. We have responsibility for GMD, THAAD, Patriot, and 
MEADS and will continue developing and fielding an integrated missile 
defense for our Nation, deployed forces, friends, and allies. 
USSTRATCOM, through the JFCC-IMD, will continue to develop a joint BMDS 
capability to protect our Nation, deployed forces, friends, and allies. 
The fiscal year 2009 budget proposal supports the transformation of the 
Army's air, space, and missile defense force to support the Army's 
future force, the Joint Integrated AMD System, and our global BMDS. We 
will continue to work with MDA, the Services, and component commanders 
to define the characteristics of the emerging air, space, and missile 
defense force and determine how it can best support the warfighter and 
our Nation.
    I appreciate having the opportunity to speak on these important 
matters and look forward to addressing any questions you or the other 
committee members may have.

  STATEMENT OF DR. CHARLES E. McQUEARY, DIRECTOR, OPERATIONAL 
           TEST AND EVALUATION, DEPARTMENT OF DEFENSE

    [The prepared statement of Dr. McQueary follows:]
             Prepared Statement by Dr. Charles E. McQueary
    Mr. Chairman, Senator Sessions, distinguished members of the 
subcommittee, good afternoon. I am pleased to have this opportunity to 
speak to you about the testing of the Ballistic Missile Defense System 
(BMDS). I will cover five areas.
    First, I will give you my current assessment of the capability of 
the BMDS.
    Second, I will discuss the factor that limited my ability to 
provide a thorough assessment as required by the National Defense 
Authorization Act for Fiscal Year 2006.
    Third, I will discuss the sufficiency and adequacy of the BMDS test 
and evaluation program during the past year.
    Fourth, I will provide a review of the implementation of the 
Director, Operational Test and Evaluation (DOT&E) recommendations made 
to the Missile Defense Agency (MDA).
    Finally, I will describe how the MDA is a pathfinder for the 
implementation of section 231 language from the National Defense 
Authorization Act for Fiscal Year 2007.
                          first: my assessment
    As General Obering has already pointed out, the MDA had a good year 
of testing in 2007.
    Patriot demonstrated that it generally meets its operational 
requirements with some limitations for specific threat missiles. Aegis 
Ballistic Missile Defense demonstrated the capability to detect, track, 
and engage short- and medium-range ballistic missile targets in the 
midcourse phase with Standard Missile-3 missiles. Although Ground-based 
Midcourse Defense is still developmental in nature, it demonstrated to 
some degree many of the functions required for system effectiveness.
    As a result, I can state that the BMDS has a limited capability to 
defend against simple, ballistic missile threats launched from North 
Korea toward the United States.
                         second: the limitation
    Mr. Chairman, as I told this committee last year, I was 
particularly concerned that verified, validated, and accredited models 
and simulations would not be available to help me complete my 
assessment of BMDS capability. My concern was well-founded.
    Because of the same concern, General Obering diverted MDA resources 
to meet our mutual modeling and simulation requirements. He had his 
team create an ensemble of models and simulations, called Performance 
Assessment 07, to replicate system-level BMDS performance. 
Unfortunately, the effort and changes required were too great for the 
time available to accomplish them. Although many MDA element models are 
well along toward verification and validation, integrating them into a 
system-level BMDS performance model that can be verified, validated, 
and accredited did not happen and will not happen quickly.
    Between the Performance Assessment 07 and the fiscal year 2007 
ground test program, the BMDS Operational Test Agency Team attempted to 
accredit 33 models and simulations to support my assessment. The team 
was able to partially accredit, with caveats, only five of theses 
models. From this attempt, however, the MDA learned many valuable 
lessons about adequate and effective verification and validation that 
it can apply to this continuing effort. It will be some time before 
these models are ready and sufficient flight test data exists to anchor 
them so they can be properly verified, validated, and accredited for 
use.
                        third: the test program
    The pace and content of the MDA test program are proper for the 
developmental nature and maturity level of the various elements that 
constitute the BMDS. Although some would like to test more frequently, 
General Obering's deliberate approach to test-analyze-fix-test is 
warranted for this highly complex system. Analysis of large volumes of 
test data, frequently measured in terabytes, is an important step in 
this process that cannot be short-changed. It is very important to 
understand the results of one complex test before proceeding to the 
next test. I strongly support his approach.
    Unfortunately, the slower test pace results in limited test data 
for use in verifying, validating, and accrediting models and 
simulations. As I discussed previously, this has impacted my ability to 
characterization BMDS performance.
    Target availability, reliability, and performance have also been 
factors frustrating the flight test program and impacting test 
adequacy. During the 18 month period concluding December 31, 2007, MDA 
suffered 4 target failures during 20 flight tests conducted by various 
elements of the BMDS. These failures not only impacted critical data 
collection, but also forced changes to flight test schedules.
    To be fair, the MDA is not alone in this experience with a target 
program. Targets are a Department-wide problem impacting ground, sea, 
and air programs, both for acquisition and training. The targets we 
need to adequately test the systems we are acquiring are nearly as 
sophisticated and costly as the threats they are trying to replicate 
and the weapons we are developing to counter them.
    On a positive note, my office and the BMDS Operational Test Agency 
Team are active participants in the MDA's test planning and execution 
processes. The MDA implements many of our recommendations into the 
combined developmental and operational test program. Every ground and 
flight test includes both developmental and operational test 
objectives. As a group, we attempt to maximize operational realism in 
each test without impacting developmental objectives. In lieu of 
independent operational testing, this has been a valuable and effective 
approach to give warfighters time to operate the system and test their 
tactics, techniques, and procedures.
                      fourth: the recommendations
    Mr. Chairman, in your invitation to address the committee, you 
asked me to provide an assessment of the MDA's implementation of DOT&E 
recommendations made to the Agency. I will do that now.
    There were 26 recommendations in the fiscal year 2005 annual 
report. Four recommendations are still open, and the MDA is acting on 
each of them. Two involve ongoing data collection, one involves the 
future test schedule, and one deals with the test planning process.
    There were 15 new recommendations in the fiscal year 2006 annual 
report. Six of these recommendations remain open; all are being worked 
by the MDA. Four involve demonstrations of specific capabilities during 
actual intercept tests, one involves Information Assurance, and one 
involves targets.
    There are five new recommendations in the fiscal year 2007 annual 
report. All are still open and being actively worked by the MDA. One 
involves targets, one involves ongoing data collection, one is 
scheduled for completion during the next Ground-based Midcourse Defense 
flight test this summer, one involves modeling and simulation, and one 
requires a review of previously completed testing.
    The year-by-year reduction in the number of recommendations made by 
DOT&E is indicative of the progress the MDA is making in the BMDS 
developmental test program.
    I only advise the MDA on its developmental test program. General 
Obering and his staff recognize the value of our suggestions and 
recommendations. A more capable BMDS is our mutual goal. I am satisfied 
with the MDA's response to the recommendations in our annual reports.
                        finally: the pathfinder
    On December 22, 2007, Under Secretary John Young and I signed a 
revision to Department of Defense Test and Evaluation Policy. The new 
policy was a response to the requirement in the National Defense 
Authorization Act for Fiscal Year 2007, to review and reaffirm or 
modify test and evaluation policy as appropriate.
    This new policy made developmental testing (DT) and operational 
testing (OT) integrated and seamless throughout the system life cycle.
    Although we didn't have the MDA in mind when we developed this 
policy, the MDA is a model for this approach today as it develops, 
tests, and fields the BMDS. Several years ago, General Obering created 
a combined test force that embeds the operational test organization 
with his developmental test organization while maintaining the 
operational test organization's independence. This has worked well. As 
a result, the MDA has been able to transition to combined DT/OT as 
early as possible during the development and acquisition of the BMDS. 
As BMDS weapons elements mature, combined DT/OT test objectives are 
moving from a developmental emphasis to an operational emphasis.
    The MDA is a pathfinder for demonstrating integrated and seamless 
DT and OT in the department. The warfighters are, and will continue to 
be, the clear beneficiaries of this new policy.
                             in conclusion
    The MDA experienced another good year with its ground and flight 
test programs. Hit-to-kill is no longer a technological uncertainty; it 
is a reality, being successfully demonstrated many times over the past 
few years. The challenge now is to demonstrate hit-to-kill in more 
complex target scenes that include not only target deployment artifacts 
but countermeasures as well. General Obering has this in his future 
test plans.
    Individual element successes indicate their growing capabilities. 
Integrated ground testing of the BMDS continues to demonstrate that the 
warfighters understand and can operate the system confidently and 
effectively. There is still a long way to go, but the MDA's disciplined 
and principled approach to flight and ground tests is continuing to pay 
real dividends.
    This concludes my remarks and I welcome your questions.

    STATEMENT OF PAUL L. FRANCIS, DIRECTOR, ACQUISITION AND 
     SOURCING MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    [The prepared statement of Mr. Francis follows:]
                   Prepared Statement by Paul Francis
    Mr. Chairman and members of the subcommittee: I am pleased to be 
here today to discuss the Missile Defense Agency's (MDA) strategy for 
acquiring a Ballistic Missile Defense System (BMDS) and its progress in 
fielding Block 2006--its second increment of capability.
    MDA has been charged with developing and fielding the BMDS, a 
system expected to be capable of defending the United States, deployed 
troops, friends, and allies against ballistic missiles of all ranges in 
all phases of flight. In fulfilling this charge, MDA placed an initial 
set of missile defense components in the field in December 2005. These 
components are collectively referred to as Block 2004. Recently, MDA 
delivered its second increment of capability--Block 2006--which 
includes additional components as well as performance enhancements.
    The National Defense Authorization Acts for Fiscal Years 2002 and 
2006 mandated that we prepare annual assessments of MDA's ongoing cost, 
schedule, testing, and performance progress. In March 2008, we issued 
our report covering MDA's progress toward achieving Block 2006 goals 
during fiscal year 2007 as well as its efforts to improve transparency, 
accountability, and oversight. My statement today will focus on the 
issues covered in that report. We conducted this performance audit from 
May 2007 to March 2008 in accordance with generally accepted government 
auditing standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
                                summary
    During Block 2006, MDA fielded additional and new assets, enhanced 
the capability of some existing assets, and achieved most test 
objectives. In short, MDA increased BMDS capability. However, MDA did 
not meet the goals it originally set for the block. Ultimately, MDA 
fielded fewer assets, increased costs by about $1 billion, and 
conducted fewer tests. Even with the cost increase, MDA deferred work 
to keep Block 2006 costs from increasing further, as some contractors 
overran their fiscal year 2007 budgets. We could not determine the full 
cost of the block as deferred work is no longer counted as part of the 
block. Further, several BMDS contractors plan work in such a way that 
could result in MDA incurring costs that are not yet recognized. We 
could not assess attainment of another MDA goal: the overall 
performance of fielded assets as an integrated BMDS. This is because: 
(1) there have not been enough flight tests to validate the models and 
simulations that are used to predict system-level performance, (2) the 
reliability of some interceptors could be affected by problematic parts 
that have not been replaced yet, and (3) tests done to date do not 
provide enough information for the Department of Defense's (DOD) 
operational test and evaluation director to fully determine if the BMDS 
is suitable and effective for battle.
    MDA has been given unprecedented funding and decisionmaking 
flexibility that has expedited the fielding of assets but also lessened 
the transparency and accountability provided for oversight. In the past 
year, MDA has taken significant actions to improve oversight. First, 
MDA has adopted a new block approach that offers several improvements--
unit costs for selected assets will now be tracked and work will no 
longer be deferred from one block to another. Second, DOD has 
established an executive board to review and make recommendations on 
MDA's acquisition strategy, plans, and funding that could play a more 
significant role than its predecessor. Third, Congress directed that 
MDA begin using procurement funds to purchase certain assets, which 
generally means they must be fully paid for in the year they are 
bought. Previously, using research and development funding, MDA could 
pay for assets over several years, making it difficult to determine 
their cost. Some oversight concerns remain, however. For example, 
although MDA plans to do so, it has not yet estimated the total cost of 
any block, therefore it cannot have block costs independently verified, 
as is done for other major programs. While the new executive board 
promises to be more substantive than the previous Missile Defense 
Support Group, it will not have the information--such as on cost 
estimates and operational testing--to provide the oversight the Defense 
Acquisition Board provides on other major programs. The new board, like 
its predecessor, does not have approval authority. The executive board 
also faces the unique challenge of evaluating technology development 
efforts that range from $2 billion to about $5 billion a year--efforts 
that normally do not have a firm cost, schedule, and performance 
baseline.
    We have previously made recommendations to improve oversight in the 
areas that MDA has recently taken action. In March 2008, we also made 
recommendations to build on the actions already taken to further 
improve the transparency of block costs and oversight of the BMDS 
program. These included having MDA develop a full cost estimate for 
each block of BMDS capability with verification of that estimate, and 
examine ways to develop a baseline or some other standard against which 
the progress of technology programs may be assessed. We also 
recommended that MDA and the Director of Operational Test and 
Evaluation agree on criteria and incorporate corresponding scope into 
developmental tests that will allow a determination of whether a block 
of BMDS capability is suitable and effective for fielding. DOD 
concurred with having MDA develop block cost estimates and obtaining 
independent verification of those estimates. DOD partially concurred 
with the recommendations regarding examining ways to measure the 
progress of technology programs and adding scope to developmental 
tests.
                               background
    Funded at $8 billion to nearly $10 billion annually, MDA's BMDS is 
the largest research development program in DOD's budget. Since the 
1980s, DOD has spent more that $100 billion to develop and field the 
BMDS and it estimates that continued development and fielding will 
require an additional $50 billion between fiscal years 2008 and 2013.
    Since 2002, MDA has worked to fulfill its mission through its 
development and fielding of a diverse collection of land-, air-, sea-, 
and space-based assets. These assets are developed and fielded through 
nine BMDS elements and include the Airborne Laser (ABL); Aegis 
Ballistic Missile Defense (Aegis BMD); BMDS Sensors; Command, Control, 
Battle Management, and Communications (C\2\BMC); Ground-based Midcourse 
Defense (GMD); Kinetic Energy Interceptors (KEI); Multiple Kill 
Vehicles (MKV); Space Tracking and Surveillance System (STSS); and 
Terminal High Altitude Area Defense (THAAD).\1\
---------------------------------------------------------------------------
    \1\ The BMDS also includes a 10th element, Patriot Advanced 
Capability-3 which has been transferred to the Army for production, 
operation, and sustainment. This report does not evaluate Patriot 
because its initial development is complete and is now being managed by 
the Army.
---------------------------------------------------------------------------
    To develop a system capable of carrying out its mission, MDA, until 
December 2007, executed an acquisition strategy in which the 
development of missile defense capabilities was organized in 2-year 
increments known as blocks. Each block was intended to provide 
capabilities that enhanced the development and overall performance of 
the BMDS. The first 2-year block, known as Block 2004, fielded a 
limited initial capability that included early versions of the GMD, 
Aegis BMD, Patriot Advanced Capability-3, and C\2\BMC elements. The 
agency's second 2-year block--Block 2006--culminated on December 31, 
2007, and fielded additional BMDS assets. This block also provided 
improved GMD interceptors, enhanced Aegis BMD missiles, upgraded Aegis 
BMD ships, a Forward-Based X-Band-Transportable radar, and enhancements 
to C\2\BMC software. In December 2007, MDA's Director approved a new 
block construct that will be the basis for all future development and 
fielding, which I will discuss in more detail shortly.
    To assess progress during Block 2006, we examined the 
accomplishments of nine BMDS elements that MDA is developing and 
fielding. Our work included examining documents such as Program 
Execution Reviews, test plans and reports, production plans, and 
Contract Performance Reports. We also interviewed officials within each 
element program office and within MDA functional directorates. In 
addition, we discussed each element's test program and its results with 
DOD's Office of the Director, Operational Test and Evaluation. 
Regarding transparency, accountability, and oversight, we held 
discussions with officials in MDA's Directorate of Business Operations 
to determine whether its new block structure improved accountability 
and transparency of the BMDS. In addition, we reviewed pertinent 
sections of the U.S. Code to compare MDA's current level of 
accountability with Federal acquisition laws. We also interviewed 
officials from the Office of the Under Secretary of Defense for 
Acquisition, Technology, and Logistics and DOD's Joint Staff to discuss 
the oversight role of the new Missile Defense Executive Board (MDEB). 
Additionally, we reviewed the MDEB charter to identify the oversight 
responsibility of the board.
   fielded capability increased, but less than planned at higher cost
    MDA made progress in developing and fielding the BMDS during 2007. 
Additional assets were fielded and/or upgraded, several tests met 
planned objectives, and other development activities were conducted. On 
the other hand, fewer assets were fielded than originally planned, some 
tests were delayed, and the cost of the block increased by 
approximately $1 billion. To stay within the revised budget despite 
increasing contractor costs, MDA deferred some budgeted work to future 
blocks. Such deferrals, coupled with a planning methodology too often 
used by some contractors that could obscure cost reporting, prevent us 
from determining the full cost of Block 2006. MDA was able to meet most 
test objectives despite delays in several elements' test schedules. 
Neither we nor DOD could evaluate the aggregate performance of fielded 
assets because flight testing to date has not generated sufficient 
data. An evaluation of aggregate performance would also have to 
consider that: (1) some parts in fielded interceptors identified as 
potentially problematic have not been replaced yet, and (2) tests done 
to date do not provide enough information for DOD's independent test 
organization to fully determine if the BMDS is suitable and effective 
for battle.
Fielding of Assets and Cost
    During Block 2006, MDA increased its inventory of BMDS assets while 
enhancing the system's performance. It fielded 14 additional Ground-
Based Interceptors, 12 Aegis BMD missiles designed to engage more 
advanced threats, 4 new Aegis BMD destroyers, 1 new Aegis BMD cruiser, 
and 8 Web browsers and 1 software suite for C\2\BMC. In addition, MDA 
upgraded half of its Aegis BMD ship fleet, successfully conducted four 
Aegis BMD and two GMD intercept tests, and completed a number of ground 
tests to demonstrate the capability of BMDS components.
    MDA was unable to deliver all assets originally planned for Block 
2006.\2\ The Sensors element was the only Block 2006 element to meet 
all of its original goals set in March 2005 while the remaining 
elements--GMD, Aegis BMD, C\2\BMC--did not meet all of their original 
quantity goals. Sensors delivered a second Forward-Based X-Band Radar, 
Transportable (FBX-T) in January 2007 while the GMD element fielded 14 
of the 15 Ground-Based Interceptors originally planned during Block 
2006. Last year, we reported that MDA delayed the partial upgrade of 
the Thule early warning radar--one of GMD's original goals--until a 
full upgrade could be accomplished. Additionally, the Aegis BMD element 
delivered 4 additional destroyers and 1 new cruiser as originally 
planned, but delivered 12 of the 19 SM-3 missiles planned for the 
block. C\2\BMC did not deliver two of the three software suites 
originally planned for Block 2006, but did provide the needed 
capability less expensively through Web browsers and other techniques.
---------------------------------------------------------------------------
    \2\ In March 2006, MDA made reductions to its block 2006 goals. It 
was able in nearly all instances to meet or exceed these revised goals. 
Two elements--GMD and C\2\BMC--were able to exceed their revised 
fielding goals. In addition, the Aegis BMD element was able to meet its 
revised block goals for one of its two components. The program upgraded 
all planned ships, but fielded three fewer Aegis BMD Standard Missile-
3s (SM-3) than planned because the missiles were delayed into 2008 to 
accommodate an unanticipated requirement to deliver three missiles to 
Japan.
---------------------------------------------------------------------------
    The work MDA completed for Block 2006 cost more than planned. In 
March 2007, we reported that MDA's cost goal for Block 2006 increased 
by approximately $1 billion because of greater than expected GMD 
operations and sustainment costs and technical problems. If the 
contractors continue to perform as they did in fiscal year 2007, we 
estimate that at completion, the cumulative overrun in the contracts 
could be between about $1.3 billion and $1.9 billion. To stay within 
its revised budget, MDA deferred some work it expected to accomplish 
during the block. When work is deferred, its costs are no longer 
accounted for in the original block. In other words, if work planned 
and budgeted for Block 2006 was deferred to Block 2008, that work would 
be counted as a Block 2008 cost. Because MDA did not track the cost of 
the deferred work, the agency could not make an adjustment that would 
have matched the cost with the correct block. Consequently, we were 
unable to determine the full cost of Block 2006.
    Another reason why it is difficult to determine the actual cost of 
Block 2006 is a planning methodology too often employed by some MDA 
prime contractors that can obscure the full cost of work. Contractors 
typically divide the total work of a contract into small efforts in 
order to define them more clearly and to ensure proper oversight. Work 
may be planned into categories including: (1) level of effort--work 
that contains tasks of a general or supportive nature and does not 
produce a definite end product; and (2) discrete--work that has a 
definable end product or event. When work is discrete, delivery of the 
end product provides a sound basis for determining actual contractor 
performance. When discrete work is instead planned as level of effort, 
the contractor's performance becomes less transparent because work is 
considered complete when the time planned for it has expired, whether 
or not the intended product has been completed. Earned value management 
does not recognize such variances in completing scheduled work and to 
the extent more work has to be done to complete the product, additional 
costs could be incurred that are not yet recognized.\3\ Many of MDA's 
prime contractors plan a large percentage of their work as level of 
effort. MDA officials agree that its contractors have improperly 
planned discrete work as level of effort, and are taking steps to 
remedy the situation.
---------------------------------------------------------------------------
    \3\ Earned Value Management (EVM) is a program management tool that 
integrates the technical, cost, and schedule parameters of a contract. 
During the planning phase, an integrated baseline is developed by time 
phasing budget resources for defined work. As work is performed and 
measured against the baseline, the corresponding budget value is 
``earned.'' Using this earned value metric; cost and schedule variances 
can be determined and analyzed. EVM is program management that provides 
significant benefits to both the Government and the contractor.
---------------------------------------------------------------------------
    We also observed that while several contractors had difficulty with 
controlling costs, during fiscal year 2007, MDA awarded approximately 
95 percent or $606 million of available award fee to its prime 
contractors. In particular, contractors developing the ABL and Aegis 
BMD Weapon System were rated as performing very well in the cost and/or 
program management elements and received commensurate fees, even though 
earned value management data showed that their cost and schedule 
performance was declining. Although DOD guidance discourages the use of 
earned value performance metrics in award fee criteria, MDA includes 
this--one of many factors for consideration in rating contractors' 
performance--in several of its award fee plans. The agency recognizes 
that there is not always a good link between its intentions for award 
fees and the amount of fee being earned by its contractors. In an 
effort to rectify this problem, the agency has begun to revise its 
award fee policy to align agency practices more closely with DOD's 
current policy that better links performance with award fees.
Testing and Performance of Fielded Capability
    Most test objectives were achieved during 2007, although several 
BMDS programs experienced setbacks in their test schedules. The MKV, 
KEI, and Sensors elements were able to execute all scheduled activities 
as planned. The Aegis BMD, THAAD, ABL, STSS, and C\2\BMC elements 
experienced test delays, but all were able to achieve their primary 
test objectives. GMD successfully completed an intercept with an 
operationally representative interceptor and a radar characterization 
test. A second intercept test employing the Sea-Based X-Band (SBX) 
radar has been delayed because a target malfunction delayed the 
execution of the first intercept test. The SBX capability is important 
as it is a primary sensor to be used to engage ballistic missiles in 
the midcourse phase of flight. As of yet, this capability has not been 
verified through flight testing.
    As we reported in March 2007, MDA altered its original Block 2006 
performance goals commensurate with the agency's reductions in the 
delivery of fielded assets.\4\ For several reasons, information is not 
sufficient to assess whether MDA achieved its revised performance 
goals. First, MDA uses a combination of simulations and flight tests to 
determine whether performance goals are met. However, too few flight 
tests have been completed to ensure the accuracy of the models and 
simulations predictions. Second, confidence in the performance of the 
BMDS is reduced because of unresolved technical and quality issues in 
the GMD element. For example, the GMD element has experienced the same 
anomaly during each of its flight tests since 2001. This anomaly has 
not yet prevented the program from achieving any of its primary test 
objectives, but to date neither its source nor solution has been 
clearly identified. Program officials plan to continue their assessment 
of test data to determine the anomaly's root cause. The performance of 
some fielded GMD assets is also questionable because they contain parts 
identified by auditors in MDA's Office of Quality, Safety, and Mission 
Assurance as less reliable or inappropriate for use in space that have 
not yet been replaced. MDA has begun to replace the questionable parts 
in the manufacturing process and to purchase the parts for retrofit 
into fielded interceptors. However, it will not complete the retrofit 
effort until 2012.
---------------------------------------------------------------------------
    \4\ GAO, Defense Acquisitions: Missile Defense Acquisition Strategy 
Generates Results but Delivers Less at a Higher Cost, GAO-07-387 
(Washington, DC: March 15, 2007). BMDS performance goals included a 
numerical goal for the probability of a successful BMDS engagement, a 
defined area from which the BMDS would prevent an enemy from launching 
a ballistic missile, and a defined area that the BMDS would protect 
from ballistic missile attacks. GMD assets is also questionable because 
they contain parts identified by auditors in MDA's Office of Quality, 
Safety, and Mission Assurance as less reliable or inappropriate for use 
in space that have not yet been replaced. MDA has begun to replace the 
questionable parts in the manufacturing process and to purchase the 
parts for retrofit into fielded interceptors. However, it will not 
complete the retrofit effort until 2012.
---------------------------------------------------------------------------
    Finally, tests of the GMD element have been of a developmental 
nature, and have not included target suite dynamic features and 
intercept geometries representative of the operational environment in 
which GMD will perform its mission. MDA has added operational test 
objectives to its developmental test program, but many of the 
objectives are aimed at proving that military personnel can operate the 
equipment. Up until 2007, the lack of data limited the operational test 
and evaluation Director's annual BMDS assessment to commenting on 
aspects of tests that were operationally realistic and recommending 
other tests to characterize system effectiveness and suitability. In 
2007, tests allowed a partial assessment of the BMDS' effectiveness, 
suitability, and survivability. According to the Office of the Director 
of Operational Test and Evaluation: (1) further testing that 
incorporates realistic operational objectives; and (2) verification, 
validation, and accreditation of models and simulations will be needed 
before the performance, suitability, and survivability of the BMDS can 
be fully characterized.
    key steps taken to enhance bmds oversight, but more can be done
    Since its initiation in 2002, MDA has been given a significant 
amount of flexibility. While this flexibility allows agile 
decisionmaking, it lessens the transparency of MDA's acquisition 
processes, making it difficult to conduct oversight and hold the agency 
accountable for its planned outcomes and costs. As we reported in March 
2007, MDA operates with considerable autonomy to change goals and 
plans, which makes it difficult to reconcile outcomes with original 
expectations and to determine the actual cost of each block and of 
individual operational assets. In the past year, MDA has begun 
implementing two initiatives--a new block construct and a new executive 
board--to improve transparency, accountability, and oversight. These 
initiatives represent improvements over current practices, although we 
see additional improvements MDA can make. In addition, Congress has 
directed that MDA begin buying certain assets with procurement funds 
like other programs, which should promote accountability for and 
transparency of the BMDS.
New Block Structure Offers Improvements, but Does Not Resolve All 
        Issues
    In 2007, MDA redefined its block construct to better communicate 
its plans and goals to Congress. The agency's new construct is based on 
fielding capabilities that address particular threats as opposed to the 
previous biennial time periods. MDA's new block construct makes many 
positive changes. These include establishing unit cost for selected 
block assets, incorporating into a block only those elements or 
components that will be fielded during the block, and abandoning the 
practice of deferring work from block to block.
    These changes should improve the transparency of the BMDS program 
and make MDA more accountable for the investment being made in missile 
defense. For example, the actual cost of each block can be tracked 
because MDA will no longer defer work planned for one block, along with 
its cost, to a future block. In addition, MDA plans to develop unit 
costs for selected BMDS assets--such as THAAD interceptors--so that the 
cost of those assets can be monitored. In addition, the agency plans to 
request an independent verification of these unit costs and report 
significant cost growth to Congress. However, MDA has not yet 
determined all of the assets that will report a unit cost or how much a 
unit cost must increase before it is reported to Congress.
    Although improvements are inherent in MDA's proposed block 
construct, the new construct does not resolve all transparency and 
accountability issues. For example, MDA has not yet estimated the full 
cost of a block. According to its fiscal year 2009 budget submission, 
MDA does not initially plan to develop a full cost estimate for any 
BMDS block. Instead, when a firm commitment can be made to Congress for 
a block of capability, MDA will develop a budget baseline for the 
block. This budget will include anticipated funding for each block 
activity that is planned for the 6 years included in DOD's Future Years 
Defense Plan.\5\ Once baselined, if the budget for a block changes, MDA 
plans to report and explain those variations to Congress. At some 
future date, MDA does expect to develop a full cost estimate for each 
committed block and is in discussions with DOD's Cost Analysis 
Improvement Group on having the group verify each estimate; but 
documents do not yet include a timeline for estimating block cost or 
having that estimate verified. Other DOD programs are required to 
provide the full cost estimate of developing and producing their weapon 
systems before system development and demonstration can begin. Until 
the full cost of each block is known, it will be difficult for 
decisionmakers to compare the value of investing in each block to the 
value of investing in other DOD programs or to determine whether a 
block is affordable over the long term.
---------------------------------------------------------------------------
    \5\ There are five blocks included in the new block construct--1.0, 
2.0, 3.0, 4.0, and 5.0. MDA expects to initially develop budget 
baselines and report variances to this baseline for Blocks 1.0, 2.0, 
and a portion of 3.0.
---------------------------------------------------------------------------
    Another issue yet to be addressed is whether the concurrent 
development and fielding of BMDS assets will continue. Fully developing 
an asset and demonstrating its capability prior to production increases 
the likelihood that the product will perform as designed and can be 
produced at the cost estimated. To field an initial capability quickly, 
MDA accepted the risk of concurrent development and fielding during 
Block 2004. It continued to do so during Block 2006 as it fielded 
assets before they were fully tested. For example, by the end of Block 
2004, the agency realized that the performance of some Ground-Based 
Interceptors could be degraded because the interceptors included 
inappropriate or potentially unreliable parts.\6\ As noted earlier, MDA 
has begun the process of retrofitting these interceptors, but work will 
not be completed until 2012. Meanwhile, there is a risk that some 
interceptors might not perform as designed. MDA has not addressed 
whether it will accept similar performance risks under its new block 
construct or whether it will fully develop and demonstrate all 
elements/components prior to fielding.
---------------------------------------------------------------------------
    \6\ See GAO, Defense Acquisitions: Missile Defense Agency Fields 
Initial Capability but Falls Short of Original Goals, GAO-06327 
(Washington, DC: Mar. 15, 2006).
---------------------------------------------------------------------------
    MDA has not addressed whether it will transfer assets produced 
during a block to a military service for production and operation at 
the block's completion. Officials representing multiple DOD 
organizations recognize that transfer criteria are neither complete nor 
clear given the BMDS's complexity. Without clear transfer criteria, MDA 
has transferred the management of only one element--the Patriot 
Advanced Capability-3--to the military for production and operation. 
For other elements, MDA and the military Services have been negotiating 
the transition of responsibilities for the sustainment of fielded 
elements--a task that has proven to be timeconsuming. Although MDA 
documents show that under its new block construct the agency should be 
ready to deliver BMDS components that are fully mission-capable, MDA 
officials could not tell us whether at the end of a block MDA's 
Director will recommend when management of components, including 
production responsibilities, will be transferred to the military. 
New Executive Board Offers Improved, but Not Full, Oversight
    Oversight improvement initiatives are also underway for MDA. In 
March 2007, the Deputy Secretary of Defense established a MDEB to 
recommend and oversee implementation of strategic policies and plans, 
program priorities, and investment options for protecting the United 
States and its allies from missile attacks. The MDEB is also to replace 
existing groups and structures, such as the Missile Defense Support 
Group.
    The MDEB appears to be vested with more authority than its 
predecessor, the Missile Defense Support Group. When the Support Group 
was chartered in 2002, it was to provide constructive advice to MDA's 
Director. However, the Director was not required to follow the advice 
of the group. According to a DOD official, although the Support Group 
met many times initially, it did not meet after June 2005. This led to 
the formation of the MDEB. Its mission is to review and make 
recommendations on MDA's comprehensive acquisition strategy to the 
Deputy Secretary of Defense. It is also to provide the Under Secretary 
of Defense (Acquisition, Technology, and Logistics) with a recommended 
strategic program plan and a feasible funding strategy based on 
business case analysis that considers the best approach to fielding 
integrated missile defense capabilities in support of joint MDA and 
warfighter objectives. The MDEB will be assisted by four standing 
committees. These committees, which are chaired by senior-level 
officials from the Office of the Secretary of Defense and the Joint 
Staff, could play an important oversight role as they are expected to 
make recommendations to the MDEB, which in turn, will recommend courses 
of action to the Under Secretary of Defense and the Director, MDA as 
appropriate.
    Although the MDEB is expected to exercise some oversight of MDA, it 
will not have all the information normally available to DOD oversight 
bodies. For other major defense acquisition programs, the Defense 
Acquisition Board has access to critical information because before a 
program can enter the System Development and Demonstration phase of the 
acquisition cycle, statute requires that certain information be 
developed.\7\ However, in 2002, the Secretary of Defense deferred 
application of DOD policy to BMDS that, among other things, requires 
major defense programs to obtain approval before advancing from one 
phase of the acquisition cycle to another. Because MDA does not yet 
follow this cycle, and has not yet entered System Development and 
Demonstration, it has not triggered certain statutes requiring the 
development of information that the Defense Acquisition Board uses to 
inform its decisions. For example, most major defense acquisition 
programs are required by statute to obtain an independent verification 
of life-cycle cost estimates prior to beginning system development and 
demonstration, and/or production and deployment. Independent life-cycle 
cost estimates provide confidence that a program is executable within 
estimated cost. Although MDA plans to develop unit cost for selected 
block assets and to request that DOD's Cost Analysis Improvement Group 
verify the unit costs, the agency does not initially plan to develop a 
block cost estimate and therefore, cannot seek an independent 
verification of that cost. Although MDA will not be required to obtain 
an independent verification of block costs when they are estimated, MDA 
officials told us that they have initiated discussions with the Cost 
Analysis Improvement Group on independent verifications of block cost 
estimates.
---------------------------------------------------------------------------
    \7\ The Defense Acquisition Board advises the Under Secretary of 
Defense for Acquisition, Technology, and Logistics on critical 
acquisition decisions.
---------------------------------------------------------------------------
    Statute also requires an independent verification of a system's 
suitability for and effectiveness on the battlefield through 
operational testing before a program can proceed beyond low-rate 
initial production.\8\ After testing is completed, the Director for 
Operational Test and Evaluation assesses whether the test was adequate 
to support an evaluation of the system's suitability and effectiveness 
for the battlefield, whether the test showed the system to be 
acceptable, and whether any limitations in suitability and 
effectiveness were noted. However, a comparable assessment of the BMDS 
assets being fielded will not be available to the MDEB. As noted 
earlier, the limited amount of testing completed, which has been 
primarily developmental in nature, and the lack of verified, validated, 
and accredited models and simulations prevent the Director of 
Operational Test and Evaluation from fully assessing the effectiveness, 
suitability, and survivability of the BMDS in annual assessments.
---------------------------------------------------------------------------
    \8\ 10 U.S.C. Sec. 2399 requires completion of initial operational 
test and evaluation of a weapon system before a program can proceed 
beyond low-rate initial production. According to DOD policy, low-rate 
initial production is intended to result in completion of manufacturing 
development in order to ensure adequate and efficient manufacturing 
capability and to produce the minimum quantity necessary to provide 
production or production-representative articles for operational test 
and evaluation, establish an initial production base for the system; 
and permit an orderly increase in the production rate for the system, 
sufficient to lead to full-rate production upon successful completion 
of operational (and live-fire, where applicable) testing.
---------------------------------------------------------------------------
    MDA will also make some decisions without needing approval from the 
MDEB or any higher level DOD official. Although the charter of the MDEB 
includes making recommendations to MDA and the Under Secretary of 
Defense (Acquisition, Technology, and Logistics) on investment options, 
program priorities, and MDA's strategy for developing and fielding an 
operational missile defense capability, the MDEB will not necessarily 
have the opportunity to review and recommend changes to BMDS blocks. 
MDA documents show that the agency plans to continue to define each 
block of development without requiring input from the MDEB. According 
to a briefing on the business rules and processes for MDA's new block 
structure, the decision to initiate a new block of BMDS capability will 
be made by MDA's Director. Also cost, schedule, and performance 
parameters will be established by MDA when technologies that the block 
depends upon are mature, a credible cost estimate can be developed, 
funding is available, and the threat is both imminent and severe. The 
Director will inform the MDEB as well as Congress when a new block is 
initiated, but he will not seek the approval of either.
    Finally, there will be parts of the BMDS program that the MDEB will 
have difficulty overseeing because of the nature of the work being 
performed. MDA plans to place any program that is developing technology 
in a category known as Capability Development. These programs, such as 
ABL, KEI, and MKV, will not have a firm cost, schedule, or performance 
baseline. This is generally true for technology development programs in 
DOD because they are in a period of discovery, which makes schedule and 
cost difficult to estimate. Yet, the scale of the technology 
development in BMDS is unusually large, ranging from $2 billion to 
about $5 billion a year--eventually comprising nearly half of MDA's 
budget by fiscal year 2012. The MDEB will have access to the budgets 
planned for these programs over the next 5 or 6 years, each program's 
focus, and whether the technology is meeting short-term key events or 
knowledge points. But without some kind of baseline for matching 
progress with cost, the MDEB will not know how much more time or money 
will be needed to complete technology maturation. MDA's experience with 
the ABL program provides a good example of the difficulty in estimating 
the cost and schedule of technology development. In 1996, the ABL 
program believed that all ABL technology could be demonstrated by 2001 
at a cost of about $1 billion. However, MDA now projects that this 
technology will not be demonstrated until 2009 and its cost has grown 
to over $5 billion.
MDA Directed to Use Procurement Funding
    In an effort to further improve the transparency of MDA's 
acquisition processes, Congress has directed that MDA's budget 
materials delineate between funds needed for research, development, 
test, and evaluation; procurement; operations and maintenance; and 
military construction.\9\ Congress gave MDA the flexibility to field 
certain assets using research, development, test, and evaluation 
funding which allowed MDA to fund the purchase of assets over multiple 
years. Congress recently restricted MDA's authority and required MDA to 
purchase certain assets with procurement funds. Using procurement funds 
will mean that MDA will be required to ensure that assets are fully 
funded in the year of their purchase, rather than incrementally funded 
over several years. Additionally, our analysis of MDA data shows that 
incremental funding is usually more expensive than full-funding, in 
part, because inflation decreases the buying power of the dollar each 
year. For example, after reviewing MDA's incremental funding plan for 
THAAD fire units and Aegis BMD missiles, we analyzed the effect of 
fully funding these assets and found that the agency could save about 
$125 million by fully funding their purchase and purchasing them in an 
economical manner. In the National Defense Authorization Act for Fiscal 
Year 2008, Congress directed that MDA request procurement funding and 
advanced procurement funding for long lead items in its fiscal year 
2009 budget including funding for THAAD fire units and Aegis BMD SM-3 
missiles. MDA did not request such funding because it slipped the 
schedule for procuring THAAD fire units 3 and 4 by 1 year and because 
the National Defense Authorization Act for Fiscal Year 2008 was not 
signed in time to allow MDA to adjust its budget request for SM-3 
missiles. However, in MDA's fiscal year 2010 budget submittal, the 
agency intends to incorporate a detailed plan of action and milestones 
to transition from incremental funding to full funding beginning in 
fiscal year 2010 and for all fiscal years thereafter.
---------------------------------------------------------------------------
    \9\ The National Defense Authorization Act for Fiscal Year 2008, 
Pub. L. No. 110-181, Sec. 223.
---------------------------------------------------------------------------
                actions recommended in our recent report
    In our March 2008 report, we made several recommendations to build 
on efforts to further improve the transparency, accountability, and 
oversight of the missile defense program. Specifically, we recommended 
that the Secretary of Defense direct:

        <bullet> MDA to develop a full cost for each block and request 
        an independent verification of that cost;
        <bullet> MDA to clarify the criteria that it will use for 
        reporting unit cost variances to Congress;
        <bullet> MDA to examine a contractor's planning efforts when 20 
        percent or more of a contract's work is proposed as level of 
        effort;
        <bullet> MDA to investigate ways of developing a baseline or 
        some other standard against which the progress of technology 
        programs may be assessed; and
        <bullet> MDA and the Director of Operational Test and 
        Evaluation to agree on criteria and incorporate corresponding 
        scope into developmental tests that will allow a determination 
        of whether a block of BMDS capability is suitable and effective 
        for fielding.

    DOD concurred with the first three recommendations. DOD partially 
concurred with the remaining two recommendations to investigate ways of 
developing a baseline or some other standard against which the progress 
of technology programs may be assessed and to agree on criteria and 
incorporate corresponding scope into developmental tests. DOD stated 
that MDA already uses key knowledge points, technology levels, and 
engineering readiness levels to assess the progress of technology 
programs and that it will continue to investigate other ways of making 
such assessments. DOD also noted that MDA's mission is to work with the 
warfighter, rather than Director of Operational Test and Evaluation, to 
determine that the BMDS is ready for fielding. However, DOD stated that 
MDA will continue to work with operational testers to strengthen the 
testing of BMDS suitability and effectiveness. We believe that DOD and 
Congress would benefit from understanding the remaining cost and time 
needed to complete a technology program, important information that 
MDA's methods do not yet provide. Since BMDS testing will continue to 
serve both developmental and operational purposes, its scope should be 
sufficient to enable the Director of Operational Test and Evaluation to 
evaluate the system's operational effectiveness, suitability, and 
survivability.
    Mr. Chairman, this concludes my statement. I would be pleased to 
respond to any questions you or members of the subcommittee may have.
                   contact and staff acknowledgments
    For questions about this statement, please contact me at (202) 512-
4841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="206652414e434953506047414f0e474f560e">[email&#160;protected]</a> Individuals making key contributions to this 
statement include David Best, Assistant Director; LaTonya D. Miller; 
Steven B. Stern; Meredith Allen Kimmett; Kenneth E. Patton; and Alyssa 
Weir.

    Senator Bill Nelson. As a courtesy, I want to call on my 
colleague, the ranking member, Senator Sessions.
    Senator Sessions. Thank you. Thank you, Senator Nelson. 
That is nice of you, as always. I guess we would thank each of 
you for your service to our country.
    I know in some ways it sounds like a lot of money we are 
spending on missile defense. But at $10 billion out of a $500 
billion defense budget, that is not really very much, and it 
does provide, both at the tactical level and strategic level, 
protections that are exceedingly important to us as a Nation.
    So I guess I won't make much more of a statement than that 
and to say that the budget is tight. I believe that we can 
accomplish our goals with the President's budget, but it is not 
a fat budget, that is for sure. There are a lot of things we 
are not going to be able to do that we would like to do if we 
had more money.
    Secretary Young, the Missile Defense Agency (MDA) has been 
granted integrated decision authority over requirements, 
acquisition, and budget for the missile defense program. This 
authority was necessary in order to begin deployment of our 
missile defense capabilities by 2004, and it appears to have 
been successful. It was a spiral system, or whatever we want to 
call it, that gave a certain amount of flexibility.
    It is likely that had we not had that flexibility, 
personally, I am inclined to believe that we would not be as 
far along as we are. Have you had a chance to look at that, or 
form an opinion about this different type of development 
program, and do you think it has any benefit as a model in any 
other acquisition situations?
    Mr. Young. Senator, I certainly do. I have looked at it, to 
some degree, and I believe elements of it are highly relevant 
to our other programs. In particular, across the board, I am 
already advocating that program managers take greater 
responsibility for engaging the requirements community when the 
requirements bar gets put much higher than the money available 
or the schedule available because we can't promise to deliver 
to those kinds of schedules.
    So I think MDA, especially in the confines you outlined of 
an urgent need to get capability out there, had the ability to 
make those trades efficiently and get capability fielded. 
Across the board, we need better ability to make some of those 
trades to get the best value for the taxpayer.
    Senator Sessions. General Obering, just briefly, based on 
your tenure now in this position and your previous experience, 
how do you evaluate this acquisition process that we 
established, I guess, 8 or 10 years ago for the MDA program?
    General Obering. Senator, I would say it has been very, 
very successful for us. There has been this approach in which, 
first of all, we are able to trade off requirements and funding 
and acquisition options to be able to maximize the fielding and 
to be able to react to real-world situations like we have 
experienced in the past. So I am a very strong advocate for 
this type of approach.
    When you combine that with the single color of money that 
we have enjoyed over the years in research, development, test, 
and evaluation, that gives you a very quick reaction capability 
to be able to meet those emerging situations. I think that has 
been one of the reasons why we have been able to produce, 
almost at an unmatched fashion within the department, on the 
scale that we have been able to do.
    Senator Sessions. It presents some risk, and it has some 
dangers. But I think with regard to this immature situation we 
started with, it has allowed us to move along rapidly.
    Secretary Young, today's Washington Post reports that the 
Government Accountability Office (GAO) has found 95 major 
Department of Defense (DOD) systems that have exceeded their 
original budgets by a total of $295 billion and are delivered 
almost 2 years late on average. Is this correct?
    Mr. Francis of GAO testifies today that MDA has increased 
cost over projections by $1 billion, as some overran their 
fiscal year 2007 budgets. How would you compare, if you are 
able, MDA's performance on major acquisitions with the other 
areas of the DOD, and what is your fundamental response to this 
disturbing report?
    Mr. Young. I certainly agree with the concerns. I haven't 
had a chance to review all the details of the report. I think 
the report documents some of the things that we have been 
through before I came into the office. There were six programs 
that went through the Nunn-McCurdy process and had cost growth, 
and there were programs before that.
    I recently decided a program that is probably a part of 
that list, the C-5, where we actually made a decision instead 
of spending $14 billion and recognizing the cost growth, we 
scaled back the program, made sure we met the requirements, and 
saved the taxpayers about $10 billion.
    So we are going through and attacking these programs 
individually, trying to put more discipline in the process. I 
need to become more familiar with the details of the report, so 
I can't yet say the numbers are accurate. But there have 
certainly been a number of programs that have exceeded their 
schedule.
    In regards to MDA, it highlights the issue you asked about, 
where many of these programs have these problems because they 
had very strenuous requirements, and in some cases, probably 
amazingly, we actually changed and increased the requirements 
as we went into the execution of the program. MDA has had the 
benefit of not making those in general, in my view, bad choices 
and trying to be pragmatic about fielding an incremental 
capability as fast as possible and then working to upgrade that 
capability as money and time and technology support such 
upgrades.
    Senator Sessions. General Obering, do you want to briefly 
comment on your perception on what this report indicates?
    General Obering. Yes, sir. I think that, again, echoing 
what Secretary Young says, the flexibilities that we have 
allowed and the way that we are able to really, really scrub 
down the requirements and also to make the trades has allowed 
us to stay in fairly reasonable good shape with respect to our 
cost variances.
    Senator Sessions. Well, looking at this, maybe you can 
correct me, I guess, but your figure is less than some of the 
other major procurement agencies--at least being over. Would 
you say that is true?
    General Obering. Yes, sir. Overall in our portfolio, by our 
calculations, we are about 5 percent to 6 percent variance, and 
that reflects, by the way, a combination of increases in scope. 
For example, if you recall when the North Koreans went on alert 
in the summer of 2006, one of the lessons learned from that is 
there was an additional missile field that was requested at 
Fort Greely, AK, and also an additional interceptor to be 
placed on alert, an operational silo at Vandenberg Air Force 
Base.
    So we get scope changes as part of those cost calculations. 
So that is not only just cost growth, per se, it is also 
increased capability. So I feel like we are very much, I think, 
on the good side of that equation.
    Senator Sessions. Mr. Francis, thank you for your analysis. 
Do you have anything to add in addition or summary without 
repeating your written testimony or any thoughts you have on 
that subject?
    Mr. Francis. Yes, Senator Sessions. The report that you had 
referred to is something that we do every year. We look at 
about 70 programs, and we keep that data year in and year out.
    As I was saying to Mr. Young before the hearing, I think 
one of the main findings is that the programs that get in 
trouble, which are a lot of them, are ones that are not abiding 
by the types of policies that I think Mr. Young is trying to 
get enforced.
    It is hard to compare the cost figures on missile defense 
with other programs because the other programs are baselined 
against a total, and they generally run 10 to 15 years out. So 
missile defense, in a number of ways, is a level of effort 
program, and scope can move in and out, as General Obering 
said. So some scope can increase, and some scope can decrease.
    But just taking that $1 billion, that is 5 percent over 2 
years, or 2.5 percent a year. But Mr. Young will be certifying 
programs with a 25 percent cost breach, but that is because 
they last 10 years. So it is a little hard to get it apples-to-
apples, but I think the billion dollars is something to be 
concerned about.
    Senator Sessions. Do you feel like some of the goals he has 
for procurement represent progress and could help eliminate 
some of these overruns?
    Mr. Francis. Yes, I think one of the fundamental things we 
have found is that many programs get started before they are 
ready, and a lot of that analysis that we have done has been at 
the behest of this committee, benchmarking best practices. In 
discussions with Mr. Young's office, I know there are a lot of 
things he is trying to do to get programs on a much sounder 
footing before they hit that first big milestone, which is the 
Milestone B decision.
    Senator Sessions. Well, Mr. Young, I would take that as a 
pretty good compliment from GAO because they are a tough 
watchdog. They don't mind being critical when it is necessary. 
But it is my impression that you are seeking to have a tough, 
strong approach to cost to keep us within our budgets.
    Mr. Young. I do appreciate the kind comments. It is still 
results that I have to put on the table. One of those, I think, 
and one we would highlight that I think MDA has tried to take 
advantage of on their own, is prototyping and to make sure you 
do initial prototyping and develop your technology readiness 
before you move forward with a product.
    Now, if you are urgently fielding, you may move that 
prototype more quickly to the field. But across the board in 
the department, one thing we have to do, I think GAO has 
rightly pointed out, is better mature technology through 
prototyping. Congress has actually helped here because you have 
given me law. I would rather be running my business, but where 
necessary, if you all tell us things that are useful, it 
probably helps.
    You have directed that we not move things through Milestone 
B without them being at technology readiness level 6. I think 
that is a helpful standard for Congress to ask us to hold to.
    Senator Sessions. All right.
    Senator Bill Nelson. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I will make this brief. I had three questions to ask, and 
one has already been answered, and I was just told I have 
someone in my office.
    General, we talk about where we are, and we constantly 
update this. We are still naked in the boost phase. Now I would 
like to have you tell us, so we can keep that alive, I know 
there are a lot of people that are saying this isn't going to 
be necessary. Then, of course, the big target is the Airborne 
Laser (ABL).
    I would like to have you say, first of all, why this boost-
phase capability is significant and then, second, why it is 
necessary to go ahead and continue with the funding of the ABL 
through next year?
    Senator Inhofe. Through the shoot-down that will be next 
year?
    General Obering. Yes, sir. Well, first of all, the boost 
phase is--in a layered defense is extremely important. First of 
all, if you stop and think about it, when you are waiting until 
the terminal phase, you are only able to defend a fairly small 
footprint from a threat missile. In the mid-course phase, that 
defended area expands.
    But if you can shoot a missile down in the boost phase, you 
are basically defending the entire world from that missile, 
number one. Number two, you are forcing the shoot-down 
relatively close to the origin of the launch of that missile. 
So, oftentimes, the shoot down is over the country's territory 
that actually launched the missile. Number three, it really 
helps in dealing with the complex countermeasure or decoy issue 
that comes up once you get into the mid-course phase and then 
into the terminal phase. So, for those reasons, it is a very 
advantageous capability.
    Now to your point with respect to ABL, first of all, we 
have two programs in the boost phase. The ABL continues to be 
our primary boost-phase defense capability, and the Kinetic 
Energy Interceptor (KEI) was a backup to that in case the ABL 
did not prove to be successful.
    Where we are on the ABL is we have completed the low-power 
systems flight testing. We did that last year. It was very 
successful. So between that and the high-energy laser firings 
that we accomplished over 70 of in a 747 fuselage at Edwards 
Air Force Base, we have now demonstrated all of the key 
technical capabilities to be able to shoot down the missile.
    We have now put the six laser modules onboard the aircraft, 
the high-energy laser modules. We are in the process of 
completing the installations for the three lasers that are on 
that aircraft--the tracking laser, the atmospheric 
compensation, and then the big megawatt-class high-energy 
laser. At the end of this year, we should be firing out of the 
aircraft on the ground, and we should be going through our 
checks and our fire control loops and that type of thing, get 
back in the air early next year for the shoot-down.
    Senator Inhofe. When next year?
    General Obering. In the summer is what we are shooting for 
right now for the shoot-down. We think it is important to do 
that because, number one, we have learned a tremendous amount 
throughout this. It is the largest directed-energy weapon in 
the department, and we have really focused the entire directed-
energy community in this country on this program.
    Senator Inhofe. Okay. That is a very good explanation, and 
I would encourage you to talk about this because that program 
is being attacked by even a lot of people who are very strong 
supporters because there is just a lack of an understanding of 
it.
    Now, lastly, let me just mention to you that on December 2, 
2007, I had a chance to meet with the leaders and the 
negotiators in Poland as well as the Czech President, Vaclav 
Klaus, who is one of my favorite presidents anywhere in the 
world. Then yesterday afternoon, I was in Stuttgart with the 
European Command and General Catto had all of his people in 
there.
    I am very interested in the progress that is being made 
right now. You have two things with two countries. Of course, 
the radar with the Czech Republic and the missiles in Poland. I 
got the impression yesterday that between December 2 and 
yesterday, there hasn't really been anything that I can 
identify as progress.
    Now they aren't opposed to it. I know the president of the 
Czech Republic isn't. But there is a lot of misinformation 
floating around that is creating a little bit of a problem. 
Then I got the impression also, as far as Poland is concerned, 
that they just want to be sure that there is a lot of money out 
there for them. Am I wrong?
    General Obering. First of all, sir, you are wrong in one 
aspect. That is, there has been tremendous progress since 
December. In fact, we have, for the most part, completed 
negotiations with the Czechs in a positive way. We are down to 
some of the final wording in the agreement. So I expect that to 
conclude here in the very near future in a very successful 
signing agreement.
    With the Polish negotiations, we were set back somewhat 
when the new government came in, and of course, as any new 
government has a right to do, they wanted to assess the 
situation where they were. We have now regained some of the 
momentum that was lost as a result of the change in government, 
and we have been back under negotiations with our Polish 
counterparts.
    Senator Inhofe. Do you think you are in the position now 
that you were before the change took place in Poland?
    General Obering. I think we are close, sir. I think that we 
have now gotten down to the specifics on what are the steps 
ahead with respect to help with the modernization of their 
defenses and what kind of help that may mean and in a 
discussion with that, and try to separate that somewhat from 
the missile defense agreement that we think is so critically 
important from a timing perspective as well.
    Senator Inhofe. My thinking was this, that yes, I 
understand that a lot of progress has been made in the Czech 
Republic. But until you get both of them, it doesn't do any 
good to reach an agreement with one without the other.
    General Obering. Well, sir. Actually, we fully intend to 
get agreements with both nations. The radar itself is a 
tremendous capability in terms of the ability of that radar to 
feed data into any missile defense system. That could be a 
North Atlantic Treaty Organization (NATO)-deployed capability 
or sea-based capability.
    Senator Inhofe. In the location?
    General Obering. That would be a tremendous benefit to the 
overall NATO missile defense architecture. So while we 
certainly are on track to get both agreements, even just the 
radar would be tremendous progress.
    Senator Inhofe. Okay. Well, that is good to hear because I 
didn't hear that yesterday in Stuttgart. It was kind of the 
impression that you have to get them both in order to make this 
thing work. But it does make sense if that radar could be used 
to deploy other systems, then that is better than not having 
anything.
    General Obering. Yes, sir. But just to make it crystal 
clear, we need both the interceptors and the radar to provide 
the long-range coverage for the protection of Europe. What I 
was referring to is any future shorter-range coverages that 
NATO may deploy.
    Senator Inhofe. I understand. Thank you very much.
    Senator Bill Nelson. All right. The big chairman has just 
come in.
    As a courtesy to my colleagues, Senator Levin, I am 
deferring to you all before I get into my questions. So let me 
call on you.
    Senator Levin. Well, thank you, Mr. Chairman.
    I just had a few questions, and I don't know whether our 
witnesses had opening statements or not.
    Senator Bill Nelson. No, we went straight to questions.
    Senator Levin. Straight to questions.
    Senator Bill Nelson. Everything has been entered into the 
record.
    Senator Levin. I appreciate your yielding to me, Mr. 
Chairman. Let me just ask a few questions.
    First, Secretary Young, you are supposed to be our 
acquisition czar for the entire DOD. Do you have final 
acquisition authority over the programs of the MDA? If not, is 
that because of law, or is that because of administrative 
decision?
    Mr. Young. Under the current policy--I have authority, as 
you rightly said, over the programs. Under the current 
construct, the service acquisition executive exercises 
authority over programs that have been delegated to them at 
certain levels, and in this case, most of the milestone and 
contracting decisions, MDA is currently exercising to move 
forward with the capability, the urgent capability deployment.
    Senator Levin. Well, do you have the same acquisition 
authority over the MDA as you do over the other components?
    Mr. Young. I think, theoretically, I do. But right now, we 
are not exercising MDA programs with milestones, whereas with 
the other Services for the largest programs, I personally 
approve the milestones. But there are also many programs in the 
Services that are not of such a size that I approve the 
milestones or Service level.
    Senator Levin. Do you treat acquisition in the MDA 
differently than other acquisition in the Defense Department?
    Mr. Young. Yes, we definitely treat that program 
differently.
    Senator Levin. Why is that? Is that law, or is that an 
administrative decision?
    Mr. Young. I don't think it is law. I think I would say it 
is an administrative decision made some years, a few years, ago 
to try to urgently deploy capability and let that program be 
managed, if you will, as a portfolio in an effort to 
expeditiously field capability. Some of those authorities were 
delegated to the MDA organization and the director.
    Senator Levin. Has there been any discussion about changing 
that so they are treated like other acquisition programs?
    Mr. Young. I think there have been discussions before my 
time, and even now, I wouldn't say that specific issue is being 
discussed yet. More so we are looking to improve the department 
as a whole on oversight. Because as more capabilities are 
delivered by MDA, the Services have growing roles in operating 
those capabilities.
    We established a Missile Defense Executive Board (MDEB) 
that has met four times in my tenure to begin to discuss MDA 
programs, their status, their execution, and then the 
transition of those capabilities. We are taking at least a 
first step in better visibility and collaboration on the MDA 
programs execution.
    Senator Levin. Will you review the relationship of your 
office to MDA for this subcommittee?
    Mr. Young. Yes, sir.
    Senator Levin. Get back to us with any recommendations to 
change that so that you deal with them on the acquisition end 
the same way you do with all other acquisition programs.
    Mr. Young. I would be happy to do that.
    [The information referred to follows:]

    The Director, Missile Defense Agency (MDA) reports directly to me 
organizationally. In accordance with a memorandum signed by Secretary 
Rumsfeld, MDA was delegated certain authorities and flexibilities in 
order to pursue the urgent objective of fielding missile defense 
capability. Within the constraints of this memorandum, I have a set of 
responsibilities to conduct oversight of MDA. Under this memorandum, 
the authorities that I have to perform oversight of the Ballistic 
Missile Defense System are not equivalent to the oversight authorities 
I have for other acquisition programs.

    Senator Levin. Of course, you would involve the other folks 
who are at the table in that. You are not going to do that 
unilaterally. But would you set that in motion?
    Mr. Young. Yes, sir.
    Senator Levin. Just on the question of the new block 
structure that you have, you are going to be reporting 
variances, as I understand it, from the eventual schedule, 
cost, and performance baselines in reports that are classified. 
That is your current plan for your new block structure. I am 
wondering whether or not you cannot make it possible to report 
those also in an unclassified form?
    I have asked you, General Obering.
    General Obering. Sir, we would not have any trouble 
reporting any schedule and cost variances unclassified. 
Performance variances, depending on the level of the 
performance, reporting may be classified.
    Senator Levin. Can you then include that in your block 
structure planning?
    General Obering. Yes, sir.
    Senator Levin. You will give us all of the cost, schedule, 
and as many performance variables as you can?
    General Obering. Yes, sir.
    Senator Levin. Now, one other question. You have not yet 
set the schedule, cost, and performance baselines, as I 
understand it. Is that correct? I am not sure. I guess, 
General, I will look at you for that.
    General Obering. Yes, sir. We had cost, schedule, and 
performance that we were tracking in our old block structure. 
What we have gone to now with the new block structure is we 
have set the cost and we have allocated the budget. We are in 
the process of doing integrated baseline reviews for each one 
of these blocks, so that will be forthcoming.
    Senator Levin. Then when do you expect those baselines 
would be available?
    General Obering. This year.
    Senator Levin. This year? So it could be many months before 
those are available?
    General Obering. We want to make sure that we do it 
correctly.
    Senator Levin. Would you agree, General--and I will ask 
also Secretary Young this question. I think both of you have 
testified before to this, but I want to make sure that you 
understand that for many of us this is a very significant 
point. Would you agree that our missile defense systems need to 
be operationally effective, suitable, survivable, and 
affordable? Secretary Young?
    Mr. Young. I certainly would.
    Senator Levin. General Obering?
    General Obering. Yes, sir.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Senator Bill Nelson. Okay. Senator Sessions.
    Senator Sessions. I would follow up on Senator Inhofe's 
question about the situation with regard to Poland and the 
Czech Republic. In the course of our deliberations in any bills 
that we pass--General Obering, I know you have met with the 
Czechs and know you have met with the Poles on many occasions. 
Is it important that what this Congress passes demonstrates 
that we are committed to this program if and when they approve 
it?
    In other words, can we afford just to say, well, they 
haven't completed all the negotiations with them yet, so we are 
going to put no money up? Would that have an adverse effect on 
the willingness of our allies to make their commitments that we 
need from them?
    General Obering. Sir, in my opinion, last year when 
Congress indicated that they were going to withhold the $85 
million of the $310 million request pending the agreements with 
these nations, that sent the message, I think, to our partners 
and our allies that as an incentive to try to move on with 
getting these agreements.
    If we do not fund the program this year, I think that sends 
a different message, which is lack of support. That is very 
different, and I don't think we want to send that message. I 
think, as I said, there is an urgency about this with respect 
to the threat, and there has also been such great progress, 
with respect to our allies on this, and in the NATO context as 
well. I think that would send a very, very wrong signal to, not 
only our seriousness in this, but also the role of U.S. 
leadership in the overall missile defense area.
    Senator Sessions. This week, the President is meeting with 
NATO leaders. What is the message we are hearing from NATO with 
regard to their view of sites, the radar and ballistic missile 
site in Europe?
    General Obering. Sir, I think that there are a couple of 
facets to that. Number one, I believe that there is a 
recognition that the threat is there, and it has to be 
addressed, and it is growing and maturing. Number two, I think 
that--and there will be, I am sure, more details coming this 
week. But I think that there is a growing recognition that NATO 
needs to do something about this within the NATO context, 
within their active-layer theater missile defense plan and move 
on with that program.
    I think that there is a growing recognition that the U.S. 
proposal could be integrated as we move ahead in the future 
with NATO. So I don't know the specific wording that will come 
out, but I think it will be along those lines.
    Senator Sessions. But overall, the NATO leadership seemed 
to understand and made quite clear, and Mr. Sarkozy of France 
was quite clear, that there is a threat that Europeans know 
they need to deal with.
    General Obering. Yes, sir. Also the Secretary General of 
NATO has been very vocal and very forceful, I think, in his 
description of the NATO position in missile defense and very 
positive about that.
    Senator Sessions. General Obering, your budget request for 
fiscal year 2009 includes $10 million for a space test-bed to 
begin a concept analysis in preparation for certain small-scale 
experiments. As I understand it, the purpose of this is to 
provide data that could help us make more informed decisions 
about the utility and feasibility of a space-based interceptor 
capability. Give us some more insight into your reason for that 
request and how it would be used.
    General Obering. Sir, I wish that I could tell you in the 
next 20 years what the missile threats to the United States 
will be, and I wish the Intelligence Community could see that 
with a crystal ball, but they can't. So, I think it is very 
prudent that out of a $9.3 billion request, that we allocate at 
least $10 million to maintaining our options with respect to 
the future, and that future, in terms of flexibility of not 
knowing which axis the threat may come from, is in space, and 
there are things that we need to understand about that. There 
was a lot of work done in a space-based layer back in the 1980s 
on the Strategic Defense Initiative program. But a lot of that 
was brought to a halt in the early 1990s. We haven't done 
anything significant since then with respect to this. Then if 
we look out to the future, we need to make sure that we keep 
our options open.
    We believe that there will be a debate about this, 
obviously, as the Nation proceeds. But we would like to be able 
to inform that debate with some type of technical understanding 
of what is doable and what is not.
    We like to use knowledge points, as Secretary Young 
referred to, in a prototyping context, we call them knowledge 
points. We think it is important to establish some of the 
knowledge points that we may need in the future for space-based 
capabilities. As you say, it is a very, very, very modest 
request, but we think it is important to keep our options open.
    If I may, one last example? Many describe this as ``we 
don't need to be spending money for futuristic capabilities.'' 
I would look backwards and say if we had made the same 
statements in the mid-1990s about the Ground-Based Mid-Course 
Defense (GMD) System that we fielded, beginning in 2004, we 
would not have had a system to activate when the North Koreans 
launched their missiles in the summer of 2006, and we would not 
have been able to give the President an option other than 
preemption or retaliation had that been a threat.
    I think we have to be very careful about maintaining a 
balance. We already are fielding and developing for fielding in 
the near term about 75 percent of our budget. Only about 25 
percent is allocated to future capabilities such as the space 
test bed.
    Senator Sessions. Well, you are right. We have emphasized 
actually deploying systems that we have developed in work 
because we need the Terminal High Altitude Area Defense (THAAD) 
and the Patriot Advanced Capability-3 (PAC-3), and this budget 
that we talk about is not all ballistic missile defense. It is 
not all national missile defense. Huge amounts of it are SM-3s 
on ships, THAADs, and Patriots that protect our soldiers in 
theaters that could be hostile and dangerous from missile 
attack, just essential parts of the Nation's defense.
    I think a $10 million request is legitimate to explore what 
options might exist out there and, as you said, help inform us 
if we were ever to want to move forward with something in that 
area.
    Mr. Chairman, I will turn it back to you.
    Senator Bill Nelson. Thank you, Senator Sessions.
    Well, speaking of THAAD, General Obering, it is a high 
priority. You want flexibility. Why did you propose a budget 
request that would delay the delivery of THAAD interceptors by 
a year and result in a production gap of 18 months?
    General Obering. Sir, part of what I do in my job as the 
acquisition executive for the missile defense programs is to 
make sure that we are holding contractors accountable and that 
we are holding our programs accountable. Now in the case of 
THAAD, we had good performance with respect to our test 
program. They are now four for four in terms of their intercept 
testing, but there was cost growth associated with the program 
that was unacceptable.
    We had worked with the contractors to take a look at the 
cost growth and begin to get those under control because we did 
not want to have a very successful program that became 
unaffordable in terms of the per-missile cost. The initial 
attempts at that by the contractor were not successful. So we 
zeroed out that portion of what we call the award fee incentive 
for them in cost management in the program. We got their 
attention, and they began reducing that cost growth to a very 
acceptable level.
    In the meantime, though, that generated a bill that had to 
be paid within the portfolio. Now the initial blush at that was 
they were going to have to delay the delivery of fire units 3 
and 4. We went back and scrubbed that very hard and said, 
``wait a minute, do we have to do that? Why don't we go ahead 
and look at other places that are not as much value added to 
the program?'' They did that. So now we do not have a delay in 
the delivery of those fire units.
    To answer your question very directly--I don't want to 
reward unhelpful behavior, but at the same time, I want to 
maintain a priority on the program.
    Senator Bill Nelson. All right. Can you boil that down then 
to a simple answer to the question, why did you propose the 
budget request for the delay and a production gap of 18 months?
    General Obering. At the time, we were trying to see how we 
could reduce the cost, and we had not finished that. Now we 
have done that, and we don't believe that there will be a delay 
in those fire units.
    Senator Bill Nelson. Wasn't it that the staff of this 
committee objected to the delay in February that you decided to 
change your plans for the 2009 funds to avoid the delay?
    General Obering. Sir, we were working that back in 
November, actually. So we were continually trying to address 
these cost growths.
    Senator Bill Nelson. So the fix is now planned for fiscal 
year 2009?
    General Obering. Yes, sir.
    Senator Bill Nelson. But that is money that we will have to 
appropriate in the future, a fix for 2009.
    All right. Secretary Young, are you committed to ensuring 
that our combatant commanders have sufficient inventory of 
THAAD and SM-3 interceptors to meet the requirements of their 
operational plans?
    Mr. Young. Certainly, sir. Our job is to at least receive 
the requirements. Unless there is a cost or a technology issue, 
we try to meet them. I know there is a new joint capability mix 
study, which you are probably aware of, that General Obering's 
organization is digesting and seeking to address because they 
have, indeed, indicated they may need greater inventory.
    I would tell you that MDA is balancing those demands 
amongst the other demands and also doing a very good thing, and 
that is making sure we pick the right sets of integrated 
capability. It may not just be THAAD, but SM-3 and THAAD that 
they need to address the theater threat.
    Senator Bill Nelson. So the answer is yes?
    Mr. Young. Yes, sir.
    Senator Bill Nelson. General Campbell?
    General Campbell. Yes, sir. We are committed to working 
with the combatant commanders (COCOMs) to give them what they 
need, and it is our understanding that MDA is going to adjust 
their budget submission so that they can meet those demands we 
have identified in the study. That study is going to be briefed 
to your staffs this Friday. It is a classified study.
    Senator Bill Nelson. So the answer is yes?
    General Campbell. Yes.
    Senator Bill Nelson. I can tell you that we hear from the 
COCOMs, and they want this system. General Obering, same 
question.
    General Obering. Yes, sir. In fact, my initial mission is 
to do development and initial fielding, and then it is up to 
the Strategic Command (STRATCOM), the COCOMs, working within 
the department as to what the force structure sizes are that we 
need to go to address. The joint capability mix number two 
study outlined the increases in numbers for both THAAD and 
Aegis SM-3s, and we do intend to address that in our Program 
Objectives Memorandum-10 (POM-10) submission to be able to get 
to the numbers that they have recommended.
    That means that we will go in and make adjustments within 
our development program to be able to meet that, but that is 
our intent.
    Senator Bill Nelson. Okay. Well, speaking of the SM-3 Block 
1A interceptors, the authorization for fiscal year 2008 
required that any funds in the budget for fiscal year 2009 for 
long-lead procurement of additional Standard Missile-3 (SM-3) 
Block 1A interceptors should be procurement funds. But that is 
not what happened.
    This has been discussed between Congress and your agency, 
and the department has not complied with that requirement of 
procurement funds. Instead, the budget request seeks research 
and development funds for the long-lead of the additional SM-3 
interceptors. So why is your budget at variance with the law?
    General Obering. Well, sir, first of all, the law was 
passed after the budget had been finalized for 2009. We 
attempted because we understood the direction it was headed--to 
try to structure the budget for procurement, but we were not 
able to do so within the Department because of the timing I 
just talked about.
    Now if Congress appropriates, obviously, in the procurement 
appropriations, we will execute those. But we have to work 
within the department's context. We don't do this directly with 
Congress.
    Senator Bill Nelson. Secretary Young, what do you think 
about this?
    Mr. Young. I think we need to comply with the law, where 
you ask us to, and certainly for POM-10, MDA is committed to 
looking to comply with the law. I am not sure about the 
timelines for building the 2009 budget and whether we could 
have made those changes given the timing of the passage of the 
authorization act.
    Senator Bill Nelson. Well, let me ask both of you, do you 
agree that the 2009 funds for the long-lead SM-3 and THAAD 
interceptors should come from procurement funds?
    General Obering. Sir, like I said, we will execute whatever 
is appropriated with respect to those interceptors.
    Senator Bill Nelson. Well, what the law says is that it 
should come from procurement funds.
    General Obering. Yes, sir.
    Senator Bill Nelson. So you are saying that the 
appropriations may say something different than the 
authorization law?
    General Obering. Sir, I am saying that we will abide by the 
law. We will abide by what Congress has asked for us within the 
direction and the guidance that we get from the Department.
    Senator Bill Nelson. We are supposed to be oversight, and 
we have a law. It is our responsibility to see that the 
executive branch of Government carries out the law. Anything 
else you want to say on this issue?
    General Obering. No, sir.
    Senator Bill Nelson. All right. In the National Defense 
Authorization Act for Fiscal Year 2008, it required the MDA to 
take a number of steps in its acquisition activities to improve 
transparency, accountability, and oversight. Those things were 
cost, schedule, performance baselines, and so forth. Have those 
requirements been fulfilled?
    General Obering. Yes, sir. We believe that we have made a 
great step forward there. We have totally restructured our 
programs into finite blocks of capability that can be 
baselined, fielded, and tracked to include the life-cycle 
costing of those, and we are working with the Cost Analysis 
Improvement Group, and others to be able to provide those. So 
we feel that we have taken great steps there.
    In addition, as Secretary Young pointed out earlier, we 
established the MDEB of which I am the secretary and Secretary 
Young chairs. That is made up of principals across the 
Department to aid in the oversight of the program and to make 
sure that we are complying, obviously with the wishes of the 
Department and the wishes of the COCOMs as we move forward.
    So I think we have done quite a bit there in terms of 
meeting the intent of that.
    Senator Bill Nelson. Okay. The question is, with regard to 
the law and things such as cost, schedule, performance 
baselines, and unit cost reporting, will you provide the 
subcommittee with a specific list of all the specific actions 
that MDA has taken to comply with this section of the law?
    General Obering. I would be happy to, sir.
    [The information referred to follows:]

    Pursuant to section 234 of the Ronald W. Reagan National Defense 
Authorization Act for Fiscal Year 2005 (Public Law 108-375), the 
Missile Defense Agency (MDA) established schedule, budget, and 
performance baselines for each block configuration being fielded 
(biennial Blocks 04, 06, and 08 under the previous block structure) and 
reported variances annually in the agency's Statement of Goals (SOG).
    In 2007, MDA established a new block structure to address concerns 
about transparency, accountability, and oversight and to better 
communicate to Congress and other key stakeholders our plans and 
baselines and our continuing improvements in Ballistic Missile Defense 
System (BMDS) capabilities. Blocks will be based on fielded 
capabilities--not biennial time periods--that address particular 
threats, and each block will represent a discrete program of work. When 
blocks are established, schedule, budget, and performance goals will be 
defined for each block. These goals, revised as necessary, will become 
baselines when MDA can make a firm commitment to Congress because we 
have a high level of confidence that the baselines can be achieved.
    MDA has established schedule, budget, and performance baselines for 
Blocks 1.0 (Defense of the U.S. from Limited North Korean Long-Range 
Threats), 2.0 (Defense of Allies and Deployed Forces from Short-to-
Medium Range Threats in One Region/Theater), and Block 3.1/3.2 (Expand 
Defense of the U.S. to Include Limited Iranian Long-Range Threats). We 
have established goals, not baselines for Block 3.3 (Expand Defense of 
the U.S. to Include Limited Iranian Long-Range Threats--Improved 
Discrimination and System Track), Block 4.0 (Defense of Allies and 
Deployed Forces in Europe from Limited Long-Range Threats/Expand 
Protection of the U.S. Homeland), and Block 5.0 (Expand Defense of 
Allies and Deployed Forces from Short- to Intermediate-Range Threats in 
Two Regions/Theaters). In the SOG that accompanied the President's 
budget for fiscal year 2009, we presented these baselines and goals.
    In each subsequent year's SOG, we will explain any significant 
variances from schedule, budget, and performance baselines and the 
reasons for redefining block goals. We will also explain changes in 
year-to-year funding plans for each block over the period of the Future 
Years Defense Plan. This level of reporting is a significant 
enhancement to transparency.
    MDA has also begun establishing unit cost baseline estimates for 
BMDS capabilities being acquired and delivered to the warfighter. Our 
approach is to build these estimates from the level of selected 
components to be fielded (such as the Terminal High Altitude Area 
Defense (THAAD) Fire Unit) to the element THAAD level and eventually to 
the block level. This latter calculation will be a full block cost 
baseline estimate. Before establishing cost baseline estimates, MDA 
will request an independent review by the Cost Analysis Improvement 
Group, Department of Defense's (DOD) independent cost estimating unit.
    Once the estimates are established, MDA will report any significant 
cost variance to Congress. This information will supplement the 
reporting of acquisition cost at the BMDS level in the agency's annual 
Selected Acquisition Report. We are now in the process of determining 
the thresholds to report such cost variations and will incorporate them 
in a MDA directive.
    While our capabilities-based, spiral development program may not 
provide the identical kind of information and baselines generated under 
DOD Instruction 5000 for traditional acquisition programs, our 
intention is to fully meet the transparency, accountability, and 
oversight needs of Congress and other stakeholders.

    Senator Bill Nelson. Secretary Young, would you help 
facilitate this to see that these requirements are implemented?
    Mr. Young. Absolutely, sir.
    Senator Bill Nelson. Okay. Senator Pryor, what I have been 
doing is deferring to our colleagues and I've let them ask the 
questions first. So I would turn to you.
    Senator Pryor. Thank you. Has Senator Sessions already 
asked?
    Senator Bill Nelson. He has already, and he is going to 
jump in whenever he wants to again. [Laughter.]
    Senator Pryor. Okay, thank you. Thank you, Mr. Chairman, 
and thank you, Senator Sessions, as well. I appreciate your 
leadership on this.
    Lieutenant General Campbell, let me start with you, if I 
may follow up on a question, a line of questions I heard 
Senator Nelson asking when I came into the room--I am sorry for 
being late--about the THAAD system and the SM-3 system. Let us 
see, the original inventory objective for the THAAD program was 
1,250 missiles. Our current inventory objective is less than 10 
percent of that. As I understand it, the people who have looked 
at it said that we need quite a bit more than what we have in 
our current inventory, at least that is the concern.
    Can you explain how force structure and inventory 
objectives are determined for these near-term theater systems 
and how the process could be improved to ensure that our 
military has the capabilities they need to defend against 
existing threats?
    General Campbell. Yes, Senator. Normally, we do studies. We 
do modeling and analysis in wartime settings by theaters, 
taking a look at what the threat has in their order of battle, 
what blue forces have in their order of battle, and we look at 
all the forces. We look at offensive forces, defensive forces 
in combination and make a determination then what is required 
to defend critical assets within that particular theater.
    In most cases, we are never going to get to the point where 
we will have enough missiles to defend against every ballistic 
missile that an adversary is going to have. So, therefore, we 
consider in these protocols offensive capabilities that could 
reduce their effectiveness, other actions, passive defense 
measures that a COCOM could take--perhaps moving critical 
facilities off of locations further away from the shores of an 
adversary.
    So then we arrive and have to make determinations on risk. 
Do we have a low-risk situation, a moderate risk, or a high-
risk situation? Can we live with those risks, given the 
operations we expect to perform in that particular theater? 
Then that results in a number that then we will pursue for a 
particular system.
    Senator Pryor. Let me make sure I understand. The 1,250 
original figure, was that just picked out of thin air?
    General Campbell. I am not familiar with the analysis that 
supported the 1,250. I know that was back in the 1990s, that 
particular study, but I am not familiar with what scenarios 
they looked at. I am more familiar with what the JCM has looked 
at. I am familiar with those scenarios, and I understand the 
numbers and how we arrived at those.
    Senator Pryor. Do you take into consideration what the 
COCOMs are saying in terms of their needs?
    General Campbell. Absolutely.
    Senator Pryor. Secretary Young, let me ask your thoughts on 
this. Does this process of determining how many, in this case, 
THAAD missiles--but determining how many missiles we have, can 
we improve that process? Does your office play a role in coming 
out with those numbers? Could you tell the subcommittee that, 
please?
    Mr. Young. I think this is a good discussion for this MDEB 
we talked about. I would tell you that the updated joint 
capability mix study is a good starting point. As General 
Campbell rightly pointed out, we may not be able to address 
every threat. We may not need to because we have other 
offensive strike capabilities that will hopefully take out some 
of the threats before they launch.
    But I believe we will bring this discussion into a MDEB to 
have the discussion. The nice thing or the benefits of having 
an MDA organization is that we will look across the full set of 
missile defense capabilities and trade THAAD, SM-3, and PAC-3 
and do it effectively and get a joint capability instead of 
single-service capability. But we will be looking at this, and 
we have a good starting point for the discussion with the new 
mix study.
    Senator Pryor. Thank you.
    General Obering, thank you again for your leadership on 
this, and it is good to see you again. Let me ask about the 
Multiple Kill Vehicle (MKV) program. As I understand it, we are 
trying to develop this MKV program. Could you give us just a 
quick status report on that?
    General Obering. Yes, sir. As I have stated and testified 
in the past, today we have the ability to deal with simple 
countermeasures, and we have flown against those in our flight 
test program in the past. When we get to very complex 
countermeasures, that gives us a problem. So that is a 
limitation of our system. We are addressing that through a 
number of ways.
    One is to be able to do what we call birth-to-death 
tracking of the target suite. The second thing is to employ 
more advanced sensors and algorithms, and we have deployed the 
radars. Now we are going to be equipping those with the 
algorithms that will allow us to do the discrimination. The 
third piece of that is being able to equip each interceptor 
with more than a single kill vehicle so it can take out more 
than one what we call ``credible object.''
    So we believe that is very important to meeting the intent 
that we have stated all along. It has actually been part of the 
criticisms of missile defense that you can't handle complex 
countermeasures. This is the way we do that.
    We have a plan that we have embarked upon to provide a 
volume kill or MKV capability to our GMS interceptors, our KEIs 
as well, along with the sea-based interceptors, the SM-3 Block 
2A, because it will be large enough to be able to handle the 
volume kill capabilities.
    Senator Pryor. What impact does that have on Japan? As I 
understand it, they were the single kill vehicle?
    General Obering. Well, first of all, we are not walking 
away from the single kill vehicle. We will have that as a 
complement, and that is the baseline right now of the co-
development with the Japanese. What we wanted to do is have a 
volume kill capability as a Block B of that and have the SM-3 
Block 2A as the unitary kill vehicle and the Block 2B as the 
MKV.
    I have discussed this with our Japanese friends. Initially, 
the Japanese were reluctant because they did not want to have 
anything that would perturb the baseline for the unitary kill 
vehicle. When we had further discussion with them and we 
assuaged those concerns, they actually sent a letter to me 
documenting that they were okay with the MKV program, and we 
think that we are on track with that.
    Senator Pryor. I assume that we are counting on Japan to 
play a role with our missile defense system? Is that right?
    General Obering. Yes, sir. They are our leading ally right 
now. With respect to their own investments in missile defense, 
they are approaching about $1.5 billion a year, as I recall. 
They are not only procuring capabilities from us, such as the 
Patriot 3, they are also co-developing their own capabilities 
like the SM-3 Block 2A I just talked about and expanding their 
sea-based capabilities and sensor networks as well.
    We have a very strong and robust partnership with Japan.
    Senator Pryor. This is my last question, Mr. Chairman. Not 
to belabor the history on this next question, but I know that 
in 2002, Secretary Rumsfeld exempted MDA from some requirements 
that you had. There was a concern that maybe the warfighters 
were not having their say in the process. So there is a program 
that you initiated called the Warfighter Involvement Program.
    How has that initiative worked? Are you seeing a positive 
change? Has it been successful?
    General Obering. Yes, sir. I am glad--thank you very much 
for that question.
    There was a misconception when Secretary Rumsfeld exempted 
us from the operational requirements documents that we were 
walking away from warfighter requirements, and we never did 
that. What we were trying to do is actually be able to 
accelerate to meet the warfighter desires and to be able to 
adapt to changes in the threat and to changes in those 
requirements.
    The requirements process that he exempted us from was a 
very tedious and laborious process that was difficult to 
change. We went to a different model in which we do much more 
collaboration with the warfighter as we go through defining 
what the capabilities are that we will be developing and 
fielding. In fact, the warfighter involvement process that you 
refer to is where STRATCOM, under their unified command plan 
responsibility as the arbitrator, so to speak, and proponent 
and advocate for missile defense, works very closely with us.
    They gather up all of the COCOMs' requirements via their 
integrated prioritized list, and when it comes to missile 
defense, they meld that into a listing for us. Then we work 
with them to tell them what we think is affordable, what we 
think is doable from a technical perspective, and when we think 
we could deliver that.
    But I would encourage you, also, to ask the Commander of 
STRATCOM, General Chilton, about that. I think that they are 
pleased with that process. In fact, the last discussion I had 
with him, he actually wants to accelerate that even more than 
we have done in the past with respect to our POM-10.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Bill Nelson. Several of you have mentioned the 
MDEB. So, Mr. Francis, let me ask you, as a part of the 
leadership of the GAO, you have been looking at the oversight 
of this entire defense program for a number of years. What are 
your views on the MDEB?
    Mr. Francis. Well, Mr. Chairman, I think the executive 
board is more substantive than its predecessor. I think the 
membership is of a higher level. There are four standing 
committees, each with designated responsibilities that I think 
are intended to create a better flow of information across 
different areas in the Department and different vested 
interests.
    I think the executive board does have a pretty good charter 
about making recommendations and particularly looking at 
business cases for making investment. So I think on that score, 
the executive board is better than the support group that 
preceded it. I think also that Mr. Young has been pretty active 
in having fairly regular meetings. I think the old support 
group kind of fell into disuse, and it wasn't meeting anymore.
    I don't think that the executive board does carry the full 
weight, if you will, of a defense acquisition board (DAB) on 
other systems, which is set up to inform and help Mr. Young 
make milestone decisions. Right now, the executive board is not 
an approval board, it doesn't approve missile defense 
decisions. So it stops short of that.
    I would say there is probably some information, we were 
talking earlier about cost, and I think that might get 
resolved. But right now, they wouldn't get the full cost 
information that a DAB would. To the extent that Dr. McQueary 
is not able to do a full evaluation of operational 
effectiveness and suitability, that would be something else 
that might limit what the executive board could do.
    Senator Bill Nelson. All right. I am going to get to Dr. 
McQueary in a minute.
    General Obering, your testimony makes a number of comments 
about the new block structure. You say, ``Once baselines are 
defined, work cannot be moved from one block to another.'' Does 
that mean before the baselines are defined that work can be 
transferred?
    General Obering. Yes, sir, we were talking in the context 
of the old 2004, 2006, 2008 block structure, we had the 
flexibility to move back and forth in terms of the work scope. 
In terms of the new block structure, our intent is that we will 
define the fielded baselines. We allocate, as I said, the 
budget to those, and then we execute to those baselines.
    Now there always may be fact-of-life changes that we will 
have to incur. But again, we would report those as part of our 
reporting process.
    Senator Bill Nelson. Last year's National Defense 
Authorization Act required that you obtain independent cost 
estimates for the missile defense systems. Will you also seek 
independent cost estimates on your block cost estimates?
    General Obering. Yes, sir, and by the way, we have been 
doing independent cost estimates for quite awhile, so there may 
be some misunderstanding. But we have been doing independent 
cost estimates, working with the Department in the past, and we 
intend to do so with the blocks.
    Senator Bill Nelson. Mr. Francis, do you have some comments 
about the issue of baselines and cost estimates?
    Mr. Francis. Yes, Mr. Chairman. I think missile defense 
intends to do a total cost estimate for each of the blocks and 
to baseline that. So I think one of the advantages of that is 
they won't keep moving scope in and out of those blocks and 
across them. That has made it difficult for us in the past to 
say, ``gee, are you getting value for money?''
    One of the things, and I think you cleared it up earlier on 
a question, is the timeline. In other words, when is missile 
defense going to provide those estimates and those baselines? 
What criteria will it use to say when something is ready to be 
baselined, and then how is it going to report variances on, for 
example, unit costs and what assets?
    So I think some of those things are to be determined, and I 
think that is something that MDA should work out in 
consultation with Congress.
    Senator Bill Nelson. Now to you, Dr. McQueary. The law 
requires you to report on the operational effectiveness, 
suitability, and survivability at the end of each 2-year block. 
Now with the changing of the block structure so that there are 
no more 2-year blocks, would you be able to provide the report 
on the characterization of the effectiveness, suitability, and 
survivability on an annual basis in your required annual 
report?
    Dr. McQueary. That would be the proposal that we would make 
to you, sir, if that serves your needs.
    Senator Bill Nelson. Okay. Your organization produced a 
report last October outlining the concept for a basic test plan 
for the proposed European Ground-Based Midcourse Defense (GMD) 
program, and your plan would permit an initial demonstration of 
whether that proposed system could accomplish its mission. You 
note significant differences between the GMD system and that 
already deployed. Your report says, ``Simply testing the new 
two-stage booster in a flight test is inadequate to assess the 
operational effectiveness of the European deployment assets.''
    So do we correctly surmise from your report's 
recommendation that it represents minimum testing you believe 
to be necessary to permit the initial level of assessment of 
the ability of the proposed system to accomplish its goal?
    Dr. McQueary. If I could come back to a point that I made 
last year of the importance of modeling and simulation? One can 
get by with fewer numbers of actual tests if one has high-
fidelity modeling and simulation. General Obering has expended 
a great deal of effort this past year. There is much more to be 
done in order to reach a point to where we have fully 
accredited models and simulation for BMDS.
    Now, with that being said, with high-fidelity accredited 
models in which we have confidence in those models, based upon 
showing that the models themselves are responsive and duplicate 
information that we get from actual tests, it is our belief 
that for the two-stage rocket, the two-stage motor, that have 
one test at what I will call a taped target, not a live target, 
and one test that is against an actual target, and the MDA has 
that currently scheduled in their plans, I believe. It is our 
belief that we need one more such shot that simulates the 
actual engagement scenarios that one would see in the European 
theater in order to gain confidence in the modeling and 
simulation so that one could then explore the battle space in 
more detail using the modeling and simulation.
    Senator Bill Nelson. So one more would be how many?
    Dr. McQueary. That would make a total of three.
    Senator Bill Nelson. A total of three.
    Dr. McQueary. A total of three in our judgment, yes. These 
assume successes on each one of those, by the way.
    Senator Bill Nelson. I thought there were three initial 
tests?
    Dr. McQueary. I believe that the MDA has two, and we had 
indicated that we believe we need three, the third one being a 
test that is in an actual engagement scenario that one would 
see as in the European theater.
    Senator Bill Nelson. Okay, we have a disconnect on that.
    Dr. McQueary. Maybe I have caused it.
    Senator Bill Nelson. All right. MDA, I am told, was 
planning to do two. DOT&E says, no, you need to do three.
    Dr. McQueary. That is correct.
    Senator Bill Nelson. All right.
    Dr. McQueary. But to give full credit to MDA, the test 
plans that they continue to develop evolve with discussions 
with us over time. So we continue to discuss the issue with 
them. It is not closed as far as we are concerned.
    Senator Bill Nelson. All right. Let us go back to the 
models and the testing. In your annual report, you said that 
the system ``was hampered by the lack of flight test data and 
unverified and unvalidated models and simulations.'' So it 
seems that that means until these models and simulations are 
anchored with enough flight tests, verified and validated, that 
you are not going to be able to have confidence in the 
operational performance. Is that true?
    Dr. McQueary. Yes, sir. That is true.
    Senator Bill Nelson. All right. Your report also says, 
``MDA must accomplish more development, integration, and 
testing before it adequately matures its models and simulations 
and collects sufficient data to allow for verification, 
validation, and accreditation.'' Continuing, ``This critical 
step is required before quantitative evaluation of performance 
can occur.''
    So it says that, ``these models and simulations are a long 
way from being ready for accreditation.'' That this situation 
``has severely hampered the efforts to characterize'' the 
performance of the system. So is it likely going to take 
several more years to get these validated and verified models 
in place?
    Dr. McQueary. Well, I think it will be measured in years. 
Whether it is several or whether it is a few I am not sure 
because we don't have a schedule for the complete development 
yet, and I think that is the important question to be answered. 
But I think most importantly, the work that MDA did in this 
past year of looking at the some 33 models that actually 
represent various elements of MDA and determining whether those 
models could be accredited or not was a major step forward 
because one has to know where one is before deciding where they 
want to go.
    So that was done, and there are, I believe, 5 of the 33 
that actually received partial accreditation. But that means 
there are 26 that did not, and many of those models simply do 
not have sufficient data from actual flight tests in order to 
be able to help accredit them. Now that is one step. There are 
a series of steps associated.
    There also must be developed what I will call an MDA model 
that one would use for fully exploring the battle space so you 
can do what I will call Monte Carlo simulations--these are 
looking at variabilities and trajectories and so forth--to gain 
the confidence that this system will work in the battle space 
in which it is scheduled to be worked. That applies whether we 
are talking with the U.S.-based system or the European-based 
system.
    Senator Bill Nelson. All right. Now, and your report 
further goes on to talk about some of the problems that have 
been encountered with the target missiles for flight tests, and 
you observe failure rates of 20 percent and cost increases of 
450 percent. Do you want to describe some of your concerns?
    Dr. McQueary. In the last 18 months, and General Obering 
touches upon this same subject in his prepared remarks for the 
record, and I believe he mentions 2 complete failures out of 
the 42 units. We have looked primarily at the last 18 months 
because that is more near-term, and out of that we have had two 
complete failures, and there were two partial failures in 
systems.
    Senator Bill Nelson. Out of how many flights in the last 18 
months?
    Dr. McQueary. Out of, I believe, 20. I believe the number 
is 20.
    Senator Bill Nelson. So 4 out of 20?
    Dr. McQueary. Four out of 20. So you are talking a 20 
percent difficulty rate and certainly a 10 percent failure rate 
and 10 percent more of difficulty with the targets.
    The targets of necessity have become more and more complex 
because, keep in mind, we are trying to simulate what the 
threat would be. So inherently the targets will become more 
complex. In fact, they will become more complex over time.
    So the flexible target approach that General Obering and 
his folks have undertaken, I think that is an important step. 
But nevertheless, targets have been, to a degree, a limiting 
factor in how fast testing could be done because some tests had 
to be delayed because of target failures, for example, and you 
have to regroup after that.
    Senator Bill Nelson. As a matter of fact, you noted that in 
your report that a number of the important tests had been 
delayed or eliminated because of the target problems. Well, 
what about if targets were available, do you think that the 
Aegis and the THAAD should conduct four tests per year?
    Dr. McQueary. I am an advocate of the test-evaluate-fix 
approach that General Obering and MDA has used, and that has 
nothing to do with my association with MDA. It has been a view 
that I have had for a long period of time in my career. I spent 
a couple of years on Kwajalein a long time ago before many 
people in the room were born, and----
    Senator Bill Nelson. No wonder you look so cool and 
collected.
    Dr. McQueary. We ran 31 missions in a 2-year period of 
time, and I can tell you, we were having difficulty 
understanding what the problems were with a given mission 
before we went on to the next one. So, I am a very strong 
advocate on complex systems of taking the time to analyze the 
data that is collected so we can understand because data tells 
you, gives you information that isn't always apparent at first 
look.
    I think it is very, very important in developing highly 
complex systems to have good models and simulations to support 
them and also to take the time to analyze the data that is 
associated with those very expensive tests that are conducted.
    Senator Bill Nelson. Therefore, you are saying then that 
just as they did previously, you ought to do four tests a year 
on Aegis and THAAD?
    Dr. McQueary. I don't know whether four is the right number 
or not. I would tie it to the ability to be able to analyze the 
data and let that be the driving function.
    Senator Bill Nelson. What say you, General Obering?
    General Obering. Sir, I think we should test to verify, not 
test to discover. I believe that you should test based on your 
objectives and not on a calendar. As Dr. McQueary stated, if we 
were going to go out and fly five, six, or seven times a year 
and we are not learning anything different in each flight test, 
it is a waste of the taxpayers' money, in my mind. These are 
expensive tests. They can be $80 million or more for some of 
these tests.
    So what we want to do is take complete advantage of the 
opportunity to test and understand what we learned from the 
previous test, and by the way, we work this very closely with 
the testers. We collect just volumes and volumes of data on 
these tests. We like to go through and understand all of it. 
Sometimes it takes us months to go through and reduce that data 
so that we understand where we want to go for the next one.
    What we like to do is base our testing on the event 
structure, not on a particular calendar. Now, for planning 
purposes, what we stated is that we would like to target 
anywhere from two to four tests per year depending on the 
system and the maturity. But again, that depends on what stage 
we are going into.
    As we complete the testing on the Block 1A for the SM-3, 
for example, we will probably slow that down in anticipation of 
more Block 1B testing that is, by the way, a major upgrade to 
that interceptor, and is much more dramatic than going from a 
three-stage to a two-stage on the long-range interceptor. So we 
like to pace our testing based on our development needs, based 
on the warfighter objectives, and based on the test team 
objectives.
    Senator Bill Nelson. If you had more targets, would you do 
more tests?
    General Obering. It depends. It all depends. If you are 
totally success-oriented, yes, sir. If we were continuing to 
fly and we were successful in reducing the data, I would say 
that even if we were successful on every test, we would 
probably not be able to fly more than twice a year for the 
long-range program because of the complexity of those tests, 
the data reduction timelines, the target complexities, and the 
distances, et cetera. We probably could do better on the 
shorter range because of the simpler approach to that in terms 
of the rate.
    But again, if you have a target failure, as Dr. McQueary 
referred to, we had one target failure for THAAD. We had a 
target failure for the long-range system as well in terms of 
our intercept. We only had two target failures in the last 18 
months for our intercept test, but we had to go understand what 
that failure mode was before we could get back in the air with 
another target.
    So it doesn't do us any good to have two targets sitting in 
the barn--we go out, try to fly one, and it fails and then pull 
the other one out--because we need to understand why that first 
one failed before we can pull the second one out to go fly it.
    Senator Bill Nelson. Mr. Francis, in your testimony, you 
make the point that the original estimate for the ABL was that 
it would cost $1 billion, and it would take until 2001. Now the 
program has had a 500 percent cost increase, over $5 billion, 
and it won't complete its demonstration until 2009.
    At the end of that period, we would expect that there would 
be an attempt to shoot down a boosting short-range missile to 
demonstrate proof of the ABL system. If that system works, do 
you believe that the initial shoot-down demonstration will 
constitute proof that the ABL system will work as operationally 
effective?
    Mr. Francis. Well, Mr. Chairman, I think that the lethality 
demonstration in 2009 is essential, and it has been kind of a 
difficult path to get here. But it is, I think, good that we 
are at this point.
    I would say that the lethality demonstration by itself 
wouldn't be proof that ABL is the system that we are going to 
go full with to field for the boost-phase system because it is 
a demonstration, and I think what that means is that if it is 
successful, it says, gee, we can do this.
    Then the next thing you want to do is actual testing. This 
is a demonstration. Testing tells you how repeatable this is 
and how reliable. Can we do this consistently? That would give 
you another data point.
    Then you would have to look at and analyze what I would say 
is the operational practicality, which is if the asset works, 
can we get it where it needs to be and can we keep it on 
station so it can do its job? Then I think, finally, you want 
to say if we can do all of that, can we provide the basing, the 
maintenance, logistics, the people, and so forth to make that 
happen?
    I think it is a crucial first question here for ABL to 
answer, but I think there are other things you want to know 
before you are absolutely certain that it is the right system.
    Senator Bill Nelson. So you are saying not only 
operationally effective, you are saying affordable, suitable, 
and survivable?
    Mr. Francis. Yes, sir.
    General Obering. Sir, may I chime in on that, please?
    Senator Bill Nelson. Please.
    General Obering. That is a great example of where the 
flexibilities and what we are approaching in MDA is offering a 
different solution for the department. The ABL program was an 
Air Force program before it was transitioned to the MDA. It was 
being acquired under the normal rules, the normal approaches. 
What they had done is they had established a major acquisition 
program. They had built up the army of people to support that, 
and they were working on maintainability, supportability, all 
of the ``-ilities'' that everybody wants to have, and they had 
not even achieved first light out of the laser.
    We said stop. When we took over the program, we said, stop, 
that doesn't make any sense. You have to go through and show 
that you have the knowledge point achieved to take the first 
flight of the aircraft that has been heavily modified and be 
able to fire that laser for the first time. Since we did that, 
and we have seen steady progress by that program going into the 
lethal shoot-down for next year.
    Now I echo what Mr. Francis says. We are not looking just 
at a technical demonstration. We are looking at the lessons 
learned in this demonstration and what does it mean for 
affordability and for operational suitability? We will collect 
all of this data from the test series that we will initiate 
here for the lethal shoot-down in 2009 and then make a 
determination as to what we need to do to the program, not 
unlike, by the way, what happened on the THAAD program from 
2000 until about the 2005 timeframe.
    Senator Bill Nelson. Are you satisfied that you haven't 
sacrificed the development of the kinetic system on the boost 
phase?
    General Obering. Sacrificed that? No, sir.
    Senator Bill Nelson. By pouring the $5 billion into the 
ABL?
    General Obering. No, sir. I do not. In fact, we are the 
ones that initiated the KEI program, and I was a great 
supporter and have been a great supporter of that program over 
here on the Hill since I have been the director for the past 
3\1/2\ years.
    So, no, sir, we were not sacrificing that. We could not get 
support from the Hill on the KEI program to get it an adequate 
start. We now are getting that support, and so I think we do 
want to have an alternative.
    Senator Bill Nelson. Go ahead, Senator Sessions.
    Senator Sessions. Did I hear you say how much money had 
been spent on ABL before it was transferred to your direction?
    General Obering. Sir, I would have to go get you the 
numbers in terms of what that amount was, but we could do that. 
Especially what the budget estimates were for it back then, et 
cetera, we can do that.
    [The information referred to follows:]

    (1) The initial estimate for the Airborne Laser (ABL) was $1.3 
billion (Base Year 2008) with lethal demonstration scheduled for 
September 2002 as disclosed in the ABL Selected Acquisition Report 
dated 31 December 1996 (RCS DD-A&T (Q&A) 823); (2) The amount of money 
spent on ABL from fiscal year 1996 through fiscal year 2001 prior to 
the program being transferred to MDA in fiscal year 2001 was $1.4 
billion (Base Year 2008). Current funding for fiscal year 1996-2009 is 
$5.1 billion (or $5.4 billion Base Year 2008) with lethal demonstration 
slated for August 2009.

    Mr. Francis. I think, Senator Sessions, the original, as I 
remember the history of the ABL. I think when it was an Air 
Force program, it was envisioned to be $1 billion and about 5 
years, I think, to get to lethal shoot-down. I think right now 
the estimate is about $5 billion and I think about 13 years, if 
that is right.
    Senator Sessions. The $5 billion includes the date for its 
projected test is when?
    General Obering. 2009, sir.
    Mr. Francis. At that time, I recall the Air Force had the 
ABL program, and they transitioned it into the acquisition 
process prematurely because they needed to get more money. So 
they actually got ahead of their own headlights, I would say, 
there. As General Obering said, they were proceeding with the 
full-blown program before they had a good understanding of the 
basic technologies.
    Senator Bill Nelson. Mr. Francis, you recommended last year 
an independent assessment of the ABL program. Do you still 
believe that would be useful?
    Mr. Francis. Yes, I think a separate pair of eyes on--I 
think boost phase is something that there has been quite a bit 
of debate on, and it is something I think that we probably know 
the least about if you look at the full layer of BMDS. So I 
still think that is a reasonable thing to do.
    Senator Bill Nelson. Okay.
    Senator Sessions. On that, because there are real concerns 
here, I know that Senator Nelson has done a lot of work on it. 
Did I understand that this may be the top directed-energy laser 
program in the DOD? Are there any other programs that are doing 
study in this area of significance? General Campbell?
    General Campbell. Yes, sir. We are doing a study for solid-
state lasers not on the same scope of what General Obering is 
doing. But that is moving along, and we are moving towards a 
demonstrator over the next about 18 months of a 100-kilowatt 
class solid-state laser. It may have potential on the counter 
rockets, artillery, and mortar mission.
    Senator Sessions. On that subject, it seems to me that we 
have proven that capability to some degree. Is it something we 
could consider deploying in areas around the globe where our 
bases may be subject to rockets or smaller rockets or mortar 
rounds?
    General Campbell. We think it has potential. The problem 
with some of the past developmental systems, they were 
chemically-based lasers, and there is a large logistics 
footprint, and it is very difficult to move it around and very 
difficult in handling the chemicals.
    Senator Sessions. Let us talk about that. We have the green 
zone and places that are pretty stable, going to be there for 
some time. You don't have to move a system around a lot, would 
you, even if it is a fairly substantial thing to move?
    General Campbell. No, you wouldn't have to move it around a 
lot, but the effectiveness of that system against the range of 
threats they face, in my estimation, is not what we need today, 
sir. Again, it has been very developmental, limited in scope.
    Senator Sessions. Do you see a need to accelerate that?
    General Campbell. In my view, there is merit in this, and I 
think we should go after it sooner rather than later.
    Senator Sessions. That is just a sort of a separate issue. 
But go ahead.
    Senator Bill Nelson. On the high-energy laser systems test 
facility out at White Sands, General Campbell, in your prepared 
testimony you asked for ``continued support to ensure the vital 
testing ranges are postured to perform necessary testing.'' 
Now, does the Army's budget request for 2009 contain sufficient 
funds to keep this test facility open?
    General Campbell. The President's budget for 2009, we can 
keep the facility open. But what we lose is the contracting 
base that runs the existing chemical laser at White Sands. We 
are very much customer dependent on keeping that going.
    General Obering is committed to doing testing this year, 
but when we get into 2009, we will be in the same condition 
that we are in this year. The budget was approximately $2.8 
million, which keeps the Government crew on station, and we can 
educate some of our Government crews on maintaining the 
chemical laser in a mothball status. But once we go about 6 
months or a year after we have lost the contracting crew, it 
could take us 2 to 3 years to recover the capability and quite 
a bit more cost to bring it back if we still needed that 
facility for testing.
    Senator Bill Nelson. But you don't have any customers 
except MDA, do you?
    General Campbell. That is correct. MDA is the only customer 
at the moment.
    Senator Bill Nelson. So your funds in your request are just 
to keep it open, not to operate it and able to fully support 
MDA's testing plans?
    General Campbell. That is correct. The current level of 
funding would be able to keep it in a mothballed status over 
the next few years. But we would not be able to conduct tests 
on behalf of MDA.
    Senator Bill Nelson. All right. I want to ask about the 
Arrow. Israel is seeking an upper-tier missile defense system 
against the Iranian Shahab-3 missiles. They are looking at 
possible nuclear warheads incoming. The United States pays a 
big share of this. One of the options is considering the 
development of a new missile defense interceptor, which would 
also require the development of a new long-range radar.
    Now, isn't this getting duplicative of THAAD and SM-3 
systems?
    General Obering. Yes, sir. We believe so, and that is why 
we have been championing having THAAD and SM-3 as solutions to 
the concern of the Israelis. We have to work through, 
obviously, the nondisclosure policy committees to make sure--
even to release the data on the SM-3 and the THAAD's 
performances to try to assuage the Israelis' concern. We have 
been successful, partially, in being able to do that, and we 
are continuing to work that process.
    Senator Bill Nelson. What about a SM-3 launch from a 
ground-based THAAD launcher?
    General Obering. Yes, sir. One of the options that we also 
are investigating is taking a look at a land-based version, if 
you would, of the SM-3 combined with the THAAD radar. It is a 
very powerful combination, and we think, by the way, not only 
is it applicable to Israel but also applicable to other areas 
for our own defense as well as our other allies.
    Senator Bill Nelson. So you think that might be the 
solution?
    General Obering. Well, sir, that is certainly one of the 
options that we are putting into our analysis of alternatives.
    Senator Bill Nelson. How about defending NATO Europe, 
General Campbell? Could Aegis, BMD, and THAAD have an important 
role in defending Europe against Iranian threats that exist 
today?
    General Campbell. Yes, sir. They would play a role. In 
fact, if you look at the planned deployment, there is a 
requirement for complementary systems to protect the 
southeastern part of Europe.
    Senator Bill Nelson. All right, and that would be true 
against Iranian missiles before they would get the long-range 
missiles?
    General Campbell. Yes, sir, that is true. They are 
developing a missile today that can range parts of southeastern 
Europe.
    Senator Bill Nelson. General Obering, one of the success 
stories is the Aegis BMD system with its SM-3 interceptor. You 
may not want to recognize it, but it was a collaborative 
program with the United States Navy. That is a joke. 
[Laughter.]
    General Obering. I hope so, sir.
    Senator Bill Nelson. You have had impressive results. The 
question is, are we buying enough of the interceptors to 
continue to develop the system to its full potential? Can you 
confirm that this system with the SM-3 will have a greater 
capability when it has the improved software and hardware to 
allow launching and engaging on remote sensor tracks?
    General Obering. Yes, sir. We are planning that. But if I 
may, I feel like a proud father because of all of my children. 
We have had tremendous success with Aegis. We have also had 
tremendous success with our long-range system, and we have had 
tremendous success with THAAD. So I am very pleased with that.
    We have had our challenges on all of the programs. We have 
had our challenges on the long-range. We certainly have had our 
challenges on the Aegis as well. We had issues with the third-
stage rocket motor and with the solid divert and attitude 
control system. But working together as a team, we were able to 
solve those and move ahead, and I feel very comfortable there.
    Same thing with THAAD. We have had issues with THAAD that 
we had to work through with respect to qualification of 
components and that type of thing. But our test program that we 
have had going back to 2001, and certainly since 2005, I think 
is a tribute to that collaboration across the board.
    With respect to the sea-based, as I said in the earlier 
THAAD discussion, and by the way, I was asked this question 
several years back by Secretary Rumsfeld about whether we don't 
need more land-based, silo-based missiles, more than the 54 
that we are currently producing? My answer was ``no,'' sir, we 
don't because that is enough to provide us the persistent 24/7 
coverage that we need for the United States and our allies in 
the regions, and where we want to go to next is to more mobile 
capabilities and enhance those capabilities to be able to 
address the longer-range threats.
    So that is why we are moving that way as we move into the 
future because we have been able to secure the homeland and our 
allies from the initial long-range. Now let us look at what we 
can do for the future.
    Senator Bill Nelson. The joint capability mix study 
indicates that you need to buy about twice as many SM-3 
missiles as currently planned. Is that going to be necessary to 
have additional procurement?
    General Obering. Yes, sir. That is our intent, to be able 
to do that. We would flow that in our POM is what we intend. It 
would not require any significant capitalization to be able to 
do that with respect to a production rate.
    Senator Bill Nelson. Is the Aegis BMD program and the Navy, 
is that program funding going to be restored from when they 
shot down the defense satellite?
    General Obering. Sir, that was MDA money that did that, and 
we have been working that within the department to be able to 
recover that cost.
    Senator Bill Nelson. What is the cost?
    General Obering. Because we took only one shot, it was 
roughly about $70 million total.
    Senator Bill Nelson. You are going to get that money back 
from whom?
    General Obering. We are trying to work it through the 
supplemental process is what I understood. By the way, sir, if 
I may, while you are on the subject, that was a great lesson in 
integration that was learned by many, many folks. It is 
something that we have been preaching for a long time.
    Senator Bill Nelson. We certainly compliment you on that.
    General Obering. The ship could not have done that by 
itself. It had to have off-board information to be able to do 
that, and it took the whole team to be able to do that. Now 
that has implications for, as you stated in your question, how 
we integrate land-based radars with the ships, how we integrate 
the ships with land-based interceptors. It can tremendously 
extend your detection and engagement zone, so it is a very, 
very powerful force multiplier.
    Senator Bill Nelson. In your proposed Europe two-stage 
interceptor, is there going to be any difference between the 
two-stage booster that you test and the two-stage booster that 
is proposed to be deployed operationally?
    General Obering. No, sir, not at this time. This is an 
identical configuration with respect to about 95 percent of 
that interceptor. We are just removing the third stage. We are 
doing some modifications to the adaptors, to the software, as 
you state. So there are minimal changes to that.
    In addition, we have other upgrades that we will do across 
the board to our GMD programs, but they will be factored in as 
we go. We are always in a state of continuous improvement, if 
you want to call it that. But right now, the configuration that 
we plan to fly for the booster verification and the intercept 
test is the configuration that we would plan to deploy. There 
may be minor improvements, but that is the plan.
    Senator Bill Nelson. You have had some quality problems 
with the hardware in the Ground-Based Interceptors. What has 
been done to replace that equipment, retrofit it, and how about 
the flight software?
    General Obering. First of all, some of the reliability 
issues that we have had, both from a qualification standpoint 
on the ground-based--the long-range system, as well as the 
THAAD system in terms of the qualifications there, we have 
worked through. We have been able to divert funds to do that. 
That was more than 2 years ago now, and we are reaping the 
benefits of those rewards.
    We continue to preach that in terms of the next generation 
of improvements on the long-range system and make sure that we 
are paying attention to the new configurations and improvements 
in the kill vehicle, along with the software improvements as 
well. So I feel that we are on track there.
    Senator Bill Nelson. Okay. Do you take the interceptors out 
of their silos, the ones that are there operationally? Do you 
use them as flight test vehicles?
    General Obering. The plan is that we take them out and that 
we do the refurbishment for those. Some of those will be 
outfitted with a flight termination system so that we can use 
those in our flight testing. But we like to be able to test the 
configurations coming off the line as well.
    So we do some improvements. For the most part, we can 
upgrade the software right through the umbilicals in the silo. 
We remove them for other things, like we have changed the fuel 
mixture and some other things to improve its performance. Those 
are the things that require the interceptors to be removed.
    Senator Bill Nelson. Senator Sessions.
    Senator Sessions. You know about Europe and French 
President Sarkozy on March 21 said this in Cherbourg, France. 
``In order to preserve our freedom of action, missile defense 
capabilities against a limited strike could be a useful 
complement to nuclear deterrence''--I guess that is mutually 
assured destruction--``without being a substitute for it.''
    He went on to say, ``It is in this spirit that we are 
taking part in the collective work of the Atlantic alliance. We 
have solid technical know-how in this area that could be taken 
advantage of when the time comes.''
    General Obering, that reflects to me a fundamental support 
for the concept of a missile defense system in Europe. Would 
you agree with that?
    General Obering. Yes, sir.
    Senator Sessions. That is somewhat of a change from what we 
have seen in the past in France?
    General Obering. Yes, sir, and by the way, that is 
reflective. Right now, we have about 18 nations around the 
world that we have some type of activity on missile defense--
everything from, as I stated earlier, the Japanese involvement 
to basic research and development across the board. We are 
seeing a resurgence of this because nations are recognizing the 
threat. They are recognizing the urgency of this.
    Senator Sessions. There is an interesting article on the 
25th anniversary of the missile defense program by Mr. Hackett. 
It fell on Easter Sunday, and he made reference to the fact 
that this is a lifesaving program. It defends against attack. 
It doesn't attack somebody else. It defends human beings from 
dangerous attacks, and hopefully, we can continue to see that 
improve.
    Dr. McQueary, I appreciate your role, it is very important. 
I respect your ideas about the third test there. I think it is 
important that we try to accomplish that if we can. But you 
note in your prepared statement that the hit-to-kill is no 
longer a technological uncertainty, ``It is a reality being 
successfully demonstrated many times over the past few years,'' 
and you note that the GMD, the BMDS, ``has a limited capability 
to defend against simple ballistic missile threats launched 
from North Korea toward the United States.''
    So I think that represents your analysis a bit detached 
from the system that we are onto something that is important 
here.
    Secretary Young, is the DOD committed not only to deploying 
the system that we have, but making it even more effective 
against sophisticated countermeasures and other type 
capabilities we might face in the future.
    Mr. Young. Certainly. The budget request seeks to continue 
that process.
    Senator Sessions. I will just say this about the funding 
that we are in. I think Congress has an obligation to review 
where we spend the money and what lower priorities could be 
sacrificed in favor of higher priorities. But I really think we 
ought to support at least the President's fundamental budget 
because we already see things like THAAD we wish we could do 
more of. We wish we could do more of some of these other 
systems that I think we need to do.
    Finally, Mr. Chairman, I would note that, at least for this 
hearing, it may be General Obering's last time before us. I 
have to say that during your leadership and your predecessor's, 
we have seen our way through some highly challenging 
technological problems to a day that when the North Koreans 
rattle their missiles, we feel confident that we can knock it 
down, or that we have a satellite that endangers life around 
the world if not destroyed and we have proven we can knock it 
out of the sky.
    I do believe that enhances our security. I believe it 
enhances the ability of our President to make good decisions 
and not have to worry about being intimidated by even a 
relatively small nation who may have this technology. I think, 
General Obering, you have testified many times, you are a very 
good advocate for the program and proven to be a good manager, 
and I wanted to express my appreciation.
    We may well see you before you get away from us in 
November. I understand that is your expected date to depart.
    Senator Bill Nelson. We can always call him back. 
[Laughter.]
    Senator Sessions. What if we had a test failure, do you 
think we might call him back?
    General Obering. I am sure.
    Senator Sessions. Even if you have left, we may call you 
back.
    Senator Bill Nelson. Or a success.
    Senator Sessions. Or a success.
    Senator Bill Nelson. We might have you, when is the next 
test?
    General Obering. Sir, we have a series of tests in June 
with Aegis and THAAD, and then we have a July planned test now 
for the long-range system, and then we have another one of the 
long-range system later in the year, as well as THAAD.
    Senator Bill Nelson. Well, why don't we have you back in 
July, after the July test? Of course, what Senator Sessions 
said speaks for the committee as well in thanking you for your 
public service.
    I am curious in this thought that was brought up early in 
the hearing. How would the Poles and the Czechs treat it if we 
deployed the radar, but not the launchers?
    General Obering. Well, sir, first of all, as I said, they 
are meant to go together. That is meant to provide the coverage 
that we need for the longer range. It is certainly--the radar 
provides value. The interceptors have to have the sensors to 
provide value as well. So we are viewing that as a package, and 
I think that they probably view that as a package as well.
    But the radar, in and of itself, is a tremendous advantage 
to the shorter- and medium-range defenses.
    Senator Bill Nelson. So you don't have a feeling about how 
each of those countries would feel if there were a decision by 
the next President just to deploy the radar?
    General Obering. No, sir. You would have to ask them.
    Senator Bill Nelson. Okay. Well, we will see you in July 
then.
    General Obering. Don't feel compelled, sir. [Laughter.]
    Senator Bill Nelson. The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                  concurrent development and fielding
    1. Senator Levin. Secretary Young and Mr. Francis, to meet the 
President's direction to rapidly field an initial missile defense 
capability, the Department of Defense (DOD) accepted the increased risk 
of concurrently developing and fielding systems. Among other things, 
such concurrency poses the risk of fielding prototype systems that 
don't work properly, need fixing after they are deployed, and cost 
additional money. I know you have both given a great deal of serious 
thought to the issues and risks posed by such a highly concurrent 
acquisition approach, which is not the Department's normal or desired 
acquisition approach. Now that we have achieved that initial rapid 
fielding, do you agree that we should consider reducing the degree of 
concurrency in the missile defense acquisition program?
    Mr. Young. The Ballistic Missile Defense System (BMDS) is an effort 
to develop and integrate a number of elements produced in relatively 
small numbers. To date, the Missile Defense Agency (MDA) has used 
knowledge points composed of ground and flight testing and modeling and 
simulation to assess the performance and maturity of each element and 
the system as a whole. As the Director of Operational Test and 
Evaluation testified, MDA is working to improve the fidelity of the 
respective models and to benchmark these models against test results. 
The limited fielding of the BMDS has been largely threat and event 
driven, with fielding decisions based on available information. You are 
correct that some of the urgent deployment efforts have resulted in a 
need to modify some of the fielded systems. I plan to conduct 
comprehensive evaluations of BMDS Element progress in preparation for 
procurement actions, and will consider, among other aspects, 
concurrency implications for future development and fielding.
    Mr. Francis. Yes, the amount of concurrent development and fielding 
of the MDA's BMDS assets should be reduced. In 2002, the President 
directed DOD to begin fielding an initial missile defense system 
capable of defending the United States, deployed troops, friends, and 
allies against ballistic missiles of all ranges in all phases of flight 
as soon as technically possible. Prior to this directive, MDA had 
adopted an acquisition strategy that included many of the knowledge-
based practices that enable leading commercial developers to field 
sophisticated products on time and within budget. However, in order to 
field an initial capability quickly, MDA accepted the risk of 
concurrent development and fielding during its initial block of work--
Block 2004--and departed from its knowledge-based strategy. If MDA had 
followed its knowledge-based approach, the Ground-based Midcourse 
Defense (GMD) program would have moved through a sequence of eight 
events that included assessing the maturity of critical technologies, 
designing the element, and demonstrating the stability of the element's 
design in an end-to-end test using production representative 
components--all before making a decision to produce and field the 
element. Instead, the GMD program concurrently matured technology, 
designed the element, tested the design, and produced and fielded the 
system, even though the stability of the element's design had not been 
demonstrated in an end-to-end test and production processes were not 
mature. Consequently, the program encountered quality control problems 
and to date, the performance of certain GMD interceptors remain 
questionable because the program was inattentive to quality assurance.
    The Government Accountability Office (GAO) understands that 
significant risk had to be accepted to satisfy the President's 
directive to field an initial capability by 2004. However, now that an 
initial capability has been fielded, MDA should return to an 
acquisition strategy that achieves a better balance between expediency 
and risk. Although Block 2004 ended on December 31, 2005 and fielded an 
initial capability, MDA has continued to concurrently develop and field 
assets before they were fully tested. MDA's acquisition strategy should 
provide a means for demonstrating design maturity and operational 
effectiveness prior to continued manufacturing and fielding of 
components. If MDA continues to use concurrency as a means to expedite 
fielding, we believe MDA will continue to experience cost growth and 
performance shortfalls.

    2. Senator Levin. Secretary Young and Mr. Francis, what do you 
believe would be the major benefits of a less concurrent missile 
defense program?
    Mr. Young. Benefits of a less concurrent program include increased 
performance data prior to fielding, reduced retrofit requirements after 
fielding, and increased configuration stability between production and 
deployed interceptors which should reduce missile production and 
support costs. However, maintaining concurrency allows incremental 
improvements to be available for implementation into the deployed 
interceptors. Thus, the challenge for DOD is executing a program with 
the appropriate balance. I am taking additional steps to ensure that 
the Department, through the Missile Defense Executive Board (MDEB), 
maintains the appropriate balance between maturity and production 
stability, technical risks and cost to decide when to field a BMDS 
capability.
    Mr. Francis. GAO has found that fully developing a component or 
element and demonstrating its capability prior to production increases 
the likelihood that the product will perform as intended and minimizes 
the risk of unexpected cost increases. Over the last several years, GAO 
has undertaken a body of work that examines weapon acquisition issues 
from a perspective that draws upon lessons learned from best product 
development practices. Collectively, these practices comprise a process 
that is anchored in knowledge. It is a process in which technology 
development and product development are treated differently and managed 
separately. The process of developing technology culminates in 
discovery--the gathering of knowledge--and must, by its nature, allow 
room for unexpected results and delays. GAO has found that consequences 
accrue to programs that are still working to mature technologies well 
into system development when they should be focused on maturing the 
system design and preparing for production. For example, while 
undertaking a concurrent approach to developing and fielding BMDS 
components, MDA experienced cost increases that amounted to $1 billion 
each for its first and second increments of work. Additionally, its GMD 
element realized in 2005 that the performance of some of its 
interceptors could be degraded because the interceptors included 
potentially unreliable parts as the program encountered quality control 
problems that stemmed from an acceleration of its acquisition cycle. 
While MDA has begun the process of retrofitting these interceptors, it 
is costing the agency more money and time to do so. If a knowledge-
based approach had been followed to develop and manufacture these 
assets, MDA may have fielded more reliable assets as well as reduced 
performance risks and costs of those interceptors containing 
questionable parts.

                    missile defense executive board
    3. Senator Levin. Secretary Young, the MDEB was established last 
year to provide more effective oversight of the missile defense 
program. This was a much needed step in the right direction. How does 
the MDEB oversight role of the MDA differ from the oversight role that 
the Defense Acquisition Board (DAB) provides to other major defense 
acquisition programs?
    Mr. Young. The MDEB was established to recommend and oversee 
implementation of strategic policies and plans, program priorities, and 
investment options to protect our Nation and allies from missile 
attack. The MDEB authorities and responsibilities extend to 
comprehensive oversight of all of the MDA's activities including those 
outside the scope of the traditional milestone review process for 
individual programs (e.g., assessments and potential influence on 
policy, threat assessments, capability requirements, budget 
formulation, and fielding options). Within the MDEB forum, I will be 
able to pursue an agenda that examines these topic areas and any other 
that will enhance BMDS development and fielding. When compared to a 
typical program DAB, the MDEB meets more frequently and, under my 
leadership, will continue to meet six times a year, or more often when 
necessary, to address appropriate MDA oversight topics. I plan to use 
the MDEB in a decisionmaking manner which will be very comparable to 
the DAB role.

    4. Senator Levin. Secretary Young, does the MDEB consider, as its 
charter suggests, how best to field near-term capabilities to meet 
warfighter needs against existing short- and medium-range threats in a 
timely, efficient, cost-effective manner?
    Mr. Young. Yes, the MDEB's Operational Forces Committee is chaired 
by the Vice Chairman of the Joint Chiefs of Staff and is composed of 
other principal members of the Joint Requirements Oversight Council. 
The MDEB relies on the Operational Forces Committee to review and 
prioritize BMDS requirements, integrate those current Department 
priorities, and provide recommendations. The Policy Committee has 
reviewed possible threat expansion, and will continue to influence 
Ballistic Missile Defense (BMD) priorities and MDEB deliberations 
regarding deployment capabilities. In addition, the use of research, 
development, technology, and evaluation funding allows the flexibility 
to redirect resources to meet the needs to counter emerging or evolving 
threats.

    5. Senator Levin. Secretary Young, has the Board made any 
recommendations for the missile defense program? If so, what 
recommendations were made, and have they been approved?
    Mr. Young. The MDEB recommendations include the following: the lead 
Service for the European Midcourse Radar (EMR), expansion of capability 
analyses for other than primary BMDS threats and specific language for 
a Guidance memorandum from the Deputy Secretary of Defense for the BMDS 
Life Cycle Management Process and Business Rules. The lead Service and 
capability analysis recommendations were approved and have generated 
work in both areas. The Deputy Secretary of Defense Guidance memo is 
currently in coordination with a signature anticipated in the near 
term. These are initial steps for the MDEB. I intend to pursue a more 
aggressive agenda and role as we move forward and mature the MDEB 
process.

    6. Senator Levin. Secretary Young, the MDEB charter says that it 
will ``engage other government agencies,'' among a host of other 
institutions, to help ``advance our mission successfully.'' Is Congress 
one of the government entities with which the MDEB is intended to 
engage? If so, do you plan to engage Congress on a regular basis?
    Mr. Young. I believe the MDEB is a unique opportunity to focus 
senior Department officials on a national priority, and to positively 
influence and closely monitor its development and operations. I 
maintain an inclusive approach to provide all stakeholders a voice in 
the process, and will engage Congress when appropriate to provide 
assessments of insight and oversight progress. Congress is a partner in 
the activities of DOD. I am prepared to work with and engage Congress 
as requested.

         not enough ground-based midcourse defense flight tests
    7. Senator Levin. Dr. McQueary, your most recent annual report on 
missile defense says that there have not been enough flight tests of 
the GMD system, nor validated and verified models and simulations, to 
characterize its performance. You also said that it is ``the least 
mature'' and ``least understood'' of the deployed missile defense 
systems, and that it ``has undergone less testing in all areas of 
effectiveness and suitability.'' For example, your report says that ``a 
characterization of suitability is not yet possible,'' and that ``more 
flight tests are required to make this characterization.'' The same is 
true for characterizing the survivability of the GMD system. So, is it 
correct that, based on the limited flight test data so far, and the 
lack of validated and verified models and simulations, you cannot yet 
say whether the system is operationally effective, suitable, or 
survivable?
    Dr. McQueary. That is correct.

    8. Senator Levin. Dr. McQueary, with respect to GMD test adequacy, 
your report says: ``limited flight test data (two intercepts in 4 
years), limited operational realism (target scene presentations), and a 
lack of independent accreditation of models and simulations impaired 
test adequacy.'' The report notes that, as a result, ``confidence in 
the system performance predictions based on the models and simulations 
is low.'' So is it correct to understand that, especially if there is 
only one flight test this fiscal year, it will likely be some years 
before these problems can be resolved and GMD flight testing adequacy 
will not be impaired?
    Dr. McQueary. Yes. The problems can be resolved as soon as the root 
causes are identified. The details are contained in the classified Part 
II of our fiscal year 2007 assessment of the BMDS. Unfortunately, one 
flight test per year will not be adequate to determine operational 
effectiveness, suitability, and survivability, with confidence, anytime 
soon. Nor will it be sufficient to assess equipment reliability or show 
repeatability. A comprehensive ground and flight test program, combined 
with verified, validated, and accredited models and simulations, are 
necessary to confidently assess and predict performance.

      ground-based midcourse defense salvo and multi-target tests
    9. Senator Levin. Dr. McQueary, the GMD system is designed to 
intercept multiple missile targets, and its standard firing doctrine is 
to shoot two interceptors at each missile target. When I asked General 
Renuart, the Combatant Commander of Northern Command (NORTHCOM) who is 
responsible for operating the system, about testing the system in an 
operationally realistic manner, he agreed that we should conduct salvo 
test launches and multiple target intercept tests. Given the importance 
of demonstrating the intended capability of the system so we have 
confidence that it works, do you agree that it would be important to 
conduct flight tests of the GMD system using salvo launches of two 
interceptors, and using multiple targets for intercepts?
    Dr. McQueary. I also think the MDA should conduct at least one GMD 
salvo launch. Yes, ground testing can demonstrate salvo launches and 
multiple targets. However, there are some things that ground testing 
cannot demonstrate such as simultaneous communications with two closely 
spaced interceptors, or the possible detrimental impacts on the sensor 
of the trailing kill vehicle when the divert and attitude control 
system (DACS) is firing on the leading kill vehicle. Aegis BMD 
successfully conducted a salvo engagement during FTM-13, and Terminal 
High Altitude Area Defense (THAAD) plans a salvo engagement on FTT-10.

                   operational testing still desired
    10. Senator Levin. Dr. McQueary, although missile defense system 
testing so far has been developmental testing with operational 
characteristics added, there is no dedicated operational testing 
planned yet. Operational test and evaluation is the process for 
learning how a weapon system will actually work in an operational 
setting. Do you agree that, in addition to the current testing effort, 
there is still value in operational test and evaluation for missile 
defense systems, and that such operational testing should take place?
    Dr. McQueary. Yes. We learn things about system performance and 
system limitations during operational testing that we don't normally 
learn during developmental testing or even during combined 
developmental/operational testing. The Secretary of Defense, in his 
January 2002 memorandum on missile defense program direction, 
recognized this and stated that when a decision is made to transition a 
block configuration of an element to a Service for procurement and 
operation, an Operational Test Agent will be designated and an 
operational test and evaluation will be conducted to characterize the 
operational effectiveness and suitability of the block configuration of 
the element. I agree with this policy. However, I believe that for the 
elements of the BMDS, the scope of the operational test and evaluation 
required to determine operational effectiveness, suitability, and 
survivability, could be tailored based on what we previously learned 
during the combined developmental/operational testing. Verified, 
validated, and accredited models and simulations would also play an 
important role in this evaluation. This approach would provide the best 
value to the Nation given the expense of testing the BMDS.

     operation iraqi freedom consumes missile defense capabilities
    11. Senator Levin. General Campbell, your prepared testimony says: 
``Operation Iraqi Freedom (OIF) consumes significant quantities of our 
key missile defense capabilities, leaving other worldwide commitments 
under-resourced.'' What key missile defense capabilities does OIF 
consume, and what other worldwide commitments are left under-resourced 
as a result?
    General Campbell. U.S. Army Air and Missile Defense forces continue 
to provide a full range of air and missile defense protection in the 
U.S. Central Command (CENTCOM) theater of operations. Specifically, key 
missile defense capabilities provided include:

         Patriot missile defense of critical assets;
         Counter rocket, artillery, and mortar (C-RAM) protection of 
        critical assets. The C-RAM mission includes both sensor and 
        warning and an active intercept capability;
         Air defense and airspace management for maneuver commanders;
         Performance of a detainee operations mission by an air and 
        missile defense battalion.

    As with virtually all other mission areas within the Army and the 
other Services, the operations tempo requirements of OIF have dictated 
some difficult decisions to ensure adequate air and missile defense 
capabilities within the CENTCOM Theater. Air and missile defense 
resources that would normally support other combatant commanders are 
assigned to the CENTCOM Theater. A good example is European Command 
(EUCOM). There, the U.S. committed to providing theater missile defense 
forces, such as Patriot, to NATO's Active Layered Theatre Ballistic 
Missile Defense Program which is scheduled to be operational in the 
2010-2011 timeframe. We will have to find the right balance between 
CENTCOM's missile defense requirements and our NATO commitment.

    12. Senator Levin. General Campbell, would it reduce the strain of 
this situation if we had additional missile defense force structure 
deployed to address the other worldwide commitments, like additional 
PAC-3, SM-3, or Theatre High Altitude Area Defense (THAAD) systems?
    General Campbell. Yes, it would. There is a growing demand signal 
from Geographical Combatant Commanders for additional missile defense 
force structure to meet regional requirements. This has led the Army to 
fund additional Patriot force structure and led the MDA to address the 
recent recommendations from the latest iteration of the Joint 
Capability Mix Study in the upcoming budget submission. MDA plans to 
seek congressional approval to procure additional SM-3 and THAAD 
assets.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
            oversight of ballistic missile defense programs
    13. Senator Bill Nelson. Secretary Young, as the Under Secretary of 
Defense for Acquisition, Technology, and Logistics (AT&L), you are the 
senior acquisition official in DOD, with the statutory authority to 
overrule service acquisition executives. You are expected to provide 
active, rigorous, and detailed oversight of major DOD acquisition 
programs, including BMD programs. You are also the Chairman of the 
MDEB, which has a responsibility for reviewing and making 
recommendations on the programs of the MDA. Please provide a detailed 
explanation of the specific steps you are taking and planning to take 
to exercise your oversight responsibilities of the BMD programs of the 
MDA.
    Mr. Young. I will continue to conduct reviews of the BMDS and its 
elements to assess program status, and continue the tempo of the MDEB 
to provide a broader DOD exposure. For development, fielding, and 
support of BMDS blocks and element assessments, I plan to implement a 
rigorous baseline agreement with defined cost, schedule, and 
performance parameters to allow continuous evaluation of program 
execution. I am evaluating the additional steps to be taken to ensure 
sufficient Department oversight and influence is exercised. We will 
derive an early and continued visibility into BMDS and its elements by 
a broad spectrum of the Department, enabling us to provide the 
necessary guidance to maintain missile defense priorities within 
program cost and schedule constraints. In addition, the Director, 
Operational Test and Evaluation (DOT&E) and the operational testers are 
continuously involved with MDA activities and, together, annually 
report to Congress on the status of BMDS testing.

    14. Senator Bill Nelson. Secretary Young, do you believe there are 
any additional authorities or responsibilities you might need to 
exercise more effective oversight of the MDA and its programs?
    Mr. Young. The Department currently provides oversight of MDA in 
accordance with the memorandum issued by Secretary Rumsfeld. Within the 
constraints of this memorandum, I have the authorities assigned to 
USD(AT&L) to exercise oversight of the MDA, and the BMDS and its 
elements.

     transition and transfer of ballistic missile defense programs
    15. Senator Bill Nelson. Secretary Young, the MDA is notionally the 
developer and initial fielding organization for missile defense 
systems, with each weapon system expected to be transitioned to one of 
the military Services at the appropriate time. The Services would be 
concerned about having to pay for expensive missile defense systems in 
addition to all their other priorities competing for funding. How and 
when do you believe missile defense systems should be transitioned to 
the Services and under what circumstances?
    Mr. Young. The DOD criteria for transition are consistent with 
standard program management guidelines for assessment of element 
maturity, effectiveness, and supportability. The criteria include the 
maturity of the element design, the testing completed, the assessment 
by DOT&E, delivery schedules, funding profile, and planning for 
operation and support (O&S). Current Department guidance has the 
Director, MDA recommend an element for transition to the Under 
Secretary of Defense for Acquisition, Technology, and Logistics, who 
makes his recommendation to the Deputy Secretary of Defense, who 
approves the transition.
    The MDA and the Services are engaged in near continuous discussions 
on how and when to transition and transfer missile defense 
capabilities. The Department is considering a BMD Life Cycle Management 
Process intended to address these concerns.

    16. Senator Bill Nelson. Secretary Young, given the many competing 
priorities for Service funding, how do you believe these programs 
should be funded when they are transitioned to the Services?
    Mr. Young. The Department is considering a BMD Life Cycle 
Management process to address this issue.

   baselines and cost estimates for ballistic missile defense blocks
    17. Senator Bill Nelson. General Obering, your prepared testimony 
makes a number of comments about the new block structure that deserve 
some clarification. For example, you say: ``Once baselines are defined, 
work cannot be moved from one block to another.'' Does that mean that 
before baselines are defined, work can be transferred from one block to 
another? If so, isn't that the problem we were trying to fix?
    General Obering. Congress expects us to be both transparent and 
accountable. In that spirit, we intend to explain our plans clearly--
committing only to a program that we can confidently deliver. Prior to 
commitment to a baseline, we will establish goals for blocks we would 
like to baseline in the future. Within the fiscal year 2008 BMDS Block 
Baselines and Goals (SOG) document submitted to Congress with the 
fiscal year 2009 President's budget we called these blocks ``Capability 
Goals.'' These goals are dependent on the successful completion of 
technology development or the occurrence of some event(s) prior to 
baseline commitment. It is our expectation that the content for these 
capability goals can be achieved and will be baselined. However, 
circumstances may arise, such as change of requirements or nature of 
the threat that would require us to shift work from one block to 
another. Once we commit to a baseline, we intend to field that block 
with the promised schedule, budget, and performance and will not move 
that work to another block. Before we commit to baselines, we remain 
open to moving work in or out of a block if there is a good reason for 
doing so, however, we will always coordinate these changes with the 
warfighter community and explain the reason to Congress to further the 
goals of transparency and accountability.

    18. Senator Bill Nelson. General Obering, you also say: ``When MDA 
believes a firm commitment can be made to Congress, the Agency will 
establish schedule, budget, and performance baselines for a block.'' It 
is not clear what that means, and why you can't make a commitment to 
Congress now. Please explain what you mean by this comment.
    General Obering. The quoted statement is a general tenet of our new 
block structure. We will make a firm commitment when we have a high 
level of confidence that the baselines can be achieved. Actually, we 
have established those baselines for Blocks 1.0 (Defense of the U.S. 
from Limited North Korean Long-Range Threats), 2.0 (Defense of Allies 
and Deployed Forces from Short-to-Medium Range Threats in One Region/
Theater), and 3.1/3.2 (Expand Defense of the U.S. to Include Limited 
Iranian Long-Range Threats) and presented them in our fiscal year 2008 
BMDS Block Baselines and Goals (SOG) document that accompanied the 
President's budget for fiscal year 2009. In the spirit of enhancing 
transparency and accountability, we comit to deliver on established 
baselines. As presented in the SOG, we established goals (not 
baselines) for Blocks 3.3 (Expand Defense of the U.S. to Include 
Limited Iranian Long-Range Threats--Improved Discrimination and System 
Track), 4.0 (Defense of Allies and Deployed Forces in Europe from 
Limited Long-Range Threats/Expand Protection of the U.S. Homeland), and 
5.0 (Expand Defense of Allies and Deployed Forces from Short-to-
Intermediate Range Threats in Two Regions/Theaters) because we did not 
believe a firm commitment can be made to Congress at this time. It 
would not make much sense, for example, to baseline the schedule for 
Block 4.0 because we are still waiting for host nation agreements to be 
finalized. It would also not be reasonable to baseline the performance 
of an interceptor that we have not yet built or tested, such as the SM-
3 Block IB interceptors in Block 5.0.

    19. Senator Bill Nelson. General Obering, given that, as you 
acknowledge, Block 1 is nearly complete and Block 2 is well underway, 
why haven't you already established those baselines for Block 1 and 
Block 2?
    General Obering. Actually, we have established schedule, budget, 
and performance baselines for Blocks 1.0 (Defense of the U.S. from 
Limited North Korean Long-Range Threats) and 2.0 (Defense of Allies and 
Deployed Forces from Short-to-Medium Range Threats in One Region/
Theater), as well as Block 3.1/3.2 (Expand Defense of the U.S. to 
Include Limited Iranian Long-Range Threats), and presented them to 
Congress in our fiscal year 2008 BMDS Block Baselines and Goals (SOG) 
document that accompanied the President's budget for fiscal year 2009.

    20. Senator Bill Nelson. General Obering, are you saying you don't 
expect to establish baselines until a block is completed?
    General Obering. Not at all. Our fiscal year 2008 BMDS Block 
Baselines and Goals (SOG) document sent to Congress with the 
President's budget for fiscal year 2009 was the first under our new 
block structure. In this SOG, we presented our baselines for Block 1.0 
(Defense of the U.S. from Limited North Korean Long-Range Threats), 
which is still ongoing but expected to be complete in fiscal year 2009, 
and Blocks 2.0 (Defense of Allies and Deployed Forces from Short-to-
Medium Range Threats in One Region/Theater) and 3.1/3.2 (Expand Defense 
of the U.S. to Include Limited Iranian Long-Range Threats), which are 
projected for completion in fiscal year 2011 and fiscal year 2013 
respectively.

                        independent review teams
    21. Senator Bill Nelson. General Obering, I understand you have 
recently established a number of Independent Review Teams and at least 
one Mission Readiness Task Force (MRTF), as well as other Readiness 
Review Teams. Please provide a list of each of the review teams you 
have established, and explain the specific reasons you established each 
team.
    General Obering. In March 2005, I established an MRTF under the 
leadership of RADM Kathleen Paige to focus our efforts on delivering a 
BMDS that is ready to conduct its mission when called upon. The MRTF 
was initially focused on the GMD element and its flight test program 
with the charter to develop and refine disciplined procedures for the 
flight test readiness review process. Admiral Paige's efforts provided 
a near-term comprehensive test plan to restore the GM flight test 
program, and the guiding principles provided by the task force have 
been applied across the BMDS to ensure our readiness to conduct each 
system level flight test.
    Upon Admiral Paige's retirement from active duty at the end of 
2005, I retained Don Mitchell, a key member of the MRTF, to apply 
mission readiness principles across all BMDS elements. Mr. Mitchell 
heads the Independent Readiness Review Teams (IRRT) for GMD, Aegis BMD 
and THAAD, and is my direct representative to the program directors, 
providing independent advocacy for mission readiness.
    In addition to these element IRRTs, over the past year I convened a 
review team to assess the test plan for our Space Tracking and 
Surveillance System (STSS) satellite demonstration effort. After a 
series of technical challenges in the thermal vacuum testing of the 
first STSS satellite, I asked for a team of nationally recognized space 
experts from the National Reconnaissance Office, Defense Advanced 
Research Project Agency, National Aeronautics and Space Administration, 
and the Johns Hopkins University Applied Physics Lab to review our 
program plan and identify any risk areas.

    22. Senator Bill Nelson. General Obering, what tasks have you 
assigned to each of these independent teams, and when do you expect 
them to report back to you?
    General Obering. The IRRTs are charged with the following:

         (1) Working within the element's mission readiness review 
        process to identify risks to mission success and offer advice 
        to mitigate those risks;
         (2) Serving as an independent voice to the program directors 
        on any technical issue affecting the conduct of a mission; and
         (3) Providing inputs for consideration as part of the program 
        director's decision to proceed with a mission or to provide 
        their own assessment to the Director regarding the element's 
        readiness to proceed. The element IRRTs provide input for 
        executive management reviews conducted before the execution of 
        each mission.

    For the STSS independent review, each participating organization 
was asked to review our satellite demonstration program and then 
provide technical and programmatic recommendations and space 
acquisition lessons learned that could be applicable to STSS or future 
MDA space elements of BMDS. They provided me a final report in March 
2008.

    23. Senator Bill Nelson. General Obering, what programmatic 
decisions or changes could result from their work?
    General Obering. The IRRT provides a non-advocate perspective to 
the mission readiness assessment process and is a valuable tool for 
assessing and managing risk. This team also provides the Director with 
deeper insight into the technical issues surrounding a particular 
mission.
    The STSS review team validated the program plan. Their 
recommendations helped us to improve how we manage risk, and we made 
adjustments to our test program accordingly.

   operational realism in ground-based midcourse defense flight tests
    24. Senator Bill Nelson. Dr. McQueary, your February 2008 annual 
report on missile defense noted that for the GMD flight tests, 
``warfighters operating from Fort Greely, the primary fire control 
facility, did not participate in these tests.'' If warfighters at Fort 
Greely were to participate in flight tests by launching the 
interceptors, perhaps while the control facility at Colorado Springs 
launched the targets, would that add operational realism to the flight 
tests, and would it provide additional confidence that the system could 
work as intended?
    Dr. McQueary. Yes to both questions. Anytime warfighters operate 
from their wartime positions, operational realism is enhanced. Fort 
Greely is the primary fire control node for GMD; the control facility 
at Shriever Air Force Base (AFB) is the secondary fire control node for 
GMD. Both locations are designed to fire interceptors from either Fort 
Greely or Vandenberg AFB. Although launching interceptors from Fort 
Greely in peacetime is unacceptable for safety reasons, launching them 
from Vandenberg AFB using the Fort Greely fire control and a formed 
warfighter crew should be demonstrated at least once in the GMD test 
program and builds confidence.

    25. Senator Bill Nelson. Dr. McQueary, your report also notes that 
``the addition of limited operational realism to BMDS testing against 
strategic threats has uncovered unanticipated deficiencies that will 
require additional development and testing.'' You also note that the 
MDA ``has not identified their root causes.'' Can you say how much 
additional development and testing you believe will be required to 
resolve these unanticipated deficiencies and will that require 
identifying their root causes?
    Dr. McQueary. Until the MDA identifies the root causes and applies 
permanent fixes for the deficiencies, we will never have confidence 
that the mitigation strategies will work in all circumstances and 
intercept conditions. Once the MDA identifies the root causes and 
applies permanent fixes, two flight tests should be sufficient to prove 
the solutions.

                         cobra dane flight test
    26. Senator Bill Nelson. Dr. McQueary, the primary sensor for the 
GMD system that is deployed in Alaska and California is the Cobra Dane 
radar on Shemya Island, rather than the Beale radar in California. 
Cobra Dane is the radar that would see a potential North Korean missile 
launch and provide the data for the GMD interceptors to defeat the 
missile. However, there has never been an intercept flight test using 
the Cobra Dane radar, and the one target fly-by of Cobra Dane did not 
provide a basis for confidence in its performance. If it were possible, 
and I know it is difficult given the geography, to have an intercept 
flight test using Cobra Dane as the primary sensor, would a successful 
test using Cobra Dane increase your confidence in the ability of the 
system to work as it is actually intended to work?
    Dr. McQueary. Certainly a successful intercept flight test using 
Cobra Dane as the primary sensor would increase our confidence in Cobra 
Dane performance. My office has been looking at the requirements to 
conduct this intercept flight test. When we complete our study, we will 
be glad to share it with you.

    27. Senator Bill Nelson. Dr. McQueary, your annual report says 
that, because there are no validated and accredited models for 
operational evaluations of Cobra Dane, ``this will require the MDA to 
fly another target through the Cobra Dane field of view.'' Am I correct 
that unless there is such a test, your organization will not be able to 
assess the performance of Cobra Dane? I presume that is why this is one 
of your recommendations to MDA.
    Dr. McQueary. We saw some performance issues from the first flight 
test that the model did not predict. That is why I support a retest 
after all the fixes have been made. Following the retest, the MDA 
should be able to verify and validate the Cobra Dane model which will 
allow us to more confidently assess Cobra Dane performance. This 
approach tracks well with General Obering's ``test-analyze-fix-test'' 
approach.

    28. Senator Bill Nelson. General Obering, since Cobra Dane is the 
primary sensor for GMD against a potential North Korean long-range 
missile, will you schedule a target fly-by test as soon as possible to 
confirm the performance of Cobra Dane and if so, when will that test 
take place?
    General Obering. Yes. MDA is planning flight test opportunities to 
include both dedicated and non-cooperative targets. A flight test is 
planned in fiscal year 2012 to test the cumulative Cobra Dane upgrades 
planned through software build 2.6.6.1. In the interim, we are actively 
evaluating the incremental software changes made to Cobra Dane 
subsequent to the September 2005 test using our tactical hardware/
software-in-the-loop based ground test program, targets of opportunity 
from foreign launches, and satellites tracks.

                               MDA PROJECT FTX FLIGHT TESTS FISCAL YEAR 2010-2012
                                              Draft: March 14, 2008
----------------------------------------------------------------------------------------------------------------
                                         FTX-07  Fiscal Year
                                                 2010           FTX-08 Fiscal Year 2011  FTX-09 Fiscal Year 2012
----------------------------------------------------------------------------------------------------------------
Primary..............................  Within a BMDS            Within a BMDS            Within a BMDS
Objectives...........................   framework, demonstrate   framework, conduct a     framework, Cobra Dane
                                        SCN-06-0027 end-to-end   tracking exercise        characterization of
                                        simulated engagement     (with potential          software build 2.6.6.1
                                        of a complex target      simulated engagements)   (Requested by DOT&E).
                                        launched from KLC with   of a medium range
                                        AN/TPY-2 (FB) and AN/    ballistic target as
                                        SPY-1 (if available)     risk reduction for
                                        providing initial        follow-on theater
                                        track and SBX serving    campaign events.
                                        as the commit sensor
                                        using a simulated GBI
                                        launched from
                                        Vandenberg Air Force
                                        Base and perform all
                                        functions to intercept
                                        the lethal object from
                                        a complex target scene.
Sensors..............................  SBX, TPY-2 (FB), Aegis   THAAD, Aegis BMD,        Cobra Dane, Aegis BMD,
                                        BMD with BSP and         Patriot/MEADS,           SBX.
                                        sidecar, Beale UEWR.     Japanese Participation.
----------------------------------------------------------------------------------------------------------------


    29. Senator Bill Nelson. General Obering, will you also work with 
the DOT&E to determine a means by which to conduct an intercept flight 
test using Cobra Dane as the primary sensor, in which it provides the 
data to develop the Weapon Task Plan?
    General Obering. Yes, I will continue to work with the DOT&E to 
explore options to conduct an intercept flight test using Cobra Dane as 
the primary sensor. However, due to the alignment of the Cobra Dane, a 
representative target with representative track times would need to be 
launched from within the Russian Flight Information Region to support 
this type of test.

               terminal high altitude area defense delays
    30. Senator Bill Nelson. General Obering, during the hearing, you 
stated that you decided to delay the THAAD interceptor delivery due to 
cost overruns. Please detail and explain what the causes were of the 
overruns for the THAAD program, detailing each item with its cost.
    General Obering. Let me provide a clarification. The delay to THAAD 
interceptor deliveries was driven by both cost overrun and cost growth 
for the program. The detailed items that had to be mitigated and 
contributed to the fiscal year 2008/2009 shortfalls with their 
associated funding across those 2 years were as follows:

         $31.4 million - The Development contract's final increment of 
        the 5 percent cost overrun
         $94.0 million - Critical contract changes necessary to 
        prepare for Fire Unit Fielding (e.g., Fire Control obsolescence 
        and redesign for the 5-ton truck)
         $92.8 million - Insensitive Munitions/Final Hazard 
        Classification requirements impact
         $82.5 million - The impact of target availability slips to 
        flight tests
         $21.5 million - Risk reduction and flight test analysis 
        additions
         $13.9 million - THAAD's participation in Juniper Cobra 09

    31. Senator Bill Nelson. General Obering, is it correct that there 
were additional requirements imposed on the THAAD program by the Army, 
for an insensitive munitions capability, and for using a 5-ton truck 
instead of a Humvee for the THAAD Fire Control Station? If so, why did 
you not use your extraordinary acquisition flexibility before the 
budget request was submitted to provide the funds from lower priorities 
outside of THAAD to meet those new requirements, without delaying the 
THAAD interceptor production by a year?
    General Obering. Yes, additional requirements for Insensitive 
Munitions/Final Hazard Classification compliance and weight limitations 
in up-armoring the Humvee-based THAAD Fire Control requiring transition 
to a 5-ton truck both contributed to the need for additional funding 
for the THAAD program. While 75 percent of our budget is dedicated to 
near-term fielding capabilities such as THAAD, resource decisions 
between programs must be based on priorities across the Agency. In the 
case of THAAD, we have made additional internal realignments which have 
restored THAAD interceptor production and precluded the 1-year slip.

    32. Senator Bill Nelson. General Obering, at the hearing you 
created some confusion about the fact that your fiscal year 2009 budget 
request would delay the delivery of THAAD Fire Units 3 and 4 by a year, 
since you suggested that you had been working since November to address 
this problem. Do you acknowledge the fact that your budget 
justification documents for fiscal year 2009, delivered to Congress in 
February 2008, state that the timeframe for contract award for THAAD 
Fire Units 3 and 4 fielding is planned for the first quarter of fiscal 
year 2010, and had ``slipped 1 year due to fiscal year 2008/2009 
funding shortfall'' and also state that the timeframe for delivery of 
Fire Unit 3 is planned for the period from the fourth quarter of fiscal 
year 2012 to the fourth quarter of 2013, and had ``slipped five 
quarters due to fiscal year 2008/2009 funding shortfalls''?
    General Obering. Yes, the February 2008 budget justification 
documents for fiscal year 2009 state contract award for THAAD Fire 
Units 3 and 4 fielding had slipped 1 year due to the program's fiscal 
year 2008/2009 funding shortfall and delivery of Fire Unit 3 was 
slipped from the fourth quarter of fiscal year 2012 to the fourth 
quarter of 2013. Subsequent to the House and Senate Authorization 
Staffer Day briefing, the Agency made additional internal realignments 
which have restored the $65 million in fiscal year 2009 to enable award 
of the THAAD Fire Units 3 and 4 long lead contract as originally 
planned and restored delivery of Fire Unit 3 back to the fourth quarter 
fiscal year 2012.

    33. Senator Bill Nelson. General Obering, the MDA previously 
removed three flight tests from the THAAD flight test program, thus 
increasing risk in the program. It appears that four of the remaining 
flight tests will now be delayed because you will not have targets 
delivered on time for the tests. What were the original schedules for 
THAAD Flight Tests 11-14, and what is their current schedule? Please 
detail the reasons for the schedule delay in Flight Tests 11-14, and 
whether additional funding would have prevented the delays.
    General Obering.

         Provide the original and current flight test schedule: The 
        original and current schedule for Flight Tests 11-14 are shown 
        below. The reason for the revised dates for all four tests was 
        target availability.

----------------------------------------------------------------------------------------------------------------
             Flight Test                  Original Schedule         Current Schedule              Impact
----------------------------------------------------------------------------------------------------------------
FTT-11...............................  19 Dec. 08.............  22 Jun 09..............  Slipped \6 months
FTT-12...............................  17 Feb. 09.............  14 Sep 09..............  Slipped \7 months
FTT-13...............................  23 Jun 09..............  Feb 09.................  Slipped \9 months
FTT-14...............................  1 Dec 09...............  Jun 09.................  Slipped \7 months
----------------------------------------------------------------------------------------------------------------

         Would additional funding have prevented the flight test 
        delays? From a THAAD organizational perspective, additional 
        funding would not have had an impact on the flight test delays 
        as the THAAD program was resourced to execute these tests on 
        the original schedule. From a Targets organizational 
        perspective, for FTT-11 and -12b, target availability was not 
        influenced by insufficient funding. The primary schedule driver 
        for FTT-11 and -12b was the significant disconnect between what 
        the Government expected to see in the offerer's proposal and 
        what the contractor proposed for the MBRV-1 re-entry vehicle 
        work. Issues were associated with resolving technical 
        disconnects. The proposal value was far higher than anticipated 
        and technical changes were incorporated during the process. The 
        FTT-13 and FTT-14 target availability delays were influenced by 
        a technical review of all BMDS target requirements and 
        balancing of available hardware resources across all test 
        events.

                    joint capabilities mix study ii
    34. Senator Bill Nelson. General Campbell, last year you told us 
that the Joint Capabilities Mix Study had indicated that we would need 
to buy about twice as many Standard Missile-3 (SM-3) and THAAD 
interceptors as we are currently planning. That would mean buying about 
200 THAAD interceptors instead of 96, and about 300 SM-3 interceptors 
instead of 147. Does the newest version of the Joint Capabilities Mix 
Study support that same conclusion, or suggest that we might need even 
more?
    General Campbell. The most recent iteration of the Joint Capability 
Mix (JCM) Study supported the previous study findings for the minimum 
quantities of SM-3 and THAAD interceptors for combat operations in two 
near simultaneous conventional campaigns in the 2015 timeframe.

    35. Senator Bill Nelson. General Campbell, am I correct in 
understanding that the studies are looking at the minimum quantity of 
upper tier interceptors required for combat operations? In other words, 
this is not the maximum, but the minimum we would need?
    General Campbell. That is correct. Both former as well as the 
current iteration of the JCM Studies make a recommendation for the 
minimum number of interceptors required for 2015 combat operations in 
two near simultaneous conventional campaigns.

    36. Senator Bill Nelson. General Campbell, what role will this 
study have in helping to determine force structure and inventory levels 
for THAAD and SM-3?
    General Campbell. This study is the starting point in addressing 
warfighters' BMD interceptor requirements and serves as an input into 
the Department's calculus in developing future force structures. The 
Vice Chairman signed the Joint Requirements Oversight Council 
Memorandum endorsing the study and further directs the Office of the 
Secretary of Defense, the MDA, and the Services to develop plans for 
addressing inventory recommendations.

                      global concept of operations
    37. Senator Bill Nelson. General Campbell, I understand you are 
working on a global concept of operations (CONOPs) for the BMDS that is 
intended to clarify the roles and responsibilities of the regional 
combatant commanders for missile defense. Can you tell me when that 
effort will be done, and whether the Commander of EUCOM will have a 
command and control responsibility for defending his Area of 
Responsibility (AOR) against missile attacks, including with the 
proposed GMD system in Europe?
    General Campbell. We are currently coordinating with the Joint 
Staff and Geographic Combatant Commanders to develop and clarify the 
missile defense roles of Regional Combatant Commanders. We expect to 
finalize a global CONOPs by mid-summer of this year.
    The Commander of EUCOM will always have an inherent responsibility 
with commensurate authority to defend his AOR per the Unified Command 
Plan and will utilize the resources in his AOR to include the proposed 
resident strategic European missile defense capabilities. Because the 
proposed European missile defense system would also have the capability 
to defend against trans-regional capabilities that threaten other AORs, 
the global CONOPs is being written to address both regional and trans-
regional command and control issues. This will ensure we optimize the 
overall BMDS. The U.S. Strategic Command (STRATCOM) has the overall 
responsibility to synchronize combatant commander missile defense plans 
into a global defense design by mitigating operational seams and 
vulnerabilities.

                            production rate
    38. Senator Bill Nelson. Secretary Young, General Obering, and Mr. 
Francis, the THAAD program is currently planning to build interceptors 
at a rate of two per month. The THAAD production facility is already 
capable of producing three per month. The contractor estimates that 
producing three interceptors per month could save more than $1 million 
per missile and result in earlier fielding. Would you agree that two 
per month is a less efficient and less economical production rate than 
three per month, and that a higher production rate would allow for unit 
cost savings?
    Mr. Young. Yes, there are efficiencies that result in a reduction 
of total contract cost and interceptor unit cost by increasing the 
production rate from two to three interceptors per month. These savings 
would be realized through the shorter period of performance for 
production deliveries and cost efficiencies realized by the higher 
production rate.
    General Obering. Yes, there are efficiencies that result in a 
reduction of total contract cost and interceptor unit cost by 
increasing production rate from two interceptors a month to three per 
month. The savings would be realized by a shorter period of performance 
for production deliveries and cost efficiencies realized by the higher 
production rate.
    Mr. Francis. I agree that producing three THAAD missiles per month 
is more efficient and more economical than producing two per month as 
the Government can reduce its costs on subcomponent buys. Moreover, 
with a potential requirement to produce additional missiles for Foreign 
Military Sales, it may become imperative for the program to increase 
its production rate from two to three per month. However, it should be 
noted that until the program has proven the performance of its missiles 
through testing, increased production rates may lead to costly 
retrofits if the remaining testing reveals any significant problems. 
Currently, the production rate of two per month is sufficient to 
support the program's ground and flight test schedule.
    The THAAD program is planning to deliver 98 interceptors to 
accompany 4 fire units. The program may also award a foreign military 
sales contract for 3 additional fire units including 144 interceptors 
in the future. The delivery of 98 THAAD interceptors is paced based on 
need dates for flight and ground testing. The additional interceptor 
quantities would require an increase in interceptor production rate to 
accommodate FMS production concurrent with Fire Units 3 and 4. For the 
remainder of development testing, production is scheduled at the rate 
of two to three interceptors per quarter. However, the current 
production capacity for fire unit interceptor deliveries at Troy, AL, 
is three interceptors per month based on a single shift operation. 
According to THAAD officials, the interceptor production facility in 
Alabama has recently incorporated lean manufacturing principles and 
other improvement processes that will allow the production facility to 
increase to three interceptors per month. Additionally, the contractor 
estimates that producing three interceptors per month could result in a 
cost savings of $1 million per missile and accelerate fielding. Based 
on the increased production rate, resulting efficiencies and additional 
units over which to spread fixed costs, it is estimated the interceptor 
average unit cost for Fire Units 3 and 4 would be reduced from $9.8 
million to $9.0 million for Fire Unit 3 and from $9.5 million to $8.1 
million for Fire Unit 4. The savings incurred based on increasing the 
production rate to at least three per month could provide a significant 
savings to the MDA and may provide for fielding assets in an 
accelerated timeframe. However, until testing of the missile and its 
components are complete, increasing the production of these 
interceptors increases the potential for costly rework if it is 
discovered that the missiles do not perform as intended.

    39. Senator Bill Nelson. Secretary Young, does DOD have the policy 
of trying to achieve the most economical and efficient acquisition of 
weapon systems?
    Mr. Young. The DOD constantly strives to provide the most effective 
weapons systems to the warfighter at the most economical and efficient 
acquisition means possible. To influence BMDS execution, I plan to 
implement a rigorous baseline agreement with defined cost, schedule, 
and performance parameters, and increase Department involvement, to 
allow continuous evaluation of acquisition and performance metrics. I 
have issued multiple weekly AT&L notes which call on all members of the 
acquisition enterprise, including MDA, to focus on lowering cost, 
executing within budget, trading requirements which drive cost and 
schedule, and ensuring budgets match plans, and advocating economic 
order quantity purchases. It is DOD policy to seek the most economical 
and efficient acquisition approach to weapon systems.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
                 improved oversight and accountability
    40. Senator Reed. Secretary Young, in a significant departure from 
longstanding practice, DOD granted MDA exceptional flexibility and 
authority in its concurrent development and rapid fielding of an 
initial set of limited missile defense capabilities. According to the 
GAO, this ``unprecedented funding and decisionmaking authority'' has 
``made MDA less accountable and transparent in its decisions than other 
major programs, making oversight more challenging.'' Now that the 
initial fielding of the limited missile defense capabilities has been 
accomplished, what steps will you take to increase and improve 
accountability and oversight of MDA and its programs
    Mr. Young. I conduct reviews of the BMDS and its elements to assess 
program status, and continue the tempo of the MDEB to provide broader 
Department exposure. For development, fielding, and support of BMDS 
blocks and element assessments, I plan to implement a rigorous baseline 
agreement with defined cost, schedule, and performance parameters to 
allow continuous evaluation of execution. We will derive an early and 
continued visibility into BMDS and its elements by a broad spectrum of 
the Department, enabling us to provide the necessary guidance to 
maintain missile defense priorities within cost and schedule 
constraints. In addition, the DOT&E and the operational testers are 
continuously involved with MDA activities and, together, annually 
report to Congress on the status of BMDS testing.

                           slow pace of tests
    41. Senator Reed. Dr. McQueary, your most recent annual report on 
missile defense concludes that there have not been enough flight tests 
of the GMD system to characterize the capability of the system or 
validate and verify models and simulations. Although the GMD program 
has planned to conduct two flight tests per year, because of various 
problems it conducted only one successful flight test last year, and 
will conduct only one flight test during this fiscal year. If the GMD 
program conducts only one flight test per year, doesn't that mean it 
would take even longer than expected to produce sufficient flight test 
data to gain confidence in the system's capability, and to determine if 
the system is effective, suitable, and survivable?
    Dr. McQueary. Yes. Unfortunately, we cannot explore a lot of the 
mission battlespace with only two flight tests. Nor can we access 
equipment reliability or show repeatability. The key is to employ an 
evaluation-based test strategy that gathers the maximum amount of 
relevant data during each flight test event to not only document 
performance but also to validate the models for simulations. General 
Obering's ``test-analyze-fix-test'' approach is the right way to do 
developmental testing. Each ground and flight test generates a 
significant volume of data that must be analyzed before the next test 
can be accomplished. If this important step is not accomplished, there 
is a significant risk that the next test will fail wasting time and 
resources. Two flight tests per year for GMD is about right. 
Unfortunately, circumstances have reduced GMD testing to only two 
completed intercept tests in the last 2 years.

               growing demands for additional capability
    42. Senator Reed. General Campbell, your prepared testimony 
mentions the ``growing demands of the combatant commanders to provide 
global air and missile defense against the entire threat set.'' Are the 
combatant commanders (COCOMs) asking for, or interested in, additional 
PAC-3, SM-3, or THAAD force structure or inventory?
    General Campbell. Yes, the COCOMs have asked for greater quantity 
and earlier availability of missile defense forces. We are continuing 
to refine the force structure requirements through additional analysis 
and inform the MDA of future COCOM capability needs through the U.S. 
STRATCOM led Warfighter Involvement Process, the Joint Requirement 
Oversight Council process, and the MDEB.

                     program element rebaselinings
    43. Senator Reed. General Obering, how many times have each of the 
following elements been rebaselined or replanned: GMD, THAAD, airborne 
laser (ABL), Aegis BMD, multiple kill vehicle (MKV), kinetic energy 
interceptor (KEI), STSS, command, control, battle management, and 
communications (C2BMC), and sensors?
    General Obering.

          GMD - 5,
          THAAD - 4,
          ABL - 5,
          Aegis BMD - 1,
          MKV - 0,
          KEI - 2,
          STSS - 0,
          C2BMC - 2,
          Sensors - 0.

    44. Senator Reed. General Obering, what were the cumulative cost 
and schedule variances at the time of the rebaselinings or replans?
    General Obering.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      

                    airborne laser program estimates
    45. Senator Reed. General Obering, what were the planned date of 
the lethality demonstration and the estimated cost of the ABL program 
through lethality demonstration when MDA assumed management of the 
program?
    General Obering. MDA assumed management of ABL in 2002. In the 
Selected Acquisition Report (SAR) dated 31 December 2001 (RCS: DD--A&T 
(Q&A) 823), the Approved Acquisition Program Baseline had lethal 
demonstration in September 2003 with a cost of $3.02 billion (Base Year 
2008 dollars). The current ABL program estimate achieves lethal 
demonstration in fourth quarter fiscal year 2009 with a cost of $5.4 
billion (Base Year 2008 dollars).

    46. Senator Reed. General Obering, what is the current estimated 
cost through the lethality demonstration?
    General Obering. The total cost for ABL to complete lethal 
demonstration, encompasses 13 years, fiscal years 1996-2009. This cost 
is $5.4 billion (Base Year 2008 dollars) and $5.1 billion (Then Year 
dollars).

                     new block structure workshare
    47. Senator Reed. General Obering, you stated in your testimony 
that work for a particular block will only benefit that block. Yet in 
the GMD element, money is being requested in Block 3.0 for the purchase 
of two-stage test interceptors to be utilized for Block 4.0. Please 
reconcile the discrepancy.
    General Obering. While the two-stage is being developed 
specifically for the European Interceptor Site (EIS), the two-Stage 
variant of the GBI provides additional capabilities and engagement 
options whether fielded at Fort Greely, AK; Vandenberg AFB, CA; or in 
Europe. The GBI two-stage variant development program is considered a 
core capability enhancement to the GMD system, and was therefore 
budgeted in Block 3. The fielding of the two-stage interceptor is 
planned for Europe; European fielding activities are budgeted as part 
of Block 4.

              new block structure baselines and estimates
    48. Senator Reed. General Obering, MDA plans to estimate total 
costs for each block and then baseline those costs for the purposes of 
reporting variances to Congress. What is the timetable for estimating 
total costs and baselining them for each block?
    General Obering. We are currently working on cost estimates for 
Blocks 2.0 (Defense of Allies and Deployed Forces from Short-to-Medium 
Range Threats in One Region/Theater) through 5.0 (Expand Defense of 
Allies and Deployed Forces from Short-to-Intermediate Range Threats in 
Two Regions/Theaters) and plan on completing these estimates by this 
summer. We have also asked the Cost Analysis Improvement Group (CAIG) 
to conduct independent cost estimates. Based on these estimates, we 
intend to submit the cost baselines for Blocks 2.0 and 3.1/3.2 (Expand 
Defense of the U.S. to Include Limited Iranian Long-Range Threats) with 
the fiscal year 2009 BMDS Block Baselines and Goals (SOG) with the 
President's budget for fiscal year 2010. When we have sufficient 
confidence that the cost baselines are achievable for Blocks 3.3 
(Expand Defense of the U.S. to Include Limited Iranian Long-Range 
Threats--Improved Discrimination and System Track), 4.0 (Defense of 
Allies and Deployed Forces in Europe from Limited Long-Range Threats/
Expand Protection of the U.S. Homeland), and 5.0, we will submit them 
in subsequent SOGs.

    49. Senator Reed. General Obering, what criteria will MDA use other 
than the qualitative criteria associated with sufficient knowledge 
levels and urgency of threat? For example, will there be a dollar or 
time threshold for a block that cannot be exceeded before it is 
baselined?
    General Obering. While we do not have a dollar or time threshold in 
mind, we understand the importance of establishing baselines sooner 
rather than later for purposes of accountability and transparency. Our 
established process is to initiate the block and then to define 
baselines for it. A new block will be initiated when a significant new 
capability against particular threats is expected to be fielded based 
on a consideration of technological maturity, affordability, and need. 
Technology maturity and successful achievement of knowledge points will 
be a critical factor in the decision to establish a new block. We will 
define baselines (schedule, budget, and performance) for block when we 
can make a firm commitment to Congress based on a high level of 
confidence that the baselines can be achieved.

    50. Senator Reed. General Obering, what units will be identified 
for unit cost tracking, and what criteria will be used to select these 
units?
    General Obering. We are still developing our procedures for 
establishing and reporting unit cost estimates. In general, our 
approach will be to establish unit costs for all equipment being 
fielded in the following categories: interceptors and weapons; sensors; 
command and control sites, nodes, and equipment sets; and launch 
systems. We are still developing these estimates and intend to submit 
them with our fiscal year 2009 BMDS Block Baselines and Goals (SOG) 
with the President's budget for fiscal year 2010.

    51. Senator Reed. General Obering, what criteria will be used to 
define significant variances and report them to Congress?
    General Obering. We are still refining the specific criteria that 
will be used to define significant variances; and we intend to define 
and report on them in our fiscal year 2009 BMDS Block Baselines and 
Goals (SOG) with the President's budget for fiscal year 2010.

    52. Senator Reed. General Obering, will you work with Congress to 
determine the appropriate thresholds for variances?
    General Obering. Yes. In order to achieve the goals of 
accountability and transparency, we are now determining the appropriate 
thresholds for reporting variances. We are committed to working with 
Congress in this regard.

                  public reporting of block variances
    53. Senator Reed. General Obering, at the hearing, you agreed to 
publicly report cost and schedule variances, and performance variances 
within the limitations of protecting classified information. What form 
will this public reporting of variances take?
    General Obering. Our reporting of variances to Congress will be 
presented in our annual BMDS Block Baselines and Goals (SOG) document 
and annual BMDS SAR. The former must accompany the President's budget 
submission and the latter must follow within 60 days of that 
submission. Schedule and cost data are typically unclassified while 
performance data are typically classified. To meet the needs of 
Congress, we expect to continue the practice of issuing both a 
classified and unclassified version of the SOG, and an unclassified SAR 
with a classified annex that includes the performance information.

                       cost estimates for blocks
    54. Senator Reed. General Obering, you have indicated that MDA 
plans to establish cost estimates for each of the blocks in the new 
block structure. What costs will be included in the total costs for 
each block? For example, will the total costs include both acquisition 
costs and O&S costs? If O&S costs are included, will they be part of 
the baseline?
    General Obering. As described in our President's budget for fiscal 
year 2009 and budget overview and our fiscal year 2008 BMDS Block 
Baselines and Goals (SOG), each block includes the fielding and 
development funding associated with the specific capability that the 
block delivers. Also, O&S costs are not included in block baselines, 
but are tracked separately.

    55. Senator Reed. General Obering, if O&S costs are included as 
part of the baseline, would MDA consider decisions that would change 
the estimates for acquisition and O&S costs, but not the total life 
cycle cost, to be nonreportable variances? For example, if the 
acquisition costs for a block increased but were offset by an O&S 
decrease, holding total life cycle costs constant, would this be 
considered a reportable variance?
    General Obering. Since O&S costs are not part of the baseline, 
changes in those costs will not be reported as variances. This 
particular example, however, would be a reportable variance, because a 
change in the fielding and development costs for a baselined block 
would be a reportable variance. Such variances will be reported 
annually in the BMDS Block Baselines and Goals (SOG) and the BMDS SAR.

    56. Senator Reed. General Obering, if O&S costs are included as 
part of the baseline, how will acquisition costs be tracked and 
reported, in order to ensure accountability and transparency of 
variances in acquisition costs?
    General Obering. O&S costs are not included as part of block 
baselines. Baseline costs include fielding and development costs. We 
will report variances to Congress in our annual BMDS Block Baselines 
and Goals (SOG) document and annual BMDS SAR.

    57. Senator Reed. General Obering, regarding acquisition costs 
alone, if a change in the mix of assets occurs, for example, more THAAD 
missiles are bought and fewer C2BMC planners are bought--again, without 
changing the total cost of the block--would that be a reportable 
variance?
    General Obering. We intend to report variances in schedule, budget, 
and performance from block baselines to Congress. In this example, the 
addition of THAAD missiles or subtraction of C2BMC planners would 
impact scheduled deliveries and performance and would therefore be 
reported as variances, even if total block costs remained the same.

    58. Senator Reed. General Obering, given that capability 
development items will make up about half of MDA's budget by the end of 
the current 6-year program plan, how will MDA track actual execution of 
not only technical progress, but progress against the cost and 
schedules envisioned for these items?
    General Obering. While our President's budget submission for fiscal 
year 2009 shows that capability development is more than 50 percent of 
MDA's budget toward the end of the 6-year program planning period, we 
expect that percentage to decrease over time because, within the next 
few years, some BMDS element technology programs will progress to the 
point where they can be incorporated within new blocks. Under our new 
block structure, a new block will be initiated when a significant new 
capability against particular threats is expected to be fielded based 
on a consideration of technological maturity, affordability, and need.
    As for tracking actual execution of technological progress, we 
follow a knowledge-based approach. We use standards--called knowledge 
points--to assess the progress of our BMDS element technology programs. 
These knowledge points address both technical maturity and 
affordability issues. We also pay close attention to technology 
readiness levels and engineering and manufacturing readiness levels to 
assess progress. Further, we use earned value management systems to 
track cost and schedule performance against planned work. However, we 
continually seek better engineering and business practices and will 
continue to investigate other means for assessing technology maturity.

                   cost accounting for deferred tests
    59. Senator Reed. General Obering, in the normal course of BMD 
development programs, changes have occurred in the test schedules for 
individual elements. It is difficult, however, to determine how 
budgeted funds are accounted for when tests are deferred, combined, or 
dropped. When a test is planned and funded for one fiscal year and then 
is deferred to a future fiscal year, how are costs accounted for?
    General Obering. The MDA accounts for funds budgeted for tests 
using traditional Work Breakdown Structure. Funding for system level 
tests and element specific tests is delineated within the BMDS Block or 
Mission Area Investment (MAI) level with each Program Element (PE). 
This Block or MAI level correlates directly to the budget projects 
(e.g., AX08, YX04, EX09) outlined in the MDA fiscal year 2009 
President's budget (PB09) submission. Test funding is directly related 
within these budget projects, and by correlation each BMDS Block or 
MAI. An example of this would be the R2a accomplishment entitled 
``Element Test and Evaluation'' on page 232 of the MDA PB09 submission.
    As the BMDS test program changes (as test activities are deferred, 
combined, and/or dropped) the amount of funding MDA accounts to test 
activities changes as well. MDA accounts for these changes using a 
defined corporate change process which spans the current year of fiscal 
execution as well as the follow-on budgeting and planning fiscal years. 
This corporate change process allows for the proper and necessary 
accounting of MDA test funding whether the test change affects a single 
fiscal year or spans multiple fiscal years. Frequently, there are 
fiscal expenditures for a test that occurred well in advance of the 
actual test date. These expenditures manifest themselves as ``sunk'' 
costs for these tests whether deferred, combined, or dropped.

    60. Senator Reed. General Obering, specifically, are the funds 
originally budgeted for the test used for something else, and then new 
money requested for the year in which the rescheduled test occurs?
    General Obering. If a test is deferred, and funding originally 
budgeted for that test has not yet been obligated for the purposes of 
that test, MDA corporately determines whether it is appropriate to 
realign that funding to support other test priorities or whether to 
fully utilize the authority of the research, development, test, and 
evaluation (RDT&E) appropriation and retain those funds for later 
obligation against that rescheduled test. Frequently, there are fiscal 
expenditures for a test that occurred well in advance of the actual 
test date. These expenditures manifest themselves as ``sunk'' costs for 
these tests whether deferred, combined, or dropped.

    61. Senator Reed. General Obering, please use the specific example 
of FTG-04 and track how the costs for the test were budgeted for and 
expended. FTG-4 has been budgeted for and rescheduled five times 
between October 2005 and February 2008. Can MDA show what the costs of 
this test were as originally estimated and budgeted for in October 2005 
and compare this with the current estimated costs of the test and where 
they are budgeted?
    General Obering. The attached Flight Test Replan History chart 
tracks the evolution of the GMD program's spiral development approach 
with regard to FTG-04. The June 2005 plan was created following the 
initial MRTF recommended realignment of the GMD flight test program. 
Two target-only flight tests were added into the schedule during this 
period, and GMD's consistent flight test successes since the MRTF led 
to the acceleration of flight test objectives, a prime example of which 
is FTG-04. FTG-04 is a far more complex test now than was envisioned in 
June 2005. A comparison between the original FT-4 and FTG-04 today is 
shown below:
    Original Cost Estimate FT-4 in October 2005: $96 million - planned 
as a GMD-only flight test, and the first intercept following the MRTF 
re-plan of mid-2005. The target was planned with one pre-selected 
engagement radar to generate the weapons task plan and the target was 
planned to be a very simple separating target.
    Current Cost Estimate FTG-04: $147 million - planned as a full BMDS 
test and the third GMD intercept since the MRTF re-plan. FTG-04 is now 
planned as a multi-sensor engagement which includes four radars; and 
the target now includes countermeasures.

    62. Senator Reed. General Obering, have any of the funds budgeted 
for this test been obligated and expended? If so, how much and for what 
purposes?
    General Obering. Approximately $147.1 million (or 100 percent) of 
FTG-04 funds have been obligated for all planned test costs.

         - $26 million for planning, execution, and analysis
         - $9 million for test lab upkeep (the portion attributable to 
        FTG-04)
         - $35 million for target
         - $9.5 million for target range
         - $50 million for ground-based interceptor (GBI)
         - $4.2 million for GMD Core Range
         - $13.4 million for Variable Core Range

    Approximately $101.0 million (or 68.6 percent) of FTG-04 funds have 
been expended through April 23, 2008.

         - $11.4 million (or 43.8 percent) for planning, execution, and 
        analysis
         - $9 million (or 100 percent) for test lab upkeep
         - $22.126 million (or 63.2 percent) for target (target 
        acquired through Sandia National Laboratories, expenditures 
        take approximately 120 days to process through the Department 
        of Energy)
         - $2.8 million (or 29.5 percent) for Target Range
         - $48.5 million (or 97 percent) for GBI
         - $3.1 million (or 73.8 percent) for GMD Core Range
         - $4.03 million (or 30 percent) for Variable Core

               ground-based interceptors retrofit program
    63. Senator Reed. General Obering, at the hearing, there was some 
discussion of the program to retrofit the GBIs with more reliable 
components. What are the components to be retrofit on the GBIs (please 
list) and what is the cost of each new component?
    General Obering. The following table reflects components that will 
be replaced in four GBIs planned for refurbishment in calendar year 
2008.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    64. Senator Reed. General Obering, please provide an update on the 
retrofit program, including how many interceptors have been retrofit as 
well as the schedule (by month) to complete retrofitting the remaining 
interceptors.
    General Obering. Four interceptor refurbishments are scheduled in 
calendar year 2008 with planned completion dates of July, August, 
November, and December. Two of these four interceptor refurbishments 
are currently in process. The basic booster upgrades have been 
completed and the Booster Avionics Module upgrades with new Attitude 
Control System (ACS) decks are in process and near completion. The 
removed ACS decks and all other available parts that are removed during 
refurbishment will be used to conduct stockpile reliability analysis. 
The original refurbishment study had identified future upgrades for an 
additional 13 vehicles to be completed from calendar year 2009 through 
calendar year 2012. However, these additional refurbishments are not on 
contract and therefore no firm schedule yet exists.

    65. Senator Reed. General Obering, please detail the cost to 
retrofit and/or refurbish each individual interceptor.
    General Obering. Each interceptor is unique in the degree of 
retrofit/refurbishment that will need to be completed in order to 
provide the warfighter the most operationally reliable system. For the 
four scheduled calendar year 2008 refurbishments, the estimated costs 
for each are $7.0 million-$9.0 million per interceptor for moderate 
refurbishment. The refurbishment study identified upgrades for an 
additional 13 vehicles to be completed from calendar year 2009 through 
calendar year 2012. In an effort to provide the refurbishment program a 
flexible and timely contractual response for unscheduled maintenance, a 
Request for Proposal was sent to the prime contractor on April 28, 
2008, requesting pricing for three refurbishment options (Minimal, 
Moderate, and Extensive). The ranges of cost for each of these options 
are expected to be: Minimal - $2 million-$6 million; Moderate - $7 
million-$10 million; Extensive - $14 million-$16 million. The details 
of what each particular interceptor refurbishment will cost have yet to 
be developed given we are still in the early stages of the GBI 
refurbishment program.

                          acquisition approach
    66. Senator Reed. Mr. Francis, MDA suggests that its acquisition 
approach is both novel and an improvement to the more linear approach 
outlined in DOD acquisition policy (referred to as DOD 5000) and, by 
association, GAO's work on best practices. What are your views on MDA's 
acquisition approach as compared with DOD acquisition policy and best 
practices?
    Mr. Francis. Our work on DOD weapon systems over the past 6 years 
shows that programs have not adopted the knowledge-based approach in 
DOD's acquisition policy. Instead, acquisition programs have preferred 
to manage technology, design, and manufacturing risks at the same time 
which leads to cost growth and schedule delays. MDA's concurrent 
development and fielding approach to acquisitions has more in common 
with other acquisition programs than with DOD acquisition policy, 
because most programs do not abide by DOD policy. DOD policy is linear 
only in the sense that it calls for following sound systems engineering 
principles for a given scope of work. For example, key technologies 
should be mature before committing to system development; a design 
should be stable before committing to system demonstration; and the 
design and production processes should be mature before committing to 
production. This approach, to me, is inarguable and its linearity, 
sensible. The policy also provides for non-linear spiral development to 
provide evolutionary advances to a basic capability. Thus, I would 
characterize the issue as not so much as policy having failed, but 
rather as policy not having been tried. Taken in this context, MDA's 
approach is not so much a novel departure from DOD policy as it is 
taking the de rigueur departure followed by most programs to an even 
greater degree.
    MDA's acquisition strategy allows its programs to work on maturing 
technologies while they are also maturing the system design and 
preparing for production. Our work has found that programs following 
this practice have higher cost growth than programs that start system 
development with mature technologies. As reported in our March 2008 
assessment, for DOD programs that similarly began with immature 
technologies, their total RDT&E costs grew by 44 percent more than 
programs that began with mature technologies.\1\ More often than not, 
programs were still maturing technologies late into system development 
and even into production.
---------------------------------------------------------------------------
    \1\ GAO, Defense Acquisitions: Assessments of Selected Weapon 
Programs, GAO-08-467SP (Washington, DC: Mar. 31, 2008)
---------------------------------------------------------------------------
    Based on our body of work, in order to have good outcomes, the best 
practices contained in DOD acquisition policy require the use of a 
knowledge-based approach to product development that demonstrates high 
levels of knowledge before significant commitments are made. We have 
found that programs managed outside the knowledge-based process are 
more likely to have surprises in the form of cost and schedule 
increases. MDA has experienced some of these problems, although a full 
accounting is not possible because of the flexibilities MDA has had in 
using funds, deferring work, and tracking costs. One must also keep in 
mind that MDA has benefited from ``linearity'' in a very basic sense. 
That is, MDA's ability to accelerate the development and fielding of 
assets in the past few years owes much to the advanced development work 
that was conducted in the preceding 20 years.

                          new block structure
    67. Senator Reed. Mr. Francis, MDA has changed its block structure 
from the previous 2-year blocks to a series of capability blocks that 
are intended to respond to particular threats, but without the previous 
time limits. How does MDA's new block structure address the issues GAO 
has reported on regarding the previous 2-year block structure?
    Mr. Francis. MDA's new block construct, which was redefined in 2007 
to better communicate the agency's plans and goals to Congress, makes 
many positive changes. These include establishing a unit cost for 
selected block assets, including in a block only those elements or 
components that will be fielded during the block, and abandoning the 
practice of deferring work from block to block.
    MDA's new block construct provides a means for comparing the 
expected and actual unit cost of assets included in a block. As we 
noted in our fiscal year 2006 report, MDA's past block structure did 
not estimate unit costs for assets considered part of a given block or 
categorize block costs in a manner that allowed calculations of 
expected or actual unit costs.\2\ Under the new block construct, MDA 
expects to develop unit costs for selected block assets--such as THAAD 
interceptors--and request an independent verification of that unit cost 
from DOD's CAIG. MDA will also track the actual unit cost of the assets 
and report significant cost growth to Congress. However, MDA has not 
yet determined for which assets a unit cost will be developed and how 
much a unit cost must increase before that increase is reported to 
Congress.
---------------------------------------------------------------------------
    \2\ GAO, Defense Acquisitions: Missile Defense Acquisition Strategy 
Generates Results but Delivers Less at a Higher Cost, GAO-07-387 
(Washington, D.C.: March 15, 2007).
---------------------------------------------------------------------------
    The new construct also makes it clearer as to which assets should 
be included in a block. Under the agency's prior block construct, 
assets included in a given block were sometimes not planned for 
delivery until a later block. For example, as we reported in March 
2007, MDA included costs for ABL and STSS as part of its Block 2006 
cost goal although those elements did not field or plan to field assets 
during Block 2006.\3\ Agency officials told us those elements were 
included in the block because they believed the elements could offer 
some emergency capability during the block timeframe.
---------------------------------------------------------------------------
    \3\ GAO-07-387.
---------------------------------------------------------------------------
    Finally, the new block construct should improve the transparency of 
each block's actual cost. Under its prior construct, MDA deferred work 
from one block to another; but it did not track the cost of the 
deferred work so that it could be attributed to the block that it 
benefited. For example, MDA deferred some work needed to characterize 
and verify the Block 2004 capability until Block 2006 and counted the 
cost of those activities as a cost of Block 2006. By doing so, it 
understated the cost of Block 2004 and overstated the cost of Block 
2006. Because MDA did not track the cost of the deferred work, the 
agency was unable to adjust the cost of either block to accurately 
capture the cost of each. MDA officials told us that under its new 
block construct, MDA will no longer transfer work, along with its cost, 
to a future block. Rather, a block of work will not be considered 
complete until all work that benefits a block has been completed and 
its cost has been properly attributed to that block.

    68. Senator Reed. Mr. Francis, what issues still need to be 
addressed with the new block structure?
    Mr. Francis. Although improvements are inherent in MDA's new block 
construct, its full benefit to transparency and accountability depends 
on future actions. MDA has not yet estimated the full cost of a block. 
Also, MDA has not addressed whether it will transfer assets produced 
during a block to a military Service for production and operation at 
the block's completion, or whether MDA will continue its practice of 
concurrently developing and fielding BMDS elements and components.
    According to its fiscal year 2009 budget submission, MDA does not 
plan to initially develop a full cost estimate for any BMDS block. 
Instead, when a firm commitment can be made to Congress for a block of 
capability, MDA will develop a budget baseline for the block. This 
budget will include anticipated funding for each block activity that is 
planned for the 6 years included in DOD's Future Years Defense Plan. 
MDA officials told us that if the budget for a baselined block changes, 
MDA plans to report and explain those variations to Congress.\4\ At 
some future date, MDA does expect to develop a full cost estimate for 
each committed block and is in discussions with DOD's CAIG on having 
the group verify each estimate; but documents do not yet include a 
timeline for estimating block cost or having that estimate verified. It 
is not clear at this point whether the block cost estimate will contain 
acquisition costs only or will include O&S costs as well (a life-cycle 
cost estimate). While it is important to have a life-cycle cost 
element, it is also important to track acquisition costs separately 
from life-cycle costs for reporting purposes. Transparency would suffer 
if, for example, an increase in a block's acquisition costs offset by a 
corresponding reduction in O&S costs were treated as having no effect 
on the life-cycle cost total, thus precluding the need to report the 
acquisition cost increase.
---------------------------------------------------------------------------
    \4\ MDA expects to initially develop budget baselines and report 
variances to this baseline for Blocks 1.0, 2.0, and a portion of 3.0.
---------------------------------------------------------------------------
    The new block construct also does not address whether the assets 
included in a block will be transferred at the block's completion to a 
military Service for production and operation. Officials representing 
multiple DOD organizations recognize that the transfer criteria 
established in 2002 are neither complete nor clear given the BMDS's 
complexity. Without clear transfer criteria, MDA has transferred the 
management of only one element--the Patriot Advanced Capability-3--to 
the military for production and operation. Joint Staff officials told 
us that for all other elements, MDA and the military Services have been 
negotiating the transition of responsibilities for the sustainment of 
fielded elements--a task that has proven arduous and time-consuming. 
Although MDA documents show that under its new block construct the 
agency should be ready at the end of each block to deliver BMDS 
components that are fully mission-capable, MDA officials could not tell 
us when MDA's Director will recommend that management of components, 
including production responsibilities, be transferred to the military.
    Finally, it is not clear, under MDA's new block construct, whether 
the concurrent development and fielding of BMDS elements and/or 
components will continue. Fully developing a component or element and 
demonstrating its capability prior to production increases the 
likelihood that the product will perform as designed and can be 
produced at the cost estimated. To field an initial capability quickly, 
MDA accepted the risk of concurrent development and fielding during 
Block 2004. For example, by the end of Block 2004, the agency realized 
that the performance of some ground-based interceptors could be 
degraded because the interceptors included inappropriate or potentially 
unreliable parts. MDA has begun the process of retrofitting these 
interceptors, but work will not be completed until 2012. Meanwhile 
there is a risk that some interceptors might not perform as designed. 
MDA also continued to accept this risk during Block 2006 as it fielded 
assets before they were fully tested. MDA has not addressed whether it 
will accept similar performance risks under its new block construct or 
whether it will fully develop and demonstrate all elements/components 
prior to fielding.

    69. Senator Reed. Mr. Francis, what challenges do you see that MDA 
will face in estimating block costs, baselining them, having them 
independently verified, and reporting variances?
    Mr. Francis. As MDA continues to implement its new block strategy, 
it will have to make important decisions on establishing baselines and 
reporting variances. Specifically, MDA must decide what it is going to 
include in a block's cost, identifying the assets for which unit costs 
will be developed, outlining how much a unit cost must increase before 
that increase is reported to Congress, estimating costs capability 
development efforts. I believe that MDA should work closely with 
Congress in making these decisions.
    MDA may find that estimating costs for near-term blocks such as 
Blocks 1.0 and 2.0 may be easier to develop since the work for these 
blocks is nearly complete. However, estimating costs for work scheduled 
to occur in Blocks 4.0 and 5.0 may be more difficult as work for these 
blocks is scheduled farther into the future. Additionally, it will be 
more difficult to estimate costs for elements captured under its 
Capability Development effort, such as the ABL, KEI, and MKV programs. 
These programs are in the midst of developing technology. Such programs 
generally do not have firm cost, schedule, or performance baselines 
because they are in a period of discovery, which makes schedule and 
cost difficult to estimate. MDA's experience with the ABL program 
provides a good example of the difficulty in estimating the cost and 
schedule of technology development. In 1996, the ABL program believed 
that all ABL technology could be demonstrated by 2001 at a cost of 
about $1 billion. However, MDA now projects that this technology will 
not be demonstrated until 2009 and its cost has grown to over $5 
billion. It is imperative that MDA establish baselines, because until 
it does it will be difficult for decisionmakers to evaluate the 
business case for the BMDS.

                     significance of cost increases
    70. Senator Reed. Mr. Francis, in your prepared testimony, and in 
your March report, you make the point that the Block 2006 missile 
defense system had a $1 billion cost increase. Some might argue that, 
in a program with an annual budget of more than $9 billion, such cost 
increases are not worrisome, amounting to only a 5-percent increase 
over the 2-year block. Would you agree with that argument? If not, why 
not?
    Mr. Francis. Although we reported in 2007 that during Block 2006 
MDA increased costs by about $1 billion, we could not discern the full 
cost of the block because the agency deferred some budgeted work to 
future costs in order to stay within its revised budget and offset 
increasing contractor costs.\5\ Thus, the actual cost increase is 
likely higher. Although the measurable percentage increase seems 
relatively small, we should not be insensitive to the fact that at $8 
to $10 billion per year, the missile defense budget is unusually large. 
Thus, a small percentage increase translates into a significant amount 
of money. Moreover, even a 2.5 percent cost increase per year for a 
more typical major defense acquisition program that would normally span 
10 or so years, would, using the Nunn-McCurdy criteria for the current 
baseline, be enough to trigger a significant cost growth breach by year 
6 and a critical cost growth breach in year 10. That is, at that rate 
of cost growth, a program would accrue a 25 percent cost increase over 
10 years. Furthermore, every dollar spent inefficiently in developing 
and procuring weapon systems is less money available for many other 
internal and external budget priorities--such as the global war on 
terror and growing entitlement programs. These inefficiencies also 
often result in the delivery of less capability than initially planned, 
either in the form of fewer quantities or delayed delivery to the 
warfighter.
---------------------------------------------------------------------------
    \5\ GAO, Defense Acquisitions: Missile Defense Acquisition Strategy 
Generates Results but Delivers Less at a Higher Cost, GAO-07-387 
(Washington, DC: March 15, 2007).
---------------------------------------------------------------------------
    The consequence of cost growth is reduced buying power and lost 
opportunities. Funded at $8 billion to nearly $10 billion annually, 
MDA's BMDS is the largest research and development program in DOD's 
budget. Every dollar spent on inefficiencies in acquiring one weapon 
system is less money available for other opportunities. As program 
costs increase, programs must request more funding to cover the 
overruns, make trade-offs with existing programs, delay the start of 
new programs, or take funds from other accounts. Ultimately, cost 
overruns and delays affect warfighters who have to operate costly 
legacy systems longer than expected, find alternatives to fill 
capability gaps, or go without the capability.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                              thaad system
    71. Senator Pryor. General Obering and General Campbell, in your 
statements you both allude to the vital importance of THAAD to the 
terminal defense segment of MDA for the protection of our Homeland and 
overseas bases, our service men and women deployed in support of 
Operation Enduring Freedom and OIF, and our friends and allies. 
Furthermore, you acknowledge that Iran is expanding its delivery 
systems by developing an extended-range version of the Shahab-3 that 
could strike our allies and friends in the Middle East and Europe, and 
also identify a new Ashura medium-range ballistic missile capable of 
reaching Israel and U.S. bases in Eastern Europe. While the THAAD 
program is designed to protect the warfighter from these threats today, 
it is underfunded by $65 million, effectively delaying the program up 
to 1 year. What kind of priority does our missile defense strategy give 
the THAAD program? Doesn't it make sense to fully fund THAAD or maybe 
even buy back the contract and bring Fire Units 3 and 4 on schedule?
    General Obering. The Agency's fiscal year 2009 budget reflects an 
overall strategy that focuses on near-term delivery of BMD 
capabilities, to include THAAD. It is fully funding the program and has 
realigned funding to enable contract award for interceptor long-lead 
components which restores Fire Unit 3 and 4 schedules.
    General Campbell. The MDA has performed an excellent job in 
developing a BMDS capability. The agency has also collaborated with the 
DOD, combatant commanders, and Services to deliver capabilities based 
on a balance of resources and technological maturity moderated by the 
warfighter's priority of need. In recognition of the high priority of 
need that THAAD enjoys, I understand the MDA has recently taken steps 
to realign internal funding to restore planned procurement and delivery 
of these two fire units and interceptors as originally planned and 
scheduled. THAAD represents a cutting edge BMD capability that we need 
to field as early as possible.

    72. Senator Pryor. General Obering, what has contributed to the 
cost growth in THAAD and SM-3?
    General Obering. The Aegis BMD program of record is and continues 
to be an aggressive program from a cost, technical, and schedule 
perspective. Aegis BMD is managing eight developments simultaneously 
along with a missile manufacturing program and an aggressive ship 
installation schedule. There have been unplanned technical challenges 
with the Third Stage Rocket Motor and Divert Attitude Control of the 
SM-3 Block IA development that required additional ground/element level 
testing to ensure all operational modes of the missile were well 
understood and available prior to its deployment to the fleet. 
Additional engineering was also required to deal with unplanned SM-3 
manufacturing and diminishing manufacturing sources issues.
    Aegis BMD's aggressive testing schedule has driven an increase in 
modeling and simulation and scenario certifications as risk reduction 
measures to ensure flight mission success to achieve Operational 
Evaluation of the Block 2004 capability. Finally, assessment of mission 
assurance and other ``core'' standards within the program, along with 
added security requirements associated with Kill Assessment have driven 
additional unplanned costs.
    Aegis BMD has taken these development and testing experiences into 
account with the SM-3 Block IB upgrade, as well as, future spirals of 
the Aegis BMD System.
    For THAAD, there have been several factors contributing to cost 
overrun and cost growth for the program.

         The Development contract has an estimate at completion that 
        is predicted to end the contract with an approximate 5 percent 
        overrun to contract cost. The overrun has been driven 
        principally by variances experienced in the interceptor for 
        design discoveries during assembly/subassembly ground 
        qualification testing requiring subsequent rework and launcher 
        component hardware and software complexities.
         There has been cost growth in scope to the program caused 
        primarily by: (a) critical contract changes necessary to 
        prepare for Fire Unit Fielding (e.g., Fire Control obsolescence 
        and redesign for the 5-ton truck); (b) Insensitive Munitions/
        Final Hazard Classification requirements; (c) the impact of 
        target availability causing delays to the flight test program; 
        (d) risk reduction and flight test analysis efforts; and (e) 
        THAAD participation in Juniper Cobra 09.
                                 ______
                                 
               Question Submitted by Senator John McCain
                       compliance of section 223
    73. Senator McCain. Secretary Young, section 223 of the National 
Defense Authorization Act (NDAA) for Fiscal Year 2008, as passed by 
Congress, prohibits the use of RDT&E funds for procurement or advance 
procurement of long lead items, including for SM-3 Block IA 
interceptors in fiscal year 2009. Yet the fiscal year 2009 President's 
budget request for the MDA includes a request for $130.0 million in 
RDT&E funds for the SM-3 Block IA interceptor. Please explain why DOD 
is not following the law, and what you plan to do to bring MDA into 
compliance with the NDAA for Fiscal Year 2008.
    Mr. Young. Due to time constraints and the advanced state of the 
DOD budget, MDA was unable to incorporate changes to the fiscal year 
2009 President's budget submission to be consistent with the 
requirements of section 223. However, MDA was able to implement the 
direction of Congress to program construction projects in the Military 
Construction (MILCON) appropriations. The Department will carefully 
consider these requirements as we develop the next budget request.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                       compliance of section 223
    74. Senator Sessions. Secretary Young, section 223 of the NDAA for 
Fiscal Year 2008 requires MDA to revise its budget structure to include 
procurement, O&S, and MILCON accounts in addition to its traditional 
research and development appropriations. The provision also requires 
MDA to establish acquisition cost, schedule, and performance baselines 
for MDA programs. The purpose of this provision was to provide Congress 
greater insight into MDA budgets and to provide greater clarity as to 
the true costs of our missile defense programs. It was in no way an 
attempt to slow down the fielding of the current generation of missile 
defense systems, such as GMD, Aegis BMD, and THAAD. What effect does 
this provision have on the pace of development, testing, and fielding 
of missile defense systems, such as GMD, Aegis BMD, and THAAD?
    Mr. Young. Establishment of baselines for MDA programs should have 
no impact on development, testing, or fielding of MDA systems. The 
transition by the MDA from use of research and development funding to 
research and development, procurement, O&S, and MILCON funding, if 
planned and executed in an incremental fashion, should have little to 
no effect on the pace of development, testing, and fielding of the BMDS 
elements, including the Ground-Based Mid-Course Defense, Aegis BMD, and 
THAAD. To the extent fielding requires use of procurement 
appropriations, normally the full funding policy would apply. In the 
absence of any top-line increase, full-funding may require that some 
development, testing, or fielding activities be deferred to future 
years to stay within budget controls. The Department's MDEB has 
reviewed the potential impacts of procurement funding use with the MDA, 
and is committed to working with the MDA to meet fielding requirements 
and comply with section 223.

    75. Senator Sessions. Secretary Young, should the bureaucratic 
effect of this provision be to hinder the pace of missile defense 
fielding, can we be assured that you will inform Congress and take 
steps necessary to rectify the problem?
    Mr. Young. Section 223 of the NDAA for Fiscal Year 2008 (Public Law 
110-181) requires the budget justification materials submitted to 
Congress in support of the DOD budget for any fiscal year after 2009 to 
set forth separately requested amounts for the MDA for: (1) RDT&E; (2) 
procurement; (3) operation and maintenance; and (4) MILCON. I will stay 
informed of any hindrance to missile defense fielding, and steps to 
correct the problems, and in turn, inform Congress.

                        certification of system
    76. Senator Sessions. Secretary Young, section 228 of the NDAA for 
Fiscal Year 2008 requires that before more than 40 GBIs may be 
installed at Fort Greely, the Secretary of Defense must certify that 
the Block 2006 GMD element has demonstrated through end-to-end testing 
that it has a high probability of working in an operationally effective 
manner. Your predecessor, Ken Krieg, sent a letter to Congress, dated 
September 19, 2006, stating that the MDA ``completed a successful end-
to-end flight test of the long-range missile defense capability on 
September 1.'' This test included a successful intercept of the target. 
There was another successful end-to-end flight intercept test of the 
GMD system in fall 2007. In light of these successful tests, when will 
the Secretary of Defense certify that the Block 2006 GMD element has a 
high probability of working in an operationally effective manner?
    Mr. Young. I will review the progress to date, the testing 
completed, the assessment by the DOT&E, and planning for O&S, and 
determine when a recommendation can be provided to the Secretary of 
Defense. The MDA's development program incorporates ground and flight 
testing and modeling and simulation to evaluate system and element 
performance. I will consider the depth and breadth of their 
preparation, resulting performance, and analysis of their results to 
formulate the criteria and timing of a certification decision. I will 
place a significant emphasis on the DOT&E assessments. In addition, I 
will review plans for operating and sustaining the Ground-based Missile 
Defense (GMD) element and the funding allocated for Service 
involvement.

                     european missile defense site
    77. Senator Sessions. General Obering, please update the committee 
on the ongoing work to ensure that the proposed U.S. missile defense 
site in Europe is fully integrated into NATO's missile defense efforts.
    General Obering. The technical integration between the U.S. missile 
defense site in Europe and the NATO missile defense capability will 
occur primarily through the command and control (C2) processes and 
systems of the U.S. and NATO. The U.S. and NATO are continuing to work 
toward integration of our BMD C2 systems. We are working 
collaboratively in the following three areas.

         1. Integrate U.S. BMDS elements' test beds and NATO test bed. 
        We are establishing the modeling and simulation and testing 
        environment for identifying areas for analysis and 
        demonstrating progress on the integration. We are developing 
        the connectivity and establishing the infrastructure between 
        U.S. Missile Defense Integration and Operations Center (MDIOC) 
        BMD test bed and the NATO Active Layered Theater Ballistic 
        Missile Defense Integration Test Bed. The MDIOC will be the 
        single point-of-presence in the U.S. for BMDS elements' 
        participation with the ITB. The MDIOC is located in Colorado 
        Springs, CO, and the ITB is located in The Hague, The 
        Netherlands.
         2. Develop technical documentation. We are writing Interface 
        Control Documents for the non-real-time (i.e., planning) and 
        real-time (i.e., situation awareness) aspects of C2. Once 
        completed, these documents will be used by contractors to build 
        or modify U.S. and NATO C2 systems, as necessary. These 
        documents will also contribute to the U.S. and NATO standards 
        process, such as updates to the U.S. Military-Standard 6016 for 
        exchanging Link-16 information.
         3. Demonstrate integration. We are incrementally demonstrating 
        and exercising the display and information exchange 
        capabilities via increasing complexity of interoperability 
        demonstrations and exercises. We have scheduled four C2 
        demonstrations/exercises in 2008. The first demonstration was 
        successfully completed in January. We demonstrated the ability 
        to develop a critical asset list, analyze coverage, and 
        recommend a specific element of BMDS to protect a specific 
        asset. We also demonstrated the ability to exchange situation 
        awareness information (i.e., tracks) and display a consistent 
        operating picture. We have three more C2 events planned with 
        demonstrations scheduled in May and June, culminating in a 
        NATO-led exercise in September.

    Activities for 2008 have been discussed and scheduled. Integration 
efforts between the U.S. and NATO for subsequent years have not been 
finalized. Continued analysis and more complex demonstrations on 
planning and situation awareness will be the focus of the efforts.

    78. Senator Sessions. General Campbell, please update the committee 
on STRATCOM's efforts to develop the CONOPs for the European Missile 
Defense Site, and the role you expect EUCOM and NORTHCOM to play in 
operating the system.
    General Campbell. Extending missile defense to deployed forces, 
friends, and allies in Europe, known as European Capability (EC), has 
created an intense collaborative planning effort between the MDA, U.S. 
STRATCOM, U.S. NORTHCOM, and U.S. EUCOM. The development of the Global 
BMD CONOPs provides the overarching framework for EC development and 
will guide how the Commanders of NORTHCOM and EUCOM will employ EC in 
the defense of Europe and the Homeland. Because the Global CONOPs 
continues to be developed and coordinated, detailed command and control 
relationships between EUCOM and NORTHCOM have not yet been determined. 
We expect the Global CONOPs to be finalized this summer. Concurrent 
with Global CONOPs development, STRATCOM is also assisting EUCOM with a 
regionally focused European BMD CONOPs.

    79. Senator Sessions. General Obering, of the $712 million 
requested for the European Missile Defense System, $241 million is for 
MILCON. Please explain why these funds are necessary, and the schedule 
implications should these funds not be available in fiscal year 2009.
    General Obering. This funding provides fiscal year 2009 MILCON 
funds in the amount of $133 million for the EIS and $108 million for 
EMR to support deployment of a European Capability to expand the 
layered BMDS. This European Capability will enhance protection of the 
U.S Homeland and provide for the defense of deployed U.S. troops and 
European Allies. The fiscal year 2009 MILCON funding is essential to 
allow startup of site preparation, contractor mobilization, long-lead 
item acquisition, and construction of site and facilities 
infrastructure. These activities must be started in fiscal year 2009 to 
maintain and execute scheduled development of the site to meet a 2013 
capability readiness timeline. Failure to provide these funds in fiscal 
year 2009 would result in a 1-year delay in delivery of this vital 
capability and preclude operational readiness.
    In addition, failure to provide these funds would have diplomatic 
implications that could impact the schedule. Full funding is vital to 
the conclusion and implementation this year of the bilateral missile 
defense agreements necessary to allow the United States to begin to 
deploy capabilities critical to the defense of the homeland and U.S. 
Allies. Funding cuts could discourage both potential host nations from 
expending further political capital in efforts to conclude or implement 
these agreements. Furthermore, as Congress has encouraged us to do, the 
administration has sought and obtained NATO support for U.S. missile 
defense sites in Europe through the unanimous declaration at the 
Bucharest summit. Less than full funding for the missile defense sites 
in Europe could jeopardize this progress by signaling that the United 
States is backing away from its commitment to this program.

                    operations and sustainment costs
    80. Senator Sessions. Secretary Young and General Obering, 
approximately $715 million of the MDA request for fiscal year 2009 is 
for the operations and sustainment of fielded missile defense 
capabilities. Why is the MDA funding operations and sustainment costs?
    Mr. Young. The MDA is funding operations and sustainment costs for 
BMDS elements to ensure continuous operation of the system, and to 
prevent creation of competition from within each lead Service for 
limited funding resources. A potential advantage of funding BMDS O&S 
through a defense-wide account is the ability to manage BMDS funding as 
a portfolio, with the latitude to balance development, procurement, and 
support priorities at the Department level, and to rebalance resources 
in a timely manner as conditions change. The MDEB will take an active 
role in the BMDS Program Objective Memorandum (POM) preparation, 
resource allocation, and program execution reviews.
    General Obering. MDA is funding operations and sustainment costs 
for BMDS elements to ensure continuous operation of the system, and we 
will continue to sustain fielded assets until we transition them to the 
Services. We are working closely with the Services to transition these 
assets. After transition, the lead Service will be responsible for 
operations and sustainment of the capability.

    81. Senator Sessions. Secretary Young and General Obering, is this 
not something the Services should be responsible for?
    Mr. Young. At this time, DOD has not decided to make the Services 
responsible for O&S funding in the near term. For the next few years, 
while we develop O&S cost experience, DOD's approach will be to oversee 
the management of the BMDS portfolio, using the MDEB and involving all 
stakeholders in annual planning and preparation of the BMDS program 
plan. The intent of the BMDS Life Cycle Management Process and the BMDS 
Business Rules, which are currently in coordination with the Deputy 
Secretary of Defense, is to manage resource formulation and allocation 
responsibilities at the Department level. In the year of execution, 
each Service would receive a funding allocation from the defense-wide 
account as a result of the plan endorsed by the MDEB and approved by 
the Deputy Secretary of Defense. During the execution year, periodic 
reviews will be performed to assess performance against baseline plans. 
By doing this, the risk and responsibilities remain at the Department 
level.
    General Obering. The Services will be responsible for operations 
and sustainment of BMDS assets upon capability transition. The BMDS 
Life Cycle Management Process and the BMDS Business Rules are currently 
in coordination for Deputy Secreatary of Defense signature. These 
documents will assist AT&L in managing BMDS sustainment resource 
formulation and allocation responsibilities at the Department level. 
The current vision is that in the year of execution, each Service would 
receive a sustainment funding allocation from defense-wide resources 
per the MDEB endorsed and Deputy Secretary of Defense approved plan.

    82. Senator Sessions. Secretary Young and General Obering, if not 
the Services, then why not create a defense-wide line to fund O&S costs 
for fielded missile defense capabilities?
    Mr. Young. The MDEB has recently reviewed the draft BMDS Life Cycle 
Management Process which involves the MDA, the Office of the Secretary 
of Defense, STRATCOM, combatant commands, Joint Staff, and the Services 
in an annual program plan and budget preparation process to derive a 
Deputy Secretary of Defense approved BMDS POM and budget submittals. 
The BMDS Life Cycle Management Process will allow development of the 
missile defense budget as a portfolio (with input by all participants), 
will use a defense-wide account, and will undergo MDEB review prior to 
final approval. The DOD is implementing this initiative during POM-10 
preparation to learn from the experience and be prepared to fully 
influence POM-12. The portfolio managed defense-wide account will 
include all types of funding appropriations, and will be the source of 
funds transferred to the Services for administration in the year of 
execution. O&S funding will be part of this process.
    General Obering. Business rules have been developed under the MDEB 
that incorporates the defense-wide approach. The business rules are 
currently in coordination within the Department. The advantage of 
funding BMD operations and sustainment through a single DOD-wide 
account is that this approach ensures the funding remains dedicated to 
sustaining missile defense capabilities.

                        transfer of thaad system
    83. Senator Sessions. General Campbell, you note in your prepared 
statement that ``THAAD capabilities will begin to transfer to the Army 
in 2009.'' What does this mean in a practical sense?
    General Campbell. The THAAD Project Office of the MDA has developed 
and manufactured a mission specific set of equipment that delivers a 
capability. The equipment that comprises this capability will be 
transferred to the Army. Currently, this equipment includes: 3 
launchers; 24 missile rounds; 1 THAAD fire control/communications 
(TFCC) component; 1 radar component; and peculiar support equipment.
    In parallel, the U.S. Army has defined, structured, and resourced 
an organization (battery) of 99 soldiers. These soldiers will complete 
new equipment training and collective training in fiscal year 2009, at 
which time the THAAD Project Office will deliver the manufactured 
mission equipment set along with Army provided command support 
equipment to the Army organization.

    84. Senator Sessions. General Campbell, will the Army now assume 
the O&S costs for the four planned THAAD Fire Units?
    General Campbell. The issue of total THAAD transition and transfer 
from the MDA to the Army continues to be negotiated. It should be noted 
that some O&S costs were assumed by the Army when the initial THAAD 
unit began personnel fill. The Army also funds O&S for unit common 
support equipment and installation infrastructure. The Army will assume 
additional O&S resource responsibilities as each unit is filled and 
activated.
    The major issue that remains under discussion and negotiation is at 
what point does the the Army assume responsibility to resource the O&S 
cost for the THAAD mission specific equipment set (interceptors, 
launchers, etc.). At present, the MDA is responsible for providing 
support to the THAAD mission specific equipment and has committed to 
fully funding Contractor Logistics Support (CLS) through fiscal year 
2013. In the following 2 fiscal years, MDA will fund CLS as it relates 
to consequences of design defect issues and the approved THAAD 
Operational Mode Summary/Mission Profile.

    85. Senator Sessions. General Campbell, who will then be 
responsible for purchasing more than the 96 planned THAAD missiles?
    General Campbell. Until the THAAD Project Office is transferred to 
the Army, along with an appropriate increase in Total Obligation 
Authority, the Army position is that responsibility to resource 
additional THAAD missiles rests with the MDA.

    86. Senator Sessions. General Campbell, clearly, 96 interceptor 
missiles will not be sufficient. What are Army plans for acquiring 
additional THAAD missiles and Fire Units?
    General Campbell. Presently the Army has no plans to acquire 
additional THAAD missiles or fire units. However, the MDA does intend 
to address THAAD inventory challenges in the next budget submission.
                                 ______
                                 
                Question Submitted by Senator John Thune
                             airborne laser
    87. Senator Thune. General Obering, one of the important components 
of missile defense is the ability to attack the missile while it is 
still in its boost phase. The ABL is an excellent example of this 
capability. What do you need from Congress to ensure that you will be 
able to conduct a lethal shoot-down of a threat representative boosting 
target in 2009?
    General Obering. Continue your solid support for ABL and the MDA 
funding requirement in the PB09 submission.

    [Whereupon, at 4:26 p.m., the subcommittee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
